<html>
<title> - AFGHANISTAN</title>
<body><pre>[Senate Hearing 111-415]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-415
 
                              AFGHANISTAN

=======================================================================


                                HEARINGS


                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         DECEMBER 2 AND 8, 2009

                               __________

         Printed for the use of the Committee on Armed Services



                  U.S. GOVERNMENT PRINTING OFFICE
56-419                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           RICHARD BURR, North Carolina
MARK UDALL, Colorado                 DAVID VITTER, Louisiana
KAY R. HAGAN, North Carolina         SUSAN M. COLLINS, Maine
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                              Afghanistan

                            december 2, 2009

                                                                   Page

Gates, Hon. Robert M., Secretary of Defense......................     5
Clinton, Hon. Hillary Rodham, Secretary of State.................    11
 Mullen, ADM Michael G., USN, Chairman of the Joint Chiefs of 
  Staff..........................................................    17

              Continue to Receive Testimony on Afghanistan

                            december 8, 2009

McChrystal, GEN Stanley A. USA, Commander, International Security 
  Assistance Force and Commander, U.S. Forces Afghanistan........   103
Eikenberry, Hon. Karl W., Eikenberry, U.S. Ambassador to 
  Afghanistan....................................................   109

                                 (iii)


                              AFGHANISTAN

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:02 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, Ben Nelson, Bayh, Webb, McCaskill, Udall, 
Hagan, Begich, Burris, Kirk, McCain, Inhofe, Sessions, 
Chambliss, Graham, Thune, Wicker, LeMieux, Burr, Vitter, and 
Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; Christine E. Cowart, chief clerk; and Leah C. Brewer, 
nominations and hearings clerk.
    Majority staff members present: Jessica L. Kingston, 
research assistant; Gerald J. Leeling, counsel; William G.P. 
Monahan, counsel; Michael J. Noblet, professional staff member; 
Roy F. Phillips, professional staff member; and William K. 
Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; 
Christian D. Brose, professional staff member; Michael V. 
Kostiw, professional staff member; Lucian L. Niemeyer, 
professional staff member; Richard F. Walsh, minority counsel; 
and Dana W. White, professional staff member.
    Staff assistants present: Kevin A. Cronin, Paul J. Hubbard, 
Jennifer R. Knowles, Hannah I. Lloyd, and Brian F. Sebold.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Vance Serchuk, assistant to Senator 
Lieberman; Carolyn A. Chuhta, assistant to Senator Reed; Nick 
Ikeda, assistant to Senator Akaka; Christopher Caple, assistant 
to Senator Bill Nelson; Ann Premer, assistant to Senator Ben 
Nelson; Patrick Hayes, assistant to Senator Bayh; Gordon I. 
Peterson, assistant to Senator Webb; Stephen C. Hedger, 
assistant to Senator McCaskill; Jennifer Barrett, assistant to 
Senator Udall; Roger Pena, assistant to Senator Hagan; Lindsay 
Kavanaugh, assistant to Senator Begich; Roosevelt Barfield, 
assistant to Senator Burris; Bethany Bassett, assistant to 
Senator Kirk; Brandon Andrews, Anthony J. Lazarski, and Rob 
Soofer, assistants to Senator Inhofe; Robert La Branche and 
Sandra Luff, assistants to Senator Sessions; Clyde A. Taylor 
IV, assistant to Senator Chambliss; Adam Brake, assistant to 
Senator Graham; Jason Van Beek, assistant to Senator Thune; 
Erskine W. Wells III, assistant to Senator Wicker; Brian Walsh, 
assistant to Senator LeMieux; Charles Brittingham, assistant to 
Senator Vitter; and Rob Epplin and Chip Kennett, assistants to 
Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Secretary Clinton, 
Secretary Gates, Admiral Mullen, welcome. Thank you all for 
your many contributions to our Nation.
    Today, the committee receives testimony from the 
President's senior advisors on his strategy in Afghanistan and 
Pakistan, which the President set out last evening. The United 
States has important security interests in the Afghanistan-
Pakistan region. Instability in Afghanistan or the return of 
the Taliban to power would not only provide fertile ground for 
al Qaeda and other extremists to regroup and renew plots 
against the United States and its allies, but it would also 
threaten the stability of neighboring Pakistan, a nuclear-armed 
country.
    For the sake of our military men and women who are, or will 
be, deployed in harm's way, as well as the well-being of our 
Nation, we have to get the strategy right. Our purpose and our 
mission, what we are trying to accomplish, must be clear.
    I agree with the President's emphasis on the training and 
rapid growth of the Afghanistan National Security Forces (ANSF) 
and transitioning responsibility to the Afghan Government for 
Afghanistan's security. Indeed, I have long believed that the 
most urgent need in Afghanistan is to provide the training, 
from basic training to mentoring to side-by-side partnering on 
the battlefield, along with the equipment and the other support 
elements to rapidly build the capabilities of the Afghan 
National Army (ANA) and Afghan National Police (ANP). An Afghan 
surge should be our goal, and any U.S. surge should be related 
to that goal.
    The President has also called for increased contributions 
from our North Atlantic Treaty Organization (NATO) allies. We 
need not only to ``Afghanize,'' but also to ``NATOize'' the 
Afghanistan mission.
    I also agree with the President's emphasis on the 
importance of efforts to reintegrate local Taliban fighters 
into Afghan society. An adequately funded plan for 
reintegration is long overdue.
    The President's strategy also makes clear that our 
commitment to the future of Afghanistan requires action from 
the Government of Afghanistan. That means recruiting of 
soldiers and police needed to quickly expand Afghan forces; it 
means serious anticorruption efforts; it means national 
reintegration and reconciliation policies, and retention and 
support for honest, competent ministry officials.
    President Karzai has pledged to do these things, and 
President Obama rightly insists on holding him to that pledge. 
Setting the July 2011 date to begin the reduction of our forces 
is a reasonable way, under the circumstances, to produce the 
sense of urgency in the Afghan Government that has been lacking 
up to now and is essential to success.
    I believe the principal mission of U.S. troop increases in 
Afghanistan should be to accelerate the transition to Afghan 
forces to take the lead for providing Afghan security. This is 
an important part of the approach outlined by the President. 
Where I have questions is whether the rapid deployment of a 
large number of U.S. combat forces, without an adequate number 
of ANSF for our troops to partner with, serves that mission.
    A critical component of transitioning to Afghan 
responsibility will be the on-the-job partnering of ANSF with 
U.S. and coalition forces. That partnering is vital to success 
in Afghanistan, for the Afghans and for us. But, the current 
shortfall, in terms of partnering, is not a shortage of 
American combat troops, it's a shortage of Afghan troops.
    In the key province of Helmand, the ratio of U.S. troops to 
Afghan troops is about five U.S. troops to one Afghan soldier. 
We are now partnered with about 2,000 Afghans in Helmand. The 
desired ratio, according to Pentagon doctrine, is close to the 
opposite: three Afghans for one U.S. soldier or marine. So, we 
have enough troops in Helmand right now--about 10,000--to 
partner with more than 20,000 additional Afghan troops, more 
than are expected to be available to partner with us there next 
year, according to Prime Minister Gordon Brown of Great 
Britain. If so, doubling the number of U.S. troops in the south 
will only worsen a ratio under which our forces are already 
matched up with fewer Afghan troops than they can and should 
partner with.
    General James Conway, the Commandant of the Marine Corps, 
said in September, ``If I could change only one thing in the 
south of Afghanistan, it would be to have more Afghan troops.'' 
A few days ago, General Conway reiterated the point this way: 
``To have American marines standing on a corner in a key 
village isn't nearly as effective as having an Afghan policeman 
or an Afghan soldier.''
    It seems to me that the large influx of U.S. combat troops 
will put more U.S. marines on street corners in Afghan 
villages, with too few Afghan partners alongside them. 
Partnering with, equipping, and in other ways empowering Afghan 
forces to provide security for their country will demonstrate 
our resolve and commitment to a stable future for Afghanistan 
and the region. That should be the stated mission, and troop 
increases should be judged by whether they advance that 
mission.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    Let me thank Secretary Clinton, Secretary Gates, and 
Admiral Mullen for joining us today to discuss the vital issue 
of Afghanistan.
    Let me first reiterate, as I said yesterday, that I think 
President Obama has made the right decision to embrace a 
counterinsurgency strategy for Afghanistan and to resource it 
properly. I would have much preferred that General McChrystal 
receive the entire force he had requested, but I've spoken with 
our military and civilian leaders, and I think the 30,000 
additional U.S. troops that the President has called for, plus 
greater force commitments from our allies, will enable us to 
reverse the momentum of the insurgency and create the 
conditions for success in Afghanistan.
    I support the President's decision, and I think it deserves 
the support of all Americans, both Republicans and Democrats.
    What I don't support and what concerns me greatly is the 
President's decision to set an arbitrary date to begin 
withdrawing U.S. forces from Afghanistan. A date for withdrawal 
sends exactly the wrong message to both our friends and our 
enemies in Afghanistan, Pakistan, and the entire region, all of 
whom currently doubt whether America is committed to winning 
this war. A withdrawal date only emboldens al Qaeda and the 
Taliban, while dispiriting our Afghan partners and making it 
less likely that they will risk their lives to take our side in 
this fight.
    Yes, our commitment to Afghanistan is not open-ended. Yes, 
large numbers of U.S. combat troops will not remain there 
indefinitely; and yes, this war will one day end. But, it 
should end when we have achieved our goals. Success is the real 
exit strategy. When conditions on the ground have decisively 
begun to change for the better, that is when our troops should 
start to return home with honor. Not 1 minute longer, not 1 
minute sooner, and certainly not on some arbitrary date in July 
2011, which our enemies can exploit to weaken and intimidate 
our friends.
    I am eager to hear from our distinguished witnesses how we 
can say, as the President did last night, that our withdrawal 
will begin in July 2011, no matter what, but that this 
arbitrary date will also take into account conditions on the 
ground. That seems logically incoherent to me, and I welcome 
some clarity on this matter.
    Another concern that I have has to do with the civilian 
side of our counterinsurgency strategy. Greater military force 
is necessary to succeed in Afghanistan, but it's not 
sufficient. I am confident in our military strategy and 
leadership, and I believe our troops can do everything that 
General McChrystal laid out in his assessment of this summer. I 
believe we can ``clear and hold,'' but I am concerned that we 
and our allies do not have a unified plan to ``build,'' to work 
with and support our Afghan partners in Kabul and beyond as 
they build their own nation, their own economy, and their own 
free institutions.
    I'm also concerned by reports of divisions in our Embassy 
and by major differences between our Commander and our 
Ambassador. We can only succeed in Afghanistan if we have a 
joint civil-military campaign plan unified at every level from 
top to bottom, much as Ambassador Crocker and General Petraeus 
established in Iraq during the surge. I look forward to hearing 
what progress we're making on creating such a joint civil-
military effort.
    I've been critical of the President during the past several 
months, but that is now behind us. Our focus going forward must 
be on winning the war in Afghanistan. I emphasize ``winning.'' 
This depends as much on the substance of our policy as the 
signals we send to actors in Afghanistan, Pakistan, and the 
region.
    The President was wrong to signal our intention to begin 
leaving Afghanistan on an arbitrary date, but the fact is we 
now have the right mission, we now have the right leadership, 
and we now have a request for sufficient resources to succeed, 
so our friends can know that we will support them, our enemies 
can know that we will defeat them, and all can know that we are 
committed to the long-term success of Afghanistan and Pakistan 
as stable states that can govern themselves, secure themselves, 
and sustain their own development. Though the nature of our 
commitment to Afghanistan, Pakistan, and their region will 
change over time, our commitment to their success will endure.
    We now have an opportunity to build a bipartisan consensus 
in support of a vital national security priority, defeating al 
Qaeda and its violent extremist allies in Afghanistan and 
Pakistan, and ensuring that these countries never again serve 
as bases for attacks against America and our allies.
    Americans need to know why winning this war is essential to 
our country's security. They need to know that things in 
Afghanistan will get worse before they get better, that, 
unfortunately, casualties will likely rise in the year to come, 
but that, ultimately, we will succeed.
    I look to the President and to our witnesses here today to 
lead an unfailing effort to build bipartisan support for the 
war in Afghanistan, both among the public and here in Congress. 
I will be an ally in this effort, and I pledge to do everything 
in my power to ensure that we win this war--not just end it, 
but win it.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    I understand that the order that our witnesses desire to be 
recognized is Secretary Gates first, then Secretary Clinton, 
and then Admiral Mullen.
    Secretary Gates, welcome.

    STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

    Secretary Gates. Thank you, Mr. Chairman. Actually, I think 
the Secretary of State's microphone is the only one working, so 
perhaps we should allow her to be the only witness today. 
[Laughter.]
    Mr. Chairman, members of the committee, thank you for 
inviting us to testify today.
    Last night, President Obama announced a renewed commitment 
and more focused strategy for Afghanistan and Pakistan. I would 
like to provide an overview of the strategic thinking and 
context behind his decisions--in particular, the nexus among al 
Qaeda, the Taliban, Pakistan, and Afghanistan--our objectives, 
how the President's strategy aims to accomplish them, and the 
military forces required.
    As the President first stated in March and reemphasized 
last night, the goal of the United States in Afghanistan and 
Pakistan is to disrupt, dismantle, and defeat al Qaeda and to 
prevent its return to both countries. The international 
military effort to stabilize Afghanistan is necessary to 
achieve this overarching goal. Defeating al Qaeda and enhancing 
Afghan security are mutually reinforcing missions. They cannot 
be untethered from one another, as much as we might wish that 
to be the case.
    While al Qaeda is under great pressure now, and dependent 
on the Taliban and other extremist groups for sustainment, the 
success of the Taliban would vastly strengthen al Qaeda's 
message to the Muslim world that violent extremists are on the 
winning side of history. Put simply, the Taliban and al Qaeda 
have become symbiotic, each benefiting from the success and 
mythology of the other. Al Qaeda leaders have stated this 
explicitly and repeatedly. Taliban success in retaking and 
holding parts of Afghanistan against the combined forces of 
multiple modern armies, the current direction of events, has 
dramatically strengthened the extremist mythology and popular 
perceptions of who is winning and who is losing.
    The lesson of the Taliban's revival for al Qaeda is that 
time and will are on their side; that, with a Western defeat, 
they could regain their strength and achieve a major strategic 
victory as long as their senior leadership lives and can 
continue to inspire and attract followers and funding. Rolling 
back the Taliban is now necessary, even if not sufficient, to 
the ultimate defeat of al Qaeda.
    At the same time, one cannot separate the security 
situation in Afghanistan from the stability of Pakistan, a 
nuclear-armed nation of 175 million people now also explicitly 
targeted by Islamic extremists. The two countries, bound by 
ties of tribe and faith, share a porous border of more than 
1,500 miles. Giving extremists breathing room in Pakistan led 
to the resurgence of the Taliban and more coordinated, 
sophisticated attacks in Afghanistan. Providing a sanctuary for 
extremists in southern and eastern Afghanistan would put yet 
more pressure on a Pakistani Government already under attack 
from groups operating in the border region.
    Indeed, the Pakistan Taliban, in just the last year or so, 
has become a real threat to Pakistan's own domestic peace and 
stability, carrying out, with al Qaeda's help, escalating 
bombing attacks throughout the country. It is these attacks and 
the Taliban's movement toward Islamabad 7 months ago that 
largely motivated the current operations by the Pakistani army. 
We know the Pakistan Taliban operate in collusion with both the 
Taliban in Afghanistan and al Qaeda.
    I would like to make a related point with respect to 
Pakistan: Because of American withdrawal from the region in the 
early 1990s, followed by a severing of military-to-military 
relations, many Pakistanis are skeptical that the United States 
is a reliable, long-term strategic partner. We must change that 
perception.
    Failure in Afghanistan would mean a Taliban takeover of 
much, if not most, of the country, and likely a renewed civil 
war. Taliban-ruled areas could, in short order become, once 
again, sanctuary for al Qaeda, as well as a staging area for 
resurgent militant groups on the offensive in Pakistan. Success 
in south and central Asia by Islamic extremists, as was the 
case 20 years ago, would beget success on other fronts. It 
would strengthen the al Qaeda narrative, providing renewed 
opportunities for recruitment, fundraising, and more 
sophisticated operations. Aided by the Internet, many more 
followers could join their ranks, both in the region and in 
susceptible populations across the globe.
    It is true that al Qaeda and its followers can plot and 
execute attacks from a variety of locations, from Munich to 
London to Denver. But, what makes the border area between 
Afghanistan and Pakistan uniquely different from any other 
location, including Somalia, Yemen, and other possible 
hideouts, is that this part of the world represents the 
epicenter of extremist jihadism, the historic place where 
native and foreign Muslims defeated one superpower and, in 
their view, caused its collapse at home. For them to be seen to 
defeat the sole remaining superpower in the same place would 
have severe consequences for the United States and the world.
    Some say this is similar to the domino theory that 
underpinned and, ultimately, muddied the thinking behind the 
U.S. military escalation in Vietnam. The difference, however, 
is that we have very real and very recent history that shows 
just what can happen in this part of the world when extremists 
have breathing space, safe havens, and governments complicit 
with, and in support of, their mission. Less than 5 years after 
the last Soviet tank crossed the Termez Bridge out of 
Afghanistan, in 1993, Islamic militants launched their first 
attack on the World Trade Center in New York. We cannot afford 
to make a similar mistake again.
    A stable security situation in Afghanistan and Pakistan, 
one that is sustainable over the long term by their 
governments, is vital to our national security. By the same 
token, the current status quo in Afghanistan, the slow but 
steady deterioration of the security situation and growing 
influence of the Taliban, is unacceptable. So, too, is the 
status quo ante, a largely ungoverned region controlled by 
extremists, in which the United States had little influence or 
ability to gain actionable intelligence on the ground.
    The President's new strategic concept aims to reverse the 
Taliban's momentum and reduce its strength while providing the 
time and space necessary for the Afghans to develop enough 
security and governance capacity to stabilize their own 
country. We will focus our resources where the population is 
most threatened, and align military and civilian efforts 
accordingly, with six primary objectives: reversing Taliban 
momentum through sustained military action by the United 
States, our allies, and the Afghans; denying the Taliban access 
to, and control of, key population and production centers and 
lines of communication; disrupting the Taliban outside secured 
areas and preventing al Qaeda from regaining sanctuary in 
Afghanistan; degrading the Taliban to levels manageable by 
ANSF; increasing the size and capability of the ANSF, and 
employing other local forces selectively, to begin 
transitioning security responsibility to the Afghan Government 
within 18 months; and finally, selectively building the 
capacity of Afghan Government, particularly in key ministries.
    This approach is not open-ended nation-building. It is 
neither necessary nor feasible to create a modern, centralized, 
Western-style Afghan nation-state, the likes of which has never 
been seen in that country; nor does it entail pacifying every 
village and conducting textbook counterinsurgency from one end 
of Afghanistan to the other. It is, instead, a narrower focus 
tied more tightly to our core goal of disrupting, dismantling, 
and eventually defeating al Qaeda by building the capacity of 
the Afghans, capacity that will be measured by observable 
progress on clear objectives, and not simply by the passage of 
time.
    The essence of our civil-military plan is to ``clear, hold, 
build, and transfer.'' Beginning to transfer security 
responsibility to the Afghans in summer 2011 is critical, and, 
in my view, achievable. This transfer will occur, district by 
district, province by province, depending on conditions on the 
ground. The process will be similar to what we did in Iraq, 
where international security forces provided overwatch, first 
at the tactical level and then at the strategic level.
    Even after we transfer security responsibility to the 
Afghans and draw down our combat forces, the United States will 
continue to support their development as an important partner 
for the long haul. We will not repeat the mistakes of 1989, 
when we abandoned the country only to see it descend into chaos 
and into Taliban hands.
    Making this transition possible requires accelerating the 
development of a significantly larger and more capable ANA and 
ANP through intensive partnering with International Security 
Assistance Forces (ISAF), especially in combat. It also means 
achieving a better balance between national and local forces, 
increasing Afghan unconventional warfare capabilities, engaging 
communities to enlist more local security forces to protect 
their own territory, and bolstering Afghan-led reintegration 
and reconciliation efforts.
    At the strategic level, the President's plan will achieve a 
better balance between investments in the central government 
and subnational entities. At the national level, the focus will 
be primarily on reforming essential ministries and pressing for 
the appointment of competent and honest ministers and 
governors. At the local and regional level, there will be a 
shift to work through existing traditional structures rather 
than building new ones.
    In all of these efforts, we must have a committed partner 
in the Afghan people and government. That is one reason why 
there will be very clear and definitive timeframes for 
reviewing our, and their, progress.
    As the President announced, the United States will commit 
an additional 30,000 troops to Afghanistan for an extended 
surge of 18 to 24 months. These forces, the U.S. contribution 
to the fight, will be deployed and concentrated in the southern 
and eastern parts of the country. The first of these forces 
will begin to arrive in Afghanistan within 2 to 3 weeks.
    In all, since taking office, President Obama has committed 
nearly 52,000 additional troops to Afghanistan, for a total 
U.S. force of approximately 100,000. We are looking to NATO and 
to our other partners to send a parallel international message 
of strong resolve. Our allies must take the lead and focus 
their resources in the north and west to prevent the insurgency 
from establishing new footholds. We will seek some 5,000 to 
7,000 troops from NATO, and expect the allies to share more of 
the burden in training, equipping, and funding the ANA and ANP.
    Let me offer a few closing thoughts. It is worth 
remembering that the security situation in Afghanistan, though 
serious, does not begin to approach the scale of violence that 
consumed Iraq and confronted our forces there when I was 
confirmed as Secretary of Defense 3 years ago this week. With 
all the resources already committed to this campaign, plus 
those the President has just announced, I believe the pieces 
are being put in place to make real and measurable progress in 
Afghanistan over the next 18 to 24 months.
    The President believes, as do I, that, in the end, we 
cannot defeat al Qaeda and its toxic ideology without improving 
and stabilizing the security situation in Afghanistan. The 
President's decision offers the best possibility to decisively 
change the momentum in Afghanistan and fundamentally alter the 
strategic equation in Pakistan and central Asia, all necessary 
to protect the United States, our allies, and our vital 
interests.
    So, I ask for your full support of this decision to provide 
both Ambassador Eikenberry and General McChrystal the resources 
they need to be successful. This will take more patience, 
perseverance, and sacrifice by the United States and by our 
allies. As always, the heaviest burden will fall on the men and 
women who have volunteered and, in many cases, revolunteered, 
to serve their country in uniform. I know they will be 
uppermost in our minds and prayers as we take on this arduous 
but vitally necessary mission.
    [The prepared statement of Secretary Gates follows:]

               Prepared Statement by Hon. Robert M. Gates

    Mr. Chairman, members of the committee:
    Thank you for inviting us to testify today. Last night, President 
Obama announced a renewed commitment and more focused strategy for 
Afghanistan and Pakistan. I would like to provide an overview of the 
strategic thinking and context behind his decisions, in particular:

    <bullet>  The nexus among al Qaeda, the Taliban, Pakistan, and 
Afghanistan;
    <bullet>  Our objectives and how the President's strategy aims to 
accomplish them; and
    <bullet>  The military forces required.

                             WHERE WE STAND

    As the President first stated in March, and re-emphasized last 
night, the goal of the United States in Afghanistan and Pakistan is to 
disrupt, dismantle, and defeat al Qaeda and to prevent its return to 
both countries. The international military effort to stabilize 
Afghanistan is necessary to achieve this overarching goal. Defeating al 
Qaeda and enhancing Afghan security are mutually reinforcing missions. 
They cannot be untethered from one another, as much as we might wish 
that to be the case.
    While al Qaeda is under great pressure now and dependent on the 
Taliban and other extremist groups for sustainment, the success of the 
Taliban would vastly strengthen al Qaeda's message to the Muslim world: 
that violent extremists are on the winning side of history. Put simply, 
the Taliban and al Qaeda have become symbiotic, each benefiting from 
the success and mythology of the other. Al Qaeda leaders have stated 
this explicitly and repeatedly.
    Taliban success in retaking and holding parts of Afghanistan 
against the combined forces of multiple, modern armies--the current 
direction of events--has dramatically strengthened the extremist 
mythology and popular perceptions of who is winning and who is losing. 
The lesson of the Taliban's revival for al Qaeda is that time and will 
are on their side. That, with a Western defeat, they could regain their 
strength and achieve a major strategic victory--as long as their senior 
leadership lives and can continue to inspire and attract followers and 
funding. Rolling back the Taliban is now necessary, even if not 
sufficient, to the ultimate defeat of al Qaeda.
    At the same time, one cannot separate the security situation in 
Afghanistan from the stability of Pakistan--a nuclear-armed nation of 
175 million people now also explicitly targeted by Islamic extremists. 
The two countries, bound by ties of tribe and faith, share a porous 
border of more than 1,500 miles. Giving extremists breathing room in 
Pakistan led to the resurgence of the Taliban and more coordinated, 
sophisticated attacks in Afghanistan. Providing a sanctuary for 
extremists in southern and eastern Afghanistan would put yet more 
pressure on a Pakistani Government already under attack from groups 
operating in the border region. Indeed, the Pakistan Taliban, just in 
the last year or so, has become a real threat to Pakistan's own 
domestic peace and stability, carrying out--with al Qaeda's help--
escalating bombing attacks throughout the country. It is these attacks, 
and the Taliban's movement toward Islamabad 7 months ago, that largely 
motivated the current operations by the Pakistani army. We know the 
Pakistan Taliban operate in collusion with both the Taliban in 
Afghanistan and al Qaeda.
    A related point with regard to Pakistan: Because of American 
withdrawal from the region in the early 1990s, followed by a severing 
of military-to-military relations, many Pakistanis are skeptical that 
the United States is a reliable, long-term strategic partner.

                        CONSEQUENCES OF FAILURE

    Failure in Afghanistan would mean a Taliban takeover of much, if 
not most, of the country and likely a renewed civil war. Taliban-ruled 
areas could in short order become, once again, a sanctuary for al Qaeda 
as well as a staging area for resurgent militant groups on the 
offensive in Pakistan.
    Success in South and Central Asia by Islamic extremists--as was the 
case 20 years ago--would beget success on other fronts. It would 
strengthen the al Qaeda narrative, providing renewed opportunities for 
recruitment, fund-raising, and more sophisticated operations. Aided by 
the Internet, many more followers could join their ranks, both in the 
region and in susceptible populations across the globe.
    It is true that al Qaeda and its followers can plot and execute 
attacks from a variety of locations--from Munich to London to Denver. 
But what makes the border area between Afghanistan and Pakistan 
uniquely different from any other location--including Somalia, Yemen, 
and other possible redoubts--is that this part of the world represents 
the epicenter of extremist jihadism: the historic place where native 
and foreign Muslims defeated one superpower and, in their view, caused 
its collapse at home. For them to be seen to defeat the sole remaining 
superpower in the same place would have severe consequences for the 
United States and the world.
    Some may say this is similar to the ``domino theory'' that 
underpinned and ultimately muddied the thinking behind the U.S. 
military escalation in Vietnam. The difference, however, is that we 
have very real--and very recent--history that shows just what can 
happen in this part of the world when extremists have breathing space, 
safe havens, and governments complicit with and supportive of their 
mission. Less than 5 years after the last Soviet tank crossed the 
Termez Bridge out of Afghanistan, Islamic militants launched their 
first attack on the World Trade Center in New York. We cannot afford to 
make a similar mistake again.

                             THE WAY AHEAD

    A stable security situation in Afghanistan and Pakistan--one that 
is sustainable over the long term by their governments--is vital to our 
national security. By the same token, the current status quo in 
Afghanistan--the slow but steady deterioration of the security 
situation and growing influence of the Taliban--is unacceptable. So too 
is the status quo ante--a largely ungoverned region controlled by 
extremists in which the United States had little influence or ability 
to gain actionable intelligence on the ground.
    The President's new strategic concept aims to reverse the Taliban's 
momentum and reduce its strength while providing the time and space 
necessary for the Afghans to develop enough security and governance 
capacity to stabilize their own country.
    We will focus our resources where the population is most 
threatened, and align military and civilian efforts accordingly--with 
six primary objectives:

    <bullet>  Reversing Taliban momentum through sustained military 
action by the U.S., our allies, and the Afghans;
    <bullet>  Denying the Taliban access to and control of key 
population and production centers and lines of communications;
    <bullet>  Disrupting the Taliban outside secured areas and 
preventing al Qaeda from regaining sanctuary in Afghanistan;
    <bullet>  Degrading the Taliban to levels manageable by the Afghan 
National Security Forces;
    <bullet>  Increasing the size and capability of the ANSF and 
employing other local forces selectively to begin transitioning 
security responsibility to the Afghan Government within 18 months; and
    <bullet>  Selectively building the capacity of the Afghan 
Government, particularly in key ministries.

    This approach is not open-ended ``nation building.'' It is neither 
necessary nor feasible to create a modern, centralized, Western-style 
Afghan nation-state--the likes of which has never been seen in that 
country. Nor does it entail pacifying every village and conducting 
textbook counterinsurgency from one end of Afghanistan to the other.
    It is, instead, a narrower focus tied more tightly to our core goal 
of disrupting, dismantling and eventually defeating al Qaeda by 
building the capacity of the Afghans--capacity that will be measured by 
observable progress on clear objectives, and not simply by the passage 
of time.
    The essence of our civil-military plan is to clear, hold, build, 
and transfer. Beginning to transfer security responsibility to the 
Afghans in summer 2011 is critical--and, in my, view achievable. This 
transfer will occur district by district, province by province, 
depending on local circumstances. The process will be similar to what 
we did in Iraq, where international security forces provided 
``overwatch''--first at the tactical level, then at the strategic 
level. Even after we transfer security responsibility to the Afghans 
and draw down our combat forces, the United States will continue to 
support their development as an important partner for the long haul. We 
will not repeat the mistakes of 1989, when we abandoned the country 
only to see it descend into civil war, and then into Taliban hands.
    Making this transition possible requires accelerating the 
development of a significantly larger and more capable Afghan army and 
police through intensive partnering with ISAF, especially in combat. It 
also means achieving a better balance between national and local 
forces; increasing Afghan unconventional warfare capabilities; engaging 
communities to enlist more local security forces to protect their own 
territory; and bolstering Afghan-led reintegration and reconciliation 
efforts.
    At the strategic level, the President's plan will achieve a better 
balance between investments in the central government and subnational 
entities. At the national level, the focus will be primarily on 
reforming essential ministries and pressing for the appointment of 
competent and honest ministers and governors. At the local and regional 
level, there will be a shift to work through existing, traditional 
structures rather than building new ones. In all of these efforts, we 
must have a committed partner in the Afghan people and government. That 
is one reason why there will be very clear and definitive timeframes 
for reviewing our--and their--progress.

                         ADDITIONAL U.S. FORCES

    As the President announced, the United States will commit an 
additional 30,000 troops to Afghanistan for an extended surge of 18 to 
24 months. These forces--the U.S. contribution to this fight--will be 
deployed and concentrated in the southern and eastern parts of the 
country. The first of these units will arrive in Afghanistan early in 
2010.
    In all, since taking office President Obama has committed nearly 
52,000 additional troops to Afghanistan for a total U.S. force of 
approximately 100,000. We are looking to NATO and our other partners to 
send a parallel international message of strong resolve. Our allies 
must take the lead and focus their resources in the north and west to 
prevent the insurgency from establishing new footholds. We will seek 
some 5 to 7,000 troops from NATO and expect the Allies to share more of 
the burden in training, equipping, and funding the Afghan National Army 
and police.

                               CONCLUSION

    Let me offer a few closing thoughts.
    It is worth remembering that the security situation in 
Afghanistan--though serious--does not begin to approach the scale of 
violence that consumed Iraq and confronted our forces there when I was 
confirmed as secretary of defense 3 years ago this week. With all the 
resources already committed to this campaign--plus those the President 
has just announced--I believe the pieces are being put in place to make 
real and measurable progress in Afghanistan over the next 18 to 24 
months.
    The President believes, as do I, that, in the end, we cannot defeat 
al Qaeda and its toxic ideology without improving and stabilizing the 
security situation in Afghanistan. The President's decision offers the 
best possibility to decisively change the momentum in Afghanistan, and 
fundamentally alter the strategic equation in Pakistan and Central 
Asia--all necessary to protect the United States, our allies, and our 
vital interests. So, I ask for your full support of this decision to 
provide both Ambassador Eikenberry and General McChrystal the resources 
they need to be successful.
    This is will take more patience, perseverance, and sacrifice by the 
United States and our allies. As always, the heaviest burden will fall 
on the men and women who have volunteered--and in many cases 
revolunteered--to serve their country in uniform. I know they will be 
uppermost in our minds and prayers as we take on this arduous but 
vitally necessary mission.
    Thank you.

    Chairman Levin. Thank you, Secretary Gates.
    Secretary Clinton.

  STATEMENT OF HON. HILLARY RODHAM CLINTON, SECRETARY OF STATE

    Secretary Clinton. Thank you. Chairman Levin, Senator 
McCain, members of the committee, I am grateful for this 
opportunity to testify before so many former colleagues and 
friends. My experience on this committee helped form my views 
on many of the issues facing our Nation, and it's a privilege 
to be here before you now in this different role.
    Yesterday, President Obama presented the administration's 
strategy for Afghanistan and Pakistan. Today, Secretary Gates, 
Admiral Mullen, and I will all be providing you with additional 
details. But, let me speak briefly at a more personal level 
about why we are making this commitment.
    Simply put, among a range of difficult choices, this is the 
best way to protect our Nation now and in the future. The 
extremists we are fighting in Afghanistan and Pakistan have 
attacked us and our allies before. If we allow them access to 
the very same safe havens they used before 2001, they will have 
a greater capacity to regroup and attack again. They could drag 
an entire region into chaos.
    Our civilian and military leaders in Afghanistan have 
reported that the situation is serious and worsening, and we 
agree. In the aftermath of September 11, I grieved with sons, 
daughters, husbands, and wives whose loved ones were murdered. 
It was an attack on our country and an attack on the 
constituents I then represented. I witnessed the tragic 
consequences in the lives of thousands of innocent families and 
the damage done to our economy and our sense of security. So, I 
feel a personal responsibility to help protect our Nation from 
such violence.
    The case for action against al Qaeda and its allies has 
always been clear, but the United States' course of action over 
the last 8 years has not. The fog of another war obscured our 
focus. While our attention was focused elsewhere, the Taliban 
gained momentum in Afghanistan and the extremist threat grew in 
Pakistan, a country with 175 million people, a nuclear arsenal, 
and more than its share of challenges.
    It was against this backdrop that President Obama called 
for a careful, thorough review of the strategy. I was proud to 
be part of that process, which questioned every assumption and 
took nothing for granted. Our objectives are clear: We will 
work with the Afghan and Pakistani Governments to eliminate 
safe havens for those plotting to attack against us, our 
allies, and our interests. We will help to stabilize a region 
that we believe is fundamental to our national security, and we 
will develop a long-term, sustainable relationship with both 
Afghanistan and Pakistan so that we do not repeat the mistakes 
of the past.
    The duration of our military presence is not open-ended, 
but our civilian commitment must continue, even as our troops 
begin, eventually, to come home. Accomplishing this mission and 
ensuring the safety of the American people will not be easy. It 
will mean sending not only more troops, but more civilians and 
more assistance to Afghanistan, and significantly expanding our 
civilian efforts in Pakistan.
    The men and women carrying out this military-civilian 
mission are not members of a list or items on a PowerPoint 
slide; they are our friends and neighbors, our sons and 
daughters, our brothers and sisters. We will be asking them and 
the American people to make extraordinary sacrifices on behalf 
of our security.
    I want to assure this committee, that I know takes its 
oversight responsibility so seriously, that we will do 
everything we can to make sure their sacrifices are honored and 
make our Nation safer.
    The situation in Afghanistan and Pakistan is serious, but 
it is not, in my view, as negative as frequently portrayed in 
public, and the beginning of President Karzai's second term has 
opened a new window of opportunity. We have real concerns about 
the influence of corrupt officials in the Afghan Government, 
and we will continue to pursue them. But, in his inauguration 
speech last week that I was privileged to attend, I witnessed 
President Karzai's call for a new compact with his country. He 
pledged to combat corruption, improve governance, and deliver 
for the people of his country. His words were long in coming, 
but they were welcome. They must now be matched with action.
    The Afghan people, the United States, and the international 
community must hold the Afghan Government accountable for 
making good on these commitments. We will help by working to 
strengthen institutions at every level of Afghan society so we 
don't leave chaos behind when our combat troops begin to 
depart.
    The President has outlined a timeframe for transition to 
Afghan responsibility, something that President Karzai assumed 
would happen, and which we took as a very good sign of a 
renewed understanding of the necessity of Afghanization.
    That transition will begin in the summer of 2011, when we 
expect ANSF and the Afghan Government will have the capacity to 
start assuming ownership for defending their own country. As 
the President has said, we will execute the transition 
responsibly, taking into account conditions on the ground.
    But, we think a timeframe for such a transition will 
provide a sense of urgency in working with the Afghan 
Government. It should be clear to everyone that, unlike the 
past, the United States, our allies, and partners have an 
enduring commitment to Afghanistan, Pakistan, and the region, 
so our resolve in this fight is reflected in the substantial 
commitment of troops and in the significant civilian commitment 
that will continue long after combat forces leave.
    That civilian effort is already bearing fruit. Civilian 
experts and advisors are helping to craft policy inside 
government ministries, providing development assistance in the 
field, and working in scores of other roles. When our marines 
went into Nawa this July, we had civilians on the ground with 
them to coordinate assistance the next day. As operations 
progress, our civilian-military coordination is growing even 
stronger.
    We are on track to triple the number of civilian positions 
in Afghanistan, to 974, by early next year. On average, each of 
these civilians leverages 10 partners, ranging from locally 
employed staff to experts with U.S.-funded nongovernmental 
organizations (NGOs). It's a cliche to say we have our best 
people in these jobs, but it happens to be true.
    When I was in Kabul a few weeks ago, I met with an American 
colonel, who told me that, while he had thousands of 
outstanding soldiers under his command, none of them had the 40 
years of agricultural experience of the U.S. Department of 
Agriculture (USDA) civilian serving alongside his battalion or 
the rule-of-law and governance expertise of their civilian 
experts from the Department of State (DOS). He told me, ``I'm 
happy to supply whatever support these valuable civilians need, 
and we need more of them.'' The President's strategy will make 
that possible.
    Not only do we have the right people to achieve our 
objectives, we also have a sound strategy. We will be 
delivering high-impact assistance and bolstering Afghanistan's 
agricultural sector, the traditional core of the Afghan 
economy. This will create jobs, reduce the funding that the 
Taliban receives from poppy cultivation, and draw insurgents 
off of the battlefield.
    We will also support an Afghan-led effort to open the door 
to those Taliban who renounce al Qaeda, abandon violence, and 
want to reintegrate into Afghan society. We understand some of 
those who fight with the insurgency do not do so out of 
conviction, but due to coercion or money. So, all Afghans 
should have the choice to pursue a better future if they do so 
peacefully, respect the basic human rights of their fellow 
citizens, and reintegrate into their society.
    Our regional diplomacy complements this approach by seeking 
to mitigate external interference in Afghanistan and working to 
shift the calculus of neighboring countries from competition 
for influence to cooperation and economic integration.
    We also believe a strong, stable, democratic Pakistan must 
be a key partner in the fight against violent extremism, and 
people in Pakistan are increasingly coming to view that we do 
share a common enemy. I heard this repeatedly during my recent 
visit. So, our relationship needs to be anchored in common 
goals of civilian rule, robust economic development, and the 
defeat of those who threaten Pakistan, Afghanistan, the United 
States, and the rest of the world.
    We'll significantly expand support intended for Pakistan to 
develop the potential of their people. We will do so by 
demonstrating a commitment to Pakistan that has been questioned 
by the Pakistanis in the past. We will make sure that the 
people of Pakistan know that we wish to be their partner for 
the long term, and that we intend to do all that we can to 
bolster their futures.
    Now, we're not going to be facing these challenges alone. 
We share this responsibility with governments around the world. 
I will go to Brussels tomorrow to begin the process of securing 
additional alliance commitments of troops, trainers, and 
resources. We expect Secretary General Rasmussen to have an 
announcement today about the progress we're making in that 
effort. Ambassador Holbrooke, our Special Representative, is 
already there, consulting with our allies.
    We're also asking the international community to expand its 
support to Pakistan. Our objectives are shared by people and 
governments across the world, and we are particularly reaching 
out to Muslims everywhere.
    Let me conclude where I began. We face a range of difficult 
choices in Afghanistan and Pakistan, but the President's plan 
represents the best way we know to protect our Nation today and 
in the future. The task we face is as complex as any national 
security challenge in our lifetimes. We will not succeed if 
people view this effort as a responsibility of a single party, 
a single agency within our government, or a single country.
    We owe it to the troops and civilians, who will face these 
dangers, to come together as Americans, and come together with 
allies and international partners who are ready to step up and 
do more.
    We have to accomplish this mission, and I look forward to 
working with you to help meet this challenge.
    Thank you all very much.
    [The prepared statement of Secretary Clinton follows:]

           Prepared Statement by Hon. Hillary Rodham Clinton

    Chairman Levin, Senator McCain, and members of the committee, I'm 
grateful for this opportunity to testify before so many good friends. 
My experience on the Armed Services Committee helped form my views on 
many of the issues facing our Nation. It's a privilege to be before you 
now in this different role.
    Yesterday, President Obama presented the administration's strategy 
for Afghanistan and Pakistan. Today, Secretary Gates, Admiral Mullen, 
and I will all be providing you with additional details. But let me 
speak briefly at a more personal level about why we are making this 
commitment.
    Simply put, among a range of difficult choices, this is the best 
way to protect our Nation now and in the future.
    The extremists we are fighting in Afghanistan and Pakistan have 
attacked us and our allies before. If we allow them access to the very 
same safe havens they used before 2001, they will have a greater 
capacity to regroup and attack again. They could drag an entire region 
into chaos. Our civilian and military leaders in Afghanistan have 
reported that the situation is serious and worsening. We agree.
    In the aftermath of September 11th, I grieved with sons, daughters, 
husbands, and wives whose loved ones were murdered. It was an attack on 
our country, but it was also an attack on my constituents. I witnessed 
the tragic consequences in the lives of thousands of innocent families, 
and the damage done to our economy and our sense of security. So I feel 
a personal responsibility to help protect our Nation from such 
violence.

                              THE MISSION

    The case for action against al Qaeda and its allies has always been 
clear, but the United States' course of action over the last 8 years 
has not. The fog of another war obscured our focus. While our attention 
was focused elsewhere, the Taliban gained momentum in Afghanistan. The 
extremist threat grew in Pakistan--a country with 175 million people, a 
nuclear arsenal, and more than its share of challenges.
    It was against this backdrop that the President called for a 
careful, thorough review of our strategy. I was proud to be a part of 
that process. Our objectives are clear:

    <bullet>  We will work with the Afghan and Pakistani Governments to 
eliminate safe havens for those plotting attacks against us, our 
allies, and our interests;
    <bullet>  We will help to stabilize a region that is fundamental to 
our national security; and
    <bullet>  We will develop a long-term, sustainable relationship 
with Afghanistan and Pakistan so that we do not repeat the mistakes of 
the past. The duration of our military presence will be limited, but 
our civilian commitment must continue even as our troops begin to come 
home.

    Accomplishing this mission and ensuring the safety of the American 
people will not be easy. It will mean sending more civilians, troops, 
and assistance to Afghanistan, and significantly expanding our civilian 
efforts in Pakistan.
    The men and women carrying out this mission are not numbers on a 
PowerPoint slide. They are our friends and neighbors, our sons and 
daughters, our brothers and sisters. We will be asking them--and the 
American people who support them--to make extraordinary sacrifices on 
behalf of our security. I want to assure the Committee that we will do 
everything we can to make sure their sacrifices make our Nation safer.

                              THE METHODS

    The situation in Afghanistan and Pakistan is serious, but it is 
not, in my view, as negative as frequently portrayed in public. The 
beginning of President Karzai's second term has opened a new window of 
opportunity. We have real concerns about the influence of corrupt 
officials in the Afghan Government, and we will continue to pursue 
them. But in his inauguration speech last month, I witnessed President 
Karzai call for a new compact with his country. He pledged to combat 
corruption, improve governance, and deliver for the people of his 
country. His words were long in coming, but welcome. They must now be 
matched with action. The Afghan people, the United States, and the 
international community will hold the Afghan Government accountable for 
making good on these commitments.
    We will help by working with our Afghan partners to strengthen 
institutions at every level of Afghan society so that we don't leave 
chaos behind when our combat troops begin to depart.
    The President has outlined a timeframe for transition to Afghan 
responsibility. That transition will begin in the summer of 2011, when 
we expect Afghan security forces and the Afghan Government will have 
the capacity to start assuming ownership for defending their country. 
As the President said, we will execute the transition responsibly, 
taking into account conditions on the ground. A timeframe for 
transition will provide a sense of urgency in working with the Afghan 
Government. But it should be clear to everyone that--unlike the past--
the United States and our allies and partners will have an enduring 
commitment to Afghanistan, Pakistan, and the region. Our resolve in 
this fight is reflected in the substantial commitment of troops since 
the President took office and in the significant civilian commitment 
that will continue long after our combat forces leave.
    That civilian effort is already bearing fruit. Civilian experts and 
advisors are helping to craft policy inside government ministries, 
providing development assistance in the field, and working in scores of 
other roles. When our marines went into Nawa this July, we had 
civilians on the ground with them to coordinate assistance the next 
day. As operations progress, our civ-mil coordination is growing even 
stronger.
    We are on track to triple the number of civilian positions in 
Afghanistan to 974 by early next year. On average, each of these 
civilians leverages 10 partners, ranging from locally employed staff to 
experts with U.S.-funded nongovernmental organizations. It's cliche to 
say that we have our best people in these jobs, but it also happens to 
be true. When I was in Kabul a few weeks ago, I met with an American 
colonel who told me that while he had thousands of outstanding soldiers 
under his command, none of them had the 40 years of agricultural 
experience of the U.S. Department of Agriculture civilian serving 
alongside his battalion, or the rule of law and governance expertise of 
their civilian experts from the State Department. He told me: ``I am 
happy to supply whatever support these valuable civilians need, and we 
need more of them.'' The President's strategy will make that possible.
    Not only do we have the right people to achieve our objectives, we 
also have a sound strategy. We will be delivering high-impact economic 
assistance and bolstering Afghanistan's agricultural sector--the 
traditional core of the Afghan economy. This will create jobs, reduce 
the funding that the Taliban receives from poppy cultivation, and draw 
insurgents off of the battlefield.
    We will also support an Afghan-led effort to open the door to those 
Taliban who abandon violence and want to reintegrate into Afghan 
society. We understand that some of those who fight with the insurgency 
do so not out of conviction, but due to coercion or money. All Afghans 
should have the choice to pursue a better future if they do so 
peacefully, respect the basic human rights of their fellow citizens, 
and renounce al Qaeda.
    Our regional diplomacy complements this political approach, by 
seeking to mitigate external interference in Afghanistan and working to 
shift the calculus of neighboring countries from competition for 
influence to cooperation and economic integration.
    We also believe that a strong, stable, democratic Pakistan must be 
a key partner for the United States, and an ally in the fight against 
violent extremism. People in Pakistan are increasingly coming to the 
view that we share a common enemy. I heard this repeatedly during my 
recent visit. Our relationship is anchored in our common goals of 
civilian rule; robust economic development; and the defeat of those who 
threaten Pakistan, Afghanistan, and the peace of the world.
    We will significantly expand support intended to help develop the 
potential of Pakistan and its people. Our assistance will demonstrate 
the United States' commitment to addressing problems that affect the 
everyday lives of Pakistanis and bring our people closer together. But 
it will also bolster Pakistan against the threat of extremism. A 
village where girls have had the opportunity to get an education will 
be more resistant to al Qaeda and the Taliban. A young man with a 
bright future in a growing economy is less likely to waste his 
potential in a suicide bombing.
    We will not be facing these challenges alone. We share this 
responsibility with governments around the world. Our North Atlantic 
Treaty Organization (NATO) allies have already made significant 
contributions of their own in Afghanistan, and tomorrow I will go to 
Brussels to begin the process of securing additional Alliance 
commitments of troops, trainers, and resources. Ambassador Holbrooke, 
our Special Representative for Afghanistan and Pakistan, is already 
there consulting with our allies.
    The international community is also expanding its support to 
Pakistan, and we are in close touch with partners to coordinate 
assistance. We are also looking beyond NATO to build the broadest 
possible global coalition to meet this challenge. Our objectives are 
shared by people and governments from Europe to Australia, from Russia 
to China to India, and across the Middle East. Beginning with the 
President's speech in Cairo, we are reaching out to Muslims everywhere 
to make it clear that the United States seeks to build a better future 
with them in a spirit of mutual respect and partnership.

                              THE MESSAGE

    Let me conclude where I began. We face a range of difficult choices 
in Afghanistan and Pakistan. But the President's plan represents the 
best way we know to protect our Nation today and in the future. The 
task we face is as complex as any national security challenge in our 
lifetimes. We will not succeed if people view this effort as the 
responsibility of a single party, a single agency within our 
Government, or a single country. We owe it to the troops and civilians 
who will face these dangers to come together as Americans--and come 
together with our allies and international partners--to help them 
accomplish this mission. I look forward to working with you to meet 
this challenge. I thank you for the opportunity to testify today.

    Chairman Levin. Thank you very much, Madam Secretary.
    Admiral Mullen.

STATEMENT OF ADM MICHAEL G. MULLEN, USN, CHAIRMAN OF THE JOINT 
                        CHIEFS OF STAFF

    Admiral Mullen. Mr. Chairman, Senator McCain, distinguished 
members of this committee, thank you for your time today.
    Let me state, right up front, that I support fully and 
without hesitation the President's decision, and I appreciated 
the opportunity to contribute to what I believe was a healthy 
and productive discussion. I've seen my share of internal 
debates about various national security issues, especially over 
the course of these last 2 years, and I can honestly say that I 
do not recall an issue so thoroughly or so thoughtfully 
considered as this one.
    Every military leader in the chain of command, as well as 
those of the Joint Chiefs, was given voice throughout this 
process, and every one of us used it. We now have before us a 
strategy more appropriately matched to the situation on the 
ground in Afghanistan, and resources matched more appropriately 
to that strategy, particularly with regard to reversing the 
insurgency's momentum in 2010. Given the stakes in Afghanistan 
for our own national security, as well as that of our partners 
around the world, I believe the time we took was well worth it.
    Secretaries Clinton and Gates have already walked you 
through the large policy issues in question. I will not repeat 
them.
    From a purely military perspective, I believe our new 
approach does three critical things:
    First, by providing more discrete objectives, it offers 
better guidance to commanders on the ground about how to employ 
their forces. They will still work to disrupt, dismantle, and 
defeat al Qaeda and prevent Afghanistan from becoming a safe 
haven. They will still strive to protect the Afghan people, who 
remain the center of gravity. They will still pursue major 
elements of the counterinsurgency campaign desired and designed 
by General McChrystal, which, as we all know, involves at least 
some measure of active counterterrorism operations. But, now 
they will tailor this campaign and those operations by focusing 
on key population areas, by increasing pressure on al Qaeda's 
leadership, by more effectively working to degrade the 
Taliban's influence, and by streamlining and accelerating the 
growth of competent ANSF.
    At its core, our strategy is about providing breathing 
space for the Afghans to secure their own people and to 
stabilize their own country. It's about partnering and 
mentoring just as much, if not more, than it is about fighting. 
Where once we believed that finishing the job meant, to a large 
degree, doing it ourselves, we now know that it cannot truly, 
or permanently, be done by anyone other than the Afghans 
themselves. Fully a third of the U.S. troops in theater are 
partnered with Afghan forces, and I expect that number to rise 
significantly throughout 2010.
    Second, but not insignificantly, this new strategy gives 
commanders on the ground the resources and the support they 
need to reverse the momentum of the Taliban insurgency and to 
accomplish these more limited objectives. I've said it before, 
and I believe it still today, this region is the epicenter of 
global Islamic extremism. It is the place from which we were 
attacked on September 11. Should we be hit again, it's the 
place from which I am convinced the planning, training, and 
funding will emanate. Al Qaeda may, in fact, be the architect 
of such an attack, but the Taliban will be the bricklayers.
    Though hardly a uniform body, Taliban groups have grown 
bolder and more sophisticated. We saw that just a few months 
ago in the Korengal Valley, where Taliban forces attacked 
coalition outposts using what I would call almost conventional 
small-unit tactics. Their fighters are better organized and 
better equipped than they were just 1 year ago. In fact, 
coalition forces experienced record-high violence this past 
summer, with insurgent attacks more than 60 percent above 2008 
levels. Through brutal intimidation, the Taliban has 
established shadow governments across the country, coercing the 
reluctant support of many locals, and challenging the authority 
of elected leaders and state institutions. Indeed, we believe 
the insurgency has achieved a dominant influence in 11 of 
Afghanistan's 34 provinces. To say that there is no serious 
threat of Afghanistan falling once again into Taliban hands 
ignores the audacity of even the insurgency's most public 
statements. To argue that, should they have that power, the 
Taliban would not at least tolerate the presence of al Qaeda on 
Afghan soil, is to ignore both the recent past and the evidence 
we see every day of collusion between these factions on both 
sides of the Afghanistan-Pakistan border.
    The cost of failure is, then, grave. That is why the 
President's decision for an extended surge to Afghanistan of 
30,000 additional forces is so important. It gets the most U.S. 
force into the fight as quickly as possible, giving General 
McChrystal everything he needs in 2010 to gain the initiative.
    It validates our adherence to a counterinsurgency approach, 
and it offers our troops in Afghanistan the best possible 
chance to set the security conditions; for the Afghan people to 
see our commitment to their future; for the Karzai government 
to know our strong desire to see his promised reforms; for the 
Afghan Taliban to understand they will not, they cannot, take 
back Afghanistan; and for those beyond Afghanistan who support 
the Taliban, or would see the return of al Qaeda, to realize 
the futility of their pursuit.
    I should add that these reinforcements come on top of the 
21,000 troops the President ordered shortly after taking 
office, troops which have already made a huge difference in the 
southern Helmand Valley. But, as I have testified before, Mr. 
Chairman, no amount of troops in no amount of time will ever be 
enough to completely achieve success in such a fight. They 
simply must be accompanied by good governance and healthy 
public administration. This, not troop numbers, is the area of 
my greatest concern.
    Like everyone else, I look forward to working with the 
Karzai government, but we must have the support of the 
interagency and international communities, as well.
    That brings me to my final point. The President's new 
strategy still recognizes the criticality of a broadbased 
approach to regional problems. He does not view Afghanistan in 
isolation any more than he views the ties between al Qaeda and 
the Taliban as superficial. He has called for stronger and more 
productive cooperation with neighboring Pakistan, which is, 
likewise, under the threat from radical elements, and whose 
support remains vital to our ability to eliminate safe havens. 
He has pledged, and we in the military welcome, renewed 
emphasis on securing more civilian expertise to the effort--and 
that is happening--more contributions by other NATO nations, 
and a realistic plan to transition responsibilities to the 
Afghans. His is a more balanced, more flexible, and more 
achievable strategy than we've had in the past, one based on 
pragmatism and real possibilities. Speaking for the 2.2 million 
men and women who must execute it, and who, with their 
families, have borne the brunt of the stress and the strain of 
8 years of constant combat, I support his decision and 
appreciate his leadership.
    Thank you.
    [The prepared statement of Admiral Mullen follows:]

            Prepared Statement by ADM Michael G. Mullen, USN

    Chairman Levin, Senator McCain, and distinguished members of the 
committee, thank you for the opportunity to testify on the subject of 
the President's newly announced strategy for Afghanistan and Pakistan.
    The President's Tuesday evening announcement at West Point of our 
strategy and increased military resources for Afghanistan culminates a 
process of deliberate strategic review that began with the arrival of 
General McChrystal's interim assessment in early September. I believe 
this national-level review has been sober and essential. The challenges 
we face in Afghanistan and Pakistan are great, and our interests there 
are significant. This administration needed to take the time to look at 
all the options and craft a balanced and sustainable approach. I 
believe that the review has met this aim.
    I support fully, and without hesitation, the President's decision.

                         REFINING THE STRATEGY

    The facts compel us to act. Our strategic review confirmed that the 
overarching policy goal remains the same: to disrupt, dismantle and 
defeat al Qaeda in Afghanistan and Pakistan, and to prevent its 
capacity to threaten America and our allies from either country in the 
future.
    South Asia is the epicenter of global Islamic extremism; the 
location of al Qaeda's core leadership and the terrain that dozens of 
Islamic terrorist groups call home. It is the location from which the 
September 11 attacks on America were planned and driven. If the United 
States should be hit again, I remain convinced that the planning, 
training and funding for such an attack will emanate there. It is a 
region where a nuclear weapons state, Pakistan, is under direct threat 
from al Qaeda and affiliated Pakistani-Taliban groups that aspire to 
acquire and use nuclear weapons against the United States and our 
allies. Thus, it is a region with a unique--and deadly--combination of 
the most dangerous terrorists and the most dangerous technology in the 
world. Our actions in Pakistan and Afghanistan seek to prevent 
catastrophic outcomes from these toxic forces, and constitute a most 
critical national interest.
    Our strategic review paid particular attention to Pakistan. The 
people of Pakistan are under as much, if not greater, threat from al 
Qaeda and Islamic terrorism than are we. We must encourage and aid the 
Pakistani military fight against these extremists in South Waziristan, 
in SWAT, and across Pakistan. We must also help Pakistan widen its 
aperture in seeking out and eliminating all forms of extremism and 
terrorism--those who threaten not only Pakistan, but also Afghanistan, 
the wider South Asia region, and the globe. We are deepening ties with 
the people of Pakistan as well as with their security forces. We see 
progress with our Pakistani allies as paramount to the way ahead.
    In Afghanistan, we narrowed-in on a challenging, but attainable 
goal: to deny al Qaeda safe haven and the Afghan-Taliban the ability to 
overthrow the duly elected Afghan government. To achieve this refined 
strategic aim, we must continue to deny al Qaeda any Afghanistan toe-
hold, reverse the momentum of the Taliban insurgency, and build 
sufficient Afghan Government and security capacity to eventually defeat 
the insurgent threat. Our review also narrowed and refined the military 
objectives for General McChrystal's North Atlantic Treaty Organization 
(NATO)-International Security Assistance Force (ISAF)--focusing it on 
security of key population areas while Afghan forces grow in size and 
capability, prioritizing a robust NATO-ISAF program of training and 
mentoring Afghan military and police, and establishing the conditions 
necessary for Afghans to assume their own security. Each of these 
objectives will hasten the day when we can begin thinning the U.S./
NATO-ISAF security forces presence, turning the internal security of 
Afghanistan over to the Afghans. This strategy provides the time and 
space for the Afghans themselves to build sufficient security and 
governance capacity to stabilize their country.
    Our refined military objectives for Afghanistan complement those in 
the political and economic spheres. They also support diplomatic, 
political, and military programs that the President's strategy calls 
for us to undertake with neighboring countries--especially Pakistan--
that increase pressure against al Qaeda's leadership; that expand 
counterinsurgency operations against Taliban insurgents who threaten 
Afghanistan, Pakistan, and the wider region; and that help set the 
conditions for improved regional security and stability.

                    MATCHING STRATEGY AND RESOURCES

    Throughout this strategic review, I advised the Secretary of 
Defense and the President that our commitment of military resources 
must match our strategy.
    I am pleased to inform this committee that the President's decision 
accommodates this advice. The strategy he approved commits 30,000 more 
U.S. forces, with some number of additional enablers, while calling for 
our NATO and non-NATO allies to generate additional forces. This rapid, 
coalition-wide build-up of force aligns with General McChrystal's 
recommendations, even more so in light of the narrowing of objectives 
for Afghanistan that the President announced Tuesday night.
    The President's commitment is to rapidly send these additional 
forces forward--to get as much force into the fight as fast as General 
McChrystal can absorb it. This allows Generals McChrystal and Petraeus 
to plan for cohesive logistics and transportation support over the 
course of the coming year. While there are no guarantees in war, I 
expect that we will make significant headway in the next 18-24 months. 
I also believe we could begin to thin our combat forces in about the 
same timeframe. From a military standpoint, the President's commitment 
to an increase in military force, especially backed by an increase in 
civilian resources, is much better than one featuring periodic 
assessments that trigger incremental force escalation.
    The President's decision also supports accelerated expansion of 
Afghan National Security Forces (ANSF)--a critical initiative. We 
simply must invest in the growth of an Afghan security force--through 
more radical and in-depth partnering. The additional U.S. and coalition 
forces heading to Afghanistan will focus a great amount of time and 
energy toward empowering a strong and capable ANSF.
    General McChrystal intends to use these additional U.S. troops to 
conduct more focused counterinsurgency operations that enhance 
population security against the Taliban in south and east Afghanistan. 
As in Iraq, our troops will live among the population. Thus--and as 
General McChrystal has successfully emphasized since his arrival as 
Commander of ISAF last June--we will continue to make every effort to 
eliminate civilian casualties, not just because this is the right thing 
to do, but because these casualties work against our goal of Afghan 
population security. Although we must expect higher alliance casualties 
in coming months as we dedicate more U.S. forces to protect the 
population and mentor the ANSF, our extended security presence must--
and will--improve security for the Afghan people and limit both future 
civilian and military casualties

                       MOVING FORWARD--CONCLUSION

    No commitment of additional force in the number we plan for 
Afghanistan is without risk. The Joint Chiefs of Staff and I assess the 
risks to our military forces and our military missions--at home and 
abroad--from this force deployment decision to be acceptable. We can 
continue to balance the additional force flow requirements for 
Afghanistan against those coming available from draw-down trajectory 
programmed for, and on track in, Iraq.
    I believe that progress in Afghanistan and Pakistan will be 
gradual, and sometimes halting. Yet I believe we can succeed. The 
President's announced strategy and this force flow decision give us the 
best possible chance for success. We must exhibit vision, apply 
sufficient resources, and display endurance to realize our objectives 
for Afghanistan and Pakistan. Most challenges we now confront in the 
South Asia region are not military in nature. They require solutions 
from and led by national and local governments. Yet none of these 
solutions are possible in an environment of insecurity. Our role must 
be to fill the security gap for a short time, concurrently growing our 
partner government's capacity to self-secure. Pursued with resolve, our 
actions will send an unmistakable message that the U.S. remains 
committed to the common good, while steadily expanding the sets of 
partnerships available to address future challenges without a long-term 
need for large numbers of U.S. combat forces.
    In providing advice to this President over the past 10 months, one 
important point I have made, consonant with other key presidential 
advisers, is that our military activities must support rather than lead 
our Nation's foreign policy. Our warfighting ability will never be in 
doubt. But we have learned from the past 8 years of war that we serve 
this Nation best when we are part of a comprehensive, integrated 
approach that employs all elements of national power to achieve the 
policy goals set by our civilian leaders. This approach remains crucial 
in Afghanistan, Pakistan and across South Central Asia.
    On behalf of our service members, I would like to thank the members 
of this committee--and Congress as a whole--for the sustained 
investment in our brave young men and women in uniform, and for your 
unwavering support of them and their families as they continue to serve 
so magnificently and selflessly in this time of protracted war.

    Chairman Levin. Thank you so much, Admiral Mullen.
    We're going to have 6-minute rounds, and I will ask members 
to strictly adhere to that 6 minutes, so we will all have an 
opportunity to ask questions.
    There's been some confusion about whether the beginning 
date for U.S. troop reductions is set for July 2011, with the 
pace of those reductions being condition-based, or whether the 
July 2011 starting date itself is dependent on conditions on 
the ground. Secretary Gates, which is it?
    Secretary Gates. Mr. Chairman, July 2011 is when we expect 
the transition process to begin.
    Chairman Levin. But, is that date conditions-based, or not?
    Secretary Gates. No, sir.
    Chairman Levin. Okay. Next question. This question has to 
do with the partnering ratio. There are currently just over 
10,000 U.S. troops in Helmand Province in southern Afghanistan, 
and they are partnered with only 1,500 or so Afghan soldiers. 
The partnering goal for the United States is almost the 
reverse, as measured in units: three Afghan companies to one 
U.S. company. Now, paraphrasing the National Security Council's 
Director for Afghanistan, the 3-Afghan-to-1-U.S. ratio helps 
prevent Afghan units from relying too much on the U.S. unit, to 
the detriment of the Afghan unit's development. So, the current 
number of troops could and should, under our own doctrine, be 
partnering with 20,000 or so Afghan troops in Helmand. We don't 
need more troops to partner more Afghans; we have more than 
enough for that purpose. Nor do we expect 20,000 or more Afghan 
troops to be assigned to partner with us in Helmand next year. 
According to Prime Minister Brown of Great Britain, there will 
be 10,000 more Afghan troops deployed to Helmand in the coming 
year, to be divided approximately equally between U.S. and 
British forces for partnering.
    So, first, Secretary Gates, are my numbers correct?
    Secretary Gates. Let me defer to Admiral Mullen.
    Admiral Mullen. Mr. Chairman, I think your numbers, as far 
as those that are currently partnered, are correct, given the 
availability of Afghan forces in the south, in Helmand.
    Chairman Levin. In terms of what we expect to be deployed 
by Afghanistan for their troops in the coming year?
    Admiral Mullen. Yes, sir, it sounds about right.
    Chairman Levin. Okay.
    Now, I thought I heard the President, at the meeting 
yesterday in the Old Executive Office Building, say that we 
would not have our troops clear an area unless they could turn 
the cleared area over to Afghans. Now, Secretary Gates, did I 
hear him correctly? If so, how is that possible, given the 
paucity of available Afghan forces?
    Secretary Gates. Let me start and then invite Admiral 
Mullen to chime in.
    First of all, clearly, as I've indicated, accelerating the 
growth of the ANA and ANP is vitally important, but we are also 
looking, as I suggested in my remarks, at local forces, as 
well, partnering with local security forces. There is more than 
just the ANP and the ANA in this mix. The plan clearly is that 
we will not transition security responsibility to the Afghans 
until the Afghans have the capacity in that district or that 
province to be able to manage the security situation on their 
own, with our allies and us initially in a tactical overwatch 
and then a strategic overwatch situation.
    The reality is that the circumstances, very much as in 
Iraq, differ from district to district and province to 
province, so the ability of the Afghans to take this on will 
depend on the circumstances in each of these areas. In some 
areas, it will take fewer Afghans. But, clearly a big part of 
this is additional training, both basic training, but then 
partnering in combat as training, to put more and more Afghans 
into the fight and into a position where they can take 
responsibility for security, and particularly in the context of 
degraded Taliban capabilities. One of the purposes of the 
United States going in with additional forces is, not just to 
partner with the Afghans, and not just to train the Afghans, 
but to degrade the capabilities of the Taliban. So, you have 
the situation in which the capabilities of the ANSF are rising 
at a time when our combat forces are degrading the capabilities 
of the Taliban, and it's the point at which the Afghans are 
able to handle that degraded threat that we would make the 
transition.
    Chairman Levin. Do I understand from your answer then, that 
there will be situations where our troops will be clearing an 
area and not have Afghans available yet, at that point, to turn 
that cleared area over to? Is that fair?
    Admiral Mullen. Mr. Chairman, I think it is.
    Chairman Levin. All right.
    Admiral Mullen. But, if I may, just briefly. When General 
McChrystal showed up, in June 2009, there were virtually no 
units partnered. There are some 280 units out of 351 right now 
who are partnered.
    Chairman Levin. With some partners, not the 3-to-1 ratio.
    Admiral Mullen. No, sir, we're not there yet.
    Chairman Levin. Okay.
    Admiral Mullen. But, this is companies by companies. This 
is in training and in fighting.
    Chairman Levin. My final question, because I'm out of time, 
is: What will be the ANA's projected size by July 2011?
    Secretary Gates. The goal, by December 2010, is 134,000.
    Chairman Levin. No, my question is July 2011.
    Admiral Mullen. It'll be about 170,000.\1\
---------------------------------------------------------------------------
    \1\ Following the hearing, Admiral Mullen clarified for the 
committee that the Department of Defense currently expects 162,000 
Afghan National Army in place by July 2011.
---------------------------------------------------------------------------
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Admiral Mullen, do you think it's important to tell the 
American people it's very likely that casualties will go up 
during the course of this troop increase that's envisioned?
    Admiral Mullen. Senator McCain, when we added the 21,000 
marines, I was very clear about the potential that casualties 
would go up. I don't think there's any question that casualties 
are a part of the risk associated with these additional troops, 
and that they will go up.
    Senator McCain. I think the American people need to 
understand that.
    Admiral Mullen. Yes, sir, I agree with you.
    Senator McCain. Secretary Gates, in your answer to Chairman 
Levin's question, if I understand your answer--Chairman Levin 
asked if the withdrawal plan for July 2011 was condition-based, 
and you said, ``No.'' Will we withdraw our forces based on 
conditions on the ground or based on an arbitrary date, 
regardless of conditions on the ground?
    Secretary Gates. What we're talking about, Senator McCain, 
is the beginning of a process, not the end of that process. 
Approximately 60 percent of Afghanistan today is not controlled 
by the Taliban or have significant Taliban influence.
    Senator McCain. I'd say, with respect, Secretary Gates, my 
question is: Will the date of withdrawal, 2011, which the 
President set, be based on an arbitrary date of July 2011, 
regardless of conditions on the ground?
    Secretary Gates. I think it's the judgment of all of us in 
the Department of Defense (DOD) involved in this process that 
we will be in a position, in particularly uncontested areas, 
where we will be able to begin that transition in July 2011.
    Senator McCain. Let's suppose you're not. Let's suppose 
that conditions on the ground are poor so that our commanders 
believe that it would jeopardize the success of the mission if 
we start a withdrawal in July 2011. Will we do it anyway?
    Secretary Gates. The President has indicated that we will 
have a thorough review of how we're doing in December 2010, and 
I think we will be in a position then to evaluate whether or 
not we can begin that transition in July.
    Senator McCain. I say with great respect, Secretary Gates, 
the President announced that we would begin withdrawing on a 
hard date of July 2011. I don't know why that date was 
particularly picked and that may be a question in another 
session, but he's announced that. At the same time, you said 
conditions on the ground would determine withdrawal. Now, those 
are two incompatible statements. You either have a winning 
strategy and do as we did in Iraq, and then, once it succeeds, 
we withdraw, or we, as the President said, have a date 
beginning withdrawal in July 2011. Which is it? It has to be 
one or the other. It has to be the appropriate conditions or it 
has to be an arbitrary date. You can't have both.
    Secretary Gates. Where we begin the transition is, I think, 
the key factor here, Senator. As I suggested, we will have a 
thorough review in December 2010. If it appears that the 
strategy's not working and that we are not going to be able to 
transition in 2011, then we will take a hard look at the 
strategy itself.
    Senator McCain. I say, with respect, I think the American 
people need to know whether we will begin withdrawing in 2011 
and conditions are ripe for that, or whether we will just be 
withdrawing, no matter what.
    Secretary Gates. Our current plan is that we will begin the 
transition, in local areas, in July 2011. We will evaluate, in 
December 2010, whether we believe we will be able to meet that 
objective.
    Senator McCain. I think that has to be made very clear. 
Right now the expectation level of the American people, because 
of the President's speech, is that we will be withdrawing, as 
of July 2011, regardless of conditions on the ground. I think 
that's the wrong impression to give our friends, it's the wrong 
impression to give our enemies, and it's the wrong impression 
to give the men and women who want to go over there and win; we 
should not start withdrawing on an arbitrary date. 
Unfortunately, that has not been made clear at all.
    By the way, Admiral Mullen, the Army Counterinsurgency 
Field Manual says, ``counterinsurgents should prepare for a 
long-term commitment. The populace must have confidence in the 
staying power of both the counterinsurgents and the host-nation 
government.'' By announcing a date for withdrawal, don't you 
think that contradicts the counterinsurgency manual?
    Admiral Mullen. Sir, I believe, and the military leadership 
believes, by mid-2011, we'll know how this is going. The 
Secretary talked to the assessment. In fact, it's General 
McChrystal's view that these additional forces will allow him 
to reverse the momentum and head us in the right direction. 
We'll have very solid indicators at that point, and then, 
obviously, the July 2011 date is a day we start transitioning 
and transferring responsibility; it's not a date that we're 
leaving. The President also said that this will be based on 
conditions on the ground.
    Senator McCain. Then it makes no sense for him to have 
announced the date. But I'm sure we'll continue this 
discussion.
    Secretary Clinton, I appreciate your statement, but I would 
like a lot more specifics. We know that there are divisions 
within the Embassy in Kabul. We know that cables were leaked, 
and that the Ambassador there was against any increases in 
troops there. We know that relations within the Embassy have at 
least three factions. We also know that the ability of DOS 
personnel has been significantly limited, as it was prior to 
the surge in Iraq, because the environment is not safe for them 
to go out and operate.
    I have great confidence in the military operational 
planning, and I'm confident it can succeed. But, as I said 
earlier, I don't see the ``build'' component yet, and I would 
like for you to submit to this committee a very specific plan, 
just as we are receiving a very specific military plan, on 
exactly how we're going to achieve the ``build'' part of it, 
which I think there is an adequate model for it, in the case of 
Iraq.
    So, I appreciate your statements, and I agree with you 
about the quality of personnel. I have yet to see a 
comprehensive, cohesive, convincing plan to implement the 
essential civil side of any successful surge.
    Secretary Clinton. Senator McCain, first let me say, we are 
more than happy to submit a plan. We have obviously been 
working with our committee of jurisdiction and authorization on 
a very close ongoing basis, and we'll be happy to share a lot 
of the information with you, and we would welcome your response 
and your advice.
    I have to say, however, that the process that we engaged in 
solicited opinions, and I thought it was a great tribute to the 
President and to National Security Advisor General Jones that 
the White House ran a process that actually sought out and made 
it clear that diversity of opinion was welcome. I thought it 
was useful to hear from a variety of sources. It wouldn't 
surprise you, as it didn't surprise me, that people had 
different opinions based on their perspective. But, as Admiral 
Mullen just eloquently said, the President's made a decision. 
There is no division. There is absolute unity and a commitment 
to carrying out the mission. We'll be happy to share the 
specifics of that with you.
    [The information referred to follows:]

    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    Senator McCain. Thank you very much.
    I thank all the witnesses. We appreciate, enormously, their 
contributions to our country.
    Chairman Levin. We're going to take advantage of the 
presence of a quorum here now to take 1 minute to consider the 
1,938 pending military nominations, as well as the civilian 
nominations of Dr. Clifford Stanley to be Under Secretary of 
Defense; Frank Kendall III to be Principal Deputy Under 
Secretary of Defense; Erin Conaton to be the Under Secretary of 
the Air Force; Terry Yonkers to be Assistant Secretary of the 
Air Force; and Lawrence Romo to be Director of the Selective 
Service.
    Do I hear a motion to, en bloc, approve those nominations?
    Senator Lieberman. So moved.
    Chairman Levin. Second?
    Voice. Second.
    Chairman Levin. Second.
    All in favor, say aye. [A chorus of ayes.]
    Chairman Levin. Opposed, nay? [No response.]
    The ayes have it.
    Thank you very much.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Secretary Gates. By the way, thank you, Mr. Chairman. 
[Laughter.]
    Chairman Levin. I knew you would appreciate that 
intervention.
    Senator Lieberman. Oh, one more item of business.
    Chairman Levin. I included the 1,938 pending military 
nominations.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks also to Secretary Gates, Secretary Clinton, and 
Admiral Mullen for your excellent opening statements and for 
all the hard and effective work that you did in support of the 
policy that the President announced last night.
    I agree with what Senator McCain said, that the President 
has made the right decision in embracing a counterinsurgency 
strategy for Afghanistan and resourcing it properly. In making 
this decision, President Obama has respectfully disagreed with 
the majority of members of his own political party, according 
to every public opinion poll I've seen, and therefore, I think 
it's fair to say that the President has quite literally put our 
national security interests ahead of partisan political 
interests. I hope that fact will inspire and encourage a 
majority of members of both political parties to do the same 
and to, thereby, show that America's political leadership is 
still capable of suspending partisanship at the water's edge 
when our security and our troops are on the line.
    As chairman of the Senate Homeland Security and 
Governmental Affairs Committee, I'm very grateful that 
President Obama argued so effectively last night that the war 
in Afghanistan is a war of necessity because its outcome is 
inseparable from our security here at home. That is why I 
believe there is no substitute for victory over the Islamist 
extremists and terrorists in Afghanistan. A war of necessity 
must not just be fought, it must, of necessity, be won. Last 
night, in the most controversial paragraph of his speech, 
President Obama said that we will ``begin the transfer of our 
forces out of Afghanistan in July 2011.'' That troubled me when 
I heard it. But, then the President added words that reassured 
me, which were that ``We will execute this transition 
responsibly, taking into account conditions on the ground.''
    Secretary Gates, this morning in your opening statement, 
you added more detail and Admiral Mullen, you did, too, I 
think, to the mode by which we will begin this transition in 
July 2011. I'm particularly struck that you refer to it as a 
``transfer of security responsibility,'' and you also say that 
it will be very much like what we did in Iraq, where 
international security forces provided overwatch, first at the 
tactical level, then at the strategic level.
    So, Secretary Gates, I want to ask you, as I read your 
words today, am I correct in concluding that what will 
definitely begin in July 2011 is a transfer of security 
responsibility to the Afghans, but may not include, 
immediately, a withdrawal of our forces from Afghanistan?
    Secretary Gates. No, and that is correct. I think as we 
turn over more districts and more provinces to Afghan security 
control, much as we did with the provincial Iraqi control, that 
there will be a thinning of our forces and a gradual drawdown. 
I would remind folks, here, since this is the second surge I've 
been up here defending, that the surge in Iraq lasted 14 
months: January 2007 to March 2008. Frankly, it was pretty 
apparent to our adversaries in Iraq all along that the surge 
was a very tentative situation because we were up here 
defending it practically every day. So, the notion that our 
adversaries in Afghanistan are not aware of the debates in this 
country, and the debates in Europe and elsewhere, is, I think, 
unrealistic.
    Senator Lieberman. I agree.
    Secretary Gates. They know these things. But, the reality 
is, this is going to be a process. I think it has much in 
common with the way that we began to draw down in Iraq.
    Senator Lieberman. Am I right, then, that we're likely to 
transfer security responsibilities to the Afghans in the areas 
that are most stable, that are most uncontested at the 
beginning? At the beginning, we probably will put our troops 
back a ways, just to see how that works, rather than taking 
them out of the country?
    Secretary Gates. Yes, we're not just going to throw these 
guys into the swimming pool and walk away. The reality is, 
first of all, those transfers are going to take place in the 
most uncontested places in Afghanistan. So, just as in Iraq, 
you may have some districts and provinces being transferred to 
Afghan security responsibility, and, at the very same time, 
have extraordinarily heavy combat going on in other provinces 
around the country, which is exactly what we saw in Iraq.
    Senator Lieberman. Am I right that, in the policy that the 
President announced last night, which does begin a transfer of 
security responsibility of July 2011 to the Afghans, there is 
no deadline for the end of that transfer; it will be based on 
conditions on the ground?
    Secretary Gates. It will be based on conditions on the 
ground. But, by the same token, we want to communicate to the 
Afghans this is not an open-ended commitment on the part of the 
American people and our allies around the world.
    Senator Lieberman. I agree with that.
    Secretary Gates. We have to build a fire under them, 
frankly, to get them to do the kind of recruitment, retention, 
training, and so on, for their forces that allow us to make 
this transition.
    Let me just draw one other analogy to Iraq. In Iraq, once 
it was clear the surge was working, it was pretty plain that 
the Iraqis wanted us out about as fast as possible. The 
security agreement and everything flowed from that. That's not 
entirely clear in Afghanistan. They live in a very rough 
neighborhood. So, we have the balancing act here. Frankly, the 
centerpiece of our debates for the last several months have 
been: How do you get the Afghans to begin to step up to 
responsibility for their own future, their own security in a 
way that allows us to have confidence that they will not once 
again become the safe haven for al Qaeda? Figuring out that 
balance, in terms of how you incentivize and give a sense of 
urgency to the Afghans, and at the same time signal resolve to 
our adversaries, was the tough part of this for us.
    Senator Lieberman. I appreciate that answer. I think you 
strike exactly the right balance, and I appreciate what you 
said. We're not just going to throw the Afghans into the pool 
and run away, until we're sure that they can swim on their own. 
To me, that's the essence of moving down the road to victory in 
Afghanistan.
    Thank you.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I was going to start up with the end status and state, but 
it's been pretty well covered right now. I would only say this, 
though. I am probably speaking on behalf of all of the members 
up here because all of us have been both to Afghanistan and 
Iraq. The troops themselves, they want to win, and they don't 
like to even talk about a withdrawal date and that type of 
thing.
    Let me just ask you a quick question, Admiral Mullen. Most 
of the time, when commanders talk about different options and 
courses of action, they talk about the risk involved. The risk 
is usually low, medium, or high. What was the risk level 
associated with General McChrystal's 40,000 increase?
    Admiral Mullen. Notionally and broadly moderate, but the 
real critical path here is the development of the ANSF, which 
we all think is high risk, particularly on the ANP side. That's 
one of the reasons General McChrystal has shifted to 
partnering, and one of the reasons that we are devoting our 
best people, best leaders, and resources to accelerating that, 
so that we can do what Secretary Gates mentioned earlier.
    Senator Inhofe. Okay. I'll pursue that in just a minute, 
here. So, I would assume that the number 30,000 would be a 
little higher risk than the moderate risk that comes with 
40,000 troops?
    Admiral Mullen. Sir, what I said in my statement is, 
General McChrystal is going to get these forces this year in as 
fast as we can get them there. His biggest concern is to 
reverse the momentum. He thinks he can do that with these 
forces. He's going to get them on the same timeline he asked 
for and at about the same level.
    Senator Inhofe. I understand. Now, I was privileged to be 
with now National Security Advisor General Jones the last week 
that he was on the job over there, and I know some of the 
differences between Afghanistan and Iraq, but I've been asked, 
many times--and I think we should get what we're looking at on 
the record. During the peak of the surge in Iraq, we had about 
165,000 Americans, and then in Afghanistan, when you start with 
68,000, add 30,000 to it, you're talking about 100,000 in a 
country that's about twice the size of Iraq. Why does it take 
fewer troops? What's the major reason it takes fewer of our 
troops, our participation, in Afghanistan, relative to the 
size, as it did in Iraq?
    Admiral Mullen. One of the great strengthens of the review 
was to focus the objectives specifically, and, in particular, 
focus the objectives on key population centers. So, the troops 
that General McChrystal has asked for, and that will add up to 
about 100,000, are in key areas, particularly, the Pashtun 
Belt, where he fundamentally believes, with these troops, he 
can turn this around. While the ratio is a guide, it is not 
sacrosanct, and he's able to focus where we need to focus to 
get at this insurgency. Actually, the same was true in Iraq; 
it's just that this need, with respect to these ratios and 
these numbers, is about right for Afghanistan.
    Secretary Gates. Let me just add one sentence. That is one 
of the reasons why the added contributions from our allies and 
partners are so important, because, basically, we want them to 
take responsibility for the northern and western parts of 
Afghanistan so that we can concentrate and focus our efforts in 
the southern and eastern parts of the country.
    Senator Inhofe. Secretary Gates, I think one thing that all 
of you have said in your opening statements is, we need greater 
participation by the Afghans, the ANA, and we also need greater 
participation by the non-American coalition. We all agree with 
that. I happened to be over there in 2003, when we were turning 
over the training of the ANA to the Afghans, and it happened to 
be Oklahoma's 45th Guard Unit that was in charge of that. 
Afghans contend that they're great warriors; and yet, you 
looked around--and I have ever since then--you see so many of 
these young, healthy Afghans, that are walking the streets, who 
ought to be in the military. What can we do differently than 
what we've done in the past to encourage a greater 
participation with the ANA?
    Secretary Gates. Let me start, and then I'll ask Admiral 
Mullen to contribute.
    One of the things that they are doing that actually, I 
think, makes a real difference is significantly increasing the 
pay, both for the ANP and the ANA. The reality is that, based 
on the information available to us, in many instances the 
Taliban actually pay more than the Afghan Government. So, one 
of the things that we can do, particularly in terms of 
retention, is to increase their pay. I think most people 
believe that pay increase will have a real impact.
    Admiral Mullen. The Secretary talked earlier about 
retention and recruiting; clearly, incentivizing that, from a 
pay standpoint, is critical.
    The other fundamental difference from several years ago, or 
really since General McChrystal got there, is this partnership 
piece. What I think you saw, Senator, was mentoring and 
training teams, that kind of thing.
    Senator Inhofe. That's correct.
    Admiral Mullen. This is partnering, and it's getting 
everybody off their bases and out with the community. Those two 
differences are significant.
    Senator Inhofe. Okay, I appreciate it. I was going to ask a 
similar question. What can we do differently, in terms of 
encouraging more non-American coalition forces? I was pleased 
with the one statement that the President made when he talked 
about the fact that he had actually talked to some of the NATO 
allies before coming out with this. I wish he had done the same 
thing on the third missile defense site in Poland. But, by 
doing that, do you think that's going to encourage them and 
make them feel they're more a part of this? Was that a good 
move?
    Secretary Gates. Absolutely.
    Senator Inhofe. What else can we do to encourage more of 
the non-American coalition?
    Secretary Gates. Secretary Clinton has been talking to her 
counterparts, I've been talking to my counterparts, and we are 
both hearing: 1,000 here, 800 there, and so on. I think that we 
will make the 5,000 to 7,000 goal, and I think, as somebody who 
has been critical of the allies and was once derided by my 
British colleague for megaphone diplomacy because I was giving 
them such a hard time on this, we have to realize that the non-
U.S. forces have increased in the last 2 years, from about 
17,000 to 18,000 troops, to almost 44,000 troops. So, with this 
add, we will be at nearly 50,000 non-U.S. troops in 
Afghanistan, and I think that's a pretty significant 
commitment.
    Senator Inhofe. Yes.
    My time has expired, but, for the record, Madam Secretary, 
you made a statement about President Karzai and the speech that 
he recently made. I hope it's not just empty words. But, if you 
would, for the record, give us your indication, your feelings, 
about what he can do now to accomplish what you had suggested.
    Secretary Clinton. I certainly will, Senator.
    [The information referred to follows:]

    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Secretary Clinton. If I could just quickly add, one of the 
most important parts of President Kazai's speech was his 
assertion that ANSF would be taking responsibility for many 
important parts of the country within 3 years, and that they 
would be responsible for the entire country within 5 years. 
That is very much along the lines of the kind of partnering and 
transition that we think is realistic; we just have to keep the 
feet to the fire and keep pushing it forward.
    Senator Inhofe. Thank you.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, Madam Secretary, Mr. Secretary, and Mr. 
Chairman.
    There's been much made about this withdrawal goal as an 
arbitrary one, but let me ask you, Admiral Mullen: This was 
based on the advice of General McChrystal, and your advice, 
about your expectation of what the situation on the ground 
would be in 2011, given these additional resources and 
additional change of policy, correct?
    Admiral Mullen. I have a very clear view, and, I think, so 
do General Petraeus and General McChrystal, that by mid-2011 we 
will know whether we are going to succeed here or not. That has 
been something that we've discussed and we agreed on. That's 
why getting these forces in so quickly is so important to try 
to reverse this thing. Some of it is based on the fact that the 
Marines have been in Helmand this year, so, in fact, the 
Marines will be in one of the toughest places for three 
fighting seasons, if you will--2009, 2010, and 2011--and we 
think, with the additional forces, we will have very strong 
indicators about how this is going and our ability to transfer 
and transition at that point.
    Senator Reed. So you wouldn't describe the date as 
arbitrary?
    Admiral Mullen. No, sir. It wasn't arbitrary.
    That said, what the President also said, the transition 
would be responsible and it would be based on conditions. All 
of us can look out and speculate what those conditions will be, 
but I think we have to be careful about that. Transition in 
July 2011 is the goal right now.
    Secretary Gates. I would just clarify, if I could, Senator?
    Senator Reed. Mr. Secretary?
    Secretary Gates. The July 2011 date was chosen because it 
will be 2 years after the Marines arrived in Helmand.
    Senator Reed. Giving them the fighting opportunities, for 
want of a better term, perhaps fighting obligations or fighting 
challenges, that have a deadline.
    The issue of the deadline also raises the issue of our 
posture in Iraq. There is a deadline there, too, Mr. Secretary, 
and that is a legal deadline, which I understand can't be 
changed without the permission of the Iraqis, even if 
conditions deteriorated. Is that correct?
    Secretary Gates. That's correct. All of our combat forces 
are to be out by the end of August 2010, and all forces out by 
the end of 2011. We do have some flexibility, in terms of the 
pacing of the withdrawals between now and the end of August, 
but even with the hiccups over the elections and the problems 
with respect to the election law, at this point General Odierno 
does not see any need to alter the pacing of the draw-downs in 
Iraq.
    Senator Reed. But, that was agreed to by the Bush 
administration as a hard deadline without conditions, is that 
correct?
    Secretary Gates. That is correct.
    Senator Reed. One of the other aspects of this new plan was 
the process of deliberation that went into it. It took time. 
But, from your comments this morning, that time, I sense, was 
well spent. One aspect of this I think, Admiral Mullen, was 
that the original plan by General McChrystal with 40,000 troops 
would not have had the flow of forces as quickly as the final 
plan adopted by the President. Is that correct?
    Admiral Mullen. In particular, with respect to the NATO 
forces, they're not committed yet, but we're hopeful that they 
will be available more quickly and that we will do everything 
that we can to get as much capability and as quickly as 
possible.
    Senator Reed. But, that is only about NATO.
    Admiral Mullen. I don't want to overstate that.
    Senator Reed. Right.
    Admiral Mullen. It is accelerated, to some degree; I don't 
want to overstate that, but it really gets him the forces he 
needs this year to turn this thing around.
    Secretary Gates. I would add that the final component of 
his original request, the final brigade combat team (BCT), 
would not have arrived in Afghanistan until the summer of 2011. 
My own personal recommendation was, there's no need to commit 
to that since it's so far in the future, and so, to Admiral 
Mullen's point earlier, fundamentally General McChrystal is 
getting more troops faster than under the original plan.
    Senator Reed. All right, let me just rephrase that.
    This process, as you've suggested, has produced, in your 
minds, a better proposal across the board than originally was 
submitted by the individual components: the Ambassador, General 
McChrystal, U.S. Central Command, et cetera. Is that your 
assessment?
    Secretary Gates. I'm convinced everybody in the process 
feels that way. One of the things that was clearly an issue, 
and one of the concerns that I had, coming out of the March 
decisions, was that they were interpreted very broadly, in the 
press and elsewhere, as a commitment to full-scale nation-
building and creating a strong central government in Kabul. 
There was understandable skepticism over such broad objectives, 
and it sounded very open-ended. So, one of the principal 
components of the dialogue over the last 3 months was: How do 
we refine and narrow the mission to make it achievable, and 
achieve the objectives, in terms of our own security?
    Senator Reed. Mr. Secretary, some of the criticism of even 
talking about a date--regardless of whether it's a hard 
unconditional withdrawal as in Iraq, or the proposal of the 
President for Afghanistan--is that it would embolden the enemy, 
on one hand, or, on the other hand, they would lie low and wait 
us out. It strikes me that the Taliban has been emboldened 
quite aggressively over the last several years without any type 
of deadline, and if they sit it out, what will you do if they 
simply gave up the operational space to us for 18 months or 2 
years?
    Secretary Gates. We certainly would welcome them not being 
active for the next 18 months because it would give us open-
field running, with our allies and the Afghans, to build 
capacity. I think, as you make the point, we are already in a 
situation in which they are emboldened and in which they are 
being aggressive and where they have the momentum right now. 
It's not clear to me what more they could do than they're doing 
right now. The forces that we're sending in are intended, in 
the first instance, as the Admiral has said, to reverse that 
momentum and deny them the ability to control territory.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. I thank all of you for all your 
presentations this morning and for your service to the Country.
    We only have one Commander in Chief, and I want to be 
supportive. I think this plan is within the framework of 
something I think can be effective. I intend to support you and 
examine it as we go forward to make sure that we're fulfilling 
our role here in Congress to provide oversight and our 
responsibility to our constituents. I want to thank you for 
your presentations.
    Secretary Gates, we talked earlier this year about too-
grandiose expectations for a country that has as many 
difficulties and is as poor, such as with Iraq or Afghanistan, 
and you recognized that in your answer to our questions. I'd 
like to pursue that a little bit. That is, what can we 
realistically expect? How can we create stability and order in 
Afghanistan as soon as possible so that we can reduce our 
troops as soon as possible from that country?
    Most of the talk I've been hearing, and in your statements, 
indicate a commitment to ANA, which I assume is commanded and 
directed from the central government in Kabul. But, you did 
indicate in your statement that you would want to engage 
communities to enlist more local security forces to protect 
their own territory. I heard former National Security Advisor 
Brzezinski this morning on television talk about the need for 
local militias. I saw former President Musharraf from Pakistan 
in his op-ed in the Wall Street Journal saying that Afghans, 
for centuries, have been governed loosely, through a social 
compact between all the ethnic groups under a sovereign king. 
So, again, how do you envision making progress to transitioning 
to local security forces? To what extent must those forces be 
directly accountable to Kabul, and to what extent can they be 
local?
    Secretary Gates. There is a balance that we have to strike, 
and we do. I have felt, ever since I got this job, that we have 
been too focused on the central government in Kabul, and not 
enough on the provinces, the districts, and the tribes. The key 
here is community security organizations that are willing to 
work with the government in Kabul and that do not become the 
militias for warlords.
    The balance we're trying to strike, and what General 
McChrystal cares about a lot, as does everybody else, is: How 
do we encourage these local policing functions? Some of the 
efforts I've seen at work in Wardak Province, where they 
recruit locals. The tribal elders are telling me the roads that 
have been closed by the Taliban for years have been reopened by 
these local groups, but they are within the framework of the 
provincial governor and the district leadership, so that 
they're not operating independently or working for warlords. 
Figuring out how to encourage that kind of activity and build 
on it, but keep it within the framework of people who are in 
governing positions and not just independent warlords, is the 
key to that effort.
    But, that kind of subnational subprovincial effort, I 
think, ultimately will play an important role in all of this.
    Senator Sessions. Of course, the National Guards are an 
example. Every State has a National Guard, and the Governors 
still appoint the commanders of those National Guards in 
America. I think there is a sense of loyalty and fierce 
commitment to local areas in nations like Afghanistan that we 
may not be fully respecting. I think you're on the right track 
with that thought.
    One of the generals whom I met in the Pentagon recently had 
a picture of one of the local officials on his wall, and he was 
very impressed with him. A very strong leader who was doing 
good work. I'm not sure how well he would perform if he thought 
that everything had to be run through the national government.
    Secretary Gates. I would just add, Senator, I think that 
one of the keys here is, in a country that is as rural and as 
tribal as Afghanistan, I think one of the challenges in 
recruiting people for the ANA and the ANP is getting them to 
leave their local area. That's why I think these local security 
activities, if we can work with the Afghans to keep them within 
a governance model, have such promise because these guys are 
basically protecting their own turf.
    Senator Sessions. I couldn't agree more, and they can be 
paid what, for them, would be a good wage, but far less than it 
would cost to have an American soldier there.
    Mr. Secretary, I regret to have to raise the problem with 
the tanker competition. I notice the Northrop Grumman team has 
announced a concern so great that they are announcing they may 
pull out from the competition.
    A number of serious changes were made in the Request for 
Proposal (RFP), each one of those tilted against a 
transformational aircraft, tilted against a larger aircraft, an 
aircraft that could provide more cargo capacity and other 
capabilities. The RFP was received with great concern by the 
Northrop team because it's quite different from the original 
RFP. There's no doubt about that. All the change is tilted in 
the way I've mentioned.
    So, my question, briefly, to you is: Do you believe that 
competition is important in this aircraft for DOD and the 
warfighter? Will you consider discussing some of these matters 
and be open to changing an RFP if it's not fair and does not do 
the job that you need for DOD? Or has a final decision been 
made, given the entire process of discussion has produced no 
alteration to make absolutely no changes in the tentative RFP 
that's out there?
    Secretary Gates. We promised a fair and highly transparent 
process. We believe that the RFP is evenhanded. We are in a 
comment period, and we have received a lot of comments, both 
from the competitors and from Congress, as well as others. The 
comment period is coming to a close. If we were totally locked 
into not changing anything, we wouldn't have gone through the 
comment period. We will look at the comments that have been 
made and make a judgment at that point. We believe that both of 
the principal competitors are highly qualified, and we would 
like to see competition continue in this process.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Sessions. Thank you.
    Chairman Levin. Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Madam Secretary, Mr. Secretary, Admiral, thank you for your 
public service and for your continued public service.
    During the 1970s and the 1980s, I had the privilege of 
serving with Congressman Charlie Wilson in the House of 
Representatives. Mr. Secretary, I am so happy to see in your 
statement, and I quote you, ``We will not repeat the mistakes 
of 1989, when we abandoned the country only to see it descend 
into civil war and then into Taliban hands.''
    It was Congressman Charlie Wilson at that time who 
singularly had been, in large part, responsible for us getting 
into Afghanistan in the first place and fought us getting out. 
So, thank you for stating the United States policy as strongly 
as you have.
    Now, I'm going to ask you and Secretary Clinton a couple of 
questions that I think are for the long term. Other than the 
policy that was announced last night by the President with 
regard to the military activities, for the long term, we have 
to integrate the military with the other agencies of government 
to help stabilize the country. For example, Congress has 
provided our commanders in the field with the Commanders 
Emergency Response Program (CERP) to quickly initiate 
reconstruction projects and provide immediate assistance to the 
Afghan communities after they've actually finished their 
combat. But, we don't seem to have done a great job in 
answering how we move from the post-conflict reconstruction 
projects, often overseen by the military, to the long-term 
development projects overseen by civilians? I wish you all 
would address how DOD and DOS are working together to make that 
transition for the long term in Afghanistan more seamless.
    Secretary Clinton, DOS has undertaken a major review of 
U.S. assistance programs, including agricultural assistance, 
particularly with regard to malnutrition as well as alternate 
livelihoods to growing poppies in Afghanistan. The United 
States has tended to favor large development contracts using 
third-country nationals instead of investing in the Afghans 
themselves, the grassroots efforts that employ Afghans, and 
therefore providing them with the skills and assistance to get 
their crops to markets. So, if you would share with the 
committee about your review of agricultural assistance, and how 
we're going to work to make it more effective as you and DOD 
work together, please.
    Secretary Gates. First I would say that this situation in 
Afghanistan has been, shall we say, personally of interest to 
me, having worked with Congressman Charlie Wilson back in the 
1980s, which was always an interesting experience.
    First of all, the specific answer to your question is, 
Ambassador Eikenberry and General McChrystal are, as we speak, 
working on their joint civil-military campaign plan, which I 
think will establish the basis for the kind of transition that 
you're talking about. But, I would tell you, one of the 
obstacles, at least in my opinion from observing, is that DOS 
does not have the kind of flexibility in the way that it spends 
money, and the ability to do so quickly and make commitments 
quickly and have agility because of the number of restrictions 
and processes that they have to go through with respect to 
their funds. Frankly, I think one of the things that the CERP 
funds have taught us, both in Iraq and Afghanistan, is that 
that kind of flexibility and agility has been a huge asset for 
the United States in both places.
    Secretary Clinton. Senator Nelson, let me start by saying 
that it's been a real privilege working with Secretary Gates 
and DOD in trying to figure out how to have a more integrated 
civilian-military strategy. Secretary Gates has been one of the 
best advocates that DOS and the U.S. Agency for International 
Development (USAID) have for increasing our funding, our 
personnel, our flexibility and agility, so that we do have the 
resources and capacity to be quickly responsive.
    What we have done in the last 10 months is, number one, to 
investigate very thoroughly what was on the ground in 
Afghanistan, and we didn't particularly come away impressed. As 
I said in my testimony, there were a little over 300 civilians. 
Many of them were on 6-month rotations. If you looked at their 
in-country time, a lot of them spent time out of the country. 
They did not have well-defined missions. Most of our civilian 
aid going into Afghanistan had been contracted out without 
adequate oversight or accountability.
    We stopped all contracts going into Afghanistan. We began 
doing a complete scrub of them. I'm not saying that we have yet 
perfected our oversight, but we have been working very hard to 
improve it dramatically.
    We are strongly supporting the Special Inspector General 
for Afghanistan Reconstruction (SIGAR). We would like to 
actually learn from the mistakes that are being made and in a 
timely way, rather than waiting, as we did in Iraq, and then 
being told that we've wasted tens of billions of dollars, which 
is just unacceptable.
    We also began to recruit civilians who were well suited for 
the jobs we needed. There was a tendency in the past, for both 
Iraq and Afghanistan, to basically tell Foreign Service 
Officers, Civil Service Officers, in both DOS and USAID, that 
if they went, spent their 6 months in one of those two places, 
they would have an advantage in getting the best assignment 
next. So, if you wanted to end up in Paris, you'd go to Baghdad 
for 6 months, whether your particular expertise and experience 
was needed or not.
    So, we have painstakingly, under the leadership of Deputy 
Secretary Jack Lew, actually matched each individual to the job 
that was required. We will triple the numbers that we have on 
the ground by early January. We've also required all of our 
civilians to train at Camp Atterbury in Indiana, where our 
military Provincial Reconstruction Team (PRT) members train, so 
that we can, from the very beginning, start integrating our 
civilian-military forces.
    I think that we're learning a lot of lessons as we go, but 
you put your finger on one of our biggest problems. The CERP 
funds that are accessible to our military forces, both in and 
immediately after combat operations, are a tremendous tool for 
doing projects and for winning allegiance. It's even being 
used, as it was in Iraq, for enticing people off the 
battlefield. There's nothing comparable on the civilian side. 
We have to requisition money, we have to wait. A young captain 
can access CERP funds in a matter of hours; an experienced 
agricultural specialist, a rule-of-law specialist, has to wait 
weeks, if not months, to get a project approved.
    So, if we're going to be successful, and if we're going to, 
frankly, be the kind of partners that our military needs, we 
have to have more tools. We're getting more resources, but the 
budget situation is going to be very tight, as everybody knows, 
and whether our civilian personnel will have the resources they 
need to be the partners they are required to be is going to be 
challenging.
    We will come with a very specific set of tasks, but your 
question really goes to the heart of what we are trying to 
achieve.
    The final point I would make is that we have civilians in 
DOS and from USAID serving all over the world in very dangerous 
settings. They are in war and conflict areas, like Eastern 
Congo, without any security support. When we have our troops on 
the ground, as we do in Iraq or in Afghanistan, we try to take 
even additional measures to make sure that our people can get 
around. But, as Senator McCain said, it's very difficult 
because of the security situation.
    What we are doing is partnering more by embedding our 
civilians with our troops. That carries a mixed message, as you 
might guess, because we're trying to have a civilian face on 
it, but we have to have enough security to function.
    This is a highly complex assignment. We send individuals on 
the civilian side; DOD sends units, battalions, brigades. We 
are trying to do something that's never been done before, and 
we need the advice, the help, and the resources that are 
required.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Since we have to be successful at the end of this trial 
time, we'll look forward to that appropriation request, Madam 
Secretary, and see if we can act expeditiously on it.
    Thank you.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman. Thank you, to 
all three of you, for your leadership at this very critical 
time in the history of the world, not just our country.
    Secretary Gates, I thought the President did a good job 
last night of laying out the scenario as well as the way 
forward. However, having just heard your opening statement, I 
thought you were much stronger, even much more powerful, and I 
hope that you will carry the message you brought to this 
committee to our friends in Afghanistan as well as Pakistan 
because, as you said, the perception among the Pakistanis has 
to be that we're going to be there. The perception among the 
Afghans has to be that we're going to stay there for the long 
term. Otherwise, as one of the Taliban commented in the Afghan 
press when I was over there last week over Thanksgiving, that, 
``If the President comes out and says that, `In 2013, the 
United States is out of here,' then we're going to sit back and 
just wait until 2013.'' We all know that's the case. So, you're 
exactly right, and I do truly hope that you will take that 
message to our folks in both Afghanistan and in Pakistan at the 
leadership level.
    Admiral Mullen, you made a comment that I want to drill 
down on for just a second. You said we will know by mid-2011 if 
we're going to be successful. Now, let's assume that we are 
being successful, that General Carter is doing well down in 
Regional Command (RC)-South, that General Scaparotti is doing 
well in RC-East, moving against the Haqqani Network, and that 
the Pakistanis are stepping up in a greater fashion and helping 
us out.
    What does this mean, with the President having said that 
we're going to start bringing our troops home in 18 months, but 
if we are successful, what does that mean with respect to 
bringing home the troops?
    Admiral Mullen. Senator Chambliss, I think you very 
accurately captured the overall situation. The Pakistanis have 
started to move; we have a new government with a newly-elected 
President in Afghanistan; we have great commanders on the 
ground in our leadership; we have an increased level of 
support, not just in terms of numbers, but, really, support 
from our NATO allies; and we have a very unpopular insurgency 
with respect to the Afghan people. I think there are great 
opportunities here over the next 18 to 24 months. One of the 
reasons it's so important, and to get these troops there is, as 
I've said before, to turn this insurgency around. General 
McChrystal believes, General Petraeus believes, and I believe 
we can do that over the course of the next 18 to 24 months. 
That will then provide an opportunity to start a kind of 
transition, as far as security responsibility and thinning of 
our forces, there. It's very difficult to know exactly what the 
conditions will be, but if we get this right, they'll be a lot 
better in the east and a lot better in the south, and provide 
us an opportunity to transition; which is why, on the other 
side, if we are unable to do that by then, I think we have to 
reassess our strategy.
    Senator Chambliss. So, what I'm hearing is that there is 
flexibility in that timeline, based upon success or lack 
thereof?
    Admiral Mullen. I think the timeline is clear. I think the 
flexibility is in where we transition and where we turn over 
responsibility. This is something we all understand, and we 
think we'll be able to do that. It's a little difficult to 
predict exactly where that's going to occur, right now.
    Senator Chambliss. Right.
    Secretary Gates. Senator, if I might just add because I 
appreciated your comments about the longer term. Now, what I'm 
about to state is just my opinion, because, frankly, this 
wasn't a part of our dialogue over the past 2 or 3 months, or 
not a significant part of it. But, in my mind I think that--
particularly if the Afghans want us to--we need to think in 
terms of a very long-term willingness to work with the Afghans, 
in terms of military training, in terms of equipping, the kind 
of long-term partnership we have with many countries around the 
world, where we have a certain military presence in that 
country, but--it's not a combat presence, it's a training-and-
equipping and that kind of a role--one where we are clearly 
seen as their continuing partner. That would be my personal 
opinion of how I would see this unfolding long-term, after our 
combat forces are principally gone from Afghanistan.
    Senator Chambliss. I appreciate that. My worry is, though, 
that the headline in the Islamabad press today is that, 
``President Sending 30,000 Troops; They're Coming Out in 18 
Months.'' That's why I think what you are saying is important. 
You carry your message--all of you--of exactly what we mean by 
that 18 months.
    Secretary Clinton, I have not always been a fan of the work 
that USAID has done, but I've been in Afghanistan--not just 
last Thursday, but about 6 months ago also--and had the 
opportunity to visit with your folks. I have to say that 
they're doing an amazing job over there, with respect to 
educating children--we've gone from 900,000 to 6 million 
children in school--and we still have another 6 million to go. 
But, it's because, in my opinion, of what USAID has done, and 
with the security that's been given by the military, that we 
are seeing those children educated, which, for the long term, I 
think is the biggest issue that we have.
    Now, we assumed the other day that we knew what the 
President might say, and he did call for a surge. When I told 
your folks that, while we're surging troops, there also needed 
to be a surge on the civilian side. You have indicated that 
you're plussing-up those folks; that is the same thing DOS told 
us the other day.
    But, I worry about what's going to happen in 18 months. 
Because security in Afghanistan has to be the way forward, not 
just from the military standpoint; your folks on the ground, 
DOS civilians, have to have security in order to be able to 
improve the lives of the Afghans.
    I'd just like your comment on whether or not you think the 
levels you're talking about are enough. Are you going to ask 
for more resources, for more people? Where do you see the way 
forward?
    Secretary Clinton. Senator, thank you for those very kind 
words, which are so well-deserved by our people on the ground 
in Afghanistan and elsewhere. They are really responding to the 
mission and working extremely hard; but, of course, they have 
to do so within a secure environment.
    Our civilians are out around the country. They are also, of 
course, in Kabul, working with government ministries. USAID is 
certifying ministries, so we can determine which ones are 
accountable and transparent enough to receive additional funds 
from us. They are truly working at all levels of the Afghan 
Government and in many sectors of society. But, security is a 
key element as to whether they can be effective. Now, a lot of 
our civilian workers are veterans of other very difficult 
security environments; they are willing to go places that a lot 
of folks are not, and I give them great credit for that. I 
think we just have to come to you with our best estimate as to 
what will be required to have the kind of civilian surge you 
just referred to, because, as we put additional troops in, we 
want to have more civilians embedded with them, we want to have 
them right there, on the ground when combat is over, to begin 
the building process and partnering with their civilian 
counterparts. We are tripling the number that we found when we 
got there, and we're changing their mission and requiring much 
more of them. But, the numbers are going to have to grow if we 
expect to deliver on what is required.
    Senator Chambliss. You have an amazing PRT down in Lashkar 
Gah; they're doing great work.
    Secretary Clinton. Thank you.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Let me add my appreciation to the three of you for your 
continuing service, as well.
    I've been a long-time advocate for benchmarks or 
measurements to develop in the conduct of our missions, so we 
can measure progress and continue to be objective while 
engaging the efforts in Afghanistan-Pakistan. I know this 
administration is committed--our allies--are committed to 
proffering these objective benchmarks.
    Are we in the process of developing new benchmarks in 
connection with the new mission so that we can determine 
whether we're 25 percent towards achieving certain goals, 50 
percent, or a lot more needs to be done? If we are in the 
process of doing that, will we be in a position to change the 
benchmarks as things develop on the ground?
    I'll start with you, Secretary Gates.
    Secretary Gates. The answer is yes. I mentioned earlier 
that the President has made it clear that there will be another 
thorough review in a year, in December 2010, but we have 
developed some clear benchmarks, in terms of not only the 
security arena, but in terms of ANSF recruitment, retention, 
fielding, partnering, and so on. The President made it pretty 
clear and, I think, mentioned to the congressional leadership 
yesterday, that he's expecting to get monthly reports on how 
we're doing against these. We also have benchmarks on the 
civilian side, as well.
    Secretary Clinton. Senator Nelson, our civilian, military, 
and intelligence agencies have all developed a range of 
benchmarks, and they're in a constant process of being refined. 
As Secretary Gates said, we're going to be looking to report on 
those going forward.
    The military has their own benchmarks, but, as Admiral 
Mullen referenced, we have taken a much closer look at 
districts, who controls what, what the capacity of governance 
is, whether there's a shadow government, how much of national 
sovereignty can be asserted. We're looking at those kinds of 
yardstick measurements on the military side.
    On the civilian side, a lot of it depends upon our 
assessment of where we're starting. As Senator Chambliss said, 
when President Karzai took office, there were a little less 
than a million students in school, and they were virtually all 
boys; now there are 7 million, and about 40 percent are girls. 
But, there are 5 to 6 million yet to go. So, that's a very 
clear benchmark.
    In the agricultural area, we've already rehabilitated 
irrigation canals and we've worked closely with the 
agricultural ministry. We helped them, as did other 
international donors with whom we coordinate, to provide 
heartier seeds so that they had a bumper wheat crop. They just 
had their first big shipment of apples and pomegranates to 
India. We are supporting their acquisition of better fertilizer 
and farm equipment. So, again, there are measurable benchmarks. 
How much is the agricultural economy improving? How many people 
are employed? What is the relationship between a lower poppy 
crop and a higher crop of licit goods?
    We are working with governance and rule-of-law challenges, 
as well.
    So, in each of these areas, we have realistic expectations, 
we are trying to have good measurements, and we will be 
carefully following that to see what kind of progress we're 
making.
    Senator Ben Nelson. I appreciate that. I think that is 
critically important for not only determining how we're doing, 
but also, I think, in keeping the support of the American 
people, in seeing that progress is, in fact, being made, and 
where it isn't, that a plan is now in place to try to change 
the direction.
    In that connection, do we have any specific ideas about how 
to assist President Karzai in rooting out--if we can be of 
assistance in that--the corruption within the government? It's 
one thing to tell them that stopping corruption is what needs 
to be done; it's another thing to expect it to be done. Can we 
be of assistance, which I think probably would assure us of 
some success?
    Secretary Clinton. Senator Nelson, we have made a number of 
requests of the Karzai Government. Obviously, who is put into 
the cabinet, who are named as governors, and those who hold 
other responsible positions are key to everything that happens 
going forward.
    We have focused our efforts in four areas. First, to 
enhance law enforcement cooperation. When I talk about the 
civilian work that is being done, I don't want just to talk 
about DOS and USAID. We have a lot of very experienced 
officials from the Drug Enforcement Agency, from the Federal 
Bureau of Investigation, from the Department of Justice, as 
well as places like USDA. We are enhancing intelligence-sharing 
and cooperation on corruption and major crime.
    Second, we are certifying Afghan ministries, and there are 
some ministries that we believe are functioning well enough now 
that we can, with confidence, provide funding and hold their 
leadership accountable; others we're not going to touch until 
they're cleaned out. They're not getting any U.S. civilian 
assistance.
    Third, we want to strengthen SIGAR. We are asking for 
additional resources on the ground with auditors because we 
want realtime reports.
    Fourth, we are supporting the Major Crimes Task Force 
(MCTF) and other Afghan anticorruption efforts. The MCTF is a 
vetted Afghan unit supported by U.S. and British law 
enforcement officials. It's focusing on corruption as part of 
its mandate. It's recently charged several Afghan officials, 
and others are under investigation.
    Ultimately, it's up to the Afghans to end corruption, and 
we have an expectation of that. We have no illusions that this 
is going to happen easily or quickly, but we know how important 
it is to be working to try to root it out.
    Secretary Gates. I would just add, Senator, that I think we 
have to be honest with ourselves that the massive influx of 
money into Afghanistan that comes from ourselves and our 
international partners is a huge factor in this, or at least a 
significant factor. As Secretary Clinton has suggested, I think 
we need to go back and look at how we are dispensing money and 
how we are contracting and so on. The subject, I know, is near 
and dear to Senator McCaskill's heart. But, how can we leverage 
the areas where we're writing the checks into minimizing the 
opportunities for that money to be siphoned off on its way to 
the purpose we intend?
    Secretary Clinton. Senator Nelson, if I could just add, 
because Secretary Gates raised an issue that is connected with 
this, and that is our contracting processes, something that 
Senator McCaskill is focused on. Think about the long supply-
chain lines that we have getting into Afghanistan. When our 
equipment, our food, everything that our troops use, our 
civilians depend on, largely comes from the outside; when a 
ship docks at Karachi, and the goods get loaded onto trucks, 
and then the trucks start that long trip through Pakistan, up 
into Afghanistan. It's a very difficult environment to operate 
in. There's a lot of evidence that, in addition to funding from 
the Persian Gulf and the illegal narcotics trade, that 
siphoning off contractual money from the international 
community--not just in terms of outright fraud and corruption, 
but also intimidation and extortion--is a major source of 
funding for the Taliban. We just have to be honest, here, about 
how complex and difficult this problem is, and how, frankly, it 
is not all an Afghan problem.
    Senator Ben Nelson. Thank you very much.
    Chairman Levin. Thank you.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Thank you all for coming. I know it's been a difficult 
process you've been involved in.
    As you were debating what to do, did all of you realize 
this is the last best chance America has to get it right in 
Afghanistan?
    Secretary Clinton. Yes, sir.
    Secretary Gates. Yes, sir.
    Admiral Mullen. Yes, sir.
    Senator Graham. Okay. Politically, militarily, and 
otherwise?
    Secretary Clinton. We also realized how sad it was that we 
were trying to make that decision 8 years later.
    Senator Graham. Yes, ma'am. It is sad. It would have been 
sad to have lost in Iraq. It would have been devastating.
    Secretary Clinton. We'll talk about that offline sometime.
    Senator Graham. There you go. [Laughter.]
    We're talking about the future now. We're talking about 
winning, I hope.
    Please rank the consequences of a failed state in 
Afghanistan to our national security interest, 1 being 
inconsequential, 10 being grave. Where would you put a failed 
state in Afghanistan, in terms of our national security 
interest?
    Secretary Clinton?
    Secretary Clinton. Senator Graham, I would put it at a 10. 
I think a failed state that is totally lawless, that is a safe 
haven for terrorists, particularly the syndicate of terrorism 
headed by al Qaeda, poses a direct threat to the security of 
the United States of America.
    Senator Graham. I think that does it. Do both of you, 
Secretary Gates and Admiral Mullen, agree with that? [Both 
answered in the affirmative.] Okay. I think that is a good 
evaluation. As to those who criticized the President, I think 
all 3 of our witnesses are right; he did this because he 
realized it was a 10, too, I hope. I'm sure he did.
    The July 2011 withdrawal statement--Secretary Gates, who is 
the audience for that statement?
    Secretary Gates. I think that there are at least two 
principal audiences. One audience--and a very important one--is 
the Afghan Government, that they must accept responsibility, in 
terms of their own governance, in terms of their own security 
forces, in terms of accepting their responsibility and 
understanding that they must take ownership of this conflict on 
their own soil, that it's not just going to be fought by 
foreigners on their behalf.
    Senator Graham. Okay.
    Secretary Gates. I think the other audience, frankly, is 
the American people, who are weary after 8 years of war, and to 
let them know this isn't going to go on for another 10 years.
    Senator Graham. But, there are other people listening, and 
I guess that's my problem. I can understand the frustration of 
the American people. We've been here 8 years, and it seems to 
be that it's not working out the way we would all hope. I can 
understand that. But, I can't understand letting Afghanistan go 
back into the abyss again. That's my dilemma.
    In December 2010, you will begin to evaluate Afghanistan 
anew, is that correct? Check our progress?
    Secretary Gates. We're going to have a continuing process, 
but there will be a full-scale reevaluation of where we stand 
in December, yes.
    Senator Graham. My question is, will the evaluation 
decision be how fast we withdraw or whether or not we should 
withdraw?
    Secretary Gates. I think it'll be principally about whether 
the strategy that we've put in place is working.
    Senator Graham. Is it possible, in December 2010, to reach 
the conclusion, ``It is not wise to withdraw anyone in July 
2011?'' Is that possible?
    Secretary Gates. I think the President, as Commander in 
Chief, always has the option to adjust his decision.
    Senator Graham. So, it is not locked in that we're going to 
be withdrawing troops in July 2011; we're going to look, 
throughout the process, particularly in December 2010, and make 
a decision then as to whether we should withdraw at a certain 
pace or not withdraw at all. Is that correct?
    Secretary Gates. I guess the way I would phrase it is that 
it is our plan to begin this transition process in July 2011. 
If circumstances dictate in December, I think, as I say, the 
President always has the freedom to adjust his decisions.
    Senator Graham. Okay.
    Admiral Mullen, is it your understanding that it's 
possible, in December 2010, not to begin to withdraw in 2011?
    Admiral Mullen. Yes, I'd reiterate the President has 
choices, as the President.
    Senator Graham. So, his statement last night did not bind 
him to start withdrawing in 2011. That's the understanding of 
this panel?
    Secretary Gates. I'd defer to Secretary Clinton, but I 
think it was a clear statement of his strong intent.
    Senator Graham. Right. I understand why he'd want to let 
the American people know that we're not going to be there 
forever, but this is a critically important event. I think that 
the success of this operation depends on will and resolve, and 
I just don't want the July 2011 statement to be seen by our 
enemy, which is not one of the audiences you mentioned, which I 
think are listening, that we have somehow locked ourselves into 
leaving.
    The question is, have we locked ourselves into leaving, 
Secretary Clinton, in July 2011?
    Secretary Clinton. Senator Graham, I do not believe we have 
locked ourselves into leaving, but what we have done--and I 
think it was an appropriate position for the President to 
take--is to signal very clearly, to all audiences, that the 
United States is not interested in occupying Afghanistan.
    Senator Graham. Right.
    Secretary Clinton. We are not interested in running their 
country or building their nation. We are trying to give them 
the space and time to be able to build up sufficient forces to 
defend themselves. It is the best assessment of our military 
experts, as evidenced by Secretary Gates, Admiral Mullen, 
General Petraeus, General McChrystal, and others, that by July 
2011, there can be the beginning of a responsible transition 
that will, of course, be based on conditions.
    Here's what the President said, ``Allow us to begin the 
transfer of our forces out of Afghanistan in July 2011. We will 
execute this transition responsibly, taking into account 
conditions on the ground.'' To me, that is exactly the 
appropriate approach for the President to take. As Secretary 
Gates has said, the President's authority and his 
responsibility as Commander in Chief require him to be 
constantly assessing the situation, which he will do.
    Senator Graham. Thank you. My time is up, but I would just 
like to remind everyone there is another audience that wasn't 
mentioned by Secretary Gates. It's the enemy. They have a vote 
in this war. They are a participant in it.
    Finally, the last question, if you could, Secretary Gates 
and Admiral Mullen, would you grade NATO in terms of their 
effectiveness as a fighting force over the last several years?
    Secretary Gates. I think that it varies from country to 
country, Senator.
    Admiral Mullen. Senator, they have bled and died.
    Senator Graham. I know they have, but would you give them 
an A to an F? How is NATO as an effective fighting force, an A 
to an F? Not just part of it, all of it.
    Secretary Gates. Senator, in all honesty, I don't think any 
good purpose is served by doing that. I would say that those 
who have been fighting with us in the south: the Australians, 
the British, the Dutch, the Danes, the Canadians, the Poles, 
I'd give them all an A.
    Senator Graham. Great.
    Chairman Levin. Thank you, Senator Graham.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Let me begin by again communicating my respect for all 
three of you for the service that you have given our country, 
and for the good of our country, in a lot of different ways. I 
also respect the process that this administration has gone 
through, with you and others, such as National Security Advisor 
General Jones, in terms of trying to work out what you may call 
the ``best possible formula,'' perhaps it's the most realistic, 
in your view. There's not a lot of good in the options that are 
available in that part of the world.
    There's been a lot of time spent on the notion of the dates 
that were mentioned in the President's speech. I would prefer 
to focus, as I have in the past, on the conditions that might 
bring about an endpoint to our involvement. I would like to see 
an endpoint, and this is something that you can expect to hear 
more on, from our perspective, over the coming months. What 
exactly is going to bring about the conditions under which we 
can end our involvement?
    There's also been a good bit of discussion about the nature 
of the Karzai Government and issues such as corruption. I would 
like to defer a dialogue on that until tomorrow; I'm on the 
Senate Foreign Relations Committee. I would like to address 
this tomorrow. I think perhaps we may reach a point where we 
might encourage the Afghanis to examine their constitution that 
was arrived at, at the Bonn Conference in 2001, to try to 
enable a greater devolution of this government, so you can get 
into issues such as local authority and corruption at a local 
level.
    Where I really would like to spend my time today is how we 
are separating out who actually should be confronted as an 
enemy on the battlefield. As all of you know, a defining 
characteristic throughout the history of Afghanistan has been 
its resistance to foreign influence, particularly foreign 
occupation, and I would say, very successful resistance. When 
we talk about the Taliban, we're talking about terms that we 
use interchangeably, but which aren't particularly 
interchangeable. We had a pretty vicious Taliban Government, 
which we assisted in getting rid of. We have an ideologically 
charged group right now that operates principally in Pakistan, 
which is associated with the forces of international terrorism. 
Then, we have a third group which many believe is a group that 
is growing with the greatest speed and that from the 
perspective of many Afghanis, is ideological only in the sense 
that it resents our presence, and is not viewed as a terrorist 
organization, specifically, or even aligned with terrorist 
organizations. It's viewed by many in Afghanistan as a popular 
movement, who doesn't like a central government and whose size 
can actually be elevated, its recruitment process can be 
increased, by the wrong application of American force.
    In that respect, rather than being an element that is 
aligned with international terrorism, it is viewed by many 
Afghanis as something of a regional militia that doesn't 
particularly want to threaten U.S. interests outside of 
Afghanistan. I would like to hear from you, and I'll start with 
Admiral Mullen, but I invite anyone who wants to contribute, 
how were these distinctions, in terms of history and in terms 
of participation, made as you developed the policy that was now 
announced?
    Admiral Mullen. The citizens of Afghanistan are a people 
very tired of war. They are very much waiting on the fence to 
see which way this is going to go. All the information I've 
gotten, both personally when I've been there as well as from 
the commanders on the ground, indicate not only are they tired, 
but they're not very supportive or not supportive at all of the 
Taliban. It's a very small percentage that is supportive. I'm 
talking about the last group, more specifically.
    We believe there's a large percentage of that group, 
Taliban sympathizers, which can be reconciled and reintegrated 
with the right approach.
    The other thing, in a larger sense, that I've watched over 
the last couple of years, which is of growing concern, is the 
collaboration of the Taliban. I understand that they can have 
somewhat ideologically different perspectives, but they have 
come together in ways that actually are hugely concerning to 
me, on both sides.
    Senator Webb. Since my time is running out, I want to seize 
on something you just said, because I think it's a very 
important clarification that you can make here. If those are 
people who can be brought over to our view, and if we're having 
trouble recruiting on the ANA, which we seem to be, while the 
size of this resistance element seems to be growing, how are 
you making the distinction, in terms of operational policy that 
would give them reason to change their affiliation?
    Admiral Mullen. If I understand your question correctly, 
it's really done through direct engagement at the local level. 
We've seen, very recently, numbers of them say, ``No, I don't 
want to do this anymore.'' But, as I think you understand as 
well as or better than anybody, we have to have a secure 
environment in which they can do this. We don't have that in 
many places.
    So, General McChrystal and others are actually very 
optimistic with respect to doing this, but we can't do it 
without a level of security we just don't have in many of these 
places.
    Senator Webb. So, you do have an optimism that, over time, 
these are people who, and despite the characterization that we 
presently use, can be convinced to affiliate with the national 
government?
    Admiral Mullen. Yes, I do, I think they can.
    In the end, I think the only way that we're not going to 
occupy them is to not occupy them. That is a challenge that we 
are, over time, committed to not doing that. The President 
spoke to that last night. But, that's a message, obviously, we 
have to deliver in fact, not just speaking to it, and to give 
them responsibility for their own security. There's a big part 
of the strategy that focuses locally--the Secretary talked 
about it earlier--to not turn it back into warlordism. That's a 
very delicate balance. But, the commanders on the ground that 
I've engaged with are comfortable that this is very possible.
    Chairman Levin. Thank you.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Secretary Clinton, welcome back to the committee. Secretary 
Gates and Admiral Mullen, thank you very much for your service.
    I think there's already been some discussion about the ANP 
and ANSF, at least in terms of the numbers. I'm interested in 
knowing how analogous the situation there is with the training 
and equipping of the ANSF to Iraq, and just in terms of their 
capacity to take over battlespace, and how that fits in with 
the timeline that you have laid out. What made the Iraq surge, 
I think, so effective, along with the counterinsurgency 
strategy there, was that the Iraqi Security Forces eventually 
were able to step up and provide security for the population. 
Do you see parallels there? How quickly might we expect that 
capacity and capability to grow?
    Admiral Mullen. I think, Senator, it's very much tied to 
the momentum piece, which is going against us right now. 
Turning this momentum around in a positive way makes a lot of 
things possible, including improved retention, improved 
recruiting, reduced attrition, and a much better overall ANSF. 
That's why the security piece and the momentum piece are so 
critical.
    There are many analogies, I think, that are comparable 
between both Iraq and Afghanistan. We're very concerned about 
creating midgrade leaders, junior leaders, as well as officer 
leaders, in both the ANA and ANP. That was a significant 
challenge in Iraq. It is more so on the ANP side than on the 
ANA side. Again, the same was true in Iraq. In fact, it was 
really late 2007 before the police in Iraq really started to 
step out and the leadership was there.
    I think we have to be careful with comparisons. This is a 
force that's been around. Certainly on the ANA side, they've 
been in the fight, they've been in the fight a long time, and 
they're good warriors. They have taken to this partnership 
approach that General McChrystal has put in place. So, I think 
there's a lot of potential there. There are similarities and 
there are differences, and we're trying to take advantage of 
those lessons to integrate those into an accelerated training 
and equipping plan right now for them.
    Senator Thune. Last night, the President said that we will 
support efforts by the Afghan Government to open the door to 
those Taliban who abandon violence. General Petraeus has 
previously indicated that we lacked the nuanced and 
sophisticated understanding of the Taliban to identify and 
distinguish between reconcilable and irreconcilable elements of 
the Taliban. My question is, how do we go about reliably 
identifying the reconcilable elements of the Taliban?
    Secretary Clinton. Senator, there are several efforts 
already underway to answer the questions that General Petraeus 
and others have posed. As you might know, General McChrystal 
has asked General Lamb, a retired British general who was 
instrumental in the work that was done in Iraq, to come to 
Afghanistan to advise him. The Afghans themselves, led by 
President Karzai, have a pretty good idea of who they think 
can, if persuaded, be reintegrated.
    But, this is very much a case-by-case effort. There are 
certain aspects of it that we are very insistent on. One, that 
they have to renounce any ties to al Qaeda, they have to 
renounce violence, and they have to be willing to reintegrate 
into Afghan society in a peaceful way.
    We know that some of the Taliban will not renounce al 
Qaeda; they are too closely interconnected. We know that 
others, who call themselves ``Taliban,'' want to have a 
continuing means of acting in a military capacity, and we want 
them to have to give up their commitment to violence and, maybe 
join the ANA, if that's appropriate, or join one of the 
community defense initiatives. This is very painstaking work. 
We have very high expectations for who we would support 
reintegrating.
    Secretary Gates. Let me just add to that. I think that, 
here again, there may be some parallels with Iraq.
    First of all, I think that reintegration, particularly at 
the front end, is going to be retail, not wholesale. We will 
end up, as we did in Iraq, turning to local leaders that we 
have confidence in who will, in turn, then vouch for these 
people and who will essentially pledge their community to the 
reliability of these people that are willing to come away from 
the Taliban.
    A second point, we think that there's a fair percentage of 
the foot soldiers in the Taliban that basically do this for 
pay. So, creating economic opportunities as an alternative in 
order to support their families is another vehicle for this.
    Finally, to the Admiral's point, security is essential. 
There are too many examples of people who have tried to leave 
the Taliban themselves and all of their family have been 
killed. Until we can provide a secure environment, at the local 
level, that gives them some confidence they will not be 
retaliated against, it will be a problem.
    Chairman Levin. Thank you very much, Senator Thune.
    Senator Thune. My time has expired. Thank you, Mr. 
Chairman.
    Chairman Levin. Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I want to echo the comments of some of my colleagues, that 
I think the President is very fortunate to have the three of 
you, and our country is even more fortunate. I appreciate your 
service, and I appreciate how hard you have worked at coming up 
with the best answer among a list of very bad choices.
    It won't surprise you that I want to talk a little bit 
about contracting. I will tell you that we've made progress. 
When I joined this committee in 2007, no one could tell us how 
many contractors were in Iraq. There wasn't even a number 
available. We have made progress.
    Now I want to talk a little bit today, if I have time, 
about the Synchronized Predeployment and Operational Tracker, 
the database that we put in place to try to track contractors, 
and the problems that are arising about a lack of consistency 
between DOS, USAID, and DOD on how they're utilizing this 
database, and how much we can rely on the numbers. To the 
extent that we can rely on the numbers, we know we have, as of 
June, approximately 75,000 contractors in Afghanistan and 5,200 
private security contractors in Afghanistan. One of the stark 
differences between the contracting force in Afghanistan and 
that in Iraq is the predominance of Afghans in our contracting 
force; 50,000-plus of the contractors are Afghans and 5,000 of 
the 5,200 private security contractors are Afghans. It's not 
clear to me whether this has been purposeful or situational. I 
would appreciate if any of you could briefly address whether or 
not this is purposeful or situational.
    Secretary Clinton. Senator, I share the experience you just 
described, because in February, when I asked to see a list of 
all the contracts in Afghanistan, at that time we couldn't 
produce such a list. We have been trying to not only get a 
handle on the contracts, but trying to persuade contractors to 
employ more Afghans. I think what you referred to is probably 
both. I think it is, to some extent, a message, but it's also 
just the reality of who is there and what the mission requires.
    Clearly, what we're trying to do is review every single 
contract. We stopped every one until we had a better idea of 
what they were for and who they went to. We're trying to assert 
more DOS and USAID oversight, and that's why we asked 
Ambassador Tony Wayne to go to Afghanistan to run the civilian 
side. We have to do a better job coordinating with, not just 
our friends at DOD, but all the other government agencies. We 
really welcome your efforts, and we want to be as cooperative 
as we can.
    Senator McCaskill. Let's talk a little bit about the U.S. 
Army's Logistics Civilian Augmentation Program IV (LOGCAP IV). 
Good news: We competed it. Good news: We ended up with three 
different companies that are eligible for contracts under 
LOGCAP IV. Not as good of news: I think I understand the 
reality of why this probably occurred; we now have, instead of 
one monopoly on logistical support for our troops, two 
monopolies, in that we have given the contracts on a regional 
basis as opposed to a task basis. Fluor has gotten the north 
and DynCorp has gotten the south. They are not task-competing; 
they have, in fact, been selected, it's my understanding from 
the research we've done, to do everything in those regions.
    I understand the efficiencies you get by doing that, but 
what it really brings up again is the incredible importance of 
monitoring and oversight, because when you have one company 
doing all the work, even though it's not the whole contingency 
operation, it is certainly within the north and the south. What 
I am worried about is that there was testimony this summer that 
we had 600 oversight positions vacant in Iraq and Afghanistan. 
It wasn't clear from the testimony that was given at the time 
how many of those positions were in Afghanistan. But, are we 
plussed-up to where we need to be with oversight and monitoring 
of these logistical contracts that cost us way more than they 
ever should have cost us in Iraq?
    Secretary Gates. As is often the case with these things, 
you're probably better informed than we are. But, what I will 
tell you is, we do not have as many contract monitors in 
Afghanistan as we want. One of the things that I have 
mentioned, both at the White House and within DOD as we talk 
about 30,000 troops and so on, is, let's not forget about 
contract monitors, logistical experts, and so on, to make sure 
that we're doing this right. What I would like to do, Senator, 
is take your question for the record, and we'll get back to you 
on the number of vacancies we have for contract monitors in 
Afghanistan.
    Senator McCaskill. That would be great.
    [The information referred to follows:]

    Contracting Officer Representatives (CORs) in Afghanistan: CORs are 
trained and appointed to provide day-to-day oversight of Department of 
Defense (DOD) contracts. DOD has a broad-based, focused effort to 
identify and train CORs prior to deployment as part of our overall 
effort to improve oversight of contracts in support of contingency 
operations. DOD tracks required and assigned CORs on contracts in 
Afghanistan, especially given the coming surge in requirements in 
support of the Afghan theater. For example, contracts delegated to 
Defense Contract Management Agency for administration in Afghanistan 
currently require 473 CORs and have 414 CORs assigned for an 88 percent 
fill rate as of January 2009. Achieving 88 percent this month 
represents a 38 percentage point surge since September 2009. This rapid 
increase highlights DOD's ongoing efforts to improve contract oversight 
through the timely training and assignment of CORs.

    Admiral Mullen. Senator, if I can only add one thing. This 
goes back to your first question. In particular, I've asked 
this question in RC-East, of General Scaparotti and his people 
a few months ago, with respect to who gets contracts. There's a 
very specific effort there to hire Afghans first. That, I 
think, is represented in the numbers that you're talking about, 
which, to me, makes all the sense in the world. You obviously 
have to have somebody qualified. But to be able to put that 
kind of income into that country is really critical.
    Secretary Clinton. Senator, could I just add one other 
consideration that I wish we could take into account?
    There is an inherent tension between more monitoring, more 
auditing, more contract oversight, and the kind of flexibility 
and agility that we were talking about with Senator Bill 
Nelson's question. We have to figure out how to manage risk 
without being overly adverse to risk. We have to give our 
people in the field--and I'm talking just on the civilian side 
right now--enough discretion to be able to make smart 
decisions, and yes, maybe even make some mistakes, because they 
might have made an investment where it didn't pay off, but it 
was worth trying.
    It's complicated. We want to account for every single 
penny, but we also want to be sure we have enough flexibility 
to be smart as we try to do the job we've been given.
    I don't know what the answer to that is, but I'd ask for 
your consideration as we move forward so we strike the right 
balance.
    Senator McCaskill. I understand that tension, and it is a 
real tension. I think, unfortunately, the lesson learned in 
Iraq was that there wasn't enough of that tension. It was all 
about, ``We need it today. We need it tomorrow. We don't care 
what it costs. Get it here.'' Finding that balance is what 
we're talking about here. That's why the data being input 
correctly and why the oversight personnel are so important; if 
we don't have those, we never create that tension. That's my 
concern.
    My time's up, and I don't have time to go into CERP. I do 
think we need to take a hard look at CERP and whether it has 
morphed into something other than what it was intended to be, 
whether we're doing too many big projects. Are we monitoring or 
are we just obligating? I know we've executed about $1.6 
billion in CERP in Afghanistan since 2004. I think we need to 
continue to look at CERP.
    I'll do some questions for the record on the CERP funds 
since I don't have time in my questioning today. I will look 
forward to continuing to work on these issues with you and your 
great folks that are trying hard.
    Thank you again.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    Good morning, Secretary Clinton, Secretary Gates, and 
Admiral Mullen. I've not had the opportunity to talk to you 
about these issues because I'm a new Senator, but I appreciate 
that opportunity today.
    Let me say, first, that I want to join my colleagues in 
commending the President for his recommendation for the 
additional troops. I think it's the right thing to do. I had 
the opportunity to go to Afghanistan in late October and meet 
with General McChrystal and Ambassador Eikenberry and talk 
about these issues. I believe that the counterinsurgency 
strategy is the right tactic that we need for success.
    There's been a lot of discussion this morning about the 18 
months and what that really means. I appreciate the elaboration 
that was given.
    Let me ask you this question. In every plan, you hope for a 
successful ending, and you must have in your minds what that 
successful ending looks like. If we are able to meet the 
President's commitment to remove troops in July 2011, how do 
you envision success looking like at that time? Secretary 
Gates?
    Secretary Gates. Sure. First of all, let me just again 
underscore that what we were talking about in July 2011 is the 
beginning of what we expect will be a gradual process of 
thinning and reducing U.S. forces.
    I think the end state in Afghanistan looks a lot like what 
we see in Iraq, and that is the gradual transfer of 
responsibility for security to the indigenous forces in 
government and a security situation that allows us to drawn 
down our forces. We have gone from 20 brigades to what will 
soon be 10 brigades in Iraq. We have the agreements that we 
talked about earlier, in terms of combat forces being out at 
the end of the August 2010.
    What you will see, in my view, is a map, if you will, that 
changes colors in different places at different times, but 
increasingly in terms of the Afghan Government's control or 
control by local governments, district governments, and 
provincial governments that are associated with the national 
government and hostile to the Taliban and to al Qaeda. I think 
this gradual transfer of security responsibility, with a 
continuing role on our part as a partner for that country in 
the long-term, is what I would call success in Afghanistan.
    Senator LeMieux. To follow up on the questions of Senator 
Ben Nelson, in terms of benchmarking, do you have specific 
benchmarks that you have put in place for this next period, 
this 18-month period, when the withdrawal of American troops 
would begin, that would say there would be only this many 
American casualties or this many Afghan troops trained as we 
talked about before? Are those benchmarks in place now as you 
work forward in the next 18 months?
    Secretary Gates. We would not have U.S. casualties as a 
benchmark, but we have some very specific benchmarks for us, 
for the Afghans, and for our international partners, in terms 
of whether they are fulfilling the commitments that have been 
made.
    Senator LeMieux. Just to touch quickly on the international 
partner issue, you mentioned bringing 5,000 to 7,000 more 
troops from international partners. In the past, you have been, 
as you stated, somewhat critical of those troops, and you 
wanted to make sure that those troops were caveat-free. Do you 
believe that these troops that are coming, hopefully the 5,000 
to 7,000 troops will be, as you said before, caveat-free and be 
able to fully engage?
    Secretary Gates. One of the positive developments I would 
say of the last year, but especially since the NATO summit last 
spring, has been a fairly steady reduction in the number of 
caveats that are being imposed by governments. I think they are 
realizing the need for this. You heard the German Defense 
Minister a couple of weeks ago for the first time in Germany 
refer to what is going on in Afghanistan as a ``war'' or 
``warlike.'' So, they are, I think, domestically, beginning to 
deal with the realities of Afghanistan, and I think that has 
contributed to a reduction in the caveats.
    Senator LeMieux. Secretary Clinton, we haven't talked a lot 
today about Pakistan. Certainly, Pakistan is of huge importance 
to the success in this region. What commitments do you think we 
will get from Pakistan to continue in their efforts? I know 
they launched this offensive in Waziristan that's been somewhat 
successful and continues on. Where do you see their 
participation, in the next 18 months, to make sure that we're 
succeeding?
    Secretary Clinton. Senator, over the last year they have 
certainly demonstrated their commitment and willingness to take 
on the Pakistan Taliban, who directly threaten them. I spent 3 
days in Pakistan recently, and spoke at length with both the 
civilian and the military intelligence leadership, as well as 
many citizens, press, and others. I think the unity of support 
that the people of Pakistan are showing for this effort is 
profoundly significant. But, as we have said, it is not enough. 
It is difficult to parse out the different groups that are 
operating within Pakistan, all of whom we think are connected 
in one way or another with al Qaeda, and partition some off and 
go after the others.
    It will be our continuing effort--and Admiral Mullen has 
been instrumental in working on this with his counterparts--to 
make the case that the Pakistanis have to do more against all 
of the insurgent terrorist groups that are threatening them, 
that are threatening us in Afghanistan, that are threatening 
the Afghan people, and are threatening other neighbors in the 
region. We hope that we'll be able to make that case 
successfully.
    Senator LeMieux. Does Pakistan understand now that having a 
stable and secure Afghanistan is in their national interests?
    Secretary Clinton. I think that they certainly understand 
that having an unstable, destabilizing Afghanistan that offers 
launching grounds and training for those who threaten them is 
not in their interests.
    Senator LeMieux. Thank you very much, Mr. Chairman. Thank 
you to the witnesses.
    Chairman Levin. Thank you, Senator LeMieux.
    Senator LeMieux and others have talked about the 
benchmarks, and you've indicated that they exist in whatever 
the current form is. Would you submit those to us for the 
record? We saw an earlier version, but we'd like to see the 
current version of the benchmarks, for the record. If there's 
any classified benchmarks, we will, of course, honor that.
    [The information referred to follows:]

    The Department of Defense is currently in the process of reviewing 
our metrics for Afghanistan. We have scheduled a briefing for Members 
of Congress in March on the revised metrics.

    Chairman Levin. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, to the three of you. The unanimity that you 
represent by being here together is powerful and inspirational. 
I want to thank you, along with the members of the committee, 
for your leadership and your service. I, too, hope and will do 
my part to assure that the politics in this important policy 
debate we're having end at the water's edge. Again, your 
presence here today makes that statement loud and clear.
    Secretary Clinton, if I could just follow up on Pakistan, 
do you have any concerns that the July 2011 transition date 
sends a message to the Pakistanis that we're going to leave the 
region, that we're not committed in a long-term way?
    Secretary Clinton. Again, I think that the messages that 
are being heard by different audiences are consistent with 
their perspectives. As Senator LeMieux seemed to imply in his 
question, there is a lot of concern in Pakistan about what our 
commitment means, both in terms of whether we put more troops 
in or not, whether we leave them in or not. The Pakistanis, 
understandably, worry that our actions in Afghanistan increase 
cross-border efforts that threaten them, which they are not, 
obviously, in favor of seeing increase.
    We have worked very hard with our Pakistani counterparts to 
explain that we have a long-term commitment to Pakistan; we are 
not going to be in and out, the way we have in the past; we 
want to be partnering with the Pakistanis; we want to be 
supporting their democracy and their development--and that is 
independent from Afghanistan; but that we have unfinished 
business in Afghanistan, and that requires us to take the 
steps, which the President outlined, but that we also are 
asking for more help from the Pakistanis to go after al Qaeda 
and the leadership of the Afghan Taliban inside their own 
territory.
    Senator Udall. So, in an ideal world, we would get the job 
done militarily in the short-term; in the medium- and long-
term, we would have a presence in the region, economically, 
diplomatically, and politically.
    Secretary Clinton. As we have with so many other countries, 
we have troops in a limited number of countries around the 
world; some have been there for 50 or 60 years, but we have 
long-term economic assistance and development programs in many 
others. We think that's a likely outcome in both Afghanistan 
and Pakistan, that we will be there with a long-term 
commitment.
    Senator Udall. Let me turn, if I could, to the civilian 
surge. I had a close friend who follows what's happening very 
closely, and he said, ``Who's going to be in charge of the 
civilian surge?'' I've heard some discussion of a civilian 
counterpart to an ISAF commander for the civilian efforts that 
we're going to put forth.
    Secretary Clinton, could you speak to whether there would 
be an official who's in charge of the surge, and what sort of 
authority that person might have?
    Secretary Clinton. We are actually discussing that with our 
allies. It's one of the issues I will be talking to them about 
in Brussels. You know there's a United Nations presence in 
Afghanistan. There is also the NATO ISAF presence. Not everyone 
who contributes civilian aid is a member of NATO or ISAF, but 
they all are members of the United Nations. So, how we 
coordinate and better hold accountable our civilian aid is a 
matter of great concern to all of the contributing nations, 
whether they are troop-contributing, nontroop civilian, or non-
NATO.
    For example, Japan has just announced a significant 
civilian commitment of $5 billion. They're not a member of 
NATO. They don't have troops in NATO ISAF. So, we're looking at 
the United Nations, we're looking at NATO ISAF, but we're going 
to come up with a coordinating mechanism that can meet the 
needs of all the various parties who want to contribute to 
Afghanistan's future.
    Senator Udall. Secretary Gates and Admiral Mullen, I assume 
that General McChrystal understands the importance of that 
handoff and that coordination.
    Secretary Gates. Nobody wants it more than he does. 
[Laughter.]
    Senator Udall. Let me turn to the Secretary and Admiral 
Mullen. Given that this increase in troops in Afghanistan will 
occur prior to the official drawdown in Iraq, what effect do 
you see this additional deployment having on dwell time and the 
length of deployment cycles, reset, and then the Services' 
requirements to take care of our troops both here at home and 
in theater?
    Admiral Mullen. Senator, that is not just tied to this 
decision; it's something I think that we watch carefully and 
have for the last several years. What is happening in the 
Marine Corps--and the ground forces, obviously, absorb the 
brunt of these deployments--is actually moving out to a dwell 
time ratio of almost 2 to 1. They're at 1.5 to 1 right now. We 
want to get to a point where they're home twice as long, the 
``2,'' as they are deployed, and that, in this deployment 
cycle, General Conway thinks he'll be able to continue to 
progress out in that direction, with the exception of some of 
the smaller, more critical enabling kind of capabilities, over 
the next year or so.
    On the Army side, we're actually making progress as well, 
moving away from 1 to 1 dwell time ratios, though not as 
rapidly; with this deployment decision, we expect it to 
probably take a couple more years to get to a point where he's 
out to a 2 to 1 dwell time ratio.
    The Iraq drawdown is taken into consideration in all this. 
We're still able to gradually improve dwell times, although we 
are extremely concerned about the continued pressure, stress, 
and strain that our military, our ground forces in particular, 
and their families have gone through. We're paying a lot of 
attention to that.
    General Casey sent a note yesterday to the J-1, the 
manpower and personnel staff section of the Joint Staff, 
reemphasizing what he had said before, that this can be 
managed; certainly there are challenges associated with that, 
but he's comfortable that he can lead his Army through this at 
this enormously important time.
    Senator Udall. Thank you.
    Chairman Levin. Thank you, Senator Udall.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Secretary Gates, I'm going to explore with you an issue 
that Senator Graham raised, and it's an issue that you touched 
on in your testimony. I think it is a fundamental question, and 
that is, why Afghanistan?
    In your statement, you list six primary objectives of the 
strategy, one of which is preventing al Qaeda from regaining 
sanctuary in Afghanistan; yet, we know that al Qaeda has the 
presence in as many as 20 countries. In Yemen, for example, al 
Qaeda's strong enough that a cell there was able to launch a 
successful attack on our Embassy just a year ago.
    The fundamental question to me is, how will it make us 
safer to invest more troops and more treasure in Afghanistan as 
long as al Qaeda still has the ability to establish safe havens 
in other countries? What is it about Afghanistan that makes it 
critical that we invest more troops, more civilian personnel, 
and put more people at risk in that country?
    Secretary Gates. First of all, as the President indicated 
last night, this is the country where, when the Taliban 
governed it, the attack against us was launched in 2001. It is 
the only country from which we have been attacked successfully.
    Al Qaeda and its leadership are still in the border area of 
Afghanistan and Pakistan. It is still the wellspring of 
inspiration for extremist jihadism everywhere. Afghanistan is 
where these extremists, in many respects, consider that they 
defeated the Soviet Union and, in fact, give themselves credit 
for its ultimate collapse. Whether it's in the United States 
and the plots that we continue to see, or in Somalia or Yemen, 
the fact is that the inspiration, and oftentimes the guidance 
and strategic leadership, comes from the al Qaeda leadership 
that is there in that border area.
    What we have seen develop in the last year is an unholy 
alliance, if you will, of al Qaeda, the Taliban in Pakistan, 
and the Taliban in Afghanistan. These people work off of each 
other's mythology, off of each other's narrative. Success of 
one contributes to the success of the other.
    If anything, the situation, I think, is more serious today 
than it was a year ago, because of the attacks of the Taliban 
in Pakistan on Pakistan and the effort of al Qaeda, in 
collusion with the Taliban in Pakistan, to try and destabilize 
Pakistan itself. More safe havens on the Pakistani side create 
opportunities for success in Afghanistan. But, we know, from 
historical experience, that safe havens and Taliban control of 
space in Afghanistan not only gives them the opportunity to 
organize better attacks against the West and our allies and 
friends, but now creates an opportunity for them to further 
destabilize Pakistan.
    This area--as the President said last night and as I said 
in my opening remarks--that we're talking about, Afghanistan in 
particular, is the epicenter of global extremist jihad. If that 
center were to disappear, if that leadership were to disappear, 
and al Qaeda were defeated in Afghanistan and Pakistan, I think 
you would face a very different and very significantly less 
important threat from these various regional movements that put 
enormous emphasis on their alliance with al Qaeda in Pakistan-
Afghanistan. Whether it's al Qaeda in the Maghreb or whether 
it's al Qaeda in the Horn of Africa, they put enormous value on 
this connection back into the al Qaeda that have fled 
Afghanistan.
    I think that Afghanistan has a unique place in the 
historical narrative of these extremists that makes it 
especially important to us and, as the President said last 
night, preventing the Taliban from returning and defeating al 
Qaeda is in our vital national interest.
    Senator Collins. Thank you.
    Secretary Clinton, Secretary Gates has given an excellent 
answer to the question of, ``Why Afghanistan?'' My question for 
you is, can we succeed, despite the brilliance of our leaders, 
the courage of our troops, and the efforts of the civilian 
component? Is this an impossible task? We have a corrupt and 
ineffective government as a partner. We've seen, in the last 2 
years, even with the presence of NATO troops, the government 
lose control of much of the country. Can this work, despite 
everybody's best efforts?
    Secretary Clinton. Senator, we believe we can. I think it 
is important to underscore your question, because, along with 
the question about, ``Who is the enemy?'', this is the critical 
question as to the commitment that the President has made.
    The reasons why we do believe success is possible is, 
number one, we think that the Afghan leadership and the people 
of Afghanistan are ready for an approach that makes them more 
accountable, responsible, and a true partner. I've been to 
Afghanistan in the past. In the last trip, I was struck by what 
Defense Minister Wardak told me. He said it was the first time, 
with General McChrystal now in charge of NATO ISAF, that they, 
the Afghans, felt like they were full partners. They'd been 
invited into NATO ISAF headquarters, they were getting access 
to intelligence that they'd never been given before. His 
enthusiasm for the new leadership that we have on the military 
side was striking to me, because I've known him for all these 
years. He has been truly a good soldier, just trying the best 
he could under very difficult circumstances, but he didn't feel 
like he was fully supported or partnered until relatively 
recently.
    Second, I think that the wake-up call about the 
deteriorating situation has not only been heard by the United 
States, but by our friends and allies. I think that there was 
an attitude, perhaps, that, ``Okay, the Americans want us 
there. We'll show up. We'll do the best we can.'' As Secretary 
Gates said, some of our NATO ISAF troops were extraordinarily 
brave, courageous, and successful; others were kind of just 
there to fulfill a commitment. But, there seems to be a new 
awareness that this is not just America's fight, and I'm very 
encouraged by that.
    Third, look, I've spent a lot of time with and around 
President Karzai, and I really believe that, if we work with 
him in a more effective manner, we will get a better outcome 
from him and from the team around him. He has some very good 
cabinet ministers who are doing really excellent work. There 
needs to be more of them. They need to be supported more. They 
need to be held accountable. But, my sense from the very long 
and candid conversations I had with him is that there's a 
window of opportunity here that we have to seize.
    Finally, I think that the impetus that the President's 
decision is giving us will change the reality on the ground. 
The President's announcement last night, the resolve that he's 
showing, the fact that very obviously this is not an easy 
political call for him to make, it has significant budget 
implications for our country, I think will help to summon the 
very best of everybody and will give us the chance of success 
that I believe we can achieve.
    So, I'm not naive about how hard this will be, but I think 
it's the right decision. I think it can lead to success if we 
implement it the way we should.
    Senator Collins. Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I, too, want to echo my sentiment about having you here and 
the service that you are providing, not only to our President, 
to our country, but I want to thank each and every one of you 
for the fact that you have spent 3 hours already answering 
questions.
    Some of these questions you've already talked about a 
little bit, but let me just ask another specific question 
concerning NATO. Obviously, the President talked about the fact 
that we're going to look to NATO to help send additional 
troops. I think that we do know that some of them are 
constrained by some of the mandates that their countries have 
put on them. I think, Secretary Gates, you mentioned a little 
bit about that. But, I do know that some of the countries have 
mentioned, in the past, about starting their own withdrawals. 
In particular, I believe Germany has suggested a transition by 
2013, and they have 4,000 troops; Canada suggesting some 
pullout in 2011 in Kandahar, and they have 2,500 troops; the 
Italian leaders, with 2,800 troops, leaving Herat by December 
2011; Dutch leaders suggesting they might want to pull out by 
2010. I was just wondering if that is still a concern.
    Secretary Gates, do you have some information on that?
    Secretary Gates. It is a concern. The only two firm 
decisions that have been made that I'm aware of are that the 
Dutch will leave next year with their forces, and the Canadians 
will leave by the end of 2011. These are parliamentary 
decisions that have been made.
    Frankly, our hope, just going back to Secretary Clinton's 
final remarks in response to Senator Collins' questions, our 
hope is that the President's speech last night, and his 
decisions, will help change the political dynamic among some of 
our allies. I must say, just the first reactions that I saw on 
the news this morning from the Europeans, I think, were very 
encouraging--President Sarkozy's comments, the comments of the 
NATO Secretary General, and so on.
    I'm not aware of a German commitment or any kind of firm 
decision to leave at a particular time, but our hope is that 
what the President has decided will change the political 
dynamic.
    The truth of the matter is, the governments--Admiral Mullen 
and I run into this all the time--of our allies are really very 
strongly supportive of the mission in Afghanistan. The military 
and defense leaders in these countries--and, I think probably 
also the foreign ministers--are very supportive. The problem 
is, some of these governments are in very delicate coalition 
governments, and so their domestic politics are a real concern 
for them, in terms of what they can do. The will is there; the 
political capacity to deliver has been a challenge for some of 
them. Our hope is that what the President has decided will help 
change that dynamic.
    But, specifically, to your question, I'm only aware of the 
Canadians and the Dutch that have a specific deadline.
    Senator Hagan. I was also wondering about the budgets. I 
know that many countries are experiencing a decline in the 
economy right now and budgets are tight. Admiral Mullen, I was 
wondering how this is affecting NATO, and particularly some of 
the PRT projects. How do you foresee Admiral Stavridis 
addressing these issues?
    Admiral Mullen. Not unlike what you've heard from Secretary 
Clinton and Secretary Gates, he has been incredibly active in 
engaging the leadership--both civilian and military 
leadership--of these NATO countries.
    What I have seen, certainly that they have concerns, just 
like we do, with respect to the budget, but they are less with 
time. The demarcation point was the NATO summit in April, where 
the support, enthusiasm, and actually hard work to figure out 
how we can do this better together has taken a marked turn for 
the positive. It is very unlike anything that I've seen for the 
previous 2 or 3 years.
    There are concerns about budgets in each of these 
countries, and yet they continue to contribute; in many cases, 
now, they've added more troops and more capabilities. They're 
making contributions in very difficult economic times, though 
not as many as we would like, sometimes. But, again, the 
overall thrust and approach from NATO and other non-NATO 
contributing nations has been very, very positive, and I am 
encouraged by that.
    Senator Hagan. Thank you.
    Secretary Gates. Could I just say that when I listed some 
of our NATO allies and the contribution and the sacrifices 
they've made, and giving them an A in response to Senator 
Graham's question, there is a non-NATO ally that has played a 
significant role with us in RC-South, and that's the 
Australians. I wouldn't want to omit the contribution and the 
sacrifice they've made.
    Senator Hagan. They're doing a great job.
    Secretary Clinton. I would just add that we don't want to 
get in trouble with any of our friends or allies. There are 
many smaller countries that have really punched way above their 
weight. We'll submit, for the record, a list of all of them. We 
are also seeing a number of them, the Poles, for example, that 
have been extremely responsive and very helpful. There are a 
lot of other countries that have done their part.
    We also are seeing, in some ways, more of an international 
element to this. Again, when all of it's put together, we'll 
submit that for the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Hagan. I see that my time is up, but I did want to 
say that I know that the 2nd Marine Expeditionary Brigade from 
Camp Lejeune is fighting the terrorists in Afghanistan, as well 
as Fort Bragg's 82nd Airborne, and I wanted to echo the support 
that I have from North Carolina on behalf of all the troops 
that are serving us in such a valiant way.
    Thank you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Wicker.
    Senator Wicker. Thank you, to all three members of our 
panel. It's been a long and good hearing, and all three of you 
have been wonderful.
    I have to say, first, I want to thank Senator Sessions for 
bringing up the issue of the tanker.
    Secretary Gates, I want to say that I agree with everything 
you said. There were minimal discrepancies last year that 
caused this award to Northrop Grumman to be tossed out, and one 
can only read the RFP this year as almost directing a lighter, 
smaller, and inferior product. I think Northrop Grumman is 
absolutely justified to take itself out of the competition at 
this point. I hope that can be rectified.
    Admiral Mullen, how quickly can we deploy these additional 
30,000 American troops and their equipment not just to the 
theater, but the ultimate destination? How difficult will that 
be?
    I noticed in the press yesterday, a White House official 
said, ``The President is saying this has to happen, so the 
military will make it happen.'' How difficult is that going to 
be?
    Admiral Mullen. There is a big difference between Iraq and 
Afghanistan; we don't have a Kuwait. So, what we deploy into 
Afghanistan, in great part, goes straight in. It's not as 
robust, from an infrastructure standpoint, et cetera. So, the 
logistics challenges are significant.
    Senator Wicker. Significantly greater.
    Admiral Mullen. They're significantly greater than Iraq. 
But, we've been working this for months. As Secretary Gates 
said in his opening statement, actually the first troops will 
be there in a couple of weeks and are already under orders 
since the President made his announcement last night. 
Significant numbers of them will arrive in the spring--March-
April timeframe--and roughly 20,000 to 25,000 by the July 
timeframe. That is getting them in, getting them prepared, and 
obviously getting them on mission.
    Senator Wicker. When will we be at 30,000 additional troops 
sir?
    Admiral Mullen. Later in the summer is the estimate--
summer/fall for precision there. One of the things that the 
President did in his decision was give the commander on the 
ground the flexibility to say what troops he wants and when. 
We're working our way through that, quite frankly, with General 
McChrystal, given that flexibility, and so it'll take us a 
while to be exact. But, the vast majority of them will go by 
the summertime, and certainly finish out by the fall.
    Senator Wicker. Have we ever done it that quickly before?
    Admiral Mullen. Yes. In fact, in Iraq we actually did it 
more quickly because we had a better infrastructure.
    Senator Wicker. Under less difficult circumstances.
    Admiral Mullen. I'd say less difficult circumstances.
    Senator Wicker. All right, sir.
    I'm batting cleanup on our side. I was to ask about the 
allied troops and our hope for 5,000 to 7,000 additional troops 
from those allies. By the way, let me say, I'm glad, Secretary 
Clinton, that you hastened to add that the smaller deployments 
are also appreciated. Secretary Gates, you mentioned 
specifically several countries as getting an ``A,'' and I'm 
afraid that those that weren't specifically named may be 
wondering what their grade is going to be.
    But, it appears from what you say, the firm information we 
have actually takes us in the wrong direction, that the two 
firm numbers we have mean less allied help. So, our decision 
not to deploy 40,000 of our own troops, and rather deploy the 
30,000, is based on a hope and not based on any assurances from 
these allies. I think that's the testimony today, but I just 
wanted to nail that down.
    Secretary Gates. The situation that we have is that we have 
received private commitments from some countries, but, because 
they have not yet announced them at home, we're not in a 
position to make that announcement for them. I will just give 
you an example. I made two telephone calls the day before 
yesterday, and I received the assurances of between 1,800 and 
2,000 troops.
    Senator Wicker. Additional troops?
    Secretary Gates. Yes. We've all been talking to different 
people. I think there's a fair degree of optimism in terms of 
the additional troops.
    I would also make the point that I made earlier in the 
hearing with respect to the 40,000 U.S. troops. Early in this 
process, it seemed to me that, because the final BCT that 
General McChrystal had asked for could not deploy before July 
2011, there was no need to make a commitment to that upfront. I 
would rather use a smaller number on the American side to 
leverage both the Afghans and our allies. But, General 
McChrystal, essentially, is going to get more troops, earlier 
than he would have with the original 40,000 U.S. troop request.
    Senator Wicker. Thank you very much.
    Admiral Mullen, you've been doing this a long time. You're 
a graduate of Annapolis with advanced degrees. When in history 
has a commander ever announced both a surge and a withdrawal at 
the same time? I think that's been very rare in history. If so, 
what gives us a comfort level that this sort of approach is 
going to work?
    Admiral Mullen. I have great comfort in the quickness with 
which we will deploy these forces to reverse the momentum, 
which is absolutely critical. I spoke earlier to my belief that 
we will know well by mid-2011 where we stand and which 
direction--whether we're succeeding or whether we're not. From 
my perspective, the President said we will start to transition 
and transfer responsibility, which is critical; it really is 
the way home, as it has been in Iraq, to transfer that security 
responsibility, and then start to transition, based on the 
conditions on the ground at the time.
    I think that is doable. That, from my perspective, makes 
sense at this point, based on our overall understanding of the 
situation. From that standpoint, again, I'm very supportive of 
the decision.
    The message that it sends to the Afghans and to our allies, 
the commitment and the resolve that this additional troop force 
shows, as well--all those are really positive messages. But, 
come mid-2011, we're going to know whether this is working or 
not.
    Senator Wicker. I'm going to support this Commander in 
Chief because the alternative is unacceptable. Perhaps you 
would like to submit for the record, if you can think of ever 
an occasion in history when a commander has announced both a 
surge and a withdrawal at the same time.
    [The information referred to follows:]

    In 1972, the United States was in the process of withdrawing from 
Vietnam. The goal was to reach troop strength of 30,000 by 1 July 1972 
and 15,000 by 1 December 1972. In the midst of this withdrawal, the 
North Vietnamese launched the Easter Offensive in April 1972. The 
United States surged Air Force, Navy, and Marine aircraft to halt this 
offensive. In 60 days, 18,000 sorties were flown. This surge of 
sorties, during the troop withdrawal, halted the North Vietnamese 
advance. President Nixon responding to a request from General Abrams 
slowed the withdrawal to 49,000 by 1 July.
    In December 1972, the peace negotiations between the United States 
and North Vietnam stalled. The United States still in the process of 
withdrawing troops from South Vietnam again surged aviation assets to 
bring North Vietnam back to the peace table. From 18-30 December 1972, 
700 B-52s conducted 4,000 sorties against Hanoi and Haiphong. The North 
Vietnamese got the message and returned to the peace talks.

    Senator Wicker. You're in a very difficult position. You've 
had to parse words today and make sense out of a contradictory 
policy, a policy that, at first blush, on its face, is a 
paradox and a contradiction. I expect the left is going to rise 
up this afternoon, based on testimony, based on your answers to 
Senator Graham, and protest vehemently the statements that 
you've made about the flexibility and about the President 
always having the opportunity to change his mind and do what's 
right for the Country and right for national security.
    I'm going to support this President. I put great stock, 
Admiral Mullen, in your statement that you enthusiastically and 
without hesitation, without qualification, support this policy. 
I wish you well. I want to be your teammate.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    Thank you, all three of you. Being one of the last 
Senators, most of my questions have been answered, but I do 
want to say, I don't think you're necessarily in a difficult 
position; I think you've done very well for the last 3 hours, 
answering questions very directly about the policy, the 
comments you've made, that this patience that we have to have 
as a Country of what more sacrifices we have to make, and 
giving us the sense of the civilian and, the military end. The 
President spending the time to review the policy and set it out 
and create flexibility, I think, has been the right move. So, I 
disagree with my counterpart on the other side, my Republican 
friend.
    I would say that one thing I want to put to rest, and I 
want to make sure I'm clear on this because I think you've said 
it 100 times and I'm going to pound this 1 more time, is the 
whole issue of withdrawal. You've made it very clear, withdraw 
and transition are similar but different. I hope that I'm right 
on this, that in July 2011, withdraw will occur, in some form; 
it might be 100 troops, it might be 50,000 troops. That is 
undetermined. It may last 1 year, it may last 1 month, or it 
might last 3 years. But, the withdrawal process, which really 
is a transition process, is a goal that we're shooting for in 
2011. Is that what I understand?
    Secretary Gates. Yes.
    Senator Begich. Okay. I've heard this, and we're going to 
continue to hear this, though I hate to say this because I 
think this committee is very bipartisan. We all are spending 
the time to look at this issue and there's agreement, all 
across the board here, supporting the President's mission, and 
I agree with it 100 percent. But, this whole issue of the 
withdrawal, everyone's trying to pull that apart. Really what 
you've done is set a target, giving the Afghan Government a 
target of what we're trying to shoot for, in the sense of when 
we think their commitment's going to be at the highest level 
possible to make this transition. Then, there will be decisions 
made, at the end of December, leading into July, of what level 
of transition that might be. It might be very small. It might 
be very large. That's undetermined yet, but that's the target. 
Am I correct in saying that?
    Admiral Mullen. That's fair.
    Secretary Gates. December is more about: is the strategy 
working? Are we headed in the right direction? Are things 
moving the way we anticipated they would? The decisions with 
respect to transition would begin in July, as you've described 
it.
    Senator Begich. Great. I'm just hoping, as we move forward 
on this discussion, we're not going to beat the withdrawal 
issue over the head so many times. It's not a hard deadline; it 
is a target--a target that may mean a few people, it may mean 
thousands of people, but that will be determined as the 
strategy plays out. I want to just echo that. Hopefully, we'll 
be done with that discussion, we'll support the Commander in 
Chief, you all, the efforts of our troops on the ground, and 
the effort we need to do in Afghanistan.
    I want to ask you a little more in depth in regards to the 
Afghan troops and how you see them training up. I know you had 
some target amounts of 134,000 troops in December 2010, and 
moving that up to 170,000 troops, I think, by July. How 
confident, if you were to measure, on a percentage scale of 100 
percent--obviously, 100 percent confident--that you can reach 
that successfully? What would be one or two challenges that may 
cause us to not get to that goal?
    Admiral Mullen. I think that area is the highest risk area 
for us. We all identified that throughout the review and 
believe that. That's where General McChrystal is. We've put 
great leadership in place to address that. It has to be led by 
security, or we can't get there, so that we can create an 
environment in which more Afghans participate. There is a 
fundamental shift with the partnership piece, which is a 
significant breakthrough on how to do this, and we have a lot 
more confidence in that regard. But, it's one of the reasons we 
really have annual targets, so that we can look at how we're 
doing and adjust accordingly. Secretary Gates talked earlier 
about retention, attrition, and all those challenges that we 
have, more so on the ANP-side than on the ANA-side. I think 
we're very clear-eyed on what the challenge is; we are going to 
assess ourselves rigorously throughout the process. Training is 
probably the biggest challenge that we have with respect to 
meeting the goals that we've set out for ourselves.
    Senator Begich. Very good.
    Secretary Clinton, I want to follow up with you. I'm 
actually very supportive of you getting as much flexibility 
with the use of your monies. I would even offer to suggest 
that, as we deal with the Defense Appropriation bill, why we 
don't figure out how to fix this now rather than waiting until 
next summer, because we'll lose 8 or 9 months, which every 
month, every day, seems critical. So, I would look to you and 
the administration to have a suggestion, seeing that we haven't 
done the defense components, so why not figure out how to make 
that happen.
    I think you said you're going to triple up or get about 970 
civilians on the ground, give or take a few there. But, you 
also indicated that you need more, in time. Have you figured 
out what that number is? I agree with you. I think, as we do 
the military plus-up, the civilian component is critical. I 
appreciate your review and change that you've done to really 
focus on this component and getting unified efforts with the 
military. I think that is critical.
    Have you thought of a number? Or is that something you can 
give for the record at some point?
    Secretary Clinton. Senator, thank you. I'm hesitant to 
state a number now, but we will provide it for the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Secretary Clinton. But, there is a large idea that I think 
your question suggests. We should start looking at our budgets 
as national security budgets if we're really intent upon having 
an integrated civilian-military strategy. Again, I have to 
compliment Secretary Gates, who's been an advocate of this long 
before I ever thought I'd be sitting here at this table in this 
position. We have to be willing to look across the government 
at a whole-of-government approach to something as critical as 
our national security and the mission in Afghanistan. That's 
going to take some changes in how we do business and how we 
think about it.
    So, I would, obviously, welcome the continuing support from 
this committee and others as we try to get it right. This will 
be, I'm sure, the subject of the Appropriations Committee, but 
where's the money going to come from? Is it going to be part of 
the budget? How's it going to be costed out? All of that has to 
be worked through between the administration and Congress. But, 
as we're doing that, I think we have to quit stovepiping our 
efforts and start thinking more holistically, which is really 
what our policy intends to present.
    Senator Begich. My time is up, and, Secretary Clinton, I 
want to say I 100 percent agree with you; this hearing today--
and I want to thank the chairman for doing this--has what I 
consider three critical pieces to the equation that are sitting 
in front of us today, and not just one component. So, I really 
do appreciate your comments. Anything I can do as an individual 
member, I'll be happy to do that. Thank you again for all your 
service. Thank you for bringing forward 3 hours of answers to 
many questions.
    Chairman Levin. Thank you very much, Senator Begich.
    Senator Kirk.
    Senator Kirk. Thank you, Mr. Chairman.
    First of all, let me add a word with my colleagues, to 
thank you for your patience this morning, but, far more 
importantly, for your patriotic service to the country and your 
service to our Commander in Chief.
    I wanted to just follow up a little bit on Senator Collins' 
question. If I understand it, when General McChrystal advocated 
a strategy along these lines, it wasn't just the troops, he 
said, and I'm quoting here, ``A foreign army alone cannot beat 
an insurgency. The insurgency in Afghanistan requires an Afghan 
solution. This is their war.'' He went on to say, any success 
must come ``by, with, and through the Afghan Government.'' In 
other words, without a legitimate, credible, reliable Afghan 
governmental partner, it sounds to me like the strategy would 
be flawed.
    By all reports that we have, President Karzai had been 
installed, basically, as a result of a flawed election, if not 
a fraudulent election, by default, and that he presides over a 
culture of corruption and is dependent on, unfortunately, an 
opium economy.
    What I'm concerned about is whether we are taking a leap of 
faith here with respect to our Afghan governmental partner and, 
not irrespective of that but related to that, if we're going to 
send 30,000 more troops and spend additional United States 
dollars, should we not be looking for more indices or evidence 
that he truly will be a partner that has the response from his 
own citizens, and support of them, so that we're not just in 
there without him and, maybe, unfortunately, being perceived as 
``occupiers''?
    On the one hand, obviously, Secretary Clinton, you, as you 
have said, have been closer to him. You've heard the words. 
But, I think a lot of us are wondering whether this is for 
real, on their side.
    Secretary Clinton. Senator Kirk, first let me say, with 
respect to the strategy and the execution, I think it is fair 
to say that probably the two experts in the world right now on 
counterinsurgency and counterterrorism are, on 
counterinsurgency, General Petraeus; on counterterrorism, 
General McChrystal. They are very committed and confident that 
we will see success. Now, they could be wrong. We're all human 
and we can make a different assessment, or reality can turn out 
to be a lot more ugly and difficult than any of us imagined. 
But, on the side of the positive with respect to the strategy, 
I certainly put a lot of stock into what they say, and up the 
chain of command to Admiral Mullen and Secretary Gates.
    It is absolutely the case that General McChrystal pointed 
out one of the salient features of the campaign that we are 
waging, and that is to have a good, solid partner in the Afghan 
Government.
    I think it is unfair to paint with such a broad brush the 
President and Government of Afghanistan and to basically 
declare that they are incapable and unwilling to defend and 
protect their own country, and that they are fatally flawed. I 
do not believe that.
    I believe it is a much more complex picture, as most human 
situations are. I believe that the way that our government 
interacted with President Karzai and his government over the 
last several years bred a lot of the confusion and the 
inadequacy that we are now having to contend with.
    I am not making the case that this is a perfect 
partnership, but I think it has the elements of real progress, 
if we are smart enough, as to how to put them together into a 
winning strategy.
    The people on the ground, the people who are responsible 
for implementing this strategy, including Ambassador 
Eikenberry, who wholeheartedly endorses the President's 
definition of our mission, believe it's hard, but doable. That 
is what I believe. As we say, the proof is in the pudding; 
we're going to find out because of the President's decision.
    I think your caution has to be kept in mind. But, I also 
believe that we have to come at this with a sense of resolve, 
determination, and a cautious optimism that we can make this 
work. I think that there is a very strong argument that we can.
    Secretary Gates. I would just like to pitch in and echo 
Secretary Clinton's comments about the dangers of painting the 
Afghan Government with too broad a brush. The reality is, as 
she indicated earlier, there are some number of ministers--and 
I would say, including two that we work the most closely with, 
in Defense and Interior--who are quite competent, quite 
capable, and have been good partners for us. Similarly, when we 
have had a good governor go into a province, we have seen a 
situation turn around, literally in months, when a competent, 
honest governor is put in place. There are more than a few of 
those in Afghanistan.
    All the problems that you've described and that have been 
discussed here this morning are real, they exist, but there are 
enough examples of the kind of people we need to partner with, 
who are already in the Afghan Government or are governors, that 
I think is what contributes to, I won't say optimism, but a 
feeling of some confidence that this is going to work.
    Senator Kirk. Thank you.
    One other question. It goes back to the Pakistan situation. 
With the nuclear capabilities there, the place is rife with al 
Qaeda; whereas, less so, according to National Security Advisor 
General Jones, on the Afghanistan side. Could you just give us 
a little bit of flavor about the thinking of another option 
which might more directly or readily address the President's 
concerns and his mission: the option of trying to secure and 
seal the Afghanistan-Pakistan border while we're working to 
ensure the security and stability of nuclear weapons, and doing 
what we can to destroy the safe havens in Pakistan while we 
seal the border so the terrorists aren't fleeing back into 
Afghanistan, as one strategy, as opposed to the 30,000 troops 
in Afghanistan?
    Admiral Mullen. Senator, there are a lot of views on 
borders around the world. My experience and the experience of 
an awful lot of people who have been doing this for a long time 
is that borders are pretty tough to seal, and certainly this 
one is probably as tough as any in the world.
    At least from my perspective, it doesn't mean we shouldn't 
have security up there, because we do. In fact, we're working 
very hard to establish centers that are manned by both 
Afghanistan and Pakistani military members--and we have one--to 
better secure that border. I think that getting to the point 
where you think you can secure that I just don't think that it 
can be done, first of all.
    Second, the focus on Pakistan; it's been mentioned here, 
and I won't belabor it. Pakistan's own effort is absolutely 
vital here. It's a sovereign country. They've really done a 
lot. A lot of us, a year ago, would not have predicted that 
they would have undertaken the efforts that they have to go 
into South Waziristan, and Swat before that. We're working to 
support that and their interests. Our interests are very much 
mutual because of the threat that has been discussed before. 
It's going to take some time to do that.
    Then, there's that long-term partnership, actually on both 
sides of the border, that is absolutely critical. When I go 
there, one of the questions that comes very quickly from 
military and civilians in both those countries is, ``Are you 
leaving? Are you going to abandon us again?'' The importance of 
the President's message last night, and this decision, is a 
significant step in that direction, to reaffirm that's not the 
case. We can't afford to do that again.
    Senator Kirk. Thank you very much. Thank you all very much 
again for your service and your patience.
    Chairman Levin. Thank you, Senator Kirk.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman. I don't know whether 
this is a case of saving the best for last or simply the last 
for last. [Laughter.]
    I have been very gratified to hear the testimony of these 
three distinguished Americans here today.
    Admiral, I want to thank you for your lifetime commitment 
to our Armed Forces.
    Secretary Gates, I want to thank you for your continued 
service. The President was wise to ask you to remain, and you 
were a true public servant to decide, in spite of the 
advantages of private life, to remain. I'm grateful to you for 
that.
    Secretary Clinton, I remember with a great deal of fondness 
our service on this panel together, literally side by side, and 
the journey that we took together to Afghanistan several years 
ago. I can't help but think that if we had had the kind of 
nuanced and complex analysis at that point, perhaps we wouldn't 
be here today. But, we are. I am gratified that all of you, 
along with the President, took the time to think this through 
to maximize our chances of getting it right. So, it's good to 
see you again. On a somewhat lighter note, I haven't had a 
chance to see you since the news about your daughter's 
engagement was announced. Congratulations.
    Secretary Clinton. Thank you very much.
    Senator Bayh. The bottom line for me--and several of you 
have stated this--is there are no easy answers here; there are 
only difficult choices. There are no guarantees, but it does 
seem to me the strategy you've settled on maximizes the chances 
of success, maximizes the chances that we will be able to 
ultimately leave Afghanistan, not temporarily, but permanently, 
while securing the national security interests of the United 
States. That's what this ultimately has to be all about.
    I think it's important to note that I'm sure none of you 
want to be here recommending that we spend more money in 
Afghanistan or that we send more troops to Afghanistan. But, we 
have to remind ourselves, and the American public, that we are 
there because we were attacked from that place and 3,000 
innocent Americans lost their lives as a result of that. We owe 
it to the American public that we maximize the chances of that 
not happening again. I think your strategy does that.
    Regrettably, we are likely to remain under threat from 
radical Islam and organizations like al Qaeda, no matter what 
we do. If we leave, we run the risk of it returning to a safe 
haven from which attacks can be launched on our Homeland. If we 
stay, regrettably our service men and women are placed in 
harm's way. But, I do think the strategy you've settled on 
maximizes the chances of minimizing those combined risks on an 
ongoing basis. I thank you for that.
    Although neither one of them is here, I want to thank 
Senator Lieberman for his comments. I think he was exactly 
right when he pointed out, ``Look, you're receiving some tough 
questions from both the right and the left today.'' The 
President is not doing this because it is politically 
expedient; he's doing it because he believes it's in the 
national security interests of the United States. That's the 
kind of decisionmaking I want to see in a chief executive, and 
I think it's the kind of decisionmaking he has, with your help, 
exhibited here today.
    I also want to associate myself with some of the comments 
of Senator McCain and several of our colleagues on the other 
side of the aisle who are going to support this President in 
his decisionmaking. For those who believe that the ability to 
forge bipartisan decision making is just impossible in 
Washington, their comments today are evidence that that is not 
necessarily so. I want to thank them for putting partisanship 
aside and choosing to support our Commander in Chief in a very 
difficult situation.
    I do take issue with a couple of things that were raised by 
Senator McCain. I would associate myself with your comments. I 
think that the notion of--and I think, Secretary Gates, you 
mentioned this--demonstrating both resolve as well as a sense 
of urgency simultaneously is exactly the combination we need to 
exhibit here. So, we demonstrate resolve by maintaining our 
commitment, but, at the same time, we insist that the Afghans 
have the sense of urgency which is ultimately going to do more 
than we can do to make this a successful undertaking.
    So, by having an exit strategy in place, I think we say to 
them, ``We are with you, but only so long as you do your 
part.'' I think that's vitally important to the ultimate 
success of this undertaking. I personally don't find it 
incompatible to have a deadline that we aspire to meet, we do 
everything to meet, that we expect to meet, but, at the same 
time, of course take into account changes in facts on the 
ground that may occur over the next year and a half. As you 
pointed out, this is a longer period of time than it took for 
the surge in Iraq to prove to be successful. So, I think it's 
important to keep that in mind.
    I do have two brief questions. You've been very patient and 
you've stayed a long time. But, these are two critiques that 
have been offered, and I want to give you an opportunity to 
address them. You have, in part, already.
    But, you hear some people say, ``The Taliban and al Qaeda 
are two different phenomena, and we can address combating al 
Qaeda without really having to combat the Taliban within 
Afghanistan.'' You've pointed out that the Taliban is not a 
homogeneous group; there are differences, and we're going to 
try and appeal to the reconcilable, to peel them away from the 
irreconcilables. But, there is still a hard core there. I think 
the words that you've used--one of you used the words that they 
``collude in some of their operations,'' that there's a 
``symbiotic relationship between the irreconcilable elements of 
Taliban and al Qaeda.'' So, I'd like to give you a chance, both 
Secretaries, to address this issue, which I understand your 
testimony already touched on with regard to that irreducible 
hard core of the Taliban; it simply is not possible to defeat 
al Qaeda or minimize the risk from al Qaeda without also 
combating that irreconcilable element of the Taliban.
    Secretary Gates. I would just say that we have to remember 
that it's the part of the Taliban that we think is 
irreconcilable that, in fact, provided the safe haven for al 
Qaeda. There is just a significant amount of intelligence of al 
Qaeda identifying themselves with the Taliban's aspirations in 
Afghanistan, and the Taliban talking about their relationship 
with al Qaeda and the message that al Qaeda has.
    The Taliban are clever. We wouldn't be in the situation 
we're in if we did not face an adaptable and clever adversary. 
They recognize that the reason they're not in power right now 
is because they allowed al Qaeda to launch the attack against 
the United States. So, every now and then you'll see some 
report or another that the Taliban is saying, ``Let's downplay 
the relationship with al Qaeda so we don't get hit again.'' 
But, the fact is, there is plenty of evidence of these two 
organizations and, as I put it in my opening statement, their 
symbiotic relationship.
    What has made it more dangerous over the last year, as I 
said earlier, is that now we have the Tehrik-e-Taliban 
Pakistan, the Taliban in Pakistan, whose target is the 
Pakistani Government and who are working closely with al Qaeda, 
along with their compatriots in Afghanistan.
    Senator Bayh. Thank you, Mr. Secretary.
    Secretary Clinton, anything you'd like to add?
    Secretary Clinton. Senator Bayh, in addition to the 
inspirational and aspirational role that al Qaeda plays, they 
provide very specific services; they help to provide funding 
and they help to provide targeting, training, and equipping. 
Very often they have their planners working closely with the 
elements of the Taliban, in both Afghanistan and Pakistan, in 
order to target both institutions of the respective 
governments, as well as international sites, embassies of other 
countries, and certainly our own presence and our troops.
    I don't think there's any doubt any longer that there has 
been a developing syndicate of terror, and those tentacles 
reach far and wide. Yes, they do reach to Somalia, to Yemen, to 
the Maghreb, et cetera, but they are focused and grounded in 
the border area between Pakistan and Afghanistan.
    It's our assessment that it might have been possible, if we 
had gone at it somewhat differently in the beginning of this 
war, to have captured and killed enough of the al Qaeda and the 
Taliban leadership to have made a difference. But, we are where 
we are right now, and we know that the training that is done 
and the communication that is done out of that area poses 
direct threats to us, our friends, and our allies.
    Senator Bayh. Thank you.
    If I could be permitted one final question.
    Another point of view that's offered, voices that are 
raised, suggests, ``We're focusing on the wrong place. Al Qaeda 
is now principally located in the tribal areas of Pakistan. We 
should focus on Pakistan. Why are we doing this in 
Afghanistan?'' My understanding of your testimony here today is 
that, number one, were we to adopt that strategy, the Taliban 
would, over time, reassert itself in Afghanistan, having safe 
havens there from which to launch attacks against America and 
our interests. That's number one. Number two, we can't go into 
Pakistan; we have to try and build up the Pakistanis' 
capability of dealing with the problem on the ground there. 
Number three, we are doing that. This is not an either/or 
choice. In fact, if you made it one, ignoring one would 
undermine the other, so we have to look at these two theaters 
in conjunction, doing both simultaneously, to ensure that we 
combat the threat.
    So, if you'd care to address this notion that we could do 
one, but not the other, which seems to be out there in the 
minds of some.
    Admiral Mullen. They're inextricably linked, and there's no 
question that if the Taliban came back--their strategic goal is 
to take over the government again in Afghanistan--that they 
certainly have all the ability to provide that kind of safe 
haven because they are so linked across that border. I see the 
linkage between these two countries in my travels; nothing is 
more evident than that. That's why the President's strategy, 
even in March, drove this to a regional approach, not a single-
country approach. You just can't do one without doing the 
other.
    Secretary Gates. Let me just say, and this may be the last 
thing I say in this hearing, what is essential for our national 
security is that we have two long-term partners in Afghanistan 
and Pakistan. Quite frankly, I detest the phrase ``exit 
strategy'' because what we are looking at over time is a 
transition in our relationship with the Afghans, a relationship 
that now, where there is the preponderance of a military 
relationship as we try to secure the country and put it in a 
position where they can accept responsibility for their own 
security, and, frankly, to prevent al Qaeda from coming back. 
Over time, as we are successful in that, the civilian component 
and the development component of our relationship with 
Afghanistan will become predominant. We may have a small 
residual military training-and-equipping role with Afghanistan 
in the future.
    This goes to the point I made in my testimony. We will not 
repeat the mistake--and we must not repeat the mistake--of 1989 
and turn our backs on these folks and, when we have the 
security situation with them under control, then the civilian 
and the development part must be the preponderant part of our 
relationship far into the future.
    Senator Bayh. That's one of the truly refreshing things. In 
past administrations from time to time, there had been friction 
between DOD and DOS, but here you're working hand in hand, and, 
in fact, understand that you both have to go forward together 
to truly get the job done on a permanent basis. I'm most 
gratified for your collaboration.
    Thank you very much, Mr. Chairman.
    Thank you for your patience.
    Chairman Levin. Thank you very much, Senator Bayh.
    Our witnesses, you've been excellent. You've been 
responsive. You've been more than patient. Because we promised 
you that you'd be out of here by 12:30 p.m., I believe, we owe 
you 10 minutes, and a lot more than that.
    Thank you.
    This hearing is adjourned.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                           AID TO AFGHANISTAN

    1. Senator Akaka. Secretary Clinton, some argue that progress in 
Afghanistan had stalled in recent years, in part, due to insufficient 
accountability. Metrics, proper oversight, and benchmarks will be 
critical to the success of the strategy outlined by President Obama. 
What are the administration's plans to maintain accountability to 
determine whether Afghan ministries and agencies are worthy of 
receiving direct U.S. aid?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    2. Senator Akaka. Secretary Clinton, please describe the positive 
and negative possible outcomes of sending some aid directly to 
ministries and entities in Afghanistan.
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

                          CIVILIAN CASUALTIES

    3. Senator Akaka. Secretary Gates, civilian casualties from air 
strikes draw a strong reaction from leaders in the Afghanistan-Pakistan 
region. The smallest number of civilian deaths can become an invaluable 
propaganda tool for the insurgents. Earlier this year, General 
McChrystal issued guidance directing restraint in the use of close air 
support (CAS). However, air strikes remain a key part of our regional 
strategy. Do you think we have found the proper balance in the use of 
air strikes in the region?
    Secretary Gates. I do believe we have struck the right balance 
between minimizing civilian casualties and retaining the benefits of 
air power. Air power can be essential for self defense and as an 
asymmetrical advantage. However, its use must be judicious. I believe 
the Tactical Directive has achieved that balance.
    With regards to limiting civilian casualties, the Tactical 
Directive issued in July 2009 states:

        ``. . . I expect leaders at all levels to scrutinize and limit 
        the use of force like CAS against residential compounds and 
        other locations likely to produce civilian casualties in 
        accordance with this guidance. Commanders must weigh the gain 
        of using CAS against the cost of civilian casualties, which in 
        the long run make mission success more difficult and turn the 
        Afghan people against us. . . The use of air-to-ground 
        munitions and indirect fires against residential compounds is 
        only authorized under very limited and prescribed conditions.''

    The above quotes deal directly with Rules of Engagement (ROE) and 
troops requiring CAS in self defense. The Tactical Directive does not 
prevent troops from protecting themselves as a matter of self defense, 
but makes them determine whether CAS is the only option available to 
them.
    Deliberate air strikes are used against specific targets, but only 
after the request has gone through an intense targeting process, where 
intelligence is closely scrutinized to protect against civilian 
casualties. Air strikes are a valuable tool and I believe we have 
struck the right balance in conducting air strikes against necessary 
targets, protecting our troops, and limiting civilian casualties.

                                PAKISTAN

    4. Senator Akaka. Secretary Gates, there continues to be concern 
over Pakistan's role in the conflict. This will become more significant 
in light of the President's strategy if extremists continue to cross 
the border easily. Do you feel the current effort to improve security 
and governance in the Pakistan and Afghanistan border areas will 
support our new Afghanistan strategy?
    Secretary Gates. Our support for Pakistan in their efforts to 
improve security and strengthen their government institutions is a 
vital part of the President's strategy. We fully recognize that our 
success in Afghanistan is inextricably linked to our partnership with 
Pakistan. That is why we need a strategy that works on both sides of 
the border. The Pakistani people are beginning to understand that they 
are the ones most endangered by extremism as terrorist attacks on 
targets in cities and settled areas increase. The Pakistan army has 
gone on its largest offensive in years with the overwhelming support of 
the Pakistani people. The questions that have been raised in the past 
about Pakistan's capacity and resolve are being answered by the 
Pakistani people and the actions that the Pakistan military has taken 
in Swat and South Waziristan. They are an important first step.
    However, much remains to be done. To assist Pakistan in these 
efforts, the United States has committed $1.2 billion to support 
counterinsurgency operations and $7.8 billion over the next 5 years to 
expand economic and social opportunities available to the Pakistani 
people. If we are going to successfully rid the region of violent 
extremism, we must confront all threats to stability and security of 
the Pakistani people.

                      MEDICAL EVACUATION CAPACITY

    5. Senator Akaka. Secretary Gates, you stated earlier this year 
that the goal in Iraq was to have a soldier in a medical facility 
within 1 hour of being wounded. In Afghanistan, the time was closer to 
2 hours. I know you have been working diligently to reduce this 
timeframe. As we increase the number of troops in the region, what is 
your assessment of the medical evacuation capability in Afghanistan?
    Secretary Gates. In November 2008, I directed a comprehensive 
bottom-to-top review on how to best synchronize efforts in theater and 
accomplish the goal of improving the Medical Evacuation (MEDEVAC) 
benchmark to a 1-hour execution standard in Afghanistan. Improving 
MEDEVAC response times requires a systematic approach and the 
synchronization of aircraft, medical capabilities, communication, 
infrastructure, and security to support these operations.
    We must always remember that the single most important factor in 
the execution of the MEDEVAC mission is patient care. The effort to 
save human life warrants accepting additional risk when there is a 
reasonable expectation of success. So while we have changed the MEDEVAC 
standard to reflect a 60-minute total mission time, commanders and 
flight crews must not be so overly focused on meeting the 1-hour 
standard, as patient needs may dictate longer flight legs to 
appropriate medical care and surgical intervention.
    Over the last 12 months, we have executed a number of force build-
ups across Afghanistan. At the same time, the United States and our 
North Atlantic Treaty Organization (NATO) partners have increased the 
MEDEVAC and surgical platforms in theater to best support this increase 
of forces and the battlefield dispersion of personnel. Based on 
detailed analysis and coordination, we are now executing a course of 
action that will maintain and sustain the 60-minute or better average 
for MEDEVAC missions in Afghanistan that we are achieving to date. This 
analysis was used in determining the correct mix of MEDEVAC 
organizations associated with the force expansion.

              NEW STRATEGY, FORCES, AND FORCE RESTRICTIONS

    6. Senator Akaka. Admiral Mullen, we have been fighting in 
Afghanistan for 8 years. Now, we are facing a more sophisticated and 
resilient insurgency than any time since 2001. What are the key 
elements in our new strategy that will allow us to reverse the momentum 
in Afghanistan?
    Admiral Mullen. Reversing the Taliban-led insurgency's momentum and 
denying their access to, and control of, key population and production 
centers are at the top of the list of focused objectives that we share 
with our Afghan partners. Reversing the momentum requires us to reverse 
the trend of expanding Taliban influence over the population, 
particularly in the south. This means we must increase the number of 
districts that are under government or local control and reduce the 
number of districts that are contested or under Taliban control. In 
addition, establishing security in these districts, focused efforts to 
build Afghan governance capacity, and to enable the Afghan people to 
hold their officials accountable are critical and will increase the 
people's trust and confidence.
    This strategy is coupled with the expansion in the quantity and 
quality of the Afghan National Security Forces (ANSF). Growing the 
Afghan National Army (ANA) and Afghan National Police (ANP) and 
training them to a sufficient level will allow Afghans to take control 
of the security of their own country.
    Population-centric counterinsurgency has proven effective at 
reversing negative trends in the areas where International Security 
Assistance Force (ISAF) forces have cleared and held and have enabled 
Afghan security and governance to develop. By July 2010, the bulk of 
the additional forces approved by the President will be in Afghanistan 
and partnered with an expanded ANSF. These forces will expand and 
consolidate the security zones to connect key population and production 
centers, with our main efforts initially focused in the south--at the 
historic heart of the Afghan Taliban insurgency.

    7. Senator Akaka. Admiral Mullen, many of our allies have 
restrictions on how their troops can be used in Afghanistan. In some 
cases, this even restricts their troops from offensive combat. Do you 
foresee any of these restrictions being modified or removed as we 
execute the next phase of the war in Afghanistan?
    Admiral Mullen. Yes, in fact, some of the restrictions have already 
been modified or removed based on the last Supreme Headquarters Allied 
Powers Europe (SHAPE) ISAF Caveat report. Two nations removed all 
caveats: Estonia and Portugal. Three nations reduced caveats: Bulgaria, 
Italy, and Slovenia. Only one nation increased their caveat and that 
was the Netherlands.

    8. Senator Akaka. Admiral Mullen, since the release of General 
McChrystal's assessment, there has been a healthy debate over the 
number of troops being deployed to Afghanistan. However, we should not 
focus solely on the number of troops alone. Ignoring the total number 
of troops proposed by the administration, what is your assessment of 
the mix of U.S. forces by capability? Will we have the right equipment 
and personnel in place to achieve our goals in the region?
    Admiral Mullen. The mix of forces is based on capabilities 
requested by General McChrystal. As he has testified, he is getting the 
force structure he needs to be successful. The reality is, however, the 
requirement will continue to change, so we have to keep on it. We have 
made extraordinary improvements in things like intelligence, 
surveillance, and reconnaissance equipment, but this progress will need 
to continue. With the additional forces that have been approved, we are 
going to have to work through getting additional equipment to support 
our troops, including, for example, Mine Resistant Ambush Protected 
vehicles and engineer equipment to help us find and dispose of 
improvised explosive devices. I think we are doing an extraordinary job 
across our government providing this equipment, but I think it is 
something we have to watch constantly.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill

                       CERP PROJECTS AND TRACKING

    9. Senator McCaskill. Secretary Gates and Admiral Mullen, an 
October 2009 quarterly report to Congress by the Special Inspector 
General for Afghan Reconstruction (SIGAR) indicates ongoing problems 
with the Commander's Emergency Response Program (CERP). Congress has 
provided $1.6 billion to the Department of Defense (DOD) for CERP in 
Afghanistan, and that CERP was created to fund primarily small-scale 
projects to meet urgent humanitarian and reconstruction needs at the 
community and provincial levels. However, SIGAR found that while DOD 
has established procedures to account for CERP funds, it has not 
established adequate mechanisms for monitoring and executing CERP 
projects. The report goes on to claim that program managers have 
limited visibility over the execution of CERP projects in part because 
U.S. Forces-Afghanistan (USFOR-A), which oversees CERP, has no central 
system for retaining the physical files in Afghanistan, and electronic 
records are either incomplete or nonexistent.
    SIGAR also found that CERP funds increasingly are being obligated 
for large-scale projects that cost $500,000 or more. While these large-
scale projects account for only 3 percent of all projects, they consume 
67 percent of CERP funds. These projects pose increased risks for CERP 
because they are usually more complex than the small projects and 
require several years to complete. Most CERP managers have been trained 
to implement smaller-scale projects. Moreover, troop rotation schedules 
result in a lack of continuity in the management of large, long-term 
projects. SIGAR recommended that the Commander of USFOR-A develop and 
implement: (1) a process to systematically collect and track 
information on CERP projects; (2) a centralized system for maintaining 
records; and (3) a plan that addresses how to manage the heightened 
risks associated with projects costing $500,000 or more.
    What has DOD specifically done to address the findings of this 
SIGAR report as it relates to its management of the CERP in 
Afghanistan?
    Secretary Gates and Admiral Mullen. By its nature, CERP involves 
decentralized implementation by local commanders in theater. Its 
hallmarks are responsiveness to urgent needs and flexibility. We have 
heard the concerns expressed by Members of Congress, studied the 
findings of recent audit reports, and examined lessons learned from 
previous deployments. We have taken steps within DOD, the Army, and the 
U.S. Central Command (CENTCOM) theater to improve the oversight of the 
program--all without diminishing the key element of flexibility and 
responsiveness this program provides to the commander in the field.
    DOD recognizes that additional improvements can be made in the 
management of CERP to maintain the flexibility and accountability 
essential to a field-driven program. The Deputy Secretary of Defense is 
leading a review of CERP to examine ways to make the program more 
efficient and effective. The review will examine the issues you raise 
as well as others that we view as important to implementation of this 
crucial program. Following this review a report will be made available 
in the spring to Congress.

    10. Senator McCaskill. Secretary Gates and Admiral Mullen, what is 
the plan for implementing a central system for retaining physical files 
and electronic records of CERP handled by USFOR-A?
    Secretary Gates and Admiral Mullen. The Deputy Secretary of Defense 
is leading a review of the CERP to examine ways to make the program 
more efficient and effective. This report will be completed and made 
available to Congress in the spring. As part of the review, DOD is 
examining the current CERP data management system in theater with the 
goal of improving efficiency, transparency, and accuracy of data 
recordkeeping and reporting. DOD is also working with the U.S. Agency 
for International Development (USAID) to ensure compatible electronic 
recordkeeping to improve interagency coordination on CERP projects. We 
believe CERP managers are doing a commendable job implementing the 
program under difficult conditions, and believe the Deputy Secretary's 
comprehensive review of the program will ensure they have the proper 
tools required to execute this crucial program.

    11. Senator McCaskill. Secretary Gates and Admiral Mullen, do you 
think there needs to be congressional reforms to preserve the integrity 
of the CERP while also ensuring proper oversight of these projects and 
funds available for use by field commanders? If so, what might you 
propose?
    Secretary Gates and Admiral Mullen. Current legislation provides 
sufficient oversight for the CERP. The Deputy Secretary of Defense is 
leading a review of CERP to examine ways to make the program more 
efficient and effective. Following this review, a report will be made 
available to Congress in the spring.
    CERP is critical to supporting commanders in the field in executing 
counterinsurgency operations in support of the President's strategy. 
DOD continues to support congressional reforms to improve the 
flexibility of traditional foreign assistance programs and facilitate 
interagency cooperation.

    12. Senator McCaskill. Secretary Gates and Admiral Mullen, what is 
DOD doing to better train CERP managers in the types and scale of 
projects that they will handle in Afghanistan?
    Secretary Gates and Admiral Mullen. As noted in the recent report 
(House Report 111-105) submitted to the 2009 Supplemental 
Appropriations Bill (H.R. 2346), which requested a description of the 
``training provided for members of the U.S. Armed Forces deploying to 
Afghanistan and Iraq on the use of funds under the CERP,'' training is 
vital to the success of CERP. Adequate training ensures the following: 
deployed commanders and their appointed representatives in theater use 
appropriate criteria when choosing and monitoring CERP projects; 
financial agents and managers for CERP place sufficient controls on, 
and accurately account for, the funds appropriated under CERP; and the 
program helps further the strategic goals of the CENTCOM Commander.
    As the Executive Agent for the CERP, the Army currently conducts 
training in the continental United States (CONUS); for deploying 
individuals and units; and in theater, for individuals and units 
already deployed to Iraq and Afghanistan. The Army has enhanced CERP 
training for four key positions: the project manager, the project 
purchasing officer, the paying agent, and the unit commander. The first 
three positions form a triad of expertise that every project must have. 
Unit commanders are vital to ensure the appropriate projects are 
identified. Integrated training and detailed procedures provide the 
checks and balances necessary in every project. In addition, there are 
numerous initiatives underway to enhance CERP training for individuals 
and units, both pre-deployment and in theater. The existing training, 
plus the Mobile Training Team and Distance Learning programs being 
developed, provides the necessary tools to ensure effective and 
efficient management of the CERP.

    13. Senator McCaskill. Secretary Gates and Admiral Mullen, how are 
large-scale CERP projects vetted within the greater framework of 
reconstruction in Afghanistan to ensure their utility and prevent 
duplication or unneeded projects?
    Secretary Gates and Admiral Mullen. In Afghanistan, the U.S. 
Government Civil-Military Campaign Plan for Afghanistan provides the 
overarching framework for reconstruction in Afghanistan within which 
CERP projects are vetted and coordinated.
    As part of the plan, DOD and the Department of State (DOS) 
established an executive working group with 14 subworking groups. One 
of these subgroups is the infrastructure working group (IWG) under 
USAID. The meetings are co-chaired by USAID, USFOR-A (through the Joint 
Project Integration Office (JPIO)) and the U.S. Embassy. The IWG, as a 
priority, is working to establish a number of infrastructure 
strategies. The first three are for water (completed), roads (working), 
and energy (scheduled for development in January 2010) sectors, and IWG 
provides overarching guidance for CERP projects as well.
    USAID now participates as a voting member on the CERP review board 
at the command level. Their participation prevents duplication of 
effort and also helps identify any problems with sustainment of 
projects nominated for CERP. The increase of U.S. Government civilians 
in the field significantly improves the integration coordination and 
de-confliction of reconstruction projects across civilian and military 
funding streams.

    14. Senator McCaskill. Secretary Gates and Admiral Mullen, what do 
you feel is an acceptable cost limit that should be in place on the 
type of CERP projects that field managers could implement?
    Secretary Gates and Admiral Mullen. The Office of the Secretary of 
Defense (OSD) provides guidance on the CERP approval authorities in 
theater. This guidance is supplemented by approval limits provided by 
CENTCOM, USFOR-A, and U.S. Forces-Iraq, and all procedures are 
continually reviewed to ensure they are responsive to changing 
operational requirements. Projects in Iraq are capped at $2 million and 
require a Secretary of Defense waiver to exceed that limit. Projects 
over $1 million in Iraq and Afghanistan require approval by the 
Commander, CENTCOM.
    DOD strives to ensure commanders in the field have flexible 
resources to address local urgent reconstruction requirements as part 
of the counterinsurgency campaign. Therefore, DOD does not seek to 
institute cost limits but rather ensure the appropriate approval 
authorities are in place and adequate numbers of trained personnel are 
available to commanders to manage CERP projects. The Deputy Secretary 
of Defense is leading a review of CERP to examine ways to make the 
program more efficient and effective. Following this review, a report 
will be made available to Congress in the spring.
    Finally, DOD is aware that the project requirements in Afghanistan 
are different than project requirements in Iraq, based on the unique 
conditions in each country, the nature of the conflict, other available 
foreign assistance, local government resources, and our own force 
presence. In Afghanistan, as we increase the forces available to 
implement the President's strategy, CERP will become an even more 
critical tool to respond to humanitarian needs, to help address 
grievances of local populations, and to enable economic opportunity 
through complementary larger-scale infrastructure projects.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris

                        TIMELINE IN AFGHANISTAN

    15. Senator Burris. Secretary Gates, in August 2009, General 
McChrystal stated that if additional resources are not provided, we 
``risk an outcome where defeating the insurgency is no longer 
possible'' and that we risk ``mission failure.'' What are the current 
risks to mission success as these additional troops flow into theater 
over the timeline you presented?
    Secretary Gates. The President's decision rapidly resources our 
strategy, recognizing that the next 18 months will likely be decisive 
and ultimately enable success. We have greater clarity on the way 
forward and additional forces will begin to deploy shortly. By this 
time next year, our intent is to demonstrate that the insurgency has 
lost the momentum. By the summer of 2011, we intend to make it clear to 
the Afghan people that the insurgency will not win, allowing them to 
side with their government. Increasing our capability and strategy will 
involve much more than just force increases, but the additional forces 
are significant.
    The commitment of all coalition nations will be buttressed by a 
clear understanding of how we will mitigate risks. I'll briefly mention 
three. The first is the Afghan Government's credibility deficit, which 
must be recognized by all, including Afghan officials, as a critical 
area of focus and change. Equally important is our ability to 
accelerate development of the Afghan security forces. Third, the hazard 
posed by extremists that operate and easily pass through both sides of 
the border with Pakistan must be mitigated by enhanced cross-border 
coordination and enhanced Pakistani engagement.
    Looking ahead, we are confident we have both the right strategy and 
the right resources to mitigate these risks.

    16. Senator Burris. Secretary Gates, how will this increase affect 
the ongoing drawdown of troops in Iraq?
    Secretary Gates. The responsible drawdown of troops in Iraq 
continues forward as planned. While the responsible drawdown in Iraq 
will be executed concurrently with the increase in forces in 
Afghanistan, the Iraq drawdown is not dependent upon the Afghanistan 
increase and the Afghanistan increase is not dependent on the Iraq 
drawdown. The transportation feasibility analysis at this time also 
indicates no significant impact to Iraq drawdown as we increase forces 
in Afghanistan.
    The U.S. policy on Iraq has not changed; we are committed to 
fulfilling our responsibility as outlined in the security agreement 
between the United States and Iraq. Our drawdown following the national 
elections will be based on the Multi-National Force-Iraq (MNF-I) 
Commander's assessment that security conditions remain stable and will 
follow our strategy to transform the force into an advisory and 
assistance role. As our requirements in Iraq continue to decrease, 
units that redeploy from or are no longer required to deploy to Iraq 
will return to the pool of forces available to deploy in support of our 
mission in Afghanistan or other global requirements.
    We will continue to analyze and monitor this issue closely and if 
conditions change to impose emerging impacts on the Iraq drawdown as a 
consequence of the Afghanistan troop increase, then we will certainly 
keep you informed.

    17. Senator Burris. Secretary Gates, is there sufficient air and 
sealift assets to meet timelines in Afghanistan and Iraq?
    Secretary Gates. We have a large number of professionals who are 
balancing the demands of both operations. Their greatest challenge is 
overcoming the differences that exist between Iraq and Afghanistan. 
Iraq's infrastructure is more accommodating. Afghanistan does not have 
a neighbor like Kuwait that provides a major logistics hub. 
Additionally, Afghanistan does not have the number of runways, rail 
hubs, or road networks like those that exist in Iraq. I remain 
confident that our professionals will continue to adapt and execute the 
mission we have assigned them.

    18. Senator Burris. Secretary Gates, the President stated that a 
responsible withdrawal of troops will begin in summer 2011. Are there 
any caveats to this timeline?
    Secretary Gates. The President did not pick the summer 2011 date 
arbitrarily. During the strategy review, we looked closely at the 
current and projected capacity of the ANSF in some parts of the 
country. Based on that analysis, we reached the conclusion that July 
2011 is a realistic date for us to plan to begin transferring 
responsibility for security to the ANSF in some parts of the country. 
At the same time, we will assess conditions as we move forward. Based 
on those assessments, the President will determine the scope and pace 
of a gradual and responsible draw down of U.S. combat forces.
    This is an issue of balance. We need to show both our partners and 
our adversaries in the region that we mean business: we will deploy the 
forces and the civilian resources that we believe are necessary to 
accomplish our strategic goals, and retain the tactical flexibility to 
adapt if circumstances require. At the same time, we have to send a 
clear message to the Afghan Government that the U.S. military is not 
going to be there forever. We are not an occupation force. Afghans must 
take primary responsibility for defending their own country and prepare 
to do so with a sense of purpose and urgency.

              PROJECTED NUMBERS OF AFGHAN SECURITY FORCES

    19. Senator Burris. Secretary Gates, as we work to increase the 
capability of the ANSF, please clarify the security force goals. Are we 
aiming to meet the projected numbers established by March 2009 goals of 
134,000 ANA and 82,000 ANP, or levels recommended by General McChrystal 
of 240,000 ANA and 160,000 ANP?
    Secretary Gates. We plan to grow the ANSF to 134,000 ANA and 96,800 
ANP forces by October 2010. As of early December of last year, ANP 
strength was already approaching 95,000, and we expect to reach the ANP 
target well ahead of October 2010. Looking beyond October 2010, we will 
continue to set annual goals to grow the ANA and ANP based on an 
ongoing evaluation of our capabilities and the requirement to develop 
additional ANSF.

    20. Senator Burris. Secretary Gates, when will we reach our goal 
numbers for the ANA and ANP?
    Secretary Gates. We are on track to meet our current goal of 
134,000 ANA forces by October 2010. We expect to reach our goal of 
96,800 ANP forces early in 2010, well ahead of schedule. We will 
continue to reevaluate our needs and capabilities in regards to growing 
the ANSF.

                       COSTS OF EACH NEW SOLDIER

    21. Senator Burris. Secretary Gates, the Office of Management and 
Budget (OMB) estimated that each additional soldier deployed to 
Afghanistan will cost $1 million. Is this estimate accurate?
    Secretary Gates. That estimate is roughly accurate if all costs, to 
include new and expanded base camps and additional equipment, are 
included.

    22. Senator Burris. Secretary Gates, does this OMB cost estimate 
include any contractor support?
    Secretary Gates. Yes, the OMB estimate includes all costs and, 
therefore, incorporates functions performed by contractors.

                   REINTEGRATION OF FORMER INSURGENTS

    23. Senator Burris. Secretary Gates, how effective has the effort 
been to reintegrate former Taliban, the Northern Alliance, and 
Mujahedeen fighters so that they are no longer fighting for the 
insurgency?
    Secretary Gates. The insurgency in Afghanistan is composed of a 
complex network of alliance and allegiances among various groups. 
Reintegration efforts will help break down these connections, 
separating hard-core Taliban from those fighting for non-ideological 
reasons. Any reintegration effort will also need to ensure that those 
groups aligned against the insurgency (e.g., the Northern Alliance) and 
those ``on the fence'' (e.g., many former mujahideen who fought against 
the Soviets) do not feel that reintegration programs provide perverse 
incentives for members of the Taliban and other insurgent groups.
    To implement the disarmament, demobilization, and reintegration 
(DDR) process, the Afghanistan New Beginnings Programme (ANBP) was 
established in March 2003. The United Nations Development Programme 
(UNDP) implemented the ANPB on behalf of the Afghan Government, the 
United Nations Assistance Mission in Afghanistan, and Japan as the lead 
country on DDR issues. The ANBP disarmament and demobilization process 
lasted from October 2003 to November 2005. The Disbandment of Illegally 
Armed Groups project, established in 2005, was designed to follow the 
DDR program. This program focused on reintegrating Northern Alliance 
and associated groups following the fall of the Taliban. It still 
exists today and discussions are underway on how to coordinate this 
effort with programs to reintegrate former Taliban.
    Previous reintegration efforts in Afghanistan did not achieve 
significant results. Reintegration of those insurgents and their 
leaders who want to renounce violence and join mainstream Afghan 
society is an important effort, which must be led by the Government of 
the Islamic Republic of Afghanistan (GIRoA) and be community-focused. 
Our civil-military team is actively working alongside GIRoA to develop 
their reintegration program. Part of the reintegration program includes 
utilizing local leaders to vouch for the reliability of those who are 
willing to leave the insurgency.
    To assist the GIRoA in assimilating these insurgents, USFOR-A is 
working with ISAF to develop support to a GIRoA reintegration program 
in accordance with the National Defense Authorization Act for Fiscal 
Year 2010. Job training, education, and relocation assistance stand out 
as potential opportunities for support.
    Finally, security is also essential. To attract insurgents to an 
Afghan-led reintegration program, ISAF will partner with ANSF and 
community leaders to provide sufficient security and prevent 
retribution.

                      POLICY GOALS IN AFGHANISTAN

    24. Senator Burris. Secretary Clinton, what overall U.S. policy 
goals are being pursued in Afghanistan?
    Secretary Clinton. As President Obama reaffirmed in his December 1 
remarks at West Point, our core goal in Afghanistan remains: to 
disrupt, dismantle, and eventually defeat al Qaeda and to prevent their 
return to Afghanistan. To do so, we and our allies will surge our 
forces, targeting elements of the insurgency and securing key 
population centers, training Afghan forces, and transferring 
responsibility to a capable Afghan partner.
    Our governance efforts will help develop more responsive, visible, 
and accountable institutions in Kabul and at the provincial, district, 
and local level, where everyday Afghans encounter their government. We 
will increase the number of civilian technical advisers in key central 
government ministries, as well as in provincial capitals and district 
centers, to partner with Afghans in this capacity building effort. We 
will support the Afghan Government's reinvigorated plans to fight 
corruption, with concrete measures of progress toward greater 
accountability.
    We believe job creation is critical to undermine extremists' appeal 
in the short-term and for sustainable economic growth in the long-term. 
Our top reconstruction priority is implementing a civilian-military 
agriculture redevelopment strategy to restore Afghanistan's once 
vibrant agriculture sector. This will help sap the insurgency of 
fighters and of income from poppy cultivation. Creating links to cross-
border trade with Pakistan will support sustainable long-term economic 
growth and job creation. Simultaneously, we will sustain our successful 
efforts to build the Afghan Government's capacity to provide improved 
health services and educational opportunities to the Afghan people. 
Improving educational opportunities for all Afghans, regardless of 
gender, is a top priority for the Afghan people. It is also a necessary 
step for diminishing the influence of extremists, improving the pool of 
qualified individuals who can serve in Afghanistan's security forces, 
and improving Afghanistan's long-term economic potential.
    This region is the heart of the global violent extremism pursued by 
al Qaeda, and the region from which we were attacked on September 11. 
New attacks are being planned there now, a fact borne out by a recent 
plot, uncovered and disrupted by American authorities. We will prevent 
the Taliban from turning Afghanistan back into a safe haven from which 
international terrorists can strike at us or our allies. This would 
pose a direct threat to the American Homeland, and that is a threat 
that we cannot tolerate.

    25. Senator Burris. Secretary Clinton, what policy goals and 
benchmarks are tied to the withdrawal of forces in Afghanistan?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

        STRATEGY TO REDUCE CORRUPTION AND THE FLOW OF NARCOTICS

    26. Senator Burris. Secretary Clinton, I assume that we have as 
part of our new strategy a plan to better address governance and 
corruption. In his inauguration, President Hamid Karzai stated that he 
was going to fight corruption. What tangible steps has he outlined?
    Secretary Clinton. Yes. We are developing robust plans for 
addressing governance and corruption and are working more directly with 
the Afghan Government on these critical issues. The Afghan Government's 
most significant progress to date is the creation of the Major-Crimes 
Task Force (MCTF), a multi-ministry initiative responsible for 
investigating corruption, kidnapping, and organized crime cases and 
preparing them for prosecution and an anti-corruption prosecution unit 
within the Attorney General's Office. The Afghan Government also has 
agreed to establish an Anti-Corruption Tribunal of specially vetted 
judges to oversee high-profile cases. The MCTF receives financial and 
technical support from DOD and the Department of State's (DOS) Bureau 
for International Narcotics and Law Enforcement, while Department of 
Justice provides technical support.
    To improve transparency and accountability, the Afghan Government 
has been active in implementing hiring reforms and a vetting process 
for Afghan Government employees through the Civil Service Commission, 
and in improving the capacity of the High Office of Oversight (HOO) so 
that these entities can better serve as oversight mechanisms for 
corruption efforts nationwide. Embassy Kabul, the International 
Community, and the Afghan Government are in extended discussions about 
the future of the HOO and how to make the body as effective as 
possible. At a recent press conference, the HOO publicly named the 
Afghan ministers who had not yet filed asset declaration forms and it 
is actively working to secure 100 percent compliance.
    In December, the Government of Afghanistan hosted a high-level 
conference in Kabul to address corruption where President Karzai and 
others spoke frankly and openly about the challenges that corruption 
creates for Afghanistan. Karzai's recent cabinet appointments also 
suggest that he is taking corruption seriously and seeking to limit 
corruption at higher levels of government.
    Unfortunately, this progress has yet to be complemented with 
tangible actions against any of the high-level government officials 
accused of corruption. We will watch the Afghan Government very closely 
over the next few months and expect to see some substantive changes in 
the near future.

    27. Senator Burris. Secretary Clinton, what is President Karzai 
doing to increase transparency in the appointment of provincial and 
ministerial posts?
    Secretary Clinton. We remain concerned about the appointment 
process for ministerial and provincial posts in the Afghan Government. 
While the Government of Afghanistan has made steps in the right 
direction, significant challenges remain.
    The Independent Administrative Reforms and Civil Service Commission 
and the Independent Directorate of Local Governance are jointly 
responsible for the appointment of high-level Afghan Government 
officials, including provincial governors. With the assistance of the 
international community, these institutions have established a set of 
mechanisms to adequately identify, recruit, vet, and hire high-level 
government officials. Unfortunately, the Government of Afghanistan is 
not adequately utilizing these resources, particularly for politically 
influential positions and important governorships. In many cases, 
President Karzai continues to rely on political patronage networks in 
choosing leaders for key positions.

    28. Senator Burris. Secretary Clinton, overall development of the 
Afghan economy appears to be at a standstill. The issue of poppy 
eradication continues to be a roadblock for agriculture development. 
What is being done to provide security for farmers who do not grow 
poppy, so that the Taliban do not intimidate the farmers? Is a 
comprehensive development strategy being developed?
    Secretary Clinton. I would not say that economic development in 
Afghanistan is at a standstill. There have been some important 
successes in this last year--including a deal with India involving 
exports from Wardak province in Afghanistan--that are encouraging.
    Large-scale eradication targeted at individual farmers as part of 
our counternarcotics approach over the last few years proved 
problematic because it gave the Taliban a way to step in as protectors 
of farmers, driving a wedge between farmers and their government and 
us. In recognition of this, we revised our counternarcotics strategy 
during the summer so that we are putting greater focus now on 
interdiction of the nexus between narco-traffickers and the insurgents, 
and on the connection between the poppy trade and corruption; and on 
helping farmers to grow legal crops that will be profitable and able to 
supplant opium poppy in the long term. We are thus taking the 
counternarcotics fight to the people who are ultimately hurting farmers 
and undermining the Afghan Government and rule of law, and at the same 
time helping link farmers to their government through Afghan Government 
programs that supply farmers with agricultural inputs and help to 
develop agricultural value chains. Our revised counternarcotics 
strategy is integrated with our Agricultural Strategy, and in this way 
helps to create jobs and restore Afghanistan's once vibrant 
agricultural sector. Our counternarcotics strategy is thus part of a 
comprehensive, whole-of-government approach aimed at helping the Afghan 
Government wage a counterinsurgency and develop the country at the same 
time.
    General McChrystal's counterinsurgency approach centers on 
protecting the population, and this includes farmers. We will expect 
the Afghan national security forces to be involved in this as well, 
further forging a positive connection between the people and their 
government.

              DIPLOMATIC TEAM DYNAMICS AND ALLIED SUPPORT

    29. Senator Burris. Secretary Clinton, an effective and continuous 
diplomatic effort is key to progress for the Afghan Government, and an 
effective ambassadorial team is critical to facilitating that progress. 
What is the working relationship between Ambassador Eikenberry, 
Ambassador Holbrooke, and Deputy Ambassador Ricciardone?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    30. Senator Burris. Secretary Clinton, I understand that many of 
the troop-contributing nations for Afghanistan have placed very 
specific caveats on what missions and what type of support that they 
will provide. What, if any, are the caveats, and do these caveats pose 
an obstacle to meeting our stated objectives?
    Secretary Clinton. I appreciate the continued commitment of our 
NATO allies and other partners to the international mission in 
Afghanistan. Forty-three NATO and non-NATO countries provide over 
40,000 troops with thousands more arriving in 2010 to reinforce the 
ISAF. Over 600 allied and partner military personnel have been killed 
serving in Afghanistan. U.S. allies and partners recognize that 
securing Afghanistan against the threat posed by extremists and 
terrorists and providing a better future for the Afghan people is in 
our common interest.
    Caveats that limit the geographic and operational flexibility of 
ISAF forces remain a challenge in Afghanistan. Despite this challenge, 
the trend over the last year has been positive with several nations 
dropping specific caveats and a majority of ISAF troop contingents are 
now caveat free. We continue to impress upon our allies and partners 
the importance of providing the commanders on the ground the maximum 
possible flexibility in the employment of ISAF forces.
    I defer to DOD for a detailed discussion of how caveats impact the 
operations of U.S. forces.

                     TIMELINE AND RESULTING CHANGES

    31. Senator Burris. Admiral Mullen, how long do you expect it to 
take to build up capability to affect an increased level of security?
    Admiral Mullen. [Deleted.]

    32. Senator Burris. Admiral Mullen, will there be an increase in 
contractor support based on this troop increase?
    Admiral Mullen. Yes. Contractors are a critical enabler in 
Afghanistan and will continue to provide a wide range of tasks 
essential for operations including maintenance, construction, 
transportation, security, and base support. The contractor footprint in 
Afghanistan increased substantially during the fourth quarter and now 
stands at 104,000. CENTCOM estimates the number of contractors will 
grow to 148,000 to 186,000 in support of the increase in forces. 
Approximately 75 percent of these will be Afghani nationals, providing 
a boost to the economy and promoting stability.

    33. Senator Burris. Admiral Mullen, what additional costs will be 
necessary for contractor support of these additional troops in 
Afghanistan?
    Admiral Mullen. OSD Comptroller is working with the military 
departments and CENTCOM to determine the additional operational costs 
needed for the additional troops. The Secretary of Defense has stated 
that the total cost will be between $30 billion to $35 billion per 
year. The additional costs required for contractor support will be a 
subset of the operations and maintenance request. Contractors are a 
critical enabler in Afghanistan and will continue to provide a wide 
range of tasks essential for operations including maintenance, 
construction, transportation, security, and base support. The costs 
associated with contracted support are impossible to determine in 
advance of requirement development, however, these costs will not be 
over and above any funds requested by the Department in support of the 
troop increase.

    34. Senator Burris. Admiral Mullen, how is the normal force 
rotation and dwell time affected by the troop increase?
    Admiral Mullen. The 30,000 troop increase will have no significant 
effect on normal force rotation or dwell for the Services.
    The Army will be able to source the requested capabilities on the 
anticipated timelines without breaking 1:1 unit dwell.
    While current Marine Corps deployment-to-dwell policy of 1:3 is not 
being met, the Active component goal of 1:2 is being met across many 
core units. The challenges associated with meeting these goals remain 
acceptable to the Marine Corps.
    The Navy, Air Force, and Coast Guard reported that the troop 
increase will have no significant overarching effect on force rotation 
and dwell time.

                         TROOP NUMBERS AND USE

    35. Senator Burris. Admiral Mullen, when all of the troops are in 
place, how many of them will be solely dedicated to training the ANSF?
    Admiral Mullen. Currently, in NATO Training Mission Afghanistan 
(NTM-A)/Combined Security Transition Command-Afghanistan (CSTC-A), 
there are approximately 830 U.S. forces whose sole task is to train 
ANSF forces in institutions, schools, and other formalized programs of 
instruction. These forces train ANSF trainers, coordinate resources 
exclusively in support of training, and advise and coach the ANSF on 
management of institutional training.
    4/82 IBCT and 48th IBCT, consisting of approximately 6,000 
soldiers, provide Embedded Training Teams (ETTs) and Police Mentor 
Teams (PMTs) to fielded ANA units from battalion to corps level and to 
ANP units from district to police region level.
    When all of our forces are in place, these troops will be augmented 
by a infantry battalion from the 10th Mountain Division, which is 
approximately 600 soldiers.
    However, our relationship with the ANSF extends far beyond these 
institutional training programs. A key tenet of General McChrystal's 
strategy is partnering with the Afghan security forces in order to help 
them build capacity so that they can assume responsibility for their 
nation's security as quickly and as successfully as possible. These 
partnered forces provide daily operational, doctrinal, and logistical 
advice, mentoring, and coaching.
    All U.S. combat brigades deployed to Afghanistan will be partnered 
with Afghan forces across all echelons of command. Therefore, as 
additional U.S. forces deploy to Afghanistan and we accelerate the 
growth of ANSF units, the number of U.S. forces partnered with Afghan 
units will also rise.

    36. Senator Burris. Admiral Mullen, how many U.S. forces are 
currently training ANSF?
    Admiral Mullen. Currently, in NTM-A/CSTC-A, there are approximately 
830 U.S. forces whose sole task is to train ANSF forces in 
institutions, schools, and other formalized programs of instruction. 
These forces train ANSF trainers, coordinate resources exclusively in 
support of training, and advise and coach the ANSF on management of 
institutional training.
    4/82 IBCT and 48th IBCT, consisting of approximately 6,000 
soldiers, provide ETTs and PMTs to fielded ANA units from battalion to 
corps level and to ANP units from district to police region level.
    However, our relationship with the ANSF extends far beyond these 
institutional training programs. A key tenet of General McChrystal's 
strategy is partnering with the Afghan security forces in order to help 
them build capacity so that they can assume responsibility for their 
nation's security as quickly and as successfully as possible. These 
partnered forces provide daily operational, doctrinal, and logistical 
advice, mentoring, and coaching.
    All U.S. combat brigades deployed to Afghanistan will be partnered 
with Afghan forces across all echelons of command. Therefore, as 
additional U.S. forces deploy to Afghanistan and we accelerate the 
growth of ANSF units, the number of U.S. forces partnered with Afghan 
units will also rise.

    37. Senator Burris. Admiral Mullen, how many ISAFs are currently 
conducting the mission in Afghanistan?
    Admiral Mullen. As of 9 December, coalition forces in Afghanistan 
total 109,370. The United States contribution of that is 67,640.

    38. Senator Burris. Admiral Mullen, for those U.S. troops whose 
responsibility is to train the Afghan forces, what portion will be 
embedded with the Afghan forces?
    Admiral Mullen. A key tenet of General McChrystal's strategy is 
partnering with the Afghan security forces in order to help them build 
capacity and assume lead security responsibility as quickly and as 
successfully as possible. Today, 26 out of 40 U.S. battalions, or about 
14,000 troops, are partnered with ANSF in this capacity and provide 
daily training to ANSF units. As additional U.S. forces deploy to 
Afghanistan and we accelerate the growth of ANSF units, the number of 
U.S. forces partnered with Afghan units will also rise.

                         TRAINING AFGHAN FORCES

    39. Senator Burris. Admiral Mullen, how long does it take for U.S. 
troops to train Afghan forces?
    Admiral Mullen. There are three main efforts in training the ANSF. 
The first is institutional, where soldiers and police receive basic 
training through schools and other formalized programs. Basic training 
for the infantry soldier, who make up the majority of the ANA is 8 
weeks long. Those soldiers who will become part of a newly formed 
battalion receive an additional 5 weeks of unit collective training at 
the Consolidated Fielding Center (CFC). Soldiers selected to be NCOs 
during basic training receive another 3 weeks of training. Those 
soldiers who serve in specialty billets can receive 6 to 8 more weeks 
of specialty training after basic training. ANA officers receive 
between 20 weeks to 4 years of training depending on the program. 
Afghan Uniform Police (AUP) receive 8 weeks of basic training either as 
new recruits or with their district as part of Focused District 
Development (FDD) or Directed District Development (D3). Afghan Border 
Police (ABP) also attend 8 weeks of basic training, either as new 
recruits, or as serving police as part of Focused Border Development 
(FBD). Afghan National Civil Order Police (ANCOP) receive 16 weeks of 
training, consisting of 8 weeks of basic training and 8 weeks of 
specialized training. ANP officers receive between 6 months and 3 years 
of training, depending on the program.
    However, the process of training the ANSF is a long-term commitment 
by U.S. forces that extends well beyond basic training programs. The 
second training effort for U.S. forces are ETTs and PMTs, which are 
provided to fielded ANA units from the battalion to corps level and to 
ANP units from the district to police region level. There are currently 
two U.S. BCTs providing ETTs and PMTs: the 48th IBCT and 4/82 IBCT.
    The third training effort is U.S. partnership with ANSF units. This 
partnering is a key tenet of General McChrystal's strategy, and is 
designed to help ANSF build capacity and assume lead security 
responsibility as quickly and as successfully as possible. Once units 
graduate from their respective institutional training programs, they 
continue to receive advice, mentoring, and coaching through their 
partnership with U.S. and coalition forces. For instance, upon 
graduation, every ANA Kandak and higher level headquarters is partnered 
with a coalition unit and receives daily doctrinal, operational, 
administrative, and logistical training. Furthermore, when these ANA 
units are employed operationally, they routinely fight alongside a 
coalition operational unit.
    As a result of force expansion, all ANA and ANP in critical 
districts will be partnered with IJC forces.

    40. Senator Burris. Admiral Mullen, when will there be sufficient 
and fully trained Afghan forces prepared to protect their own country?
    Admiral Mullen. As the President articulated in his December 1 
address, U.S. forces will begin transitioning responsibility to the 
ANSF in July 2011. This transition will occur province by province, and 
will be executed responsibly, taking into account conditions on the 
ground. While the conditions necessary to transition responsibility 
will be present in some provinces in the summer of 2011, others will 
likely require further U.S. training and assistance before this process 
can begin.
    In part, decisions about the location and pace of U.S. transition 
and eventual withdrawal will be made based on the capability of the 
local ANSF. A key tenet of our strategy is to accelerate the growth and 
build the capacity of the ANSF so that they can assume responsibility 
for their nation's security as quickly as possible. Decisions about the 
targeted growth of the ANSF will be made on a year-by-year basis, based 
on current security conditions and past progress.
    As President Karzai articulated in his November inaugural address, 
the Afghan Government's goal is to assume security responsibility for 
the entire country within the next 5 years. We will work with our 
Afghan partners to support this goal.

    41. Senator Burris. Admiral Mullen, given the current proficiency 
of the ANP Force, will Afghan police officers who were trained locally 
in provinces outside of the new academy in Kabul be retrained with 
revised law enforcement standards?
    Admiral Mullen. Yes. AUP recruited and trained locally will 
complete the ``Basic 8'' 8-week training program. This program uses a 
curriculum reviewed by the DOS International Law Enforcement and 
Narcotics Division and approved by the Afghan Ministry of the Interior 
(MoI).
    AUP patrolmen are being trained at a Regional Training Center 
either individually or a part of their district through the Focused 
District Development program or in their home district through the 
Directed District Development (D3) program. MoI and NTM-A/CSTC-A are 
coordinating to maximize the rate of untrained police completing this 
reform training.

    42. Senator Burris. Admiral Mullen, which American contracting 
company is supporting the training of the ANP?
    Admiral Mullen. Currently, support for the training of ANP is 
provided under a DOS contract with Dyncorp International, LLC. However, 
we intend to transition the training effort to a DOD-managed contract 
to improve oversight and maximize efficiencies. The new acquisition 
strategy will leverage an existing Counter-Narcoterrorism and 
Technology Program Office (CNTPO) multiple award Indefinite Delivery/
Indefinite Quantity contract with the following companies: Lockheed 
Martin Integrated Systems; Northrup Grumman Information Technology; 
Blackwater Lodge and Training Center, LLC; Raytheon Technical Services; 
and ARINC Engineering Services, LLC. The contract with Dyncorp has been 
extended until 31 March 2010 to allow time for the transition and to 
minimize disruption and risk to performance of this critical mission.

    43. Senator Burris. Admiral Mullen, how long have they been 
assigned this task, and how long will they stay should their contract 
be renewed?
    Admiral Mullen. The current DOS contractor (Dyncorp) has been in 
place since 2003. This contract has been extended until 31 March 2010 
to allow time for transition to a DOD-managed contract.

                         RECONSTRUCTION EFFORTS

    44. Senator Burris. Admiral Mullen, I have not heard much about the 
successes in the reconstruction efforts in Afghanistan. What is the 
overall plan and who leads the effort?
    Admiral Mullen. DOS and USAID are the leads for U.S. government 
reconstruction efforts, as part of a broader international effort in 
Afghanistan. DOD does provide reconstruction assistance through the 
CERP funds and some DOD organizations (like the U.S. Army Corps of 
Engineers) provide assistance upon request on a reimbursable basis to 
USAID/DOS.
    Under the CERP, the field commanders are using these funds to 
address a number of areas that help our counterinsurgency efforts in 
supporting the Afghan people and, as needed, do small-scale 
infrastructure projects that help improve people's lives and provide 
humanitarian assistance. Of the $1.2 billion appropriated for CERP in 
fiscal year 2009 for use by both Iraq and Afghanistan, about $550.7 
million is being spent to support over 2,215 projects. DOD support to 
Afghan reconstruction efforts is most visible through the 12 U.S.-led 
Provincial Reconstruction Teams (PRTs) that operate at the provincial 
level. The DOD components of PRTs utilize CERP funds to support 
reconstruction priorities at the provincial/district levels based on 
Afghan-led prioritized plans. These Provincial Development Plans (PDPs) 
were developed by Afghans at the district/provincial level and were 
approved by the National Government of Afghanistan in alignment with 
the Afghan National Development Strategy (ANDS). The PRTs (and maneuver 
forces) and other donors and nongovernmental organizations (NGOs) work 
with the provincial development committees to align CERP and other 
donor funds to prioritized requirements in the PDPs. As a result, CERP 
funds and other donor funds are used to build, for example, schools, 
roads, power systems, irrigation, medical clinics, and government 
buildings.
    On August 10, 2009, General McChrystal and Ambassador Eikenberry 
established an overarching civilian-military plan titled: ``U.S. 
Government Integrated Civilian-Military Campaign Plan For Support to 
Afghanistan''. This civilian-military plan is working to integrate all 
U.S. Government capabilities and resources in Afghanistan, and provides 
U.S. Government priorities and objectives for the 11 transformative 
effects areas broken out by regional commands for fiscal year 2010 
through fiscal year 2012.
    In summary, the DOS leads U.S. Government development efforts in 
Afghanistan, and like other donors, is guided by the ANDS. DOD supports 
these efforts and employs CERP for projects that enhance 
counterinsurgency operations, i.e., those that focus on the security of 
the Afghan population.

    45. Senator Burris. Admiral Mullen, are relief and other 
reconstruction efforts aided or hampered by the presence of the PRT? 
Does this vary by region?
    Admiral Mullen. PRTs provide critical capabilities in that they 
generate immediate local relief efforts and support more expansive 
reconstruction efforts. Both effects are essential to execution of the 
President's strategy for Afghansitan and Pakistan. PRTs provide 
immediate local relief, using discretionary funds to accomplish short-
term employment, self-help, and minor construction efforts that assist 
field commanders in the hold and early build phases of 
counterinsurgency operations. When synchronized properly, PRT efforts 
are complimentary with and greatly enhance reconstruction work executed 
by the GIRoA, the U.N., other U.S. Government agencies, and numerous 
NGOs--development efforts that anchor the build phase of 
counterinsurgency operations. The effectiveness of reconstruction 
efforts in general, and the effectiveness of PRTs in support of 
reconstruction in particular, depends upon several factors unique to 
different regions of the country, including the security environment 
(permissive, semi-permissive, or non-permissive), human terrain 
factors, and governance capability, among others. I am unaware of any 
down-side to PRTs. One recent study highlights the manner in which PRTs 
made a positive impact on relief and reconstruction, reducing violence, 
increasing local political participation, and facilitating a linkage 
between tribes and the government.\1\
---------------------------------------------------------------------------
    \1\ Malkasian, Carter & Meyerle, Gerald. March 2009. ``Provincial 
Reconstruction Teams: How Do We Know They Work?'' Strategic Studies 
Institute. P. VIII.
---------------------------------------------------------------------------
                                 ______
                                 
              Questions Submitted by Senator Paul G. Kirk

                    PRESIDENT KARZAI AND CORRUPTION

    46. Senator Kirk. Secretary Clinton, you recently returned from 
Afghanistan. Having attended the inauguration of President Karzai after 
an election most are calling fraudulent and having sat face-to-face 
with him, I would like to hear your thoughts on President Karzai and 
whether demonstrable progress on his part is a realistic goal. Should 
not demonstrable progress be a pre-condition to further commitment of 
our troops?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    47. Senator Kirk. Secretary Clinton, news reports indicate that you 
warned President Karzai to reduce corruption or lose foreign 
assistance. How accurate is that statement?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    48. Senator Kirk. Secretary Clinton, how do we measure progress by 
the Karzai Government, and what is our timetable for his progress?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    49. Senator Kirk. Secretary Clinton, what will you or the President 
do if President Karzai cannot or will not meet our requirements for 
progress?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    50. Senator Kirk. Secretary Gates, you recently indicated that a 
way to hold the Afghan Government accountable would be to withhold 
funds for projects ``where we can control the flow of dollars.'' Can 
you elaborate on that statement? What projects are you referring to?
    Secretary Gates. The international presence in Afghanistan has 
significantly increased the influx of assistance dollars and, as a 
result, the number of contracts. Corruption--which may be associated 
with contracts awarded, work that we are having done, and development 
projects with others (including the Afghans)--is a major concern. 
Corruption can occur at any level. The very presence of large amounts 
of assistance in a society where rule of law is virtually absent and 
the institutions of government are weak opens up opportunities for 
corruption.
    While the United States works vigilantly to ensure the contracts we 
enter into and the contractors we work with are not engaging in 
corruption, this is primarily an Afghan issue--effective anti-
corruption measures require laws, regulations, and an effective 
enforcement infrastructure, none of which Afghanistan yet has. We 
welcome President Karzai's recent commitments to a more active effort 
to combat corruption.
    As the Secretary of State noted in her testimony, USAID is working 
on a process to certify Afghan ministries to receive direct funding 
from the U.S. Government, based on their financial and human resources 
management capabilities and transparency. I refer you to USAID for 
further details regarding this process.
    DOD and DOS are also reviewing our contracting processes to find 
ways to improve our ability to respond directly to the needs of the 
Afghan people, and to reduce avenues for potential corruption. These 
efforts include awarding smaller contracts, increasing local 
procurement, and deploying additional contracting officers to the field 
to oversee contracts and partner with Afghans.

                       COSTS OF ADDITIONAL TROOPS

    51. Senator Kirk. Secretary Gates, as Secretary of Defense, how do 
you plan to pay for a continuing war in Afghanistan with 30,000 more 
U.S. troops? Do you anticipate a supplemental spending bill? Will there 
be bridge funding?
    Secretary Gates. I will work with the OMB on how best to address 
the funding. I anticipate requesting a supplemental appropriation for 
fiscal year 2010. Our fiscal year 2011 Overseas Contingency Operations 
budget request will cover all approved operations.

    52. Senator Kirk. Secretary Gates, with this many more troops going 
in, what will the budget for fiscal year 2011 look like?
    Secretary Gates. We are in the final stages of developing the 
fiscal year 2011 budget request. Once the President approves the 
request, I will be able to discuss the details.

    53. Senator Kirk. Secretary Gates, how much more do we plan to 
spend in Afghanistan going forward until the Afghan Government is ready 
to assume responsibility for its security and development?
    Secretary Gates. The amount we plan to spend will depend on how 
much longer we need to be in Afghanistan, the number of forces required 
to accomplish the mission, and how much training and equipment the ANSF 
requires to assume the lead for security responsibility. All 
considerations are subject to conditions on the ground and how quickly 
we progress towards our goals.
    There are numerous considerations to take into account when trying 
to estimate how much we plan to spend in Afghanistan before the Afghan 
Government is ready to assume responsibility for security and 
development. While I cannot address development costs, military cost 
considerations for sustaining Operation Enduring Freedom (OEF), the 
U.S. commitment to the ISAF, and contributing to the NATO Training 
Mission-Afghanistan (NTM-A) include:

    <bullet>  Troop subsistence; special pay; supplies; fuel; 
ammunition; and transportation for troops, vehicles, tanks, helicopters 
and other equipment.
    <bullet>  Repair or replacement of equipment that has been 
destroyed, damaged, or worn out during operations.
    <bullet>  Funds for training and equipping Afghan military and 
police units, as well as funds to help the Government of Pakistan build 
a counterinsurgency capability that will support U.S. military efforts 
in Afghanistan.

                       LOCAL AND REGIONAL EFFORTS

    54. Senator Kirk. Secretary Gates and Secretary Clinton, as part of 
the national security team, I believe you were asked earlier this year 
by the President to identify and evaluate regional and local Afghan 
leaders who might support a political solution. New efforts are now 
reported in Afghanistan's eastern region to get the Taliban to sit down 
and talk. What do you see as the prospects for these regional and local 
efforts?
    Secretary Gates. Reintegration of those insurgents and their 
leaders who want to renounce violence and join mainstream Afghan 
society is an important effort, which must be led by the GIRoA and be 
community-focused. Our civil-military team is actively working 
alongside GIRoA to develop their reintegration program. Part of the 
reintegration program includes utilizing local leaders to vouch for the 
reliability of those who are willing to leave the insurgency.
    To assist the GIRoA in assimilating these insurgents, USFOR-A is 
working with the ISAF to develop support to a GIRoA reintegration 
program in accordance with the National Defense Authorization Act for 
Fiscal Year 2010. Job training, education, and relocation assistance 
stand out as potential opportunities for support.
    Finally, security is also essential. To attract insurgents to an 
Afghan-led reintegration program, ISAF will partner with ANSF and 
community leaders to provide sufficient security and prevent 
retribution.
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    55. Senator Kirk. Secretary Gates and Secretary Clinton, what more 
can we and our NATO allies do to strengthen these prospects going 
forward?
    Secretary Gates. Afghanistan's international partners have 
demonstrated their strong commitment to our common goal in Afghanistan. 
As the U.S. Government has increased its troop levels, so have our 
partners in the ISAF. As a result of recent NATO and non-NATO pledges 
to commit approximately 7,000 forces, international assistance will 
reach 50,000 forces. Furthermore, several allies and partners, led by 
Japan, have made major financial contributions to programs to help the 
Afghan military and economy.
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

                 ROLE OF NEW TROOPS AND ALLIED SUPPORT

    56. Senator Kirk. Admiral Mullen, you have described our mission in 
Afghanistan as ``hand in glove.'' What do you mean by that?
    Admiral Mullen. Achieving our objectives in Afghanistan requires 
more than military might. Our strategy includes civil and military 
efforts that work together to achieve success in the region. The 
duration of our military presence is not open-ended--nor does it need 
to be. However, our civilian commitment must continue, even as our 
troops begin eventually to come home. Our counterinsurgency approach 
focuses on measurable security progress and protecting the Afghan 
population. Supporting the establishment of responsible security 
elements and government at the sub-national level is an important 
example of integrating civil and military efforts. For example, our 
support for Afghan reintegration policies and anti-corruption efforts 
demonstrate the importance of coordinated civil-military action that 
will greatly contribute to our progress. Similarly, through the U.S. 
Government Integrated Civilian-Military Campaign Plan For Support to 
Afghanistan, military components work closely with international and 
Afghan governments and NGOs to ensure military plans and operations 
account for the contributions of civilian agencies. Civilian expertise 
is needed from the very beginning to shape governance conditions and 
help build Afghan capacity.

    57. Senator Kirk. Admiral Mullen, you seem to envision our troops 
in Afghanistan playing some role in development. What is that role 
specifically?
    Admiral Mullen. DOS and USAID are the lead for development for the 
U.S. Government. By working with U.S. Government civilians, our forces 
play a significant supporting role in helping the Government of 
Afghanistan provide public services within key areas of Afghanistan.
    Traditionally, U.S. and combined operations secure the populace, 
providing access for government development specialists. Having secured 
the area, commanders work with other U.S. Government agencies, the 
GIRoA, and international NGOs to identify and coordinate projects that 
will provide both immediate benefit and lasting effects.
    In a more recent development, U.S. forces have been able to 
contribute to stability through the National Guard's Agri-business 
Development Teams (ADTs). These teams, comprised of Army National Guard 
members and USDA and USAID civilians, provide technical assistance to 
Afghan farmers in Afghanistan. In addition to aiding farmers, ADTs 
advise Afghan officials assigned to the Ministry of Agriculture, 
Irrigation, and Livestock on how to best assist the population--a 
short-term investment in building the long-term confidence Afghans must 
have in their government. ADT efforts are coordinated with U.S. 
development and security programs. Recently, the U.S. Embassy hosted an 
agricultural aid conference to share information and organize efforts.

    58. Senator Kirk. Admiral Mullen, what do you see as the difference 
in mission for the 68,000 already deployed and the 30,000 more that 
will be deploying? Will these new troops have a greater focus on 
development?
    Admiral Mullen. The additional 30,000 U.S. forces will include 
three maneuver brigade combat teams to perform comprehensive 
operations, a training brigade, and required associated enablers. The 
additional forces that will arrive in 2010 will expand upon the gains 
made by the existing and additional forces added in 2009, and 
collectively will allow us to more effectively execute our new 
strategy. Their presence will accelerate the growth and development of 
ANSF through direct training by ISAF training forces and comprehensive 
partnering with both existing and additional counterinsurgent maneuver 
brigades. In addition, these forces will serve as a bridging force to 
provide the space and time to support improvements to governance, the 
capacity of the Afghan Government, and to grow the ANSF.
    I fully support the expansion of civilian efforts in Afghanistan as 
part of an all-of-government approach. Enabling economic development 
will offer the Afghan people the ability to sustain security gains and 
is among the key efforts of our fully-integrated civil-military plan. 
Additional forces, together with the existing 68,000 U.S. forces and 
our allies and partners, will work hand-in-hand with civilian partners 
to achieve the President's objectives and our long-term core goal.

    59. Senator Kirk. Admiral Mullen, where do NATO troops fit into 
this mission as we send additional troops to Afghanistan?
    Admiral Mullen. NATO troops continue to play an integral role in 
our strategy in Afghanistan and their additional troop offerings 
provide increased flexibility and coverage across a range of missions. 
They are lead nation for Regional Command (RC)-North (Germany), RC-West 
(Italy), RC-South (UK), and RC-Capital (Turkey). Additionally, they 
provide Operational Mentor Liaison Teams (OMLTs) that mentor, train, 
and now partner with the ANA and Police Operational Mentor Liaison 
Teams (POMLTs) that mentor, train, and partner with the ANP.

    60. Senator Kirk. Admiral Mullen, what commitment do we have from 
NATO today, December 2, 2009, to also send more troops and resources to 
the region? Will we have help militarily, financially, or both?
    Admiral Mullen. As of December 2, 2009, there was discussion and 
political commitment of 5,000 additional forces from international 
partners. After the December 4, 2009, NATO Foreign Ministerial and the 
December 7, 2009, ISAF Force Generation Conference, NATO and non-NATO 
Troop Contributing Nations pledged 6,800 forces, which was more than we 
originally expected. Additional commitments are also possible. Several 
shortages in capabilities remain, including the need for additional 
trainers, OMLTS, and POMLTs. There are a number of nations that the 
United States may have to assist militarily and/or financially, within 
the existing budgeted resources and authorities. Some of these nations 
have provided combat forces without caveats, offsetting the need to use 
U.S. forces.

    61. Senator Kirk. Admiral Mullen, you have also indicated that our 
troops are not yet at their ``tipping point.'' Do you think this 
increase in troops will keep our military forces from tipping at all?
    Admiral Mullen. Our men and women in uniform and their families 
continue to bear a significant burden. The Joint Chiefs of Staff and I, 
along with the Secretary of Defense, closely monitor the health of the 
force and are taking active measures to address and mitigate risks.
    The deployment of 30,000 additional forces to Afghanistan comes 
alongside a parallel drawdown of forces which will reduce forces in 
Iraq from about 115,000 to 50,000 by August 2010. The Iraq drawdown 
remains on track and on schedule.
    The Army's overall operational tempo will reduce slightly in the 
coming year, although reaching the desired long-term ratio of dwell 
time to boots-on-ground time of 2-to-1 will come a bit more slowly than 
originally planned. Current Army assessments indicate that at least 70 
percent of our Active component forces will be able to achieve the 2-
to-1 ratio in 2011. We will continue to make significant progress 
toward dwell-time goals in the Marine Corps. Across the force, we are 
closely managing the deployment of small-unit enablers, who often 
operate at a 1-to-1 ratio.
    Meanwhile, the Services continue their efforts to care for 
servicemembers and their families. These efforts include a vast array 
of initiatives that will continue to address servicemembers' mental and 
emotional health, quality of life, predictability in their assignments 
and deployments, and recruiting and retention.

    62. Senator Kirk. Admiral Mullen, will deployment lengths or dwell 
times change as a result of sending more troops to Afghanistan?
    Admiral Mullen. The Services do not anticipate any increase to 
deployment lengths and dwell times will remain above Service redlines 
as a result of sending additional troops to Afghanistan.
    The Army has already programmed growth in capabilities needed to 
support ongoing operations which will lead to improved dwell ratios in 
both Active and Reserve components.
    The Marine Corps deployment lengths will not change as a result of 
the addition to the force in Afghanistan.
    The Navy, Air Force, and Coast Guard reported that the troop 
increase will have no significant overarching effect on deployment 
lengths and dwell time.

    63. Senator Kirk. Admiral Mullen, how heavily will we rely on our 
National Guard and Reserves for this troop increase in Afghanistan?
    Admiral Mullen. The Services will continue to rely on the National 
Guard and the Reserves as a part of the total force in support of OEF.
    Commander, U.S. CENTCOM has not yet completely defined his 
requirement for optimal use of the 30,000 authorization; therefore, the 
ultimate composition of Active and Reserve component forces cannot yet 
be determined.
    For the Army, of the approximately 13,000 soldiers currently 
scheduled for deployments associated with the Afghanistan 
reinforcement, only approximately 1,000 of them are Reserve component 
members.
    The Marine Corps will continue to rely on its Reserve component 
through a rotation of forces while continuing to meet its deployment-
to-dwell policy of 1:4.

    64. Senator Kirk. Admiral Mullen, please describe the training 
mission. How dangerous will embedding additional trainers and an 
increased force presence in the region be for our troops and allies?
    Admiral Mullen. Our new approach toward training ANSF includes 
tighter, restructured training programs to deliver more 
counterinsurgency-capable units. ANA and ANP elements upon completion 
of a formal program of instruction will have the capability of 
conducting hold operations with some capability to clear while closely 
partnered with coalition forces.
    However, the ANSF training mission extends beyond the initial 
program of instruction at the training center. Coalition advisory teams 
will join ANSF units before entering training and remain with ANSF 
units through training and beyond as they are fielded. ISAF maneuver 
units are partnering with ANSF elements to provide mentoring and 
valuable on-the-job training, as well as enabler support while Afghan 
enabler capabilities are subsequently developed.
    Advisory teams are indeed largely provided by coalition allies. We 
expect that ANSF units and their mentors, not unlike the coalition 
maneuver units with which they are partnered, will face an increased 
threat in the initial months of the deployment of additional forces as 
the insurgency's momentum is reversed. ISAF training, advising, 
mentoring, and partnering will prove critical to mitigate risks as 
rapidly expanded ANSF growth and fielding occurs and ANSF capabilities 
develop.

                   CIVILIAN EFFORT AND COLLABORATION

    65. Senator Kirk. Admiral Mullen, we owe an immense debt to the 
troops serving in Afghanistan today. It is now time to strengthen their 
mission of training local army and police forces in preparation for the 
gradual reduction and ultimate disengagement of U.S. forces, so that 
our civilian personnel can help build responsive governance 
infrastructures at the provincial level. When will that happen and how 
would DOD support this?
    Admiral Mullen. The ANSF is continuously developing the capacity 
that will ultimately allow them to take responsibility for their 
nation's security. In some cases, ANSF units are already doing this. In 
all cases this will be executed responsibly, taking into account 
conditions on the ground which will differ from region to region.
    As U.S. forces are able to begin our military transition, 
international forces will continue to partner with and support the ANSF 
for some time. In addition, a significant civilian commitment will 
remain in Afghanistan during the progressive military drawdown and long 
after our troops depart in order to support Afghan programs and 
policies for political-economic development.
    However, our civilian commitment must continue, even as our troops 
begin eventually to come home. Our counterinsurgency approach focuses 
on measurable security progress and protecting the Afghan population. 
Supporting the establishment of responsible security elements and 
government at the subnational level is an important example of 
integrating civil and military efforts. For example, our support for 
Afghan reconciliation and reintegration policies and anti-corruption 
efforts demonstrates the importance of coordinated civil-military 
action that will greatly contribute to our progress. Similarly, through 
the ``U.S. Government Integrated Civilian-Military Campaign Plan For 
Support to Afghanistan,'' military components work closely with 
international and Afghan governments and NGOs to ensure military plans 
and operations account for the contributions of civilian agencies. Our 
forces understand that security operations can provide a basis for 
stability, but civilian expertise is needed to provide mid- and long-
term political-economic development.

    66. Senator Kirk. Admiral Mullen, will there be a concentrated 
civilian effort with this surge?
    Admiral Mullen. DOD strongly supports civilian increases in 
Afghanistan as a critical element of our strategy and as an essential 
element of improving civil-military integration. We have already seen 
significant improvements with initial civilian increases in 2009 and 
the establishment of a U.S. Government senior civilian structure, 
whereby a U.S. Government civilian counterpart is established at each 
level of the military chain of command to coordinate civilian efforts. 
We are aware that military force increases put a further strain on 
scarce civilian expertise. DOS will work with our military commanders 
to identify civilian requirements. I refer you to DOS for further 
details.
                                 ______
                                 
              Question Submitted by Senator Jeff Sessions

                   AIR FORCE AERIAL REFUELING TANKER

    67. Senator Sessions. Secretary Gates, General Duncan McNabb, the 
Commander of U.S. Transportation Command, testified before the House 
Armed Services Committee on March 17, 2009, to the following: ``The KC-
X will be a game changer. Its value as a tanker will be tremendous. Its 
value as a multi-role platform to the mobility enterprise will be 
incomparable. It will do for the whole mobility world what the C-17 did 
for theater and strategic airlift. It will be an ultimate mobility 
force multiplier.''
    The logistical challenges that a landlocked country such as 
Afghanistan poses during a prolonged conflict such as OEF are 
undeniable. The military leader assigned the task of addressing those 
challenges recognizes the game changing value of a multi-role platform.
    With this information in mind, why would you not afford a certain 
amount of extra value on cargo capability in the assessment of a future 
tanker proposal in the upcoming competition?
    Secretary Gates. The Department has valued extra KC-X cargo 
capability in the draft Request for Proposal (RFP). For example, to 
meet the KC-X mandatory self-deployment requirement, the KC-X must be 
able to carry at least 14 cargo pallets. This exceeds the KC-135's 
capability of only six cargo pallets. In addition, the number of 
mandatory airlift requirements has increased from 6 in the last 
competition to 42 in the current draft RFP.
                                 ______
                                 
             Question Submitted by Senator Saxby Chambliss

                     REQUESTS FOR ADDITIONAL FORCES

    68. Senator Chambliss. Admiral Mullen, please provide details on 
all requests for U.S. Forces from U.S. commanders for Afghanistan 
between January 2002 through January 2009, including the number and 
type of forces requested, whether or not the request for forces were 
met, when it was met, and, if the request was declined, why it was not 
met. Please provide an unclassified response, and, if necessary, only 
classify those portions of the response considered to be classified.
    Admiral Mullen did not respond in time for printing. When received, 
answer will be retained in committee files.
                                 ______
                                 
              Questions Submitted by Senator David Vitter

                            NATION BUILDING

    69. Senator Vitter. Secretary Clinton, there is much talk of 
building capacity or fostering economic development in Afghanistan, 
though the administration has insisted that our efforts in Afghanistan 
do not constitute nation-building. Can you explain the difference 
between nation-building and what the President plans to do in 
Afghanistan?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

                         ALLIES AND THE REGION

    70. Senator Vitter. Secretary Clinton, how have our key allies, 
including Canada, Britain, Germany, France, and other European allies, 
responded to the President's proposal?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    71. Senator Vitter. Secretary Clinton, do you expect our key allies 
to fully cooperate with the President's request for additional 
coalition forces?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    72. Senator Vitter. Secretary Clinton, is Pakistan fully prepared 
to cooperate with the President's latest plan, including providing full 
support and staging for intelligence gathering and airstrikes?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    73. Senator Vitter. Secretary Clinton, to what extent do you 
believe that the stability of Pakistan is linked to the stability of 
Afghanistan?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    74. Senator Vitter. Secretary Clinton, does the Pakistani 
Government share the view that the stability of Pakistan is linked to 
the stability of Afghanistan?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

                           ILLEGAL DRUG TRADE

    75. Senator Vitter. Secretary Clinton, it is widely acknowledged 
that insurgents in Afghanistan profit directly from the narcotics 
trade, to the tune of hundreds of millions or even billions of dollars 
per year. Can you discuss what efforts are being undertaken to stem the 
illegal drug trade and what successes, if any, have been achieved?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

    76. Senator Vitter. Secretary Clinton, what is the status of 
agribusiness development efforts aimed at encouraging farmers to 
produce legitimate crops rather than narcotics?
    Secretary Clinton did not respond in time for printing. When 
received, answer will be retained in committee files.

                 NEW STRATEGY, TIMELINE, AND BENCHMARKS

    77. Senator Vitter. Secretary Gates, on March 27, 2009, President 
Obama announced a ``comprehensive, new strategy for Afghanistan and 
Pakistan'' that included 21,000 new troops. Is the December 1, 2009, 
announcement an indication that the previous comprehensive strategy was 
insufficient and, if so, what new facts caused the President to realize 
this?
    Secretary Gates. The President made clear in March 2009 that it was 
important to regularly reassess our progress in Afghanistan to ensure 
that we had the right strategy, the appropriate mission, and the 
necessary resources. In the 6 months after the strategy was announced 
in March 2009, several important factors changed, resulting in the 
appointment of new U.S. leaders to Afghanistan. As General McChrystal 
reported in his September assessment, the situation in Afghanistan was 
more serious than we had believed and the Taliban had gained the 
initiative in many areas. In addition, the Afghan election process 
highlighted serious corruption within the Afghan Government and 
illustrated the necessity for effective governance in Afghanistan. In 
Pakistan, the situation had also changed as Pakistanis took the fight 
to the extremists that threatened their state.
    The strategic review completed on 1 December 2009 was a deliberate 
process to check alignment of goals, methods for attaining those goals, 
and resources required. This led to a more focused approach to 
achieving a clear set of concrete operational objectives in 
Afghanistan. Our refined strategy calls for a more rapid deployment of 
additional U.S. and international forces to reverse the Taliban's 
momentum and accelerate ANSF growth. Most important, the President's 1 
December speech reaffirmed the March 2009 core goal: to disrupt, 
dismantle, and eventually defeat al Qaeda and to prevent their return 
to either Afghanistan or Pakistan.

    78. Senator Vitter. Admiral Mullen, reports have indicated that 
General McChrystal's assessment requested up to 80,000 additional 
troops in Afghanistan. How did the President arrive at the troop figure 
he announced on December 1, 2009?
    Admiral Mullen. The strategic review was a deliberate and 
disciplined three-stage process to check alignment of goals, methods 
for attaining those goals, and resources required. The President 
focused on asking the hard questions and took the time to carefully 
consider all of the options before agreeing to send any additional U.S. 
forces to war. General McChrystal's assessment was certainly a key 
input into the process, as were consultations with our NATO allies, 
ISAF partners, and regional stakeholders.
    A number of issues were explored in depth: national interests, core 
objectives and goals, counterterrorism priorities, safe havens for 
terrorist groups in Pakistan, the health of the global U.S. military 
force, risks and costs associated with troop deployments, global 
deployment requirements, international cooperation and commitments for 
both Afghanistan and Pakistan, and Afghan capacity in all areas to 
include Afghan security forces, central and sub-national governance and 
corruption (including the narcotics trade), and development and 
economic issues.
    After considering all of these issues, the president announced the 
deployment of 30,000 additional U.S. forces on an accelerated timeline. 
In addition, our allies and partners have added some 7,000 additional 
U.S. forces through the NATO/ISAF Force Generation Process. Additional 
international commitments are possible.

    79. Senator Vitter. Admiral Mullen, do you believe that we can 
achieve victory in Afghanistan with fewer troops than General 
McChrystal said would be needed for maximum success?
    Admiral Mullen. I am confident that the President's decision to 
deploy 30,000 additional U.S. forces, along with at least approximately 
7,000 additional forces from our allies--all of which will arrive on an 
accelerated timeline in 2010--will give the commander on the ground the 
tools necessary to achieve the President's focused objectives.

    80. Senator Vitter. Secretary Gates, do you believe that a 
timetable for withdrawal is consistent with a commitment to victory in 
Afghanistan?
    Secretary Gates. The President did not pick the summer of 2011 date 
arbitrarily. During the strategy review, we looked closely at the 
current and projected capacity of the ANSF in some parts of the 
country. Based on that analysis, we reached the conclusion that July 
2011 is a realistic date for us to plan to begin transferring 
responsibility for security to the ANSF in some parts of the country. 
At the same time, we will assess conditions as we move forward. Based 
on those assessments, the President will determine the scope and pace 
of a gradual and responsible drawing down of U.S. combat forces.
    This is an issue of balance. We need to show both our partners and 
our adversaries in the region that we mean business: we will deploy the 
forces and the civilian resources that we believe are necessary to 
accomplish our strategic goals, and retain the tactical flexibility to 
adapt if circumstances require. At the same time, we have to send a 
clear message to the Afghan Government that the U.S. military is not 
going to be there forever. We are not an occupation force. Afghans must 
take primary responsibility for defending their own country--and 
prepare to do so with a sense of purpose and urgency.

    81. Senator Vitter. Secretary Gates, do you believe that the United 
States can afford to accept anything less than full achievement of its 
objectives in Afghanistan?
    Secretary Gates. The goal of the United States in Afghanistan and 
Pakistan is to disrupt, dismantle, and defeat al Qaeda and to prevent 
its return to both countries. The international military effort to 
stabilize Afghanistan is necessary to achieve this overarching goal. 
Defeating al Qaeda and enhancing Afghan security are mutually 
reinforcing missions. They cannot be untethered from one another, as 
much as we might wish that to be the case.
    The Taliban and al Qaeda have become symbiotic, each benefiting 
from the success and mythology of the other. Taliban success in 
retaking and holding parts of Afghanistan against the combined forces 
of multiple, modern armies--the current direction of events--has 
dramatically strengthened the extremist mythology and popular 
perceptions of who is winning and who is losing. The lesson of the 
Taliban's revival for al Qaeda is that time and will are on their side. 
With a western defeat, they could regain their strength and achieve a 
major strategic victory--as long as their senior leadership lives and 
can continue to inspire and attract followers and funding. Rolling back 
the Taliban is now necessary, even if not sufficient, to the ultimate 
defeat of al Qaeda.
    Failure in Afghanistan would mean a Taliban takeover of much, if 
not most, of the country and likely renewed civil war. Taliban-ruled 
areas could in short order become, once again, a sanctuary for al Qaeda 
as well as a staging area for resurgent militant groups on the 
offensive in Pakistan.
    What makes the border area between Afghanistan and Pakistan 
uniquely different from any other location is that this part of the 
world represents the epicenter of extremist jihadism: the historic 
place where native and foreign Muslims defeated one superpower and, in 
their view, caused its collapse at home. For them to be seen to defeat 
the sole remaining superpower in the same place would have severe 
consequences for the United States and the world.
    A stable security situation in Afghanistan and Pakistan is vital to 
our national security. Success will require patience, perseverance, and 
sacrifice by the United States and our allies.

    82. Senator Vitter. Secretary Gates, you have indicated that the 
timetable in Afghanistan is not a fixed deadline for withdrawal. Can 
you explain why the summer of 2011 was selected as the target date for 
beginning troop withdrawals?
    Secretary Gates. As previously stated in my response to Question 
80, the President did not pick the summer of 2011 date arbitrarily. 
During the strategy review, we looked closely at the current and 
projected capacity of the ANSF in some parts of the country. Based on 
that analysis, we reached the conclusion that July 2011 is a realistic 
date for us to plan to begin transferring responsibility for security 
to the ANSF in some parts of the country. At the same time, we will 
assess conditions as we move forward. Based on those assessments, the 
President will determine the scope and pace of a gradual and 
responsible draw down of U.S. combat forces.
    This is an issue of balance. We need to show both our partners and 
our adversaries in the region that we mean business: we will deploy the 
forces and the civilian resources that we believe are necessary to 
accomplish our strategic goals, and retain the tactical flexibility to 
adapt if circumstances require. At the same time, we have to send a 
clear message to the Afghan Government that the U.S. military is not 
going to be there forever. We are not an occupation force. Afghans must 
take primary responsibility for defending their own country--and 
prepare to do so with a sense of purpose and urgency.

    83. Senator Vitter. Secretary Gates, under what circumstances could 
the summer of 2011 timetable be adjusted?
    Secretary Gates. As previously stated in my responses to Questions 
80 and 82, the President did not pick the summer of 2011 date 
arbitrarily. During the strategy review, we looked closely at the 
current and projected capacity of the ANSF in some parts of the 
country. Based on that analysis, we reached the conclusion that July 
2011 is a realistic date for us to plan to begin transferring 
responsibility for security to the ANSF in some parts of the country. 
At the same time, we will assess conditions as we move forward. Based 
on those assessments, the President will determine the scope and pace 
of a gradual and responsible draw down of U.S. combat forces.
    This is an issue of balance. We need to show both our partners and 
our adversaries in the region that we mean business: we will deploy the 
forces and the civilian resources that we believe are necessary to 
accomplish our strategic goals, and retain the tactical flexibility to 
adapt if circumstances require. At the same time, we have to send a 
clear message to the Afghan Government that the U.S. military is not 
going to be there forever. We are not an occupation force. Afghans must 
take primary responsibility for defending their own country and prepare 
to do so with a sense of purpose and urgency.

    84. Senator Vitter. Admiral Mullen, what are the minimum benchmark 
conditions that would allow the United States to confidently begin 
withdrawing troops from Afghanistan with a minimal risk of a failed 
state or civil war?
    Admiral Mullen. DOD is currently working with our interagency 
partners to refine the benchmarks that we will use to measure progress 
in light of the President's new strategy. However, broadly speaking, 
success in Afghanistan will emerge as the ANSF develops the capacity to 
provide security for the nation and effective governance and 
development take root. As this happens, the United States will continue 
to provide overwatch, eventually withdrawing our troops to the point 
where we have a minimal presence. The pace and locations at which this 
process will take place will depend on several factors, the two most 
important of which are the performance of the Afghan Government at all 
levels and the development of the Afghan security forces. We will not 
transfer responsibility to the Afghans until the Afghans have the 
capacity to manage the security situation on their own.

    [Whereupon, at 12:46 p.m., the committee adjourned.]


              CONTINUE TO RECEIVE TESTIMONY ON AFGHANISTAN

                              ----------                              


                       TUESDAY, DECEMBER 8, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:35 p.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Bayh, Webb, McCaskill, 
Udall, Hagan, Begich, Burris, Kirk, McCain, Inhofe, Sessions, 
Chambliss, Graham, Thune, Wicker, LeMieux, Vitter, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; Christine E. Cowart, chief clerk; and Leah C. Brewer, 
nominations and hearings clerk.
    Majority staff members present: Howard H. Hoege III, 
counsel; Jessica L. Kingston, research assistant; William G.P. 
Monahan, counsel; and Michael J. Noblet, professional staff 
member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; 
Lucian L. Niemeyer, professional staff member; Diana G. Tabler, 
professional staff member; and Dana W. White, professional 
staff member.
    Staff assistants present: Paul J. Hubbard, Jennifer R. 
Knowles, Christine G. Lang, and Brian F. Sebold.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Vance Serchuk, assistant to Senator 
Lieberman; Carolyn A. Chuhta, assistant to Senator Reed; Nick 
Ikeda, assistant to Senator Akaka; Christopher Caple and Greta 
Lundeberg, assistants to Senator Bill Nelson; Ann Premer, 
assistant to Senator Ben Nelson; Patrick Hayes, assistant to 
Senator Bayh; Gordon I. Peterson, assistant to Senator Webb; 
Jennifer Barrett, assistant to Senator Udall; Roger Pena, 
assistant to Senator Hagan; Lindsay Kavanaugh, assistant to 
Senator Begich; Nathan Davern, assistant to Senator Burris; 
Bethany Bassett, assistant to Senator Kirk; Brandon Andrews, 
Anthony J. Lazarski, Mark Powers, and Jared Young, assistants 
to Senator Inhofe; Lenwood Landrum and Sandra Luff, assistants 
to Senator Sessions; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Adam G. Brake, assistant to Senator Graham; Jason 
Van Beek, assistant to Senator Thune; Erskine W. Wells III, 
assistant to Senator Wicker; Brian Walsh, assistant to Senator 
LeMieux; Kevin Kane, assistant to Senator Burr; and Rob Epplin 
and Chip Kennett, assistants to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody, and welcome. 
Today the committee hears from Karl Eikenberry, U.S. Ambassador 
to Afghanistan, and General Stanley A. McChrystal, Commander of 
the North Atlantic Treaty Organization (NATO) International 
Strategic Assistance Force (ISAF). Let me begin by thanking you 
both on behalf of the committee for your repeated and 
continuing service to our country. Thanks to your families for 
their continued support of the task that you've accepted, and 
please also convey our thanks to the troops and the civilians 
that you lead and their families for their extraordinary 
service.
    General McChrystal and Ambassador Eikenberry, you're 
charged with executing a civilian-military plan of action to 
implement the strategy that the President announced last week. 
The President's plan emphasizes protecting the Afghan people 
consistent with the recommendations in General McChrystal's 
assessment, and includes military and civilian actions with the 
goal, according to Secretary Gates, to clear, hold, build, and 
transfer security responsibility to the Afghans.
    Key elements of the President's plan for going forward in 
Afghanistan include: First, training, equipping, and partnering 
with the Afghan National Security Forces (ANSF) to empower them 
to provide for Afghan security.
    Second, the President has called for rapidly deploying an 
additional 30,000 U.S. soldiers and marines over the coming 
months, likely to be joined by at least 7,000 additional 
soldiers from NATO and other allies participating in the 
Afghanistan mission.
    Third, the President has directed that a reduction of U.S. 
forces will begin in July 2011, with the pace and location of 
troop reductions to be determined by conditions on the ground.
    Our Achilles heel in Afghanistan, in the words of one 
Marine company commander, is not a shortage of U.S. troops; 
it's a shortage of Afghan troops. To succeed in Afghanistan, it 
is important that we have adequate Afghan partners in combat 
operations and that after a town or village is cleared of the 
Taliban the security forces left to maintain order are Afghan 
forces.
    In the key province of Helmand, the ratio of U.S. troops to 
Afghan troops is about five U.S. troops to one Afghan soldier. 
The desired ratio should be much different, one Afghan company 
to one U.S. company at the beginning of partnering, leading to 
three Afghan companies for every one U.S. company as training 
of Afghan troops progresses.
    Currently, the 10,000 U.S. marines in Helmand Province have 
approximately 1,500 Afghan soldiers and 700 Afghan police, just 
over 2,000 combined Afghan strategic forces, with whom to 
partner. Doubling the number of U.S. troops in the south 
without a much larger increase in available Afghan troops will 
only worsen a ratio under which our forces are already matched 
up with fewer Afghan troops than they can and should partner 
with.
    The limited availability of Afghan forces to partner with 
raises a troubling question: Why aren't there more Afghan 
forces in the fight? By most accounts, Afghan soldiers are good 
fighters, are motivated, and are well respected by the Afghan 
people. Yet there were recent news reports that the Afghan Army 
soldiers in Helmand were declining to go on some missions 
because they said they were not there to fight, but to rest. 
Last week Secretary Clinton was reported as saying: ``We have 
to bring the Afghan security forces into the fight.''
    According to the latest numbers from the Combined Security 
Transition Command in Afghanistan, there are currently some 
95,000 Afghan soldiers trained. Of this force, there are 80 
combat battalions. About half of those are listed as capable of 
independent operations or of leading operations with coalition 
support. But last week the Chairman of the Joint Chiefs of 
Staff, Admiral Mullen, said in an interview that there are very 
few Afghan soldiers that are in the lead.
    I hope our witnesses this afternoon can give us the ground 
truth as to how many Afghan soldiers and police are present for 
duty and are now partnered with U.S. combat troops in the fight 
and how many Afghan units are in the lead in combat operations 
anywhere.
    In addition to the ANSF, there is a community defense 
initiative, which appears to be an Afghan version of the Sons 
of Iraq. I hope our witnesses will describe this initiative and 
discuss its strengths and weaknesses.
    I understand that the President has directed his military 
commanders not to begin clearing an area unless our troops will 
be able to turn that area over to Afghan security forces. What 
our witnesses could clarify is at what point in the ``clear, 
hold, build, and transfer'' process the Afghan forces will take 
over responsibility for an area's security. Is the plan that we 
hold? Do the Afghans hold? Do we hold together?
    As Marine Corps Commandant General Conway recently pointed 
out, ``It isn't nearly as effective to have U.S. marines 
standing on street corners in Afghan villages as it is to have 
an Afghan policeman or a soldier.'' I agree, U.S. troops should 
not be left for months holding street corners in villages 
recently cleared of the Taliban, waiting for Afghan security 
forces to take over that mission.
    Increasing the number of U.S. forces acting without 
sufficient Afghan partners will feed Taliban propaganda that 
portrays U.S. forces in Afghanistan as occupiers, and could 
lead to greater, instead of lesser, Afghan dependency upon us.
    The President's strategy also makes clear that our 
commitment to the future of Afghanistan requires action on the 
part of the Government of Afghanistan to fight corruption, 
deliver services, institute policies for reintegration of local 
Taliban fighters, and address other urgent problems. President 
Karzai has pledged to do these things and President Obama 
rightly insists on holding him to that pledge.
    Setting the July 2011 date to begin reductions of our 
forces is a reasonable way to impart to the Government of 
Afghanistan a sense of focus and urgency, something that has 
been lacking there up to now and is essential to success, both 
theirs and ours. President Karzai has acknowledged the value of 
the July 2011 date, saying that ``It's good that we are facing 
a deadline'' and that the Afghan people ``must begin to stand 
on our own feet.'' I'd like to hear from our witnesses whether 
they support and agree with the President's decision to 
establish a July 2011 date to begin a U.S. troop reduction.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I want to thank General McChrystal and Ambassador 
Eikenberry for joining us today. I want to thank you both for 
your many years of distinguished service to our country and I 
want to express my deep gratitude to the Americans you lead, 
both our civilians and our men and women in uniform, as well as 
their families, who are serving and sacrificing at this moment.
    I want to reiterate up front that I support the President's 
policy for Afghanistan. I think he made the right decision, 
really a brave decision, against the objections of many in his 
own party, to reject half measures, to affirm a 
counterinsurgency strategy and to resource it properly. I think 
this policy can succeed and I think it deserves robust public 
support, both from Republicans and Democrats alike.
    My main concern is the decision to begin withdrawing our 
forces in 2011 regardless of conditions on the ground. We 
discussed this issue a lot last week and I appreciate the 
efforts of Secretaries Clinton and Gates and Admiral Mullen to 
try to clarify the meaning of this decision. I understand that 
this date marks the beginning of a process and that the pace of 
our drawdown will be condition-based. Still, the fundamental 
problem remains: We've announced a date, divorced from 
conditions on the ground, when we will start to withdraw our 
troops.
    It doesn't matter whether we call it a cliff or a ramp or 
anything else. It's still an exit sign, and it sends the wrong 
signal to our friends and our enemies. On this issue, the 
administration and I will just have to agree to disagree.
    It matters immensely what signals we send. That's why I was 
very pleased to see Secretary Gates is in Kabul today and that 
the message he delivered was: ``We are in this thing to win.'' 
I couldn't agree more, and we can win.
    With this counterinsurgency strategy, plus the additional 
troops and resources we are committing, we can reverse the 
momentum of the insurgency. We can create conditions for the 
vast majority of insurgents to lay down their arms and 
reconcile with their fellow Afghans. We can train appropriate 
numbers of more capable and battle-tested Afghan security 
forces to lead the fight in time against a degraded enemy. We 
can isolate al Qaeda and target them more effectively, and we 
can create the time and space for Afghan leaders, with our 
support and pressure, to reform their government, to crack down 
on corruption, and to build a nation that will never again 
serve as a base for attacks against America and our allies.
    That is our theory of victory. But we can only succeed if 
our civilian and military efforts are completely joint and 
integrated, beginning at the top with our distinguished 
witnesses today. We've all read the reports of differences 
between you gentlemen. I know you're both professionals and I 
trust that any tensions you may have had are now past and that 
you are now focused, as I am and as I trust the President is, 
on the future, on your common mission, and on succeeding.
    This requires a joint civilian-military campaign plan, 
which we were told last week that our civilian and military 
leaders are now in the process of drafting. We've heard a lot 
about numbers, both troop levels and civilian surges. We've 
heard a lot about dollar amounts and various programs. We've 
heard a lot about goals and aspirations.
    I want to hear about strategy. What is our strategy for 
helping the Afghans build political and economic order after we 
clear and hold ground? What is our strategy for supporting 
Afghan leaders in reforming and strengthening their government? 
What is our strategy for working with President Karzai in 
getting the best performance possible from him and his 
government? I hope we can gain greater clarity in this hearing 
today on the elements of our civil-military strategy.
    We have questions, of course. But we cannot lose sight of 
one important fact: We now have an opportunity to build a 
bipartisan consensus in support of a vital national security 
priority: defeating al Qaeda and its violent, extremist allies 
in Afghanistan and Pakistan and ensuring that these countries 
never again serve as bases for attacks against us and our 
allies.
    Americans need to know why winning this war is essential to 
our country's security. They need to know that things in 
Afghanistan will get worse before it gets better; that, sadly, 
casualties will likely rise in the year to come, but that 
ultimately we will succeed. Americans need to know these 
things, especially those brave Americans who are leading this 
fight.
    If you take only one thing back with you to our fellow 
citizens in Afghanistan, let it be this: America and this 
Congress are fully behind them. We believe in them. We believe 
in their mission. We believe they can succeed. We in Congress 
will do all in our power to get them everything they need to 
win and then to return home with the honor they deserve and the 
thanks of a grateful Nation.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    General McChrystal, let's start with you.

    STATEMENT OF GEN STANLEY A. McCHRYSTAL, USA, COMMANDER, 
  INTERNATIONAL SECURITY ASSISTANCE FORCE AND COMMANDER, U.S. 
                       FORCES AFGHANISTAN

    General McChrystal. Mr. Chairman, Senator McCain, 
distinguished members of this committee: Thank you for the 
chance to appear before you today.
    I welcome this opportunity to testify on our way ahead in 
Afghanistan and I'm pleased to do so with Ambassador Karl 
Eikenberry, an old friend.
    Let me begin by saluting the bravery of the men and women 
of the International Security Assistance Force in Afghanistan. 
They're anchored by over 68,000 courageous Americans, our close 
partners in the NATO alliance, and a 43-nation coalition. We 
honor the sacrifices of the fallen, the veterans, and their 
families.
    We also recognize the toll paid every day by our 
counterparts in the Afghan security forces and by Afghan 
civilians, who ultimately suffer the most from this insurgency. 
It is for them and for all of us that we seek a stable 
Afghanistan, a defunct al Qaeda, and a secure future----
[Audience interruption.]
    Chairman Levin. You'll have to remain seated, please, and 
no more outbursts, please.
    Thank you. You can continue.
    General McChrystal.--and a secure future in that vital 
region of the world.
    I first deployed to Afghanistan in 2002 and have commanded 
forces there every year since. Despite that experience, there 
is much in Afghanistan that I have yet to fully understand. For 
all of us, Afghanistan is a challenge that is best approached 
with a balance of determination and humility.
    While U.S. forces have been at war in Afghanistan for 8 
years, the Afghans have been at it for more than 30. They are 
frustrated with international efforts that have failed to meet 
their expectations, confronting us with a crisis of confidence 
among Afghans who view the international effort as insufficient 
and their government as corrupt or at the very least 
inconsequential.
    We also face a complex and resilient insurgency. The Quetta 
Shura Taliban, or Afghan Taliban, is the prominent threat to 
the Government of Afghanistan, as they aspire to once again 
become the Government of Afghanistan. The Haqqani and Hizb-e 
Islami Gulbuddin insurgent groups have more limited 
geographical reach and objectives, but they are no less lethal. 
All three groups are supported to some degree by external 
elements in Iran and Pakistan, have ties with al Qaeda, and 
coexist within narcotics and criminal networks, both fueling 
and feeding off instability and insecurity in the region.
    The mission in Afghanistan is undeniably difficult and 
success will require steadfast commitment and incur significant 
costs. I participated fully in the President's assessment and 
decisionmaking process and was afforded multiple opportunities 
to provide my recommendations and best military advice, which I 
did. Combined with insights and policy considerations from 
across our government, I believe the decisions that came from 
that process reflect a realistic and effective approach.
    To pursue our core goal of defeating al Qaeda and 
preventing their return to Afghanistan, we must disrupt and 
degrade the Taliban's capacity, deny their access to the Afghan 
population, and strengthen the Afghan security forces. This 
means we must reverse the Taliban's current momentum and create 
the time and space to develop Afghan security and governance 
capacity.
    The President's decision rapidly resources our strategy, 
recognizing that the next 18 months will likely be decisive and 
ultimately enable success. I fully support the President's 
decision. The President also reiterated how this decision 
supports our national interest. Rolling back the Taliban is a 
prerequisite to the ultimate defeat of al Qaeda.
    The mission is not only important, it is also achievable. 
We can and will accomplish this mission. Let me briefly explain 
why I believe so. My confidence derives first from the Afghans' 
resolve, since it is their actions that will ultimately matter 
most in ending this conflict with their interests and, by 
extension our own.
    Second, we do not confront a popular insurgency. The 
Taliban have no widespread constituency, have a history of 
failure in power, and lack an appealing vision.
    Third, where our strategy is applied we've begun to show 
that we can help the Afghans to establish more effective 
security and more credible governance.
    Finally, Afghans do not regard us as occupiers. They do not 
wish for us to remain forever, yet they see our support as a 
necessary bridge to future security and stability.
    I've been back in Afghanistan for 6 months now. I believe 
that with the President's decision and ongoing reforms I 
outlined in our initial assessment, our efforts are now 
empowered with a greater sense of clarity, capability, 
commitment, and confidence.
    Let me start with clarity. The President's recently 
completed review of our strategy, to include his deep and 
pointed questioning of all assumptions and recommendations, has 
produced greater clarity of our mission and objectives. We also 
have greater clarity on the way forward. Additional forces will 
begin to deploy shortly and by this time next year new security 
gains will be illuminated by specific indicators and it will be 
clear to us that the insurgency has lost the momentum. By the 
summer of 2011, it will be clear to the Afghan people that the 
insurgency will not win, giving them the chance to side with 
their government.
    From that point forward, while we plan to have fewer combat 
forces in harm's way, we will remain partnered with the Afghan 
security forces in a supporting role to consolidate and 
solidify their gains. Results may come more quickly and we must 
demonstrate progress towards measurable objectives, but the 
sober fact is that there are no silver bullets. Ultimate 
success will be the cumulative effect of sustained pressure 
across multiple lines of operation.
    Increasing our capability has been about much more than 
troop increases. For the past 6 months, we've been implementing 
organizational and operational changes that are already 
reflecting improvements in our effectiveness. But the 
additional forces announced by President Obama are significant. 
Forces to increase our capacity to train the ANSF and forces to 
partner with Afghan Army and police in expanding security zones 
in key areas will provide us the ability to reverse insurgent 
momentum and deny the Taliban the access to the population they 
require to survive.
    The additional capability we are building translates into 
credibility in the minds of Afghans, who demand proof, not only 
that we want to protect them, but that we can. In a war of 
perceptions where the battlefield is the mind of an Afghan 
elder, the hope of an Afghan mother, the aspirations of an 
Afghan child, this can be decisive. Our commitment is watched 
intently and constantly judged by our allies and by our 
enemies. The commitment of 30,000 additional U.S. forces, along 
with additional coalition forces and growing ANSF numbers, will 
be a significant step toward expanding security in critical 
areas and in demonstrating resolve.
    The commitment of all coalition nations will be buttressed 
by a clear understanding of how we will mitigate risks. I'll 
briefly mention three. The first is the Afghan Government's 
credibility deficit, which must be recognized by all, to 
include Afghan officials, as a critical area of focus and 
change.
    Equally important is our ability to accelerate development 
of the Afghan security forces. Measures such as increased pay 
and incentives, literacy training, leader development, and 
expanded partnering are necessary to position the ANSF to 
assume responsibility for long-term security.
    Third, the hazard posed by extremists that operate on both 
sides of the border with Pakistan, with freedom of movement 
across that border must be mitigated by enhanced cross-border 
coordinations and enhanced Pakistani engagement.
    Looking ahead, I'm confident that we have both the right 
strategy and the right resources. Every trip around Afghanistan 
reinforces my confidence in the coalition and Afghan forces we 
stand alongside in this effort. But I also find confidence in 
those we are trying to help. That confidence is found when an 
Afghan farmer chooses to harvest wheat rather than poppy, or 
where a young adult casts his or her vote to join the police, 
or where a group of villagers resolves to reject the local 
insurgency.
    We face many challenges in Afghanistan, but our efforts are 
sustained by one unassailable reality. Neither the Afghan 
people nor the international community want Afghanistan to 
remain a sanctuary for terror and violence. If we are to be 
confident of our mission and our prospects, we must also be 
accurate in our assessment of that progress. We owe ourselves, 
our leaders, and the American people transparency and candor, 
because the price to be paid is high and the stakes are even 
higher.
    In closing, my team and I would like to thank you and your 
colleagues for your support to the American men and women 
currently serving in Afghanistan and to tell you a bit about 
them. We risk letting numbers like 30,000 roll off our tongues 
without remembering that those are fathers, mothers, sons, and 
daughters serving far from home, selfless in their sacrifices 
for each of us.
    The other day I asked a young, combat-experienced, sergeant 
where he was on September 11 and his answer was, ``Getting my 
braces removed.'' It reminded me that it had been more than 8 
years since September 11, and many of our servicemembers and 
family have experienced and sacrificed much. But as I see them 
in action at remote bases, on patrol, partnering with Afghan 
forces, recovering in combat hospitals, they don't talk about 
all they've given up. They talk about all they are 
accomplishing and their determination in this endeavor.
    This is not a force of rookies or dilettantes. The brigade 
commander in Khost is completing his fourth combat tour in 
Afghanistan and his experience and expertise is reflective of 
the force that represents you. All have felt fear and 
loneliness. Most have lost comrades. None have lost heart.
    In their eyes, I see maturity beyond their years. In their 
actions, I see a commitment to succeed and a commitment to each 
other. I am confident that I share your pride in what these 
great Americans are doing for our country in Afghanistan, and 
it will be my privilege to accept your questions on their 
behalf.
    Thank you, Mr. Chairman.
    [The prepared statement of General McChrystal follows:]

          Prepared Statement by GEN Stanley A. McChrystal, USA

    Mr. Chairman, Senator McCain, distinguished members of this 
committee, thank you for the chance to appear before you today.
    I welcome this opportunity to testify on our way ahead in 
Afghanistan, and I am pleased to do so with Ambassador Karl Eikenberry, 
an old friend.
    Let me begin by saluting the bravery of the men and women of the 
International Security Assistance Force in Afghanistan. They are 
anchored by over 68,000 courageous Americans, our close partners in the 
North Atlantic Treaty Organization alliance, and a 43-nation coalition. 
We honor the sacrifices of the fallen, the veterans, and their 
families.
    We also recognize the toll paid every day by our counterparts in 
the Afghan Security Forces and by Afghan civilians, who ultimately 
suffer the most from this insurgency. It is for them--and for all of 
us--that we seek a stable Afghanistan, a defunct al Qaeda, and a secure 
future in that vital region of the world.
    I first deployed to Afghanistan in 2002 and have commanded forces 
there every year since.
    Despite that experience, there is much in Afghanistan that I have 
yet to fully understand. For all of us, Afghanistan is a challenge that 
is best approached with a balance of determination and humility.
    While U.S. forces have been at war in Afghanistan for 8 years, the 
Afghans have been at it for more than 30. They are frustrated with 
international efforts that have failed to meet their expectations, 
confronting us with a crisis of confidence among Afghans who view the 
international effort as insufficient and their government as corrupt 
or, at the very least, inconsequential.
    We also face a complex and resilient insurgency. The Quetta Shura 
Taliban, or Afghan Taliban, is the prominent threat to the Government 
of Afghanistan, as they aspire to once again become the Government of 
Afghanistan. The Haqqani and Hezb-e Islami Gulbuddin insurgent groups 
have more limited geographical reach and objectives, but they are no 
less lethal.
    All three groups are supported to some degree by external elements 
in Iran and Pakistan, have ties with al Qaeda, and co-exist within 
narcotics and criminal networks, both fueling and feeding off 
instability and insecurity in the region.
    The mission in Afghanistan is undeniably difficult, and success 
will require steadfast commitment and incur significant costs.
    I participated fully in the President's assessment and 
decisionmaking process and was afforded multiple opportunities to 
provide my recommendations and best military advice--which I did.
    Combined with insights and policy considerations from across our 
Government, I believe the decisions that came from that process reflect 
a realistic and effective approach.
    To pursue our core goal of defeating al Qaeda and preventing their 
return to Afghanistan, we must disrupt and degrade the Taliban's 
capacity, deny their access to the Afghan population, and strengthen 
the Afghan Security Forces.
    This means we must reverse the Taliban's current momentum and 
create the time and space to develop Afghan security and governance 
capacity.
    The President's decision rapidly resources our strategy, recognizes 
that the next 18 months will likely be decisive, and ultimately, 
enables success. I fully support the President's decision.
    The President has also reiterated how this decision supports our 
national interests. Rolling back the Taliban is a pre-requisite to the 
ultimate defeat of al Qaeda.
    The mission is not only important; it is also achievable.
    We can and will accomplish this mission.
    Let me briefly explain why I believe so.
    My confidence derives first from the Afghan's resolve, since it is 
their actions that will ultimately matter most in ending this conflict, 
with their interests--and by extension our own--secured.
    Second, we do not confront a popular insurgency. The Taliban have 
no wide-spread constituency, have a history of failure in power, and 
lack an appealing vision.
    Third, where our strategy is applied we've begun to show that we 
can help the Afghans establish more effective security and more 
credible governance.
    Finally, Afghans do not regard us as occupiers. They do not wish 
for us to remain forever, yet they see our support as a necessary 
bridge to future security and stability.
    I've been back in Afghanistan for 6 months now. I believe that with 
the President's decision and ongoing reforms I outlined in our Initial 
Assessment, our efforts are now empowered with a greater sense of 
clarity, capability, commitment, and confidence.
    Let me start with clarity.
    The President's recently completed review of our strategy--to 
include its deep and pointed questioning of all assumptions and 
recommendations--has produced greater clarity of our mission and 
objectives.
    We also have greater clarity on the way forward.
    Additional forces will begin to deploy shortly, and by this time 
next year, new security gains will be illuminated by specific 
indicators, and it will be clear to us that the insurgency has lost the 
momentum.
    By the summer of 2011, it will be clear to the Afghan people that 
the insurgency will not win, giving them the chance to side with their 
government.
    From that point forward, while we begin to reduce U.S. combat force 
levels, we will remain partnered with the Afghan security forces in a 
supporting role to consolidate and solidify their gains.
    Results may come more quickly, and we must demonstrate progress 
toward measurable objectives, but the sober fact is that there are no 
silver bullets. Ultimate success will be the cumulative effect of 
sustained pressure across multiple lines of operation.
    Increasing our capability has been about much more than just troop 
increases. For the past 6 months we have been implementing 
organizational and operational changes that are already reflecting 
improvements in our effectiveness.
    But the additional forces announced by President Obama are 
significant. Forces to increase our capacity to train Afghan National 
Security Forces (ANSF), and forces to partner with Afghan Army and 
Police in expanding security zones in key areas, will provide us the 
ability to reverse insurgent momentum and deny the Taliban the access 
to the population they require to survive.
    Our commitment is watched intently--and constantly judged--by our 
allies and by our enemies.
    The commitment of 30,000 additional U.S. forces, along with 
additional coalition forces and growing ANSF numbers, will be a 
significant step toward expanding security in critical areas--and in 
demonstrating resolve.
    The commitment of all coalition nations will be buttressed by a 
clear understanding of how we will mitigate risks. I'll briefly mention 
three.
    The first is the Afghan Government's credibility deficit, which 
must be recognized by all, to include Afghan officials, as a critical 
area of focus and change.
    Equally important is our ability to accelerate development of the 
Afghan security forces. Measures such as increased pay and incentives, 
literacy training, leader development, and expanded partnering are 
necessary to position the ANSF to assume responsibility for long-term 
security.
    Third, the hazard posed by extremists that operate on both sides of 
the border with Pakistan, with freedom of movement across that border, 
must be mitigated by enhanced cross-border coordination and enhanced 
Pakistani engagement.
    Looking ahead, I am confident that we have both the right strategy 
and the right resources.
    Every trip around Afghanistan reinforces my confidence in the 
coalition and Afghan forces we stand alongside in this effort.
    But I also find confidence in those we are trying to help.
    That confidence is found where an Afghan farmer chooses to harvest 
wheat rather than poppy . . . or where a young adult casts his or her 
vote or joins the police . . . or where a group of villagers resolves 
to reject the local insurgency.
    We face many challenges in Afghanistan, but our efforts are 
sustained by one unassailable reality: neither the Afghan people nor 
the international community want Afghanistan to remain a sanctuary for 
terror and violence.
    If we are to be confident of our mission and our prospects, we must 
also be accurate in our assessment of progress. We owe ourselves, our 
leaders, and the American people transparency and candor, because the 
price to be paid is high, and the stakes are even higher.
    In closing, my team and I would like to thank you and your 
colleagues for your support to the American men and women currently 
serving in Afghanistan--and to tell you a bit about them.
    We risk letting numbers like 30K roll off our tongues without 
remembering that those are fathers, mothers, sons, and daughters--
serving far from home--selfless in their sacrifices for each of us.
    The other day I asked a young, but combat experienced Sergeant 
where he was on September 11 and his answer--``getting my braces 
removed''--reminded me that it has been more than 8 years since 
September 11.
    Many of our servicemembers and families have experienced and 
sacrificed much.
    But as I see them in action--at remote bases; on patrol; partnering 
with Afghan forces; recovering in combat hospitals--they don't talk 
about all they've given up. They talk about all they are 
accomplishing--and their determination in this endeavor.
    This is not a force of rookies or dilettantes. The Brigade 
Commander in Khowst is completing his fourth combat tour in 
Afghanistan--and his experience and expertise is reflective of the 
force that represents you. All have felt fear and loneliness--most have 
lost comrades. None have lost heart.
    In their eyes I see maturity beyond their years. In their actions I 
see a commitment to succeed--and commitment to each other.
    I am confident that I share your pride in what these great 
Americans are doing for our country in Afghanistan.
    It will be my privilege to accept your questions on their behalf. 
Thank you Mr. Chairman.

    Chairman Levin. Thank you very much, General.
    Ambassador Eikenberry.

   STATEMENT OF HON. KARL W. EIKENBERRY, U.S. AMBASSADOR TO 
                          AFGHANISTAN

    Ambassador Eikenberry. Chairman Levin, Ranking Member 
McCain, and distinguished members of the committee: Thank you 
for the opportunity to present my views on Afghanistan today, 
and I'd like to ask that my full statement be submitted for the 
record.
    Chairman Levin. Thank you. It will be.
    Ambassador Eikenberry. Last week in his speech at West 
Point, President Obama presented the administration's strategy 
for Afghanistan and Pakistan. His decision came after an 
intensive, deliberative, far-reaching review. I'm honored to 
have been part of that.
    I believe that the course that the President has outlined 
offers our best path to stabilize Afghanistan and to ensure 
that al Qaeda cannot regain a foothold to plan new attacks 
against us. I can say without equivocation that I fully support 
this approach.
    I consider myself privileged to serve as the U.S. 
Ambassador and to represent an amazing team of diplomats, 
developmental specialists, and civilian experts who form the 
most capable and dedicated United States embassy anywhere in 
the world today, and I'm extraordinarily proud of them.
    I'm also honored to testify alongside General Stan 
McChrystal, my professional colleague and friend of many years. 
I want to say from the outset that General McChrystal and I are 
united in a joint effort where civilian and military personnel 
work together every day side by side with our Afghan partners 
and with our allies. We could not accomplish our objectives 
without this kind of cooperation.
    Mr. Chairman, the United States is at a critical juncture 
in our involvement in Afghanistan. On December 1, the President 
ordered 35,000 additional troops to deploy to Afghanistan on an 
accelerated timetable, with the goal of breaking the 
insurgency's momentum, hastening and improving the training of 
the ANSF, and establishing security in key parts of the 
country. On the civilian side, we aim to increase employment 
and provide essential services in areas of greatest insecurity, 
and to improve the critical ministries in the economy at the 
national level. These steps, taken together, I believe will 
help to remove insurgents from the battlefield and build 
support for the Afghan Government.
    As the President said, we will be clear about what to 
expect from those who receive our assistance. After a difficult 
election, the Afghan Government does show signs of recognizing 
the need to deliver better governance and security. We await 
urgent concrete steps in a number of areas.
    I would also like to briefly discuss the three main pillars 
of our efforts in Afghanistan: security, governance, and 
development. General McChrystal has already addressed our plans 
for improving security and building the ANSF. Since assuming my 
post, I've made a special point of getting outside of Kabul to 
see conditions firsthand, and I fully concur with General 
McChrystal's assessment that the security situation remains 
serious. Sending additional U.S. and other NATO ISAF forces to 
Afghanistan is critical to regaining the initiative and I'm 
confident that as these troops arrive, the situation will 
stabilize and turn in our favor. Additional troops will also 
permit us to expand our work with the Afghan Army and the 
Afghan police so that they may take a larger role in providing 
for the security of their own people.
    As President Obama said, ``The transition to Afghan 
responsibility will begin in the summer of 2011, when we expect 
Afghan security forces to begin assuming lead responsibility 
for defending their country.''
    Moving on from security, the second pillar of our 
comprehensive strategy focuses on governance. At the national 
and the sub-national levels, our overarching goal is to 
encourage improved governance so Afghans may benefit, see the 
benefits of supporting a legitimate government and the 
insurgency in turn loses its support.
    As General McChrystal has pointed out, one of the major 
impediments our strategy faces today is the Government of 
Afghanistan's lack of credibility with its own people. To 
strengthen its legitimacy, our approach at the national level 
is on improving key ministries by increasing the number of 
civilian technical advisers and by providing more developmental 
assistance directly through these ministries' budgets. By 
focusing on ministries that deliver essential services and 
security, we can accelerate the building of an Afghan 
Government that is sufficiently visible, effective, and 
accountable.
    At the provincial and the district levels, we're working 
jointly with our military partners through our provincial 
reconstruction teams, district development working groups, and 
district support teams, which help build Afghan capacity, 
particularly in the areas of greatest insecurity in southern 
and in eastern Afghanistan.
    Underpinning all of these efforts is the need to combat 
corruption and promote the rule of law. With our assistance, 
the Afghan Government is steadily building law enforcement 
institutions to fight corruption, organized crime, and drug 
trafficking. In his inaugural address, President Karzai stated 
his intention to make merit-based appointments in his new 
cabinet and to implement an anti-corruption strategy. We're 
encouraged by his statements.
    Cultivation of poppy and trafficking in opium also continue 
to have a debilitating effect on Afghan society. Our strategy 
is multi-pronged, involving demand reduction, efforts by law 
enforcement agencies and the military to detain traffickers and 
interdict drug shipments, and support for licit agricultural 
development.
    The narcotics problem will, of course, never have a 
solution without economic development. This leads to the third 
pillar of our effort, which is development. In recent months 
we've adjusted our approach to focus on building key elements 
of Afghanistan's private sector economy, increasing our 
emphasis on agriculture, enhancing government revenue 
collection, and improving the coordination of assistance within 
the U.S. Government and the international community. These 
steps were taken to produce improvements in the lives of 
ordinary Afghans and to contribute directly to more effective 
government and lessen support for the insurgency.
    Rebuilding the farm sector, in particular, is essential for 
the Afghan Government to reduce the pool of unemployed men who 
form the recruiting base for extremist groups. We estimate that 
some 80 percent of the Afghan population derives their income 
either directly or indirectly from agriculture.
    Mr. Chairman, I want to emphasize that we're concentrating 
on what's essential and attainable. The President's strategy is 
based on a pragmatic assessment of the security interests of 
the United States and our belief that a sustainable 
representative Government of Afghanistan and a sustainable 
economy for Afghanistan are essential to success. We need a 
viable Afghan Government so our forces can draw down and the 
investment of U.S. taxpayers can be reduced.
    In closing, I need to mention two important risks we face 
in carrying out our strategy, and I know that General 
McChrystal shares these. The first is that, in spite of 
everything we do, Afghanistan may struggle to take over the 
essential tasks of governance and security on a timely basis; 
and the second is in our partnership with Pakistan. The efforts 
we're undertaking in Afghanistan are likely to fall short of 
our strategic goals unless there's more progress at eliminating 
the sanctuaries used by the Afghan Taliban and their associates 
in Pakistan.
    If the main elements of the President's plan are executed 
and if our Afghan partners and our allies do their part, I'm 
confident we can achieve our strategic objectives. I say this 
with conviction because, for the first time during my three 
tours of duty in Afghanistan, all of the elements of our 
national power are being employed with the full support of the 
President and increasingly of our allies.
    Achieving our goals for Afghanistan will not be easy, but 
I'm optimistic that we can succeed with the support of 
Congress. Our mission was underresourced for years, but it's 
now one of our government's highest priorities, with 
substantial development funds and hundreds more civilians.
    We will soon have increased our civilian presence in Kabul 
over threefold and in the field over sixfold, and this is just 
over the past year. We will, of course, need more.
    U.S. foreign assistance is also comparatively small, but an 
essential fraction of the total amount spent in Afghanistan 
over the last 8 years. Additional resources will be necessary 
and we look forward to sharing more details of our anticipated 
needs with Congress in the coming days and weeks.
    Mr. Chairman, Afghanistan represents a daunting challenge, 
and success is not guaranteed, but it is possible. With the 
additional troops and other resources provided by the President 
and with the help of Congress, we will work tirelessly to 
ensure al Qaeda never again finds refuge in Afghanistan and 
threatens our country and our Homeland.
    Thank you Mr. Chairman. I look forward to your questions.
    [The prepared statement of Ambassador Eikenberry follows:]

            Prepared Statement by Ambassador Karl Eikenberry

                              INTRODUCTION

    Chairman Levin, Ranking Member McCain, and distinguished members of 
the committee,
    Thank you for the opportunity to present my views on Afghanistan 
today. Last week, in his speech at West Point, President Obama 
presented the administration's strategy for Afghanistan and Pakistan. 
His decision came after an intensive, deliberate and far-reaching 
review of conditions, risks, and options available. The course he 
outlined offers the best path to stabilize Afghanistan and to ensure al 
Qaeda and other terrorist groups cannot regain a foothold to plan new 
attacks against our country or our allies. I fully support this 
approach. It has been welcomed by the Afghan Government, which said it 
will spare no effort to achieve the strategy's key objectives. I hope 
it will be welcomed here in Congress.
    I consider myself privileged to serve in Kabul and to represent an 
extraordinary team of diplomats, development specialists, and civilian 
experts from many fields and multiple agencies who form the most 
capable and dedicated U.S. mission anywhere. Our civilian presence will 
have tripled by early 2010 and, with the support of Congress, we 
anticipate it will expand further next year. More important than the 
numbers of people are the skills that these men and women possess, and 
their willingness to work tirelessly under the most difficult 
conditions. Many of them are out in the field with our military at the 
forefront of our Nation's effort to stabilize Afghanistan and the 
region. I am extraordinarily proud of them.
    I am honored to testify alongside General Stan McChrystal, my 
professional colleague and friend of many years, to describe how we 
will carry out the President's strategy for Afghanistan. My testimony 
will focus on the civilian role in that strategy, but I want to 
underscore at the outset that General McChrystal and I are united in a 
joint effort in which civilian and military personnel work together 
every day, often literally side-by-side with our Afghan partners and 
allies. We could not accomplish our objectives without such a combined 
effort, and I am proud that we have forged a close working relationship 
at the top and throughout our organizations, one that will deepen in 
coming months as additional troops and civilians arrive.
    Our Nation is at a critical juncture in our involvement in 
Afghanistan, and my testimony today represents my assessment of the 
situation and prospects for achieving our goals.
    A mission that in past years was poorly defined and under-resourced 
is now clear and, thanks to Congress, better resourced. The President, 
on December 1, authorized 30,000 additional troops to deploy to 
Afghanistan on an accelerated timetable, with the goal of breaking the 
insurgency's momentum, hastening and improving the training of Afghan 
National Security Forces (ANSF), and restoring security in key areas of 
the country. I joined Secretary Clinton and General McChrystal in 
Brussels last week to present the administration's decisions to the 
allies, and we anticipate our troops will be joined by a substantial 
increase of other North Atlantic Treaty Organization (NATO)-
International Security Assistance Force (ISAF) forces. Our military 
effort and civilian assistance will be closely coordinated. On the 
civilian side, we aim to increase employment and provide essential 
services in areas of greatest insecurity, and to improve critical 
ministries and the economy at the national level. These steps will, I 
believe, help to remove insurgents from the battlefield and build 
support for the Afghan Government.
    As the President said, ``we will be clear about what we expect from 
those who receive our assistance.'' We expect the Afghan Government to 
take specific actions in the key areas of security, governance, and 
economic development on an urgent basis. In the eighth year of our 
involvement, Afghans must progressively take greater responsibility for 
their own affairs. As we reduce our combat role, we will be 
transforming our diplomatic, security, and economic relations to 
reflect a more fully sovereign Afghanistan.
    I firmly believe these adjustments to our course provide the best 
possible chance of achieving success on a reasonable timetable, but I 
will also give you my honest appraisal of the challenges as I see them.
    No way forward is without risk. Eight years after the terrorist 
attacks of September 11 and the removal of the Taliban from power, 
Afghanistan remains a disconnected society, divided by factionalism, 
plagued by corruption and illegal narcotics, and challenged by 
insecurity. These problems are in large measure the product of nearly 
three decades of war, which broke down the fabric of Afghanistan's 
centuries-old society and contributed to deep poverty, illiteracy, drug 
addiction, and unemployment. This has been compounded in recent years 
by a growing disillusionment among Afghans, both with their own 
government and with the uneven results of the assistance delivered by 
the international community. The United States must approach the 
daunting complexities of Afghanistan with an awareness of our 
limitations. Our forces and our civilians are trying to help a society 
that simultaneously wants and rejects outside intervention. Afghans 
yearn for the peace and stability that has been denied them for too 
long. We will not fully heal their society's deep-seated problems, but 
we can help them along a path to normalcy and stability that is key to 
protecting our own vital interests. We are, simply put, helping 
Afghanistan build security forces and other basic institutions of 
government to prevent a return to the conditions that it endured before 
September 11, 2001.
    Let me mention two challenges we face. The first is that, in spite 
of everything we do, Afghanistan may struggle to take over the 
essential tasks of governance; the second is our partnership with 
Pakistan, which the President has stated is inextricably linked to our 
success in Afghanistan. Though these risks cannot be discounted, if the 
main elements of the President's plan are executed, and if our Afghan 
partners and our allies do their part, I am confident we can achieve 
our strategic objectives.
    I say this with conviction, because for the first time in my three 
tours in Afghanistan--two while in uniform and now as ambassador--all 
the elements of our national power are employed with the full support 
of the President and, increasingly, of our allies. We have made great 
strides over the last 6 months in improving interagency coordination 
and civil-military collaboration. Our military and civilian teams on 
the ground are the best ever fielded. More important, after a difficult 
election, the Afghan Government shows signs of recognizing the need to 
deliver better governance and security, though we await concrete steps 
in many areas.
    Achieving our objectives on an accelerated timetable will almost 
certainly take additional resources--more troops, but also more 
development aid and additional civilian personnel to assist the Afghan 
Government and people, so they can assume control of their own affairs. 
The administration will be working with Congress in coming days and 
weeks to define our request.
    I would like to now discuss the three main pillars of our effort in 
Afghanistan--security, governance, and development--and then say a few 
words about the organization of our mission and about the wider region.

                                SECURITY

    General McChrystal has already addressed our plans for improving 
security and building the Afghan National Security Forces. The civilian 
role in this effort at the local level is to partner with the military 
and with the Afghan Government in restoring basic services and economic 
opportunity in cleared areas. I will return to this partnership and our 
role in it shortly. First, though, let me give you my perspective as 
ambassador on the security situation.
    Since assuming my post in May, I have made a special point of 
getting outside Kabul as frequently as possible to see conditions 
around the country first-hand and to consult with Afghans, allies, and 
our own civilian and military personnel. I fully concur with General 
McChrystal's assessment that the security situation, which worsened 
dramatically this past year, remains serious. The Taliban and other 
extremists groups exercise increasing influence in many areas of the 
south and east, and attacks and instability are rising in parts of the 
north and west as well, which long have been relatively stable. The 
insurgents are loosely organized, yet resilient and effective in many 
areas. Augmenting U.S. and NATO-ISAF forces is critical to regain the 
initiative. I am confident that, as the additional U.S. troops arrive 
in coming months, the situation will stabilize and turn in our favor. 
Most Afghans have little interest in a future under the Taliban's 
brutal and arbitrary rule, and the troops now deploying will reassure 
them that they have the opportunity for a secure and better future. Our 
troops will serve as a bridge, improving security in key areas, just as 
the Marine and Army units sent earlier this year are doing with great 
skill in Helmand and Kandahar provinces.
    Additional troops will also permit us to expand our partnering with 
and training of the Afghan army and police, so they can take on a 
progressively larger role in providing security. We all recognize the 
extraordinary challenges of building competent security forces. 
Afghanistan has not had a national army recruited from all ethnic 
groups and regions for many years, and low literacy, high attrition, 
and the lack of resources and expertise pose continuing problems. 
However, our forces are highly skilled at this training and partnering 
mission, which they have performed ably under the most difficult 
circumstances in Iraq as well as in Afghanistan. I am confident that 
deployment of additional U.S. troops will yield improvements in the 
ANSF.
    On the civilian side, we are supporting our military's efforts. Our 
Drug Enforcement Administration provides specialized training to the 
Afghan Counternarcotics Police. Our Federal Bureau of Investigation 
assists the Afghan Ministry of Interior in improving law enforcement 
capabilities. Lastly, our Border Management Task Force, which includes 
U.S. Central Command, the Department of Homeland Security, and its 
Customs and Border Protection Agency, assists both the Afghan Border 
Police and the Customs Department.
    As part of assuming the sovereign responsibility of protecting its 
people, the Afghan Government must build the ministerial capacity to 
recruit, train, and sustain the army and police, so that when our 
support begins to diminish Afghan forces are capable of protecting the 
country on their own. Simply put, the Afghan army and police need the 
full commitment of their political leadership. As President Obama said, 
the transition to Afghan responsibility will begin in the summer of 
2011, when we expect Afghan security forces and the entire Afghan 
Government can begin assuming lead responsibility for defending their 
country.
    We should recognize that one reason Afghanistan has been slow to 
assume a larger role in providing for its own security is the 
widespread concern among the populace that it will be abandoned by the 
international community, as happened after the withdrawal of the Soviet 
Union in 1989. For more than a decade afterward, Afghanistan endured 
brutal civil war, anarchy and later, the repressive Taliban regime that 
harbored and enabled al Qaeda. The fear of once again having to fend 
for itself again is deeply felt in the country, which lies in a 
volatile region where many of its neighbors have competed to control 
events inside Afghan borders.
    While the United States does not intend to continue our high level 
of deployed forces indefinitely, we are fully committed to assisting 
Afghanistan. To give Afghans confidence that they will not be abandoned 
again, the United States is committed to engaging in a strategic 
dialogue to define our long-term relationship on the basis of shared 
interests and values, just as we do with other nations. We will 
continue to assist and advise the ANSF to ensure they succeed over the 
long term. Though our relations are today dominated by questions about 
security, we have no territorial ambitions and do not seek permanent 
military bases. Afghans should be confident the United States is a 
trustworthy friend on whom they can rely after our combat forces begin 
to go home. Afghanistan's place in Central and South Asia must be 
secure.

                               GOVERNANCE

    The second pillar of our comprehensive strategy focuses on 
improving Afghan governance. I would like to describe the civilian role 
in this effort, first at the national level and then in the provinces 
and districts. At both levels, our overarching goal is to encourage 
good governance, free from corruption, so Afghans see the benefits of 
supporting the legitimate government, and the insurgency loses support.
    As General McChrystal points out, one of the major impediments our 
strategy faces is the Afghan Government's lack of credibility with its 
own people. To build its legitimacy, our approach at the national level 
is on improving key ministries, both by increasing the number of 
civilian technical advisers and by providing more development 
assistance directly through these ministries' budgets. By focusing on 
key ministries that deliver essential services and security, we can 
accelerate the building of an Afghan Government that is visible, 
effective, and accountable.
    We must support the government's ability to deliver for the Afghan 
people. Afghan ministers say that too much of the development 
assistance provided is spent outside their national budget, often on 
programs that are not their priorities. We agree, and as part of the 
President's new emphasis we are committed to providing more direct 
assistance. We are reviewing the financial management systems of these 
key ministries and, if their financial system can be certified as 
accountable and transparent, we provide direct funding to be used for 
basic services, such as health, education and agriculture. Similarly, 
to extend the government's reach around the country, Afghanistan needs 
educated, trained, and honest civil servants. To accomplish this, the 
United States and international partners will train current government 
employees in public administration and help build a pool of 
administrators and technical managers.
    Cutting across this entire effort to improve Afghans' confidence in 
their government is the need to combat corruption and promote the rule 
of law. Without institutions that serve the needs of ordinary Afghans 
and government officials who are accountable and honest, Afghanistan 
will always be in danger of returning to the conditions that made it a 
haven for violent extremists.
    With our assistance and that of our allies, the Afghan Government 
is steadily building law enforcement institutions to fight corruption, 
organized crime, and drug trafficking. With the support of the Federal 
Bureau of Investigations, the Drug Enforcement Administration, and our 
military, the Ministries of Interior and Counter Narcotics, and the 
Afghan National Directorate of Security recently created the Major 
Crimes Task Force, which is responsible for investigating major 
corruption, kidnapping, and organized crimes cases. Similarly, 
Afghanistan's Attorney General recently established a special Anti-
Corruption Unit, aimed at prosecuting misconduct by mid-and high-level 
government officials. In addition, a specialized Anti-Corruption 
Tribunal is being created to handle significant corruption cases, 
including prosecutions involving provincial officials. Our Mission's 
Department of Justice team is also providing support.
    In his inaugural address, President Karzai stated his intention to 
make merit-based appointments in his new cabinet and to implement an 
anti-corruption strategy, including by expanding the powers of the 
existing High Office of Oversight. We are encouraged by his statements, 
but we need to work together to aggressively implement this goal and 
produce results. In addition to his cabinet, it is important that 
qualified appointments are made at the vice minister, provincial and 
district levels, which would give the Afghan Government greater 
credibility with its people and permit more rapid reforms. Secretary 
Clinton last month discussed with President Karzai the necessity of 
moving swiftly to develop concrete plans to implement this agenda to 
improve government accountability and performance.
    Beyond the national level, I would like to address our efforts to 
promote governance at the provincial and district levels. We are 
working jointly with the military through our Provincial Reconstruction 
Teams, District Development Working Groups, and District Support Teams, 
which help build Afghan capacity in key areas, particularly in areas of 
greatest insecurity in southern and eastern Afghanistan. We are 
improving governance beyond Kabul through rule-of-law programs and 
other mechanisms that have proven effective in giving Afghans a greater 
stake in their government, including through the National Solidarity 
Program. We have expanded our support for the Afghan Social Outreach 
Program to create provincial and district councils and build citizen 
involvement. We are working with the Afghan Government to provide 
incentives for sub-national leaders to improve performance. I would 
like to emphasize that we are concentrating on what is essential and 
attainable. In all of these efforts, we must not wait too long to 
create an Afghan autonomous capability, or we risk building a 
dependency that will be that much harder to break.
    Some might argue that we are reaching too high--that Afghanistan 
has rarely in its history had a central government capable of carrying 
out these tasks and that to expect a coherent state to emerge now is 
unrealistic and a waste of resources. I disagree with that argument on 
several levels. First, while the Afghan state has never been 
particularly strong, Afghanistan has had functioning governments in 
Kabul that were widely viewed as legitimate. Second, the government 
structure we are helping to develop is one with the minimum set of 
capabilities that any state must possess to serve its people.
    Our goal is not nation building, nor are we attempting to impose a 
Western model of governance. Afghanistan is a poor country that will 
remain dependent on international aid for years to come. This strategy 
for improving governance is based on a pragmatic assessment of the 
national security interests of the United States, and our belief that 
sustainable representative government is essential to success. 
Afghanistan needs a viable government so our forces can draw down and 
the investment of U.S. taxpayer dollars can be reduced. Achieving those 
goals will prevent the need for the United States and its allies to 
intervene to protect ourselves from extremists who, unless we succeed, 
might once again find refuge in Afghanistan.
    The cultivation of poppy and the trafficking in opium without a 
doubt has the most debilitating effect on Afghan society, feeding 
corruption and undermining the legal economy, while generating funds 
for the insurgency. Our strategy for combating the pervasive impact of 
illegal narcotics is multi-pronged, involving demand reduction, efforts 
by law enforcement and the military to detain major traffickers and 
interdict drug shipments, and support for licit agricultural 
development. The U.S. Drug Enforcement Administration works closely 
with Afghan partners to investigate and prosecute major traffickers. 
With our support, the Counter-Narcotics Justice Task Force has become 
the most effective judicial organization in Afghanistan today, with 
successful investigations, prosecutions, and convictions of hundreds of 
drug traffickers. But the narcotics problem will never have a 
satisfactory solution without economic development in this still 
desperately poor country.

                              DEVELOPMENT

    Along with security and governance, the third pillar of our effort 
is development assistance. In recent months, we have adjusted our 
approach to focus on building key elements of Afghanistan's private-
sector economy, increasing our emphasis on agriculture, enhancing 
government revenue collection, and improving the coordination of 
assistance delivery within the U.S. Government and across the 
international community. These refinements are designed to produce 
measurable improvements in the lives of ordinary Afghans--and thus to 
contribute directly to more effective government and to lessened 
support for the insurgency.
    We are targeting much of our assistance where violence is worst and 
shifting to more flexible and faster contract and grant mechanisms, to 
ensure our dollars are effectively supporting our efforts in the 
provinces. Development specialists at the U.S. Agency for International 
Development (USAID), joined by experts from multiple departments and 
agencies of our government, are focusing on key sectors, such as 
agriculture. Rebuilding the farm sector is essential for the Afghan 
Government to reduce the pool of unemployed men who form the recruiting 
base for extremist groups. We estimate that at least 80 percent of the 
Afghan population derives their income, either directly or indirectly, 
from agriculture. Our agriculture efforts also seek to reinforce our 
governance strategy, so that the Agriculture Ministry will increasingly 
be--and be seen as--a tangible example of a more effective government.
    At the same time, we are encouraging long-term investment, 
specifically by funding water management and electrification projects 
that deliver power and large-scale irrigation, and we promote mining 
and light industry that leverage Afghanistan's agricultural products 
and natural resources.
    We are also helping Afghanistan's Government increase revenue 
collection. Without improvements in its ability to collect taxes and 
customs receipts, Afghanistan will always remain overly dependent on 
the international community and will struggle to meet the needs of its 
people. The Afghan Government has made progress in recent years in 
increasing domestic revenue collection, which has risen from 3.3 
percent of gross domestic product to 7.7 percent. That is still too 
low. Most low-income countries collect 11 to 12 percent of their gross 
domestic product on average, and we and our other partners are working 
with the Ministry of Finance on reforms that will further increase 
revenue. The biggest problem remains corruption, however. The current 
rough estimate is that only half of the revenue collected actually 
makes it into the treasury. Low domestic revenue undermines the Afghan 
Government's ability to provide services, while graft and bribery 
diminishes confidence in and support for the government. 
Representatives from the U.S. Treasury Department are working with the 
Afghan Finance Ministry and other essential ministries to build 
fiduciary systems that will permit us to provide them more direct 
funding.
    Additionally, our Department of State and Commerce experts are 
assisting the Afghans to promote regional trade to help their economy. 
We expect that Afghanistan and Pakistan will shortly conclude a Transit 
Trade Agreement that will open new opportunities for commerce between 
the two countries. Finally, we also seek Congressional support to soon 
pass Reconstruction Opportunity Zone legislation to create long-term 
and sustainable employment opportunities. Improving official commercial 
and trade relations will also contribute to an improved Afghanistan-
Pakistan security relationship.

                          OUR CIVILIAN EFFORT

    Achieving our goals for Afghanistan will not be easy, but I am 
optimistic that we can succeed with the support of Congress. Under-
resourced for years, our mission is now one of our government's highest 
priorities, with substantial additional development funds and hundreds 
of additional personnel. By early 2010, we will have almost 1,000 
civilians from numerous government departments and agencies on the 
ground in Afghanistan, tripling the total from the beginning of 2009. 
Of these, nearly 400 will serve out in the field with the military at 
Provincial Reconstruction Teams or at the brigade-level and on forward 
operating bases. By comparison, 1 year ago there were only 67 U.S. 
civilians serving outside Kabul. The hundreds of dedicated Americans 
who have taken on this assignment voluntarily accept hardship and risk 
and deserve our recognition and appreciation for the exemplary work 
they are performing under very difficult conditions. They are an 
extraordinarily skilled group, chosen because they have the proper 
skills and experience to achieve the results we seek.
    In coming months, as our troops conduct operations to stabilize new 
areas, they will be joined by additional civilian personnel to work 
with our Afghan partners to strengthen governance and provide basic 
services as rapidly as possible. The integration of civilian and 
military effort has greatly improved over the last year, a process that 
will deepen as additional troops arrive and our civilian effort 
expands. We have designated Senior Civilian Representatives (SCRs) as 
counterparts to NATO-ISAF commanders in each of the Regional Commands. 
These SCRs are senior professionals, experienced in conflict 
environments. They direct the work of U.S. Government civilians within 
their regions, subject to my overall guidance. This organizational 
structure has two important features: First, it ensures that our 
civilian efforts are fully integrated with the military's in the field. 
Second, it is decentralized, enabling quick response to local needs, 
which is essential to deal with the varying conditions in Afghanistan. 
To maximize our impact in priority areas, we have created District 
Support Teams, which allow civilians in the field to collaborate with 
the military to build Afghan capacity in assigned districts.
    U.S. foreign assistance is a comparatively small but essential 
fraction of the total dollars spent in Afghanistan over the last 8 
years. Our increased civilian presence has enabled us to more 
effectively and more rapidly invest our assistance in the areas of 
agriculture, job creation, education, health care, and infrastructure 
projects. Additional resources will be necessary for our effort to keep 
pace with the military's expansion, to carry out the President's 
strategy on a rapid timetable. We look forward to sharing additional 
details on our anticipated needs with Congress in the coming days and 
weeks.
    We have also improved our contracting to enhance performance and 
increase the effectiveness of our development aid programs. In a 
conflict zone, a degree of program risk is unavoidable, but U.S. 
Government agencies in the mission remain accountable to Congress for 
every dollar they spend. Given the great amount of resources and 
emphasis devoted to Afghanistan, our programs receive extraordinary 
oversight, including by a Kabul-based Special Inspector General for 
Afghan Reconstruction, multiple audits of USAID and International 
Narcotics and Law Enforcement programs, and a hotline to report fraud, 
waste, and abuse.

                                PAKISTAN

    Finally, let me say a few words about Pakistan and the critical 
impact that developments in that country will have on our efforts over 
the next year. The expanded military and civilian effort we are 
undertaking in Afghanistan is likely to produce measurable improvements 
in security and in Afghanistan's governance capacity, but we will 
likely fall short of our strategic goals unless there is more progress 
at eliminating the sanctuaries used by Afghan Taliban and their allied 
militant extremists in Pakistan. The vast majority of enemy fighters 
our troops face on the battlefield are local Afghans, fighting in their 
home provinces or regions. But the Afghan Taliban and other insurgents 
receive significant aid and direction from senior leaders operating 
outside Afghanistan's borders. The Afghan Taliban's leadership may 
employ those sanctuaries, as they have in the past, to simply wait us 
out and renew their attacks once our troops begin to go home. 
Recognizing this, the administration has emphasized the need for a 
regional approach that deals with the interrelated problems of 
Afghanistan and Pakistan and seeks to improve relations between the two 
governments.

                               CONCLUSION

    Mr. Chairman, Afghanistan is a daunting challenge. I have tried to 
describe how our Mission, as part of an integrated civil-military team, 
will pursue the President's goals and our country's interests. I have 
also given you my best assessment of the risks we face. Let me, in 
closing, once again thank the men and women of the U.S. Mission in 
Afghanistan and our Armed Forces. Together with the members of other 
NATO-ISAF armed forces, the international community and our Afghan 
allies, they do exemplary work on a daily basis that helps to protect 
the American people. They are prepared to work even harder to help the 
Afghan Government to stand on its own and handle the threats it faces. 
They believe firmly that our mission is necessary and achievable, and 
so do I. Success is not guaranteed, but it is possible. With the 
additional troops and other resources provided by the President--and 
with the help of Congress--we can ensure al Qaeda never again finds 
refuge in Afghanistan and threatens our country.
    Thank you, and I look forward to your questions.

    Chairman Levin. Thank you very much, Ambassador.
    We'll try a 7-minute round and hope that we can get to 
everybody by the time that you two have to leave us.
    General, let me ask you the first question. Is it your 
personal professional judgment that the President's strategic 
plan is the correct plan?
    General McChrystal. Yes, Mr. Chairman, it is.
    Chairman Levin. Are there any elements of the plan you 
don't agree with?
    General McChrystal. I'm comfortable with the entire plan, 
Mr. Chairman.
    Chairman Levin. Ambassador, do you support the President's 
plan and each of its elements?
    Ambassador Eikenberry. I do, Mr. Chairman.
    Chairman Levin. Now, the President has set a specific date 
of July 2011 for the start of U.S. troop reductions. It's 
specific and it's set, as directed by the President. He's also 
indicated that the pace of the reductions is dependent on 
conditions on the ground.
    General, do you fully agree with the July 2011 date which 
the President directed as the start of reductions of some U.S. 
forces?
    General McChrystal. Mr. Chairman, I do, and I'd like to 
explain why.
    Chairman Levin. Please.
    General McChrystal. Sir, from the military strategy point, 
I view it in a wider context. First, most importantly, I think 
the President has stated and other leaders of our government 
have the commitment to a strategic partnership with Afghanistan 
and the Afghan people. So I believe that the context that 
provides, that we will not abandon them over time, is very, 
very important. It gives them a consistency in our commitment 
to them and some assurance for the future.
    Sir, on the other end of that, in the very near term, the 
President has provided our force additional combat forces, 
which I view, and I described in my opening statement, as being 
able to provide us time and space to reverse Taliban momentum 
and make progress against the insurgency in the near term, 
which I think the next 18 months are critical. During that 
period, I believe we'll be able to degrade the ability and the 
capacity of the insurgency significantly. Simultaneous to that 
will be growing the capacity of the Government of Afghanistan's 
security capability, the Afghan Army and Afghan police 
specifically, but also supported by governance.
    So I believe that when we hit July 2011 that's not a 
significant factor in our campaign plan. In fact, I think it 
has a positive forcing function on our Afghan partners in 
reminding them that, although we have a long-term commitment, 
we also have shared responsibility. So I think there are some 
positives.
    I do want to point out that I understand that there's an 
information operations challenge. The Taliban particularly will 
try to paint this in a particular picture, and I think we just 
have to deal and combat that.
    Chairman Levin. Thank you.
    General, how many Afghan soldiers are now partnered with 
U.S. combat troops and are in the fight in Regional Commands 
(RC)-South and RC-East, where the major fighting is occurring? 
What's that number?
    General McChrystal. Sir, if you'll permit me to pull out my 
numbers here.
    Chairman Levin. If you could just give us the number of 
Afghan soldiers, one number, partnered with U.S. combat forces, 
in the fight?
    General McChrystal. In RC-South, sir, that would be 16,700.
    Chairman Levin. 16,000?
    General McChrystal. Yes, sir.
    Chairman Levin. Okay. How about east?
    General McChrystal. Sir, that would be 23,300 army. Neither 
of those numbers include the police.
    Chairman Levin. Now, in Operation Cobra Anger in Helmand 
it's reported we have 1,000 marines there right now in that 
operation and there's about 150 Afghan troops. When we were in 
Helmand Province, where we visited, there were five U.S. troops 
for each Afghan troop. I think I stated it correctly. But 
currently in Operation Anger there's 1,000 marines, joined by 
150 Afghans. That's about seven U.S. troops for every one 
Afghan.
    Given the number of Afghan troops that are there, why are 
these ratios so inconsistent with what our own doctrine is, 
which says that we should have a one-to-one partnership, one 
unit of ours for one unit of the Afghans, hopefully leading to 
one unit of ours to three Afghan units by the end of the 
partnering period? How come the ratio is so reversed of what 
our doctrine requires?
    General McChrystal. The primary reason is there are not yet 
enough Afghan National Army (ANA) or Afghan National Police 
(ANP). The main focus of our coalition element or strategy has 
recently been in the south. In the Helmand area, when you and I 
were there, you're correct, it was about one Afghan security 
force participant to five coalition. That's now 1 to 3.6 and by 
the end of January we'll have it 1 to 2.3.
    Chairman Levin. Now, the British insist on one-to-one. The 
Australians insist on one-to-one. It's their doctrine. It's 
their mission that they are mainly there for partnering with 
the Afghan troops, and so their requirement, which they insist 
on, is about a one-to-one to begin with. Why do we not have 
that same insistence, determination, that our doctrine, which 
is one-to-one, be implemented, since partnering and training 
the Afghan forces is such an important part of our mission?
    General McChrystal. Mr. Chairman, I could not agree more. 
There are simply not yet an ANA to meet everyone's 
requirements. We are fielding as we speak this month 1,900 
additional ANA soldiers between December and January. That's 16 
new ANA companies. All will go into the Helmand area.
    Chairman Levin. We're going to have 20,000 there by what 
time?
    General McChrystal. Of our additional forces?
    Chairman Levin. No, of our forces. We have 10,000 in 
Helmand now. We're going to add another 9,000 or 10,000.
    General McChrystal. Sir, by mid-spring, late spring.
    Chairman Levin. So the ratio is still going to be 
overwhelmingly U.S. to Afghan, even after those Afghan 
additions; isn't that right?
    General McChrystal. Sir, by April we will create another 
brigade of ANA forces that will go to the south--I'm sorry. Two 
brigades by summer and an additional corps headquarters. We're 
flowing everything we can build in the Afghan army into that 
area. I absolutely agree with your point.
    Chairman Levin. General Jones indicated in a news interview 
last weekend, I believe, that currently at least 7 of the 34 
Afghan provinces today--that's 20 percent of their provinces--
have the conditions for successful transition, right now. Now 
quoting General Jones: ``Specifically, security, economic 
development, and reasonably good governance.''
    Why not transfer responsibility now, since the conditions 
exist now for successful transition?
    General McChrystal. In fact, the Afghans have the lead over 
the entire country. Legally, they're a sovereign country. It's 
different than Iraq.
    Chairman Levin. Then why did Secretary Gates and Secretary 
Clinton repeatedly say that transition is going to begin in 
July 2011, if the conditions for transition in seven provinces 
exist now? Why wait?
    General McChrystal. Senator, in fact, the city of Kabul has 
already transferred to----
    Chairman Levin. How about the other seven provinces?
    General McChrystal. There are areas where they, in fact, 
have the lead now, they execute, because there are not 
coalition forces operating in those areas. So the legal mandate 
that might be executed to do that I think is really in that 
case a formality. They have the lead in most of those areas 
right now, sir.
    Chairman Levin. Thank you very much.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Ambassador Eikenberry, during the decisionmaking process 
there were several cables that you sent back that were 
classified Secret and yet were revealed to the media. They 
indicated that you had strong reservations about the surge.
    Have those reservations been resolved in your mind?
    Ambassador Eikenberry. Senator, 100 percent with the 
refinement of the mission and with clarification on the ways 
that we're going to move forward and the resources allocated 
against this, absolutely.
    Senator McCain. General McChrystal, Secretary Gates said 
today in Kabul: ``We're in this thing to win.'' Do you agree 
with his statement and do you have what you need to win?
    General McChrystal. I agree with the Secretary's statement. 
We are in it to win. I think we have what we need to win. But I 
think the ultimate winners become the Afghan people.
    Senator McCain. What do you expect we will have achieved by 
2011? I understand there's going to be a major review of the 
plan by December 2010. What do you expect we will have achieved 
by 2011 when, as the response to Senator Levin's statement, is 
a firm date for beginning withdrawal of U.S. troops? We will 
have benchmarks that you will be sharing with us, I'm sure. Go 
ahead.
    General McChrystal. Absolutely. The most important thing we 
will have done by the summer of 2011 is convince the majority 
of the Afghan people that in fact we are going to win, we and 
the Afghan Government are going to win, and that, that is going 
to be the direction for the future. What we will do is start by 
reversing the Taliban momentum and the perception of momentum, 
because at the end of the day success in this fight is about 
what the people believe.
    We will be able, between now and summer of 2011, to reverse 
that momentum, to increase the number of security zones we 
have, providing more areas contiguous security. So for example, 
a farmer in Garmsir in the central Helmand River Valley, which 
has been secured now by a combination of Afghan forces and 
marines, who've done a great job, we'll be able to move product 
all the way from Garmsir to Lashkar Gah and Kandahar. Currently 
we don't have contiguous security; we have pockets of security. 
We'll be able to grow that. We'll be able to increase their 
ability not only to live in their own neighborhood more 
normally, but also to live a life more normally.
    Senator McCain. What if we haven't achieved those 
objectives by July 2011? What do we do then, since we have a 
firm date for the beginning of a withdrawal?
    General McChrystal. Sir, of course we always assess our 
strategy as we go along and make decisions based upon the 
situation.
    Senator McCain. But we still have a firm date.
    You said, General McChrystal, ``The success of this 
operation will be determined in the minds of the Afghan 
people.'' What would you say to Afghans, Pakistanis, and others 
in the region, both our friends and enemies, who may now feel 
like hedging their bets or sitting on the fence because they 
doubt America's commitment and resolve?
    General McChrystal. Sir, there will be some who are in 
opposition and some who are in ignorance, who will try to use 
that as a point of propaganda. I think if we point out the 
long-term strategic partnership both to the Government of 
Afghanistan and to our Pakistani partners, and our short-term 
clear commitment by the additional forces and the focus of our 
strategy, I believe that we can make that point effectively.
    Senator McCain. It is obvious from your experience in 
Afghanistan that the Afghan people do not want the return of 
the Taliban, and that is a significant advantage and one that 
perhaps has not been made as clear to the American people, not 
only because of the things they might do to harm the United 
States, but the terrible treatment of the Afghan people, 
including women in Afghanistan.
    General McChrystal. Senator, that is absolutely correct. 
Everywhere I go, I have never seen evidence that the Taliban 
have popular support, like a political liberation movement. 
They get their support largely through coercion. So the average 
people are simply waiting to see whether or not their 
government can defeat that insurgency.
    Senator McCain. Is it still your goal to train 400,000 
Afghan security forces by 2013?
    General McChrystal. Sir, I believe that we need to 
significantly increase the ANSF. I recommend that we stay on a 
very aggressive timeline to try to reach that, but adjust those 
goals on two things: one, if the insurgency's size creases, it 
might be able to be adjusted; and also the ability of the 
Afghan Government to provide recruits, retention, and those 
things which enable the growth.
    Senator McCain. What level do you expect it to be by July 
2011?
    General McChrystal. Sir, I believe between the army and 
police total it will be approaching 300,000 people.
    Senator McCain. What about the strain on the men and women 
in the military, General?
    General McChrystal. Sir, I think the strain is significant. 
But I was out at Walter Reed yesterday morning, as I went 
through with my wife and visited soldiers who'd been wounded, 
not just in Afghanistan, but also in Iraq. Every soldier we 
spoke to talked about wanting to get back in the fight, even 
though it was clear that many would be very challenged to do 
that.
    Every soldier that I see in the field expresses the same 
sort of focus. So I believe that while there's clear strain on 
families, and we cannot understate the importance of the 
programs that this body has done for wounded warriors and for 
families, I believe this force wants to win, and I believe that 
commitment is the most important thing.
    Senator McCain. How important is it that we find and bring 
to justice Osama bin Laden and what effect would that have on 
our effort there?
    I'd also be interested in your view, Ambassador.
    General McChrystal. Sir, I believe he is an iconic figure 
at this point, whose survival emboldens al Qaeda as a 
franchising organization across the world. It would not defeat 
al Qaeda to have him captured or killed, but I don't think that 
we can finally defeat al Qaeda until he is captured or killed.
    Senator McCain. Until he is captured or brought to justice.
    Ambassador?
    Ambassador Eikenberry. Senator, I'd only add to that, that 
it does remain important to the American people, indeed the 
people of the world, that one day Osama bin Laden is either 
captured or killed or brought to justice for his responsibility 
for the murder of many Americans and citizens of the world on 
September 11, 2001.
    Senator McCain. I thank the witnesses. I know you have an 
enormous task ahead of you. You have our support and our 
thoughts and our prayers are with you. We look forward to 
making your life miserable by coming over to visit you. 
[Laughter.]
    Thank you.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    I promise to come with Senator McCain and to the extent 
that I can try to make his visit less miserable for the two of 
you than it would otherwise be. [Laughter.]
    I thank you both for your extraordinary service. I do want 
to say a word about Senator McCain's opening statement today. 
It builds on what he said last week when Secretaries Gates and 
Clinton and Admiral Mullen were here. It's obvious that he 
disagrees on the question of the deadline, or whatever one 
calls it, for July 2011, exit strategy. But he made an 
important statement today, which is he's just going to have to 
agree to disagree. The administration and he are going to have 
to agree to disagree and go forward, because he supports the 
basic program.
    I hope this sets a tone for people in both parties. No 
matter what they feel about one or another detail of the 
decision the President made, it is now American policy, and the 
truth is we all ought to come together behind you, General 
McChrystal, and the troops that you're leading, and Ambassador 
Eikenberry, you and the civilian personnel you're leading, and 
give you 18 months when you don't have any carping or 
backbiting from Washington to get the job done for us. I thank 
you for that.
    I never felt uncomfortable or critical about the length of 
the deliberative process that President Obama conducted, but I 
thought the worst thing about it was that it appeared that 
people associated with it were leaking documents or arguments 
to try to affect public opinion, and one was this alleged email 
that you sent, Ambassador Eikenberry, because none of us, 
obviously, saw it. I didn't see it.
    I appreciate what you said to Senator McCain, that you have 
a good working relationship with General McChrystal. But what 
the media was reporting was that the substance of the email was 
your concern that if we sent too many troops too quickly, it 
would take the pressure off of the Afghan Government. I wanted 
to ask you to deal with that in two ways, if you would. It's 
awkward to ask it and yet the media is talking about it, so I 
think it's best to give you a chance to comment in public.
    The first is, to what extent the publication of that email, 
with its skepticism, that a lot of people here in Washington 
share, about the government in Kabul, what effect, if any, it's 
had on your relationship with President Karzai and the 
government. The second is, if you could deal with the 
substance, which is I gather--what we heard of the email, it 
had a substantial policy argument, which was that first we 
better get the Afghans to shape up before we send in more 
troops.
    Ambassador Eikenberry. Thanks, Senator. Let me take the 
second half first, on the substance. There was a very 
deliberate review process that both General McChrystal and I 
talked about in our opening statements, and during that review 
process all of us were encouraged to render our best analysis 
and best advice. It was an extraordinary process, as it should 
have been given the complexities and the consequences of the 
decision. During that time, all of us participating had 
opportunities in videoteleconferences, through face-to-face 
discussions, through written correspondence, to submit our 
views.
    The second point I wanted to make is that at no time, 
Senator, was I opposed to additional forces being sent to 
Afghanistan. I do share General McChrystal's security analysis 
that he conducted. It was comprehensive and it was correct. The 
situation in parts of Afghanistan, the security had 
deteriorated, and still in parts of Afghanistan it remains very 
difficult.
    The only way to address those problems, those challenges of 
insecurity, is additional forces, whether U.S. or non-U.S. NATO 
forces. We have an absolute consensus that we need to 
accelerate the building of the Afghan army and police. The best 
way to do that is additional U.S. forces. But all of us had 
questions, of course, when we have a very significant decision 
to be made about additional forces, important to understand the 
number, the timeline, the purpose, the context.
    But the third point I'd make then: With the President's 
decision, with the refinement of the mission, with clarity on 
what ways we were going to use and what resources would be 
allocated against that, at that point in time I was 100 
percent, and am now 100 percent, supportive of the decision 
that was made.
    With regard to effect on my relations with the Afghan 
Government, I maintain, Senator, good relations with President 
Karzai. My embassy, our embassy, maintains excellent relations 
with the Government of Afghanistan, and we're going to continue 
to improve upon what is already a very good working 
relationship.
    Senator Lieberman. I appreciate both parts of your answer. 
When I was last there with Senator McCain in August, it was 
clear that you had a good, an honest relationship with 
President Karzai and the administration, there are 
disagreements, but then a commitment to one another, that's 
exactly what we want.
    General McChrystal, just following up, I take it that the 
leak of the email has had no lasting effect on your ability to 
work with Ambassador Eikenberry? Obviously, if we're going to 
employ all elements of our national resources to Afghanistan, 
the relationship between the two of you is critically important 
to that.
    General McChrystal. It's fine, Senator. We work together 
literally every day. We have dinner together. That is an 
absolute misperception. We also know that we're only going to 
be successful together, both the two of us, but then also all 
our coalition and Afghan partners.
    Senator Lieberman. That's great. Thank you.
    When Secretary Gates was before the committee last week, he 
told us: ``Ambassador Eikenberry and General McChrystal are, as 
we speak, working on a joint civil-military campaign plan just 
as General Petraeus and Ambassador Crocker developed for Iraq 
in 2007.''
    I wanted to ask you first whether the Secretary is correct? 
Are you writing such a plan? Second, if so, can you tell us a 
little bit about the process by which the plan is being 
written? Ambassador?
    Ambassador Eikenberry. Actually, if I could, Senator, there 
is an existing civil-military plan. General McChrystal and 
myself back in August, after intensive combined staff work on 
the civil-military side, we had signed a joint campaign plan 
that General Petraeus, when he reviewed it along with 
Ambassador Holbrooke, said it was absolutely the best civil-
military plan that he's ever seen. We're proud of the work that 
was done on it.
    We are in the process of having to revise that plan based 
upon the implementation now of the new strategy. This plan is 
not a document which sits on a shelf. To give you an example of 
the integration that follows from this plan, at the national 
level we have 14 national level working groups. What do I mean 
by that? We have a national level working group for 
agriculture, a national level working group for infrastructure 
development.
    These are fully integrated teams that sit on these working 
groups. For instance, agriculture; members of U.S. Agency for 
International Development (USAID) sit on the team, the 
Department of Agriculture. Very importantly, from General 
McChrystal's command, we have the National Guard sitting on 
there and more of their military command.
    I could go through all of these various functional groups 
that we've established. That's at the national level 
horizontally. But vertically, from Kabul all the way down 
through the province, all the way through the district, we have 
a fully integrated civil-military unified effort. We're 
impressed with what we have. We're committed to making it 
better.
    Senator Lieberman. General McChrystal, do you want to add 
to that? I'm curious as to whether you have integration at the 
staff level on civil-military to work on the next phase of the 
plan.
    General McChrystal. We absolutely do. On a daily basis, 
they are meeting and working.
    Senator Lieberman. Thank you both.
    Thanks very much.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    General McChrystal, when there's fighting near the Afghan-
Pakistan border area and our troops are engaged with the enemy 
insurgents, what have been the rules of engagement with regard 
to what our troops can do when the enemy retreats back into 
Pakistan?
    General McChrystal. The intent of our rules of engagement 
is always to protect our forces, to never take away from our 
forces the ability to protect themselves, their wellbeing. We 
have the ability to fire across the border--artillery, air 
strikes, direct fire weapons--and that actually happens with a 
fair amount of regularity. But it also happens with 
coordination. We have a series of mechanisms in place with the 
Pakistani army so that as an incident occurs, before we shoot 
we immediately contact them and try to work out all the details 
so that they in fact approve the engagement with the enemy. 
That reduces misunderstandings.
    There are times when there are misunderstandings about 
that. So we constantly work with our forces to try to make sure 
we don't create issues. But we also try to prevent, both the 
Pakistani military and us, there being any kind of a scene.
    Senator Wicker. So we don't pursue across the border? Our 
troops don't have the ability to do that; is that correct?
    General McChrystal. Sir, I'd like to take that part for the 
record, whether they actually legally can. We have not been 
doing that, not going across on the ground.
    Senator Wicker. So they're under orders not to do that?
    General McChrystal. Sir, let me take that for the record, 
to make sure.
    [The information referred to follows:]

    [Deleted.]

    Senator Wicker. I just wondered, because you had testified 
that ``organizational and operational changes were going to 
need to be implemented, and I just was curious, and maybe you 
might want to take for the record that question too, as to 
whether our ability to pursue the enemy across the border, with 
the cooperation of the Pakistanis, might be part of those 
changes.
    So thank you for that, and I look forward to your answer.
    Mr. Ambassador, there are going to be Afghan parliamentary 
elections next year. I think it's beyond dispute that the 
presidential election was riddled with fraud and that the 
turnout was much lower than expected because of intimidation by 
the Taliban. What are our lessons learned from the presidential 
election to help us going forward to the parliamentary 
election?
    Ambassador Eikenberry. Senator, clearly the presidential 
election that Afghanistan went through was a very difficult 
process. There was fraud. In areas of Afghanistan that were 
challenged by insecurity, there was lower voter turnout. I 
would emphasize, however, that the rule of law, the rules 
according to the constitution, remained intact, and for that 
the Afghan people are proud.
    In the early 1990s when there was a change of political 
power in Kabul, it took place through warlords firing rockets 
down into the city of Kabul. So the Afghan people are proud 
that they made it through this process, difficult though it 
was.
    Now, against that, what lessons were learned, Senator? 
There has to be improvement in the electoral system of 
Afghanistan. The commission which has the oversight for the 
running of the election, it needs improvement. It needs help 
from the international community in that regard.
    Second, I think that the Afghans are politically going to 
have to come together and look at the election cycles that 
they've established right now. Between this year and 2024, 
every year except one has elections. They're going to need to 
look hard at that pace of elections.
    Then third, there's going to have to be reform and work 
done for voter registration to get a better handle on who is 
actually eligible to vote out there. I think that the Afghan 
parliament and President Karzai's administration, over the next 
several months, will be looking at this. Right now the 
parliamentary elections are scheduled to take place in the 
spring. That will be a very ambitious timeline. I know it has 
security consequences, but it's a major point on the political 
agenda, for Afghanistan, and we're talking with the government 
about this.
    Senator Wicker. Is a major point of your political agenda 
to provide better security against coercion of the voters? What 
would be our plans for that?
    Let me interject: Were you surprised at the low turnout?
    Ambassador Eikenberry. I was, I was, Senator, not on the 
day of the election. If you had asked me when I first came into 
Afghanistan on this tour of duty in May 2009, several months 
before the election, I would have suggested a much higher voter 
turnout in eastern and southern Afghanistan. One of the key 
factors that voter turnout was not high in those areas was 
insecurity. So as I said earlier in the testimony that I agreed 
with General McChrystal's security assessment, low voter 
turnout in areas where there is insecurity, not surprising.
    I was surprised, though, to see how far security had 
trended downward.
    Senator Wicker. Is a major agenda item providing better 
security for voters so they'll have more confidence that they 
can get back and forth to the polls?
    Ambassador Eikenberry. I'd defer to General McChrystal on 
that, Senator.
    Senator Wicker. Is that a major item, General?
    General McChrystal. It absolutely is, Senator.
    Senator Wicker. Let me ask this, then. President Karzai in 
his inauguration speech mentioned his desire to convene a loya 
jirga. It has been further elaborated on by spokesmen saying 
that members of the Taliban would be invited to this loya 
jirga.
    Was this an American idea? I understand much of the 
President's inaugural address was written in consultation with 
Americans. Is that our view, Mr. Ambassador, that a loya jirga 
would include members of the Taliban? When might this occur?
    Ambassador Eikenberry. I know that President Karzai has 
discussed holding a loya jirga. He has articulated that the 
purpose of the loya jirga would be to gain a consensus among 
the people, renew their support for the presence of the 
international community in the way ahead.
    With regard to Taliban participation in this, Senator, I 
don't know. I have not discussed that with President Karzai.
    Senator Wicker. Do you have an opinion with regard to 
whether that would be advisable?
    Ambassador Eikenberry. With regard to political discussions 
between the Government of Afghanistan and the Taliban, Senator, 
that's very much a political question for the Afghan 
Government's administration. The principles that President 
Karzai has set forth about discussions of anybody rejoining 
Afghan society, Taliban rejoining Afghan society, the set of 
principles that he's established--number one, that they would 
have to renounce their ties to international terrorism; number 
two, renounce violence; number three, to follow the 
constitution of the Government of Afghanistan--those are 
entirely consistent with our own views.
    Senator Wicker. Thank you.
    Chairman Levin. Thank you, Senator Wicker.
    Just a quick procedural point.
    We do expect that we'll have an opportunity at least for a 
brief second round. I want everyone to know that we expect that 
opportunity will be present.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. Thank you, 
gentlemen.
    General McChrystal, the rules of engagement within Afghan 
emphasize minimizing civilian casualties. That was a point you 
made when you took over, and Admiral Mullen made the same point 
yesterday at Camp Lejeune. I don't want to be presumptuous, but 
my understanding is it is based on your experience, your 
understanding of counterinsurgency warfare, the experience of 
the Soviets before us; you were not directed to do that by 
anyone; is that correct?
    General McChrystal. That is correct, Senator. I did before 
I deployed out watch the situation going on, so I had formed 
opinions, but got no specific direction.
    Senator Reed. Very good.
    One of the issues here is not only the increase in size of 
forces, but it's the unity of command and the unity of effort. 
That stretches across several dimensions--COIN operations, 
counterterrorism operations, counternarcotic operations, civil-
military coordination, operations between NATO and Afghan 
security forces, operations between Afghanistan and Pakistan, 
intelligence operations versus tactical operations in the 
field.
    Can you in a few minutes tell me, Ambassador Eikenberry 
also, what are you doing specifically to address this issue of 
unity of effort, and how important is it to your success?
    General McChrystal. Senator, it's absolutely critical to 
our success, unity of effort across the civil-military and 
within military operations. What we have done is, as we arrived 
out, we've done some organizational changes. The standup of the 
Intermediate Joint Command, General Dave Rodriguez's command, 
provides a corps-like headquarters over the regional commands 
that allows him to orchestrate this fight much better than we 
could have done before or was the habit before.
    Additionally, internal to each what we call battle-space 
owner, starting at the regional command level down to typically 
a brigade combat team, we have moved to put all the elements 
that operate in that battle space under the control of that 
single battle space owner.
    I'll let Ambassador Eikenberry talk more about what they've 
done. But we've also established a civil-military lashup so 
that each regional commander has a senior civilian 
represenative that is right next to him all the time. So that 
gives us unity of effort so that they are literally joined at 
the hip as we move forward there.
    We've changed the structure and focus of our special 
operating forces so that they come under either the regional 
commander's focus, to ensure that they are implementing his. 
What we can't do is have multiple wars being fought. We have to 
have one overall effort.
    There is still a distance to go. There are some national 
limitations. There are cultural limitations within the U.S. 
military, and there are other steps. But we have made huge 
progress.
    The last point I'd make is, our effort to partner with the 
Afghans starts at the Ministry of Defense level, the Ministry 
of Interior, which is much more robust than we did before. I 
see the ministers almost every day. We have video 
teleconferences (VCTs) with them. They're in our VTCs every 
day. So that we and the Afghans are planning the fight 
together, executing the fight, talking about the fight 
afterward together. That goes down at the lower levels and 
increasingly, as Senator Levin said, the partnering down at the 
lowest levels, the closer we get, that gets us not only better 
forces, it gets us unity of effort.
    Senator Reed. Mr. Ambassador?
    Ambassador Eikenberry. Senator, four points in our own 
efforts on the embassy side to try to achieve unity of effort. 
First of all, within the government itself, within the embassy. 
I'd mention as an example of some of these working groups that 
we have established an agricultural working group. We're very 
proud of the success that we've had in pulling together the 
interagency on the civilian side of the government, so that you 
will not have one agricultural group meeting with USAID, 
another led by the Department of Agriculture--fully integrated. 
If you were to go into our rule of law group, you'll find in 
that same room the Federal Bureau of Investigation (FBI), Drug 
Enforcement Administration, the Department of Justice, State 
International Narcotics and Law, and the military.
    General McChrystal already mentioned the second point about 
our civil-military coordination. I mentioned that to Senator 
McCain. As you get down to outside of Kabul, for the first time 
I truly believe we've really got it lashed up well. The senior 
civilian representative concept we have for a military regional 
commander, not a political adviser but a fully empowered co-
equal that has responsibility for all the civilians from all 
agencies assigned in that sector, and, very importantly, can 
take the resources assigned and can allocate them so that 
they're in support of major military efforts.
    Third point is with our unity that we have with the 
international community: difficult, challenging, but still the 
United Nations mission led by Kai Eide. We work closely with 
Mr. Eide. He's made good progress there. We have more work to 
do in that area. That's important because Afghanistan's going 
the need international commitment for many more years. So we 
continue to work hard to ensure that's a success.
    Then the fourth and final area, just what General 
McChrystal had said on the military side. Really, who's the key 
partner for our unity of effort? It is the Afghan people. So 
increasingly as we see more competency within Afghan 
ministries, we will be encouraging the Afghan ministry partners 
to lead the efforts. We'll go down to their ministry. We'll 
help them, but they'll be in the lead and we'll be in support 
of those efforts.
    Senator Reed. A quick question to follow up, Mr. 
Ambassador. In terms of the civilian surge, not just in 
numbers, but in the duration of the service: I think there are 
some agencies that are giving you or giving this effort 3 
months, 4 months, in terms of personal assignments. Is that 
adequate?
    Ambassador Eikenberry. Tours of that length are not. We've 
made great progress, though, Senator, with support of most of 
our departments and agencies in really getting that turned 
around. There's a real commitment there. I'll give you an 
example. The Afghans have established a major crimes task force 
in Afghanistan. It's going to be their FBI. Our FBI has sent a 
group of mentors to work with them. The initial plan was each 
mentor would be there for several months and rotate out. We 
talked to Director Mueller directly and said, for an endeavor 
like this you can't build trust in a couple of months; it has 
to be a long-term endeavor. So he has 10 agents on the ground 
right now in Afghanistan, 1-year tours of duty each. So we're 
making a lot of progress in that area. We still need to do 
better, though.
    Senator Reed. General McChrystal, but you might want to 
also comment, Ambassador: Even with the most dedicated and 
talented government in Kabul, Afghani Government, the ability 
to reach out into the provinces is limited. It's limited by the 
constitution. The governors are appointed by President Karzai. 
It's limited by the lack of any ability to raise revenues 
locally. In the short run you're going to have to essentially 
fill in the gaps, which seems to be similar to the issue in 
Iraq with the Commanders' Emergency Response Program (CERP) 
funding, where military units and their civilian counterparts 
were using funds to jump-start some of the build activity.
    Is that your plan, essentially?
    General McChrystal. Sir, it is. We will seek every chance 
we can to use the central government's ability to reach down, 
every chance we can to use existing provincial or district 
governments. But we'll also help wherever we can. In some 
cases, just security alone makes it difficult, for example, for 
a district subgovernor to get out and do the kinds of things 
that he wants to do or would normally do. So we're going to 
have to partner with them, and it'll be unique in every place, 
doing the right answer.
    Senator Reed. Mr. Ambassador?
    Ambassador Eikenberry. I'd agree with what General 
McChrystal laid out. We are working very hard as well, Senator, 
with the different programs, with our developmental programs 
delivered in the civilian side, to make those much more agile 
and much more flexible, so that, as General McChrystal's forces 
move with ANSF into a new district and it becomes imperative 
that on an urgent basis we're able to start delivering economic 
assistance and try to get jobs created. We've made a lot of 
progress here in the last 6 months about refining programs, so 
that, as an example, when General McChrystal's marines went 
into Nawa District in Helmand Province in the summer, 24 hours 
later we had a USAID developmental specialist on the ground, 
several days after that agricultural programs, jobs for work 
programs, digging of irrigation districts, that was underway.
    Senator Reed. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    Ambassador and General, thank you for being here. Thank you 
for your public service all these years.
    I had the opportunity to visit with you in Afghanistan 
along with Senator Burr and Senator Whitehouse at the end of 
October. Since the time of our trip--and perhaps, General 
McChrystal, you could answer this question first--has the 
situation improved in terms of our fight against the 
insurgency, stayed the same, or slid backwards?
    General McChrystal. Senator, I believe it's improved. I'm 
not going to say dramatically, and I try to always let events 
be provable. But I absolutely believe it's improved.
    Senator LeMieux. Ambassador?
    Ambassador Eikenberry. I'd say, Senator, if we take this 
through the political lens, there's been some very significant 
improvement. Of course, what's happened since your visit, we 
made--the second round was decided upon, and then Abdul 
Abdullah withdrew, President Karzai elected, inauguration. I 
have to say that when we looked at President Karzai's--listened 
to his inauguration address, there was a lot of positive things 
in that about governance and about security.
    I think we're seeing more confidence being displayed right 
now from President Karzai's administration. Actions have to 
follow the words. I heard that Secretary Gates, today in his 
visit to Kabul, in his discussions with President Karzai and 
the national security team of President Karzai, came away with 
the very good impression that the Afghan leadership has a sense 
of determination about them.
    Senator LeMieux. Thank you.
    General McChrystal, it seems to me with the addition of the 
30,000 troops and a goal, at least an aspirational goal, to 
draw down those troops, at least start to by July 2011, that 
this puts a lot of pressure on you and your team. You're going 
to get these troops starting in January. The troops I guess 
will not be fully deployed in theater until maybe the summer, 
and even that might be ambitious. So you have what it seems to 
me is a year to show real success with the full complement of 
the troops.
    Do you think that that's possible? Would you think that on 
a scale of one to ten, with ten being very likely and one being 
not likely at all, that you have a chance for success in that 
period of time?
    General McChrystal. I believe the chance is very high. I am 
confident that, although there's pressure on us to move 
forward, I think that's fine. There's also pressure on our 
Afghan partners, because they realize we need to move forward, 
and that's good. I think there's going to be a tremendous 
amount of pressure on the enemy. Because of the forces already 
on the ground and then the changes we've made and this 
additional 30,000, I think we're going to be able to make very, 
very significant progress.
    Senator LeMieux. Ambassador, do you think that the Afghan 
Government senses the pressure of this timeline and that they 
are fully engaged to make this a successful period for us?
    Ambassador Eikenberry. Senator, I do. Success for all of us 
in Afghanistan, of course, is the point when the Government of 
Afghanistan is able to provide for the security of its own 
people. There's a bit of ambivalence right now on the Afghan 
leaders and their people, and it's understandable. On the one 
hand, they do want to stand up and have full control of their 
sovereignty. That was reflected in President Karzai's 
inauguration address, where he said within 5 years over the 
course of his second term he wants Afghanistan's security 
forces to be in the lead responsible for security nationwide.
    Against that, given the history of modern Afghanistan, 
given the uncertainty of the neighborhood that they live in, 
there's a nervousness about losing the presence of NATO ISAF 
and the Americans. So there's the tension. I believe, as the 
General does, that this July 2011 date is a very good forcing 
function to get the Afghan leadership to stand up, to have a 
hard target for their army and police to move to.
    President Karzai's initial reaction to it was positive. He 
said: ``We need that kind of pressure; we want to stand up.'' 
But at the same time, as General McChrystal has said, we're 
going to have to be cognizant of Afghanistan's long-term needs 
for security. So, as President Karzai said in his inauguration 
address, the idea of having a strategic partnership with the 
United States or refining that is something that I think is 
going to be essential as we move forward and define what that 
long-term relationship with Afghanistan is about.
    Senator LeMieux. Thank you.
    General, the American people still want us to capture and 
kill Osama bin Laden. It occurs to me that, in terms of your 
warfighting and trying to break the will of our enemy, that 
that would be an important strategic military goal as well. Are 
we still about the business of trying to capture and kill him? 
Recently Secretary Gates said that we haven't had good 
intelligence on his whereabouts in years. Can you discuss with 
us what part of the mission capturing and killing Osama bin 
Laden is for you right now?
    General McChrystal. Senator, I am responsible as Commander 
of ISAF for inside Afghanistan. Were Osama bin Laden to come in 
there, of course that would become a huge priority for all of 
our forces. If he is not inside, it's outside of my mandate 
right now. I do believe it's very important.
    Senator LeMieux. Ambassador, can you speak to that at all?
    Ambassador Eikenberry. The exact same perspective, Senator.
    Senator LeMieux. The last thing I'd like to discuss with 
you is Pakistan. Recently the President said that we cannot 
tolerate a safe haven for terrorists, and this might be where 
Osama bin Laden is, whose location is known and whose 
intentions are clear. The New York Times has reported that the 
administration has said in private that if the Pakistani 
leaders will not allow us to follow these insurgents and fight 
them, that we will continue to do so even without their 
permission.
    What kind of cooperation are you getting from Pakistan and 
do you believe that they are going to be willing and good 
partners as we fight this cross-border battle?
    General McChrystal. My current partnership with the 
Pakistani military, led by a personal relationship I have with 
General Kiyani, is very good and it's getting better all the 
time. Unlike a few years ago, they now face a very significant 
internal insurgency from the TTP or what we call the Pakistani 
Taliban. I believe that as they focus on that more, our shared 
strategic interests become closer in alignment, both ours the 
United States and Pakistan, but also Afghanistan's and 
Pakistan's, because neither can achieve security and stability 
without success on the other side of the border.
    I think that helps to pull us into alignment. Pakistan does 
have sovereign strategic interests, which I respect, and I 
think it's important that what we as a Nation do is recognize 
those and, just like we do with Afghanistan, reinforce that 
long-term partnership.
    Senator LeMieux. Ambassador?
    Ambassador Eikenberry. Senator, you know that a major shift 
that the administration made when it announced the strategy in 
March was to try to pull together the regional aspects of 
security in central and south Asia, so not looking just at 
Afghanistan or Pakistan in isolation, but looking at the two 
together. So with the naming of the special representative for 
Afghanistan and Pakistan, Richard Holbrooke, and his frequent 
partnership on the military side with General Dave Petraeus, 
there is a full-time effort being made.
    I would also say that when you talk about our embassy in 
Islamabad, Ambassador Anne Patterson, our embassy in Kabul, 
that we do work together under Ambassador Holbrooke's direction 
to try to find ways to facilitate cooperation beyond the 
military and security domain between Afghanistan and Pakistan--
political dialogues that we try to encourage and more promising 
in the area of economic cooperation, trying to help both sides 
reach a transit trade agreement to improve trade, working with 
both sides to help improve customs posts along the frontier. 
Some of those projects have led to positive results. There's 
not going to be any real significant breakthroughs there, but 
we do have a comprehensive approach.
    Senator LeMieux. Thank you. Again, thank you both for your 
service.
    Mr. Chairman.
    Chairman Levin. Thank you, Senator LeMieux.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to say welcome, add my welcome to Ambassador 
Eikenberry and General McChrystal, and to thank you each for 
your extraordinary and dedicated service to our country.
    I also want to thank all the men and women under your 
leadership for their sacrifices. As we discuss Afghanistan 
policy today, I ask that we keep our military and civilians in 
mind and also in our prayers as they stand in harm's way.
    Ambassador Eikenberry, much has been said and written about 
the problems with the Afghan Government. One of them is 
corruption, of course. Clearly we must have a reliable Afghan 
Government to partner with in pursuing our new strategy. 
Without question, the goal of unity of effort I think has 
really set a new spirit in Afghanistan and has brought many 
parts of our government to bear on what we need to do.
    You also mentioned about improving the key ministries in 
order to build legitimacy in the Afghan Government. Ambassador, 
you have a first-hand view of the ministries and local 
governments in Afghanistan. What is your view of how the 
government is doing today? You've touched on this, do you want 
to go deeper into it as to what we need to do to bring an 
improvement about?
    Ambassador Eikenberry. Senator, I'd start and say that, 
again having gone through a very difficult election process, 
President Karzai did emerge as the winner and he is our partner 
now as the leader of Afghanistan. I give you one area where I 
think we're doing reasonably well and I'm optimistic, another 
area where I think we can expect to see improvements; the third 
area will be the most difficult.
    First of all, at the national level. You've talked abut 
some of the ministries of Afghanistan. We're focusing our 
efforts on the key ministries, the security sector, the 
financial sector of course, key ministries that deliver 
important services, health and education; and finally, those 
ministries which are going to be very important to Afghanistan 
for the generation of income for its people--agriculture, 
mining potentially, energy, water management, and so forth.
    Those ministries have had a lot of progress over the last 
several years. We expect President Karzai over the next several 
days will announce his new cabinet. We're cautiously optimistic 
we're going to get generally good ministers named there. We'll 
work closely with those important ministries with good leaders. 
We think we have good programs aligned here to see further 
success in capacity-building.
    The next area is in the rule of law and justice. There is a 
lot of work that needs to be done, but we do have some success 
that we're building upon and we do have a commitment from 
President Karzai in his inauguration speech that he's going to 
tackle head-on the issue of corruption.
    It's not going to be an easy fight at all and indeed help 
is needed from the international community, help for programs. 
But also the international community has to change its way over 
time of how we dispense aid. A lot of money that goes into 
Afghanistan right now goes outside of the Government of 
Afghanistan. We'll work with the Afghan Government. I think our 
government's setting a very good example for the international 
community to make improvements in that area.
    The third area is at the sub-national level, and this, 
Senators, is the most difficult area, about how do you reach 
out into a district of Afghanistan, if you're a minister 
sitting in Kabul, and provide health services in insecure 
districts of Afghanistan right now that General McChrystal's 
forces and ANSF are moving into and trying to push the Taliban 
back. That's the area that is the most problematic. We have 
good work going on in that area. We have some good aid 
programs, but this is the one we're going to have to lean into 
very heavily with our Afghan partners to try to figure this 
out.
    We talk about clear, hold, build, and transfer. That 
transfer piece out in that far district, that's the one that's 
the most problematic for us.
    Senator Akaka. You mentioned these different departments 
that we are sending there to help the Afghan Government. One 
that you alluded to but didn't mention is Commerce and the 
possible development of businesses within these districts, and 
also the government level as well.
    General McChrystal, since the release of your assessment of 
the region there has been a healthy debate over the number of 
troops being deployed to Afghanistan. However, I feel we should 
not focus solely on the number of troops alone. General, 
ignoring the total number of troops proposed, my question has 
to do with equipment and with personnel. Are we sending the 
right personnel there, with the right equipment in place, to 
achieve the goals that we have in those regions?
    As you mentioned, the ultimate goal is the capture of al 
Qaeda. You probably know what you need in terms of personnel 
and equipment. So my question to you is, do we have the right 
equipment and personnel to achieve our goals in the region?
    General McChrystal. Sir, the short answer is we do, but the 
reality is the requirement keeps changing, so we have to keep 
on it. We've made extraordinary improvements in things like 
intelligence, surveillance, and reconnaissance (ISR) equipment. 
In many cases people think of Predators, but it's a really wide 
array of that, differing capabilities, to include people. 
That's one that keeps growing and we've done a tremendous 
effort at continuing to grow, but it will need to continue.
    Mine Resistant Ambush Protected (MRAP) vehicles, things to 
protect our forces; the engineer equipment to help us find and 
dispose of improvised explosive devices (IEDs). So the answer 
is, I think we're doing an extraordinary job across our 
government providing it, but I think it's something we have to 
watch constantly as this effort evolves in nature and scope.
    One area that I never cease to talk about, we are getting 
great people out there. As Ambassador Eikenberry mentioned, 
tour length is something I continue to encourage all the 
participants, to include our coalition partners, not to go with 
very short tours because you lose continuity and language 
training. This is one where I would tell you, we across the 
Department of Defense (DOD) can do better and must do better. 
We don't have enough people who speak Dari, Pashtu, Urdu, and 
we are not producing them fast enough.
    There is a ramp-up. Yesterday, I met with about 160 people 
that--under Chairman Mullen's direction we've created the 
Afghan Hands Program and I talked to them. They're midway 
through training, language training and cultural training in 
preparation to going to the key jobs. But that has to be a 
start. We have to produce people who are culturally aware, 
linguistically armed to be effective, and then have enough time 
in theater to be effective.
    Senator Akaka. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Akaka.
    Senator Sessions.
    Senator Sessions. Thank you both for your service to your 
country. I've been honored to visit you in the field and I 
appreciate that work and the good briefings we have gotten and 
the professionalism you've shown.
    At the Senate Foreign Relations Committee not too long ago, 
a Brookings individual testified that he wasn't sure whether we 
should increase troops or not, but no military in the world was 
better prepared than ours to be successful if given that 
challenge. I think that's very, very true. I couldn't be more 
proud of what you and your soldiers, sailors, airmen, marines, 
and guardsmen have done.
    General McChrystal, I read your assessment. I thought it 
was highly sophisticated and a nuanced analysis of the 
challenges that we face. Some people think the military never 
talks about civilian issues and economics and security and 
those kinds of things, but you are looking at it 
comprehensively. No issue I think raised by Members of Congress 
weren't at least addressed in your analysis of the challenges 
that we face.
    I do not like that we've had to commit more troops to 
Afghanistan. I had hoped that we could be able to bring down 
those troops. I think the Commander in Chief has analyzed this 
and come up with a proposal that I intend to support. You say 
you can make it work. It sounds like to me that it can be made 
to work consistent with my analysis of the events, and I intend 
to be supportive of it, and certainly look forward to the hope 
that we will be able to draw down our troops and turn over the 
government to the local people.
    Twice I've talked, or maybe three times, with Secretary 
Gates about the dangers of too great expectations about 
Afghanistan. They have historical challenges, regional history; 
extremely remote, extremely poor; and not a history of a strong 
national government. So I'd like to pursue this with you a bit.
    Secretary Gates recently indicated in his prepared 
statement for his appearance, I guess it was last week, that he 
would want to engage the communities in Afghanistan, to enlist 
more local security forces to protect their own territories. I 
heard former National Security Adviser Brzezinski on television 
a week or so ago, talk about the need for local militias, and I 
think I know what he meant by that. Former President Musharraf 
of Pakistan in a Wall Street Journal op-ed a few weeks ago 
reminded us that for centuries Afghans have been governed 
loosely through a social compact of sorts between all ethnic 
groups, but under a sovereign king or a sovereign central 
authority.
    Now, Ambassador Eikenberry, your statement made me a bit 
nervous. In your written statement you said that: ``Some might 
argue that we are reaching too high, that Afghanistan has 
rarely in its history had a central government capable of 
carrying out these tasks, that to expect a coherent state to 
now emerge is unrealistic and a waste of resources. I disagree 
with that argument on several levels.''
    I also believe that one of the breakthroughs in Iraq was in 
Anbar, al-Anbar, when the marines made a compact with tribal 
leaders and basically funded those leaders to use their young 
men to oust al Qaeda, who they did not like and wanted to see 
ousted. To my knowledge, they weren't all sent off to Baghdad 
to be trained. They were loyal to their local leaders. They 
shared a common goal with us.
    I know there's tension between creating militias not loyal 
to the central government. I know there's dangers in that. But 
it seems to me we have to take some risks and in some of these 
areas that are remote, that have good and decent leaders, that 
if we can just support them we could perhaps be able to not 
have to commit our own troops there.
    So I'll ask both of you: Do we have this right? Are we 
overcommitted to a centralized authority? Or are we willing to 
look sufficiently at local militias and national guard areas?
    General McChrystal. Senator, I think we are getting it 
right. Like you said, Afghanistan has a unique sensitivity to 
militias, even more so than Iraq did, because the history after 
the civil war that began in the period with the departure of 
the Soviets saw the rise in these militias that were predatory 
and they were under warlords, and they're just absolutely 
feared and hated today. But they also have a very strong local 
security tradition as well.
    What we're trying to do, and we're working in a number of 
areas with something called a community defense initiative to 
enable villages and small elements of tribes to deny their area 
to insurgent access. What that means is we'll support them and 
they provide local security. We don't want to create militias 
that then move around the battlefield and become a problem. 
There's a balance.
    There is still a need, in my opinion, for a very credible 
ANA because it helps bind the nation together. As we found in 
Iraq, it's also a source of pride there as well. So I think the 
combination of the two, keeping a very close eye on the 
sensitivity. Every time I talk to Afghans about the local 
security initiatives, I will get: ``Yes, but be very careful; 
yes, but make sure you don't arm the wrong group that will do 
it.'' So I think we need to do it, but with caution.
    Senator Sessions. Ambassador Eikenberry?
    Ambassador Eikenberry. Senator, I agree with General 
McChrystal. There is a balance here. It's the absence of a 
coherent state of Afghanistan that paved the way for the rise 
of the Taliban and then facilitated the entry of al Qaeda. So 
you can't ignore the need for a central Government of 
Afghanistan with the ability to provide for the security of its 
people and deliver sets of basic services.
    Senator Sessions. Do you see as your vision that there has 
to be very strong control from the capital, from Kabul, to each 
one of the local security forces that might exist?
    Ambassador Eikenberry. No, I think I would agree with 
General McChrystal that it's essential that the Government of 
Afghanistan has a capable army that is able to reach throughout 
the country. It has to have control over its police forces. 
Then what's that right balance of minimum service provision 
from the Government of Afghanistan that has to flow through the 
country in the area of health care, education, I think that 
trying to get that proper balance right is essential.
    Senator Sessions. I hope so.
    My time is up, but I would say, Ambassador Eikenberry, that 
the Department of State (DOS) is challenged in fulfilling its 
responsibility, at least its paper responsibilities, in 
Afghanistan. We are well aware that the PRTs are dominated by 
the military because you don't have people there. Secretary 
Clinton said last week, I believe, that there are about 900 
civilian DOS people in the country, 900 plus. That would be 
about 1 percent of our total.
    So, if the DOS could fulfill a greater role, I would be 
supportive of it. But so far we're not seeing the numbers that 
justify confidence that you're going to get there.
    Ambassador Eikenberry. Do I have a moment to respond, 
Senator?
    Senator Sessions. Yes.
    Ambassador Eikenberry. Senator, the civilian uplift that 
we've had over the last year is most impressive. I've had a 35-
year military career and I have gained over this past year an 
extraordinary respect for how the civilian elements in our 
government have responded to the requirements of Afghanistan. 
We've had a threefold increase of civilian personnel assigned 
to our embassy and throughout Afghanistan, as I said in my 
opening statement, we'll soon reach that point over a 12-month 
period of time, a sixfold increase of who we have out in the 
field.
    Senator, it's not the number of people. Given that the 
numbers are impressive, but it's not the numbers of people 
ultimately that matter. An example: Right now in Helmand 
Province we have 5 agricultural experts who in turn are 
mobilizing a 500-man Afghan agricultural delivery capability 
that's reaching 14,000 farmers. We have in the Ministry of 
Agriculture several advisers and their expertise at the level 
that they're able to over time really help build a capable 
Ministry of Agriculture.
    So it's not necessarily the number of people; it's what 
those people can do. If we're talking about military units--the 
military deploys platoons, companies, battalions. On the 
civilian side, we deploy individuals. Every individual is 
unique, and I'm very proud of the fact that over this past year 
we've tripled our presence on the ground. We intend to keep 
going.
    Senator Sessions. Thank you. It's still a small number.
    Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    I'd like to begin by saying I share a number of the 
concerns that Senator Sessions just raised with respect to this 
potential contradiction between the cultural and political 
history of Afghanistan and what we are attempting to do in this 
policy.
    Ambassador Eikenberry, I'd like to start by saying I read 
your written statement in full. I really appreciate its 
frankness. I think it is important for us to set out with an 
awareness of the limitations that we have, which is something 
that you mentioned. I want to come back to that in a minute.
    Let me really begin here by saying I supported strongly 
this evaluation process, this lengthy evaluation process. I 
think it was very important for us to get the best minds of our 
government involved in it.
    In that respect, General McChrystal, I'm going to give you 
an opportunity here to straighten the record on something a 
little bit along the lines of what I think Senator Lieberman 
posed to the Ambassador. This process took several months. In 
early September the Senate Majority Leader wrote a letter to 
Secretary Gates asking for an update on the evaluation. 
Secretary Gates wrote back: ``Until the President makes his 
decision on the way forward in Afghanistan, it would be 
inappropriate for me or our military commanders to openly 
discuss the advice being provided or the nature of the 
discussions being carried out.''
    That was right about the time that you popped up on 60 
Minutes with a rather lengthy interview. When people were 
actually in the White House discussing options, you were seen 
giving a speech in London, and there are a number of people who 
believe that this was detrimental and even divisive as this 
process moved forward.
    So can you explain to us your view on how those actions 
were compatible with the policy outlined by the Secretary of 
Defense?
    General McChrystal. Yes, Senator. The 60 Minutes interview 
was scheduled before I deployed and filmed in July, so it was 
before this process and before that guidance. So there was no 
intent or connection with that.
    The discussion in London which you're referring to, there 
was no intent on my part to influence or in any way negatively 
impact the decisionmaking process. I regret if there's any 
impression that it did, but there was absolutely no intent for 
that.
    Senator Webb. You are aware that it was the same day that 
people were meeting in the White House to discuss the way 
forward?
    General McChrystal. I was not aware of that at the time.
    Senator Webb. Ambassador, I would like to ask you two 
questions. The first: In your testimony you talk about ``we 
need to address our efforts to promote governance at the 
provincial and district levels,'' which I totally agree with. 
My question for you is, do you believe this is achievable under 
the current constitutional system that Afghanistan has or would 
you prefer to see another system of government that devolves 
power in a way that would make this more compatible with the 
history and culture of Afghanistan?
    Ambassador Eikenberry. I think the limiting factor right 
now is not the framework of the constitution; the limiting 
factor that exists, Senator, is just the difficulties that the 
Government of Afghanistan has, after 30 years of war, trying to 
develop the necessary organizational capacities to deliver 
services. They're challenged very much in terms of the 
development of human capital.
    Senator Webb. So it's your view that this is not a result 
of the present constitutional system, but rather just of 
governance, given the interruptions in the structure that has 
been in place?
    Ambassador Eikenberry. That would be my view. I know that 
the Afghan leadership right now, starting with President 
Karzai, is looking at the possibility of reforms that are 
perfectly within the constitution. A very important one is the 
idea of taking more financial resources and allocating that to 
a provincial governor, allocating that to a district governor. 
Right now they're really starved for funds.
    There is additional discussions going on about what should 
be the right mix of electoral bodies and representative bodies 
at the subnational level. But again, the way the constitution 
exists today I don't see that as a limiting factor. But I do 
see very significant challenges in developing governmental and 
economic livelihood at some of the most challenged districts in 
Afghanistan.
    Senator Webb. Thank you.
    I would like to pose another question for you that I think 
you are perhaps uniquely qualified to address, given your 
experience on many different levels with China culturally, 
historically, and also governmentally. The Chinese Government 
was known to be on a very good relationship with the Taliban 
Government prior to our driving it out. There are a number of 
reports about Chinese economic projects in Afghanistan right 
now. Could you give us a summation of the nature of the 
relationship between China and Afghanistan and in terms of 
China cooperating with us in the program that you're putting 
forward right now?
    Ambassador Eikenberry. I think that clearly China sees a 
stable Afghanistan as in their own security interests. The 
Chinese Government has its own concerns with international 
terrorist groups that are known to operate in the border 
regions and inside of Pakistan, that have an impact on Chinese 
internal security. The Chinese have made very significant 
investments inside of Afghanistan. They have one major 
investment right now, a billion dollar investment in a copper 
mine in Logar Province, and they're looking at potential 
additional investments in other of the mining sectors of 
Afghanistan.
    Senator Webb. I'm aware of that project. It's an 
interesting one to follow.
    Are they cooperating with us on a government-to-government 
level with respect to what we're attempting to do here?
    Ambassador Eikenberry. We have an active dialogue with the 
Chinese Government, as we do with many others, in terms of the 
overall development strategy and political strategy in 
Afghanistan.
    Senator Webb. So are they proactively cooperating with the 
approach that we're taking? That's the question. Are you aware?
    Ambassador Eikenberry. They have their economic interests, 
which they've put investments into in Afghanistan----
    Senator Webb. Excuse me, but my time is up. Just as a 
question of fact, has there been a proactive announcement of 
any sort from China with respect to the policy that we're 
attempting to put into place?
    Ambassador Eikenberry. We have a good policy dialogue with 
the Chinese over Afghanistan----
    Senator Webb. Has there been a statement, yes or no, in 
terms of supporting what we're doing?
    Ambassador Eikenberry. I would not say that their level of 
engagement in Afghanistan is on the level in terms of our----
    Senator Webb. Just answer, if you would, please. Has there 
been a statement to your knowledge from the Chinese Government 
that they support what we are attempting to do?
    Ambassador Eikenberry. I'm not aware of policy----
    Senator Webb. Thank you.
    Ambassador Eikenberry.--not aware of policy statements from 
the Chinese.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, it's good to see you in this part of the world. 
Ambassador Eikenberry, thanks for your hospitality. General 
McChrystal, thanks for Thanksgiving dinner. We enjoyed visiting 
with 68,000 of your and my closest friends. It was a great day, 
and I want to second what you said about the morale of your 
troops. It's unbelievable that, in spite of the difficulties 
that we've had in Afghanistan, are continuing to have and will 
have, the morale over there is spectacular. I think a lot of 
that is attributable to leadership.
    General McChrystal, we had the opportunity to meet with 
some of your team that you put in place. First of all, let me 
just ask you. I know a lot of these folks have been hand-picked 
by you. Do you have your team in place? I don't expect you to 
discuss individuals or specifics, but is your team in place 
there now? Do you have what you want?
    General McChrystal. Sir, I do. I've been extraordinarily 
well-supported, not only by the leaders and organizations who 
provided me the people, but by the families who've given them 
up for this period.
    Senator Chambliss. Resource-wise, of course we know you're 
going to have to plus up as you bring additional troops, but 
where are you from the standpoint of having the equipment that 
you need to carry out your mission?
    General McChrystal. With the additional forces that have 
been approved, we're going to have to work through getting 
additional MRAPs. We're going to continue to increase our ISR 
equipment, and some other things. But it is generally on track, 
Senator.
    Senator Chambliss. I want you to walk through with us this 
issue of building up of the Afghan troops, both the military 
and the security police, because I went back and read your 
report again and also read your testimony from today and heard 
what you've had to say, and obviously the critical point that 
we can seriously think about turning that country over to the 
Afghan people from the standpoint of security--not governance, 
but from the standpoint of security--is the point in time when 
the military as well as the security police are trained to the 
point to be able to protect the citizens of Afghanistan.
    In your report you indicated that at that point in time we 
had about 94,000 Afghan military personnel trained. Is that 
still in the range of where we are?
    General McChrystal. Yes, Senator.
    Senator Chambliss. You indicated that we had about 84,000 
ANP trained. Again, is that in the range of where we are?
    General McChrystal. We're a little higher on the police 
now. It's in the low 90,000s.
    Senator Chambliss. Now, of those numbers, General, what 
percentage of that can we really count on? What's the hard-core 
number that you can say, ``go hold and secure X province'' or 
whatever?
    General McChrystal. For the Afghan army, we work with a 
calculus of about 77 percent present for duty. There are some 
not available in training, some that, in fact, are not 
available because they've gone AWOL and different challenges. 
But it's pretty good. So a significant percentage of that 
93,000 or 94,000 we can put out on actual operations.
    On the ANP, it's less, and that is because the level of 
training and the commitment that we've had over time is much 
newer and much more immature. So while there may be most of the 
92,000 or 93,000 ANP currently on the payroll out in their 
jobs, the ones that I would say are effective is smaller than 
that. They have a drug problem, they have a few other things.
    Senator Chambliss. On the military side, are the Taliban 
paying their soldiers more than we're paying Afghan troops?
    General McChrystal. Sir, there's no set pay scale, but by 
our intelligence they are paying them the equivalent of about 
300 U.S. dollars a month, and that is higher than we are paying 
Afghan army or police.
    Senator Chambliss. Do we intend to ratchet that pay up so 
that we can at least compete financially with the Taliban?
    General McChrystal. In coordination with the Government of 
Afghanistan, we just almost doubled Afghan army and police 
training. It's at parity now. It's less than $300 a month, but 
it's much closer.
    Senator Chambliss. I'd like for you to go through some 
benchmarks relative to these training numbers. My understanding 
is you eventually want to get to 240,000 military and 160,000 
police. You indicated to Senator McCain that you're still on 
the timeline of 2013 of accomplishing those numbers. But 
looking at where we are today and knowing that in 2010, the end 
of 2010, you're going to assess the situation on the ground, 
the biggest part of that assessment is going to be the number 
of military and security police that you have available to be 
assigned to different areas to start transitioning to them.
    How many do you expect to have trained by the end of 2010 
from both the military and security police standpoint?
    General McChrystal. Sir, for the Afghan army our goal is 
134,000 soldiers in the force trained, all have gone through 
initial entry training, and through partnering we expect to be 
able to raise the effectiveness of each of their force's 
individuals and organizations. But about 134,000. Of that, 
obviously less are actually in units in the field, but a good 
significant percentage would be.
    Sir, of the police, I expect to have us get over 100,000. 
They are currently authorized 98,000. Expect to get approval to 
increase that to the low 100,000 to 110,000 range. I think the 
biggest progress we can make in police, though, won't be in 
aggregate numbers. It will be in improving their leadership, 
improving their levels of training.
    We were only partnering with about 20 percent of the police 
as of this summer. We are increasing that dramatically with the 
forces that the President approved in March, and we will 
increase that significantly again with these additional forces 
that have come forward.
    Senator Chambliss. In your report to the President on 
August 30, you indicated by October 2010 you wanted to get to 
that 134,000. So the additional troops that are being sent are 
not going to plus up that number in your mind relative to the 
number of military folks you can have trained?
    General McChrystal. Sir, we don't believe that we can speed 
it up any faster than the 134,000 about a year from now, 
October 2010. But we are going to put a significant portion of 
the force that the President just authorized into both the 
training base, where they get initial training, and then the 
rest of the force will essentially all be partnering.
    Senator Chambliss. One of the areas where you're going to 
send some of these 30,000 additional troops is down into 
Helmand, where you're obviously having a very tough time, a 
very tough fight down there, where the Marine Corps deployed 
some additional marines recently. Let's assume that you have 
great success there. Assume you have great success against the 
Haqqani network over in RC-East. General, if you have that 
success and they get to the border and they cross the border 
into Pakistan, what do we have to have from the Pakistan 
military on the other side of that border to really accomplish 
our mission and meet the challenge that you've laid out there?
    General McChrystal. Sir, what I'm seeking the Government of 
Pakistan to do is essentially be intolerant of the Haqqani 
network. The Haqqanis are Afghans. They want a sphere of 
influence from the Khost bowl all the way up into Kabul. That's 
their aspiration. They live in northern Waziristan, in the 
Miram Shah area, and they have a sphere of influence there. 
They have had historic relations with al Qaeda and now with the 
TTP.
    What I am hopeful that the Pakistani Government will do is 
be intolerant of the existence of the Haqqani network inside 
Pakistan. If they will prosecute that policy, I believe inside 
Afghanistan we can deal with the remainder of the Haqqani 
network.
    Senator Chambliss. And Helmand?
    General McChrystal. Sir, in Helmand--one point I'd want to 
make. You're right, the Marine Corps and our British partners 
and the Danes and others--it's a team effort down there--we're 
not reinforcing failure; we're reinforcing success down there. 
We're expanding the areas. The additional forces are going to 
let us expand so that we have contiguous security zones.
    There's a significant area that I want to get at as soon as 
we get the first marine forces in and we're going to do that, 
and that's going to send not only a powerful operational pulse 
to us, but it's going to send a powerful communications network 
or message to not only the narcotraffickers but to the Taliban.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Thank you both for your service to our country. While I 
think the President made the best choice, I think we have to 
remember that he made the best choice among a lot of bad 
choices.
    I would like to speak a little bit about contracting as it 
relates to the Afghans that are being hired. Following up a 
little bit on Senator Chambliss's line of questioning, I know 
the Joint Contracting Command has issued directives to some 
contractors, especially on security personnel, that at least 
half of the contracting force must be from the area, not just 
Afghans but Afghans in the immediate vicinity of the bases that 
we're hiring them to perform security on.
    I know that for the other civilian contractors we're 
running at a very, very high percentage of Afghans. It is a 
marked and much different situation than we had in Iraq. Now, 
it's my understanding that President Karzai has expressed 
frustration with this because these contractors are paying more 
than the military police and the army. So it is even worse than 
us competing against the Taliban; we're competing against 
ourselves since, as you have clearly stated, the most important 
part of this mission is to add to the police and the army.
    So how are we going to fix this problem?
    Ambassador Eikenberry. Senator, two points. What you're 
raising is very important. It's very important. First of all, 
President Karzai said in his inauguration speech that he would 
like to move forward and over the next several years take these 
various contracting companies, foreign contracting, private 
security companies, and move those under a more formal 
licensing from the Government of Afghanistan. We fully support 
that. It will be difficult to try to agree upon the standards, 
but we see examples where it can work and we think that's the 
direction that we should be going.
    That's very consistent with the idea over the next several 
years about Afghanistan taking further steps to really reclaim 
its full sovereignty, getting its army out front, its police 
out front. Private security contractors is another issue.
    Second, with regard to our own embassy policies, we're 
already working very hard, wherever we can, to try to take any 
kind of security contract group that is expatriate and we're 
trying to move that in the direction now where there's 
increasing numbers of Afghans, beginning with the strategic 
detachment for our U.S. embassy.
    Senator McCaskill. You haven't addressed the problem, 
though. I'm somebody, I'm an Afghan, and I am toying with 
whether or not I want to continue to be a hanger-on with the 
Taliban or I want to join the good side. I look and I can go 
and get trained as a police officer, or I can get hired--I have 
a little bit of English, just a little bit--or I can get hired 
for more money watching an American base.
    That's not hard. I go for the more money watching the 
American base, or even a more extreme example, which is even 
more frustrating, I can peel potatoes in the mess and make more 
money than taking up arms on behalf of my country.
    I understand that this was great in theory, but in 
executing this policy to use Afghans aren't we denying 
ourselves success in our own mission?
    Ambassador Eikenberry. When I talked about the move towards 
Afghan licensing of security companies, that would address--I 
didn't explain that, Senator. That would be a move to try to 
address what you're getting at then, pay structures that are 
inconsistent with the national security----
    Senator McCaskill. What about on our other kinds of 
contracts? What about the LOGCAP contract and all the people 
that are being hired in terms of moving supplies and food and 
all of those services? How are we addressing this pay 
disparity, that they're making more from us than they could 
make by joining forces with the Afghan Government?
    General McChrystal. You've hit something that's very, very 
important, and I bring it back to counterinsurgency and unity 
of effort. Counterinsurgency is a complex system. Every time 
you change one thing, it has intended and unintended effects 
somewhere else.
    Senator McCaskill. Right.
    General McChrystal. What we have done since 2001 is come in 
with all good intentions, and someone is given a requirement to 
do something like build a school. The quickest and most 
efficient way to do that particular task may be to hire people 
from outside Afghanistan. It may be to pay a higher wage 
because you can get it done faster. But the unintended 
consequences are that people who would be school teachers or 
people who would be soldiers pick up and move into something 
that is not effective or efficient for the nation for the long 
haul.
    What has happened in Afghanistan is a number of things are 
now out of balance. We have doctors and educated people doing 
things because they could make money, usually for the 
international community, but they're not taking their rightful 
place in the economic system overall.
    Senator McCaskill. Right.
    General McChrystal. This is where we have to improve unity 
of effort because when you aren't unified, decisions are made 
that seem to make sense, but it's very complex because it's not 
just U.S. military, it's not just U.S. Government, it's 
international community, and then, in some cases, just straight 
business interests.
    Senator McCaskill. I hope that you get with the Joint 
Contracting Command and discuss this because I hate that we 
could be working against ourselves on this. I get it that it 
was a good idea in isolation, but, as you said, it's like a lot 
of other things, there's always unintended consequences and I 
think we need to be realistic about the unintended consequences 
of this policy.
    On CERP funds, when I first came to this committee it was 
explained to me this was walking-around money for people on the 
ground to help. I remember General Petraeus explaining it to 
me, it would be like somebody realizing if they helped fix a 
storefront in Baghdad that could do more to stabilize that 
neighborhood than many other things we could be doing, and for 
them to be able to do that quickly and efficiently is great.
    What has happened in Afghanistan with the $1.6 billion 
we've spent there, now 67 percent of that money is being spent 
on projects that are bigger than a half a million dollars. We 
are doing big stuff. I'm very worried that we don't have a 
singular database between USAID and the military on these 
projects. I'm worried that the training for CERP was about 
committing funds, but not about monitoring or oversight of 
these large projects.
    General, who is the person that signs off on sometimes 
multimillion dollar projects that are much bigger than fixing a 
window on a storefront, or much bigger than what I believe CERP 
was originally intended to do?
    General McChrystal. Inside my command now, it goes by 
levels of spending. I sign some. Others have to go to General 
Petraeus for approval. But I absolutely agree that there is a 
need for walking-around money kind of CERP, and then there is a 
need for larger projects that particularly enable COIN.
    I bring up roads. Sometimes people ask me, ``how can you 
build a road with CERP?'' In fact, sometimes building a road is 
the best COIN thing we can do. I'm pretty proud of where we've 
gone. Ambassador Eikenberry and my teams have pulled together 
the review of all the money that's spent, USAID and CERP, 
because it's looked at together now. We don't spend CERP money 
without their team on it, and we're allowed to be part of the 
USAID part.
    It's not perfect, Senator, I'm not going to kid you.
    But I think we have come a long way and understand the 
importance of targeting that money effectively.
    Senator McCaskill. I think that's great. I'm going to 
continue to keep a very close eye on that, because I think 
there's going to be some problems if you don't stay joined at 
the hip on this particularly. I get the insurgency strategy, 
but I don't think the military ever envisioned training people 
to oversee large construction projects. That was why USAID got 
its mission. So I want to be careful that we don't drift too 
far away, especially if you guys are working together.
    I hope you're handing off to USAID where appropriate.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Thank you both for your service. When our colleagues go 
over to visit, I would just make a recommendation to committee 
members. If you get a chance, go to the Bagram Confinement 
Facility.
    General McChrystal, you have done a great job. I wish we 
had jails like that in South Carolina. It really is a very 
impressive facility, and I want to commend you and your staff 
and the embassy, working together, to come up with a new 
detainee policy that I think will help the war effort. You've 
done a good job there.
    The narcotics court, where we're doing some of the high-
profile narcotics cases, well-vetted judges, secure 
environment. Obviously, we need to expand that into the 
corruption area, but those are two facilities I think where you 
can see some real success. So I want to commend you both for 
that.
    Now, to make sure I understand the way forward, because 
it's been pretty difficult, quite frankly, to figure out what 
the rules are going forward, but I think I have a better 
understanding today. July 2011, it is my understanding that 
we're going to begin withdrawing troops on that date, according 
to President Obama. The only question is how many and how fast. 
Is that right, General McChrystal?
    General McChrystal. That's my understanding, Senator.
    Senator Graham. So let it be said that the policy going 
forward is that in July 2011 somebody in Afghanistan, even if 
it's just one guy, somebody's coming home, right?
    General McChrystal. That's correct.
    Senator Graham. Okay. On a scale of 1 to 10, failure in 
Afghanistan, a failed state, what would that mean to our 
national security, 1 being inconsequential, 10 being 
catastrophic?
    General McChrystal. I believe it would be a 9 or 10, not 
just because I believe al Qaeda would move back in, but also 
because I believe regional instability as it would spill over 
into Pakistan and other areas would be absolutely negative to 
our interests.
    Senator Graham. Ambassador Eikenberry, what would you say 
to that question?
    Ambassador Eikenberry. I concur with General McChrystal's 
assessment.
    Senator Graham. How many Taliban are there, generally 
speaking? I know you don't have exact numbers.
    General McChrystal. Our estimate right now is between 
24,000 and 27,000 full-time fighters, with some people 
obviously part-time.
    Senator Graham. How much of the country do they have 
significant influence over?
    General McChrystal. They affect people's lives 
significantly in much of the south--Kandahar, Helmand, Gosni, 
Zabul, up to Kabul. They do so in significant parts of RC-East, 
and then in patches of north and west--Kanduz, Baklan, a little 
bit in the Balkh area, out in Bagdiz and out in Ferra. In the 
north, it doesn't change the pattern of life significantly for 
the average Afghan who lives up there, except in selected 
areas.
    In the south, because of their ability to impact things 
like the Ring Road and commerce, it is a significant impact on 
everything, the way everybody lives.
    Senator Graham. Is every Taliban a Pashtun?
    General McChrystal. The vast majority, Senator.
    Senator Graham. So that's one reason why they're a problem, 
because that's where they live.
    Now, how big is their air force? They don't have one. I 
don't mean to be cute. They don't have an air force. They don't 
have a navy. Their biggest weapons system would be what?
    General McChrystal. They have rockets, ground-launched 
rockets, 122s, things like that.
    Senator Graham. How have they been able to accomplish what 
they've been able to accomplish with thousands of coalition 
forces, 90,000 Afghan army folks, 90,000 Afghan police? How 
have they been able to come back so strongly?
    General McChrystal. Several reasons, I believe. The first 
is there weren't that many coalition forces or Afghan security 
forces.
    Senator Graham. That's a good point. If you had to rate the 
reasons in terms of the majority, would it be lack of security 
forces on our part?
    General McChrystal. I would put that right with weakness in 
governance at the local level in Afghanistan. The two together, 
weakness in security forces and inadequate governance, opened 
the door for them to come in.
    Senator Graham. Why haven't previous commanders asked for 
more troops if it was that obvious?
    General McChrystal. Sir, I haven't asked commanders. I know 
there were some previous requests tabled.
    Senator Graham. At the end of the day what part of the lack 
of governance has led--is it at least an equal contributing 
factor to them coming back, a lack of the Afghan Government to 
deliver basic services?
    General McChrystal. I believe that it is.
    Senator Graham. One of the reasons they've been able to 
seize power and influence is they can provide services the 
Afghan Government is unable to provide, like resolving legal 
disputes; is that true?
    General McChrystal. That's correct.
    Senator Graham. So in the next 18 months, to roll them back 
we're going to put combat power in that we've never had, right? 
We're going to do the governance piece differently than we've 
ever done; right, Ambassador Eikenberry?
    Ambassador Eikenberry. We're going to make efforts, yes, 
Senator.
    Senator Graham. On the legal system front, there are less 
than 500 lawyers in all of Afghanistan as I understand it. Is 
18 months realistic for us to basically recapture lost momentum 
in the area of governance and security, knowing that at the end 
of the 18 months we're going to be withdrawing no matter what?
    General McChrystal. I think when you look, I think we can 
reverse momentum, I absolutely do. I think the most important 
thing is much of what happens in an area determines who secures 
that area. If we secure that area and then we can provide the 
opportunity for the Government of Afghanistan, with assistance, 
to start to build those nascent legal capacities and what-not, 
I think that is much of it.
    What has happened is a vacuum of security and a vacuum of 
governance together.
    Senator Graham. Yes, sir. That vacuum is being filled in 
different forms throughout the country.
    Do you feel totally comfortable with the idea that the 
enemy now knows that we're going to be withdrawing, but they 
don't know at what pace; that that's not going to compromise 
your ability to be successful?
    General McChrystal. I think more importantly, if we 
carefully articulate and strongly articulate the concept of a 
strategic partnership over the long haul, that's a much more 
powerful idea. In the short term, we have a tremendous 
additional capability that's being fielded in addition to what 
we're already using, as you saw when you were out. Then the 
idea of a strategic partnership, in my view, that takes the 
strategic horizon away from the insurgents.
    Senator Graham. Let's go down on some of the constraints 
that both of you will be working under. I want the American 
public to know the hand you've been dealt and the assignments 
available to you. Number one, no matter how many Afghan army 
folks are on the payroll or numbers on a piece of paper, we're 
only using 150 in this new operation. So I think that says a 
lot about the state of the army.
    Another rule you have to operate under is the 96-hour rule. 
As I understand the policy, ISAF forces have to turn over a 
detainee within 96 hours of capture to the Afghan Government, 
and all they can do in field interrogation is basically ask 
them basic questions. Is that policy going to be in effect as 
we move forward?
    General McChrystal. Senator, we're working through that 
policy, how it will affect U.S. forces as we try to move 
additional forces under ISAF. I'm working with General Petraeus 
on what the right calculus is there. In the long term, as you 
mentioned, we now call it the Detainee Facility in Parwan. We 
changed the name of the Bagram facility. That will go to Afghan 
control, and with our assistance they will run that facility. 
We will help provide them expertise, particularly in things 
like exploitation, effective use of intelligence.
    I believe in the long term that's the most effective thing 
we can do, is build their capacity to do counterinsurgency when 
we partner with them.
    Senator Graham. My time has expired. Could you send the 
committee a list of the rules of engagement that each country 
operates under now and in the future, so we could evaluate what 
these new troops are actually able to do in terms of engaging 
the enemy?
    General McChrystal. Their caveats and what-not?
    Senator Graham. If you could do that.
    General McChrystal. Certainly, sir.
    [The information referred to follows:]

    [Deleted.]

    Senator Graham. God bless. You have a big challenge and 
we'll be pulling for you.
    Chairman Levin. Thank you, Senator Graham.
    Senator Kirk.
    Senator Kirk. Thank you, Mr. Chairman.
    General McChrystal, Ambassador Eikenberry, let me render my 
own salute to you for patriotism individually and the people 
that you represent. Thank you for your patience this afternoon.
    My first question, General, would go to you. It's a follow-
up basically on the chairman's question about the disparity of 
troops, U.S. troops to Afghan troops. I understand we're 
working as hard as we possibly can to redress that imbalance. 
Just so we can understand perhaps what it is we're looking at 
here and what to prepare for, is there a risk until we close 
that gap in the trainers and the combat troops that our troops 
will be viewed more as occupiers and therefore we may incur or 
incite further insurgents and violence and therefore perhaps 
even put our guys and gals in more harm's way than otherwise?
    General McChrystal. There are several components to that. 
The first is, we know that how we are viewed will be based on 
how we operate, more than the numbers we have. So I think it's 
very important that our forces operate with a level of cultural 
respect and clear desire to protect the population. They're 
doing a good job of that, although we obviously can always 
continue to get better.
    As we work with the Afghans, they want to be secured by 
Afghans, but they are tolerant. They understand the need for 
coalition forces to do it until Afghan security forces are 
available to do it. So I would say that we need to continually 
communicate to them that, while we are doing this in the 
bridging period, that we are working as hard as we can to 
create their forces.
    I think if they didn't see and feel that effort was real 
and significant, that it would be difficult to continue to win 
their support.
    Senator Kirk. Just a follow-up. How do we communicate? Do 
we communicate through our trainees, to the population? Or is 
it we communicate as best we can in our combat gear that, we're 
really here to help you and not to occupy?
    General McChrystal. We do it on a number of levels. We 
start, of course, at the official interaction at the government 
level, then all the way down to our forces in the field and 
Ambassador Eikenberry's great civilians as we partner, to 
interface as much as we can, as often as we can--shuras at the 
local level, just day-to-day interactions.
    We also do a number of communications activities, where we 
use different media ability to communicate the reality of what 
we're doing to the Afghan people. I participate in some of 
that. I talk to youth forums, things like that. In every case, 
we try to give them a clear view of what our real efforts are 
and our real intentions.
    Senator Kirk. Thank you.
    This is also on training, because I understood that one of 
the problems or challenges that we face in our training is the 
fact that the middle level commanders, if you will, unlike our 
chain of command that's pretty direct and authoritarian, that a 
lot of these folks are cronies and that they're appointed 
through favoritism and so forth. I wondered first, is that an 
accurate representation? If not, maybe you could correct it. To 
the degree that it is accurate, how do we react to that? How 
long would it take to train and develop the kind of chain of 
command that we feel comfortable then handing off to, to know 
that the population is secure and they're doing their job?
    General McChrystal. Sir, we have an extraordinary military 
in the United States. So whenever we try to compare ours to 
anybody else's, it's very difficult because at every level in 
the chain of command we just over many years built a culture 
that is very effective.
    What I do recognize in the Afghan army and even more in the 
Afghan police is in many cases there's nepotism, there's 
corruption, there's inefficiency, and there isn't yet a culture 
that automatically produces those leaders. Yet for all the 
times we see challenges, I go out in Garmsir--Mr. Chairman, I 
think you met the young Afghan battalion commander, an 
extraordinary professional. Those kinds of leaders are the 
future, and if we partner effectively we'll grow those kinds.
    It will take them a generation or two to get to where I 
think they want to be. But we can make progress.
    Senator Kirk. Thank you.
    One other thing about this strategy, and I know you and I 
agree and I think the Ambassador agrees that this will only 
work if we can work it by, with, and through the Afghan 
Government. For everything I can see--a fraudulent sort of 
installation, an economy that's dependent on opium, corruption 
rampant throughout the government--am I wrong to say that we 
are taking a leap of faith here with President Karzai, and that 
my sense of it is--I have absolutely no doubt about the 
strength and the courage of our folks and what we're going to 
do, but the way I look at it, if there's a weak link in this 
formula, it's the bet we're placing on President Karzai.
    Can you tell me if that gives you pause, and if so, your 
degree of confidence that this at the end of the day is going 
to be a sound bet and not that we're betting on the wrong horse 
here?
    Ambassador Eikenberry. Senator, the challenge of 
establishing accountable governance in Afghanistan goes beyond 
one individual. This is a societal problem. This is a problem 
of a state that was utterly decimated by three decades of 
warfare. It's a state that has two generations really without 
education. It's a very profound challenge.
    We have programs that we're partnered with the Afghans to 
try to help them to develop accountable governance. We're 
making progress in certain areas, in the areas of law 
enforcement. We have a very robust training program, us with 
the international community and the Afghans, to try to help 
develop a more competent civil administration. It's a priority 
area for President Karzai. We support that.
    We have major efforts to try to improve the financial 
accountability of ministries. We're making progress in those 
areas.
    But against that, it remains an extraordinary challenge. We 
are encouraged with President Karzai's commitment in his 
inauguration address to try to place more emphasis on this 
area, and certainly political leadership and political emphasis 
is going to be absolutely indispensable to make further 
progress. But it's going to remain a challenge.
    Senator Kirk. General, is that good by you?
    General McChrystal. Yes, sir.
    Senator Kirk. I thank you very much. My time has expired. I 
wish you Godspeed and thank you once again.
    Chairman Levin. Thank you, Senator Kirk.
    Senator Inhofe.
    Senator Inhofe. Let me first of all make sure you 
understand that I'm probably not alone in disagreeing with the 
comments made by the Senator who was somewhat critical of the 
way the CERP is put together. The CERP, train-and-equip, and 
IMET have been three of my favorite programs, and I think I've 
been somewhat responsible for advancing the CERP program and 
changing also the CCIF in other areas.
    What's good about the program is they don't have to go 
through all that stuff. I've probably been over there as many 
times as anyone else has. When I talked to the commanders in 
the field, they say that anything we can do in 3 days instead 
of 3 months is going to have 10 times the value. So I'm hoping 
that you will continue to talk about the success of that 
program.
    General McChrystal. Sir, I'd like to throw something in on 
there. It's important for several reasons. One, whatever you do 
quickly the Afghans appreciate more, because they understand. 
It also increases the credibility of the local leader, the 
decentralized leader we have forward. If that person can say 
yes and then produce quickly, it raises his ability to do 
future interactions and leverage. That's one of the huge values 
of it.
    Senator Inhofe. We'll continue to try to enhance that 
program.
    Several people have mentioned the agricultural development 
team, but not really giving it the credit that I think it's 
due. People talk about the negative things. From 2007, the 
number of hectares that was in poppy development went from 
193,000 to 157,000 to 123,000--a reduction of 22 percent in 3 
years.
    Now, I'm particularly proud of this because as we speak we 
have 60 of our Oklahoma 45th Infantry Division in a plane going 
over there for the second time. They come back and, Mr. 
Ambassador, they tell me the success of the story and the 
happiness that is generated by their relationships.
    So I'd like to ask you, of course, if you agree with that 
assessment.
    Ambassador Eikenberry. Senator, I can go first. We 
absolutely agree with the assessment. The agricultural 
development teams, to include from the 45th of Oklahoma, are 
really making a profound difference.
    We have a very good civil-military integrated agricultural 
approach. Each element brings their own strength. The United 
States Department of Agriculture, they have tremendous 
technical expertise. They know how to build agricultural 
systems. Our USAID team members, they know how to deliver 
programs. What these agricultural development teams are able to 
do, they take the best of the military--they have their 
security, they have mobility--they can get out into parts of 
the farm areas of Afghanistan that are insecure.
    Senator Inhofe. They've actually had their hands in the 
dirt before. These guys know what they're doing.
    Ambassador Eikenberry. Absolutely. It's a great compliment 
to our overall ag strategy. Indispensable.
    Senator Inhofe. Good. We want to just continue to see that 
success take place.
    General McChrystal, I asked this question when Secretary 
Gates was here and I didn't get the answer I felt real 
comfortable with. I just would like to have you give me an 
idea. You put together threat assessments when you make 
recommendations, threats low, medium, high. When you made the 
recommendation at 40,000, what was the threat assessment that 
you would have said was attached to that?
    General McChrystal. Moderate, Senator.
    Senator Inhofe. Moderate, all right. Then 30,000 would be 
what?
    General McChrystal. We didn't try to grade it in great 
detail.
    Senator Inhofe. All right, it would be below that.
    General McChrystal. Yes, sir.
    Senator Inhofe. I think that I would agree with that and I 
think that we need to have that for our own use to quantify 
some of the successes.
    Now, for only the second time since President Obama has 
been in office, I want to compliment him and tell him how 
pleased I am. I think there have been some unfair questions in 
this meeting, concerning the end game, because I was upset with 
the end game until West Point. In West Point, the speech that 
he made--and I'm quoting right now--the last thing he said in 
terms of that: ``Just as we have done in Iraq, we will execute 
this transition responsibly, taking into account conditions on 
the ground.''
    He said that. That's not you saying it. I know both of you 
agree with that, but that's the President saying it. To me, 
that means that the conditions on the ground are very important 
in any decisions to be made. It's not a calendar decision. It's 
a condition.
    Do you agree with my interpretation of that?
    General McChrystal. I do, Senator.
    Ambassador Eikenberry. I do as well, Senator.
    Senator Inhofe. You had made the statement, General 
McChrystal, ``We are in this thing to''--well, actually it was 
Secretary Gates: ``We're in this thing to win. We intend to 
partner for a long time to come.'' Keeping in mind, there will 
be troops over there for a long--we still have troops in 
Bosnia, in Kosovo, and some of these other places.
    But he said: ``We are in this to win.'' Would you define 
``win"?
    General McChrystal. Absolutely, and I absolutely agree with 
the Secretary. I would define winning as when we have our 
partners in Afghanistan, the government and the ANSF, to the 
point where they can defend their sovereignty with very limited 
help from the outside; obviously a strategic partnership, but 
they can take the strong lead.
    What that then does is it allows them to enable the people 
of Afghanistan to build the nation, to shape their lives as 
they want to do that.
    Senator Inhofe. That's good. Do you agree with that, Mr. 
Ambassador?
    Ambassador Eikenberry. Senator, I would say that it's very 
similar to what General McChrystal outlined: The Government of 
Afghanistan has the capacity to take responsibility for its own 
security, the Taliban's been degraded to levels that are 
manageable by their own security forces; most important, al 
Qaeda is prevented from regaining safe havens inside of 
Afghanistan.
    Senator Inhofe. Mr. Ambassador, the last time you and I 
talked you were in uniform, and I would just compliment both of 
you on the great job that you're doing.
    Lastly, because my time is about to expire, as people are 
talking about the non-U.S. participants we're going to try to--
the plan is trying to get to the 7,000 figure. As I look 
through this thing--and I have a breakdown that at my request I 
got--Italy and Georgia are both at 1,000. All the rest of them, 
Poland, the rest, are way below that, considerably below that. 
If you add them all up, that's 4,300. That was my math, so I 
might be wrong on that.
    To get to 7,000, what can you do now? Is there any obvious 
thing you can do that you haven't done before? Because I know 
the effort has been there before, but is there something that's 
open to us now that wasn't there before? Perhaps one suggestion 
is that when the President made his commitment he first called 
the heads of state of our NATO and other allies over there, and 
I think that perhaps that might have changed their enthusiasm 
for sending troops and participating. What do you think?
    General McChrystal. Senator, I believe our level of clear 
commitment on the part of the United States is a big part of 
the calculus. I think another thing we can do is we can 
encourage our partners to contribute where they can most 
effectively. What I am doing is asking for additional help, the 
training realm is initial entry training and partnering, 
because in some cases, that fits very well with what partners 
can provide.
    Senator Inhofe. Do you agree with the fact that the 
President called these other heads of state and told them what 
he was going to say and what he was going to do was helpful?
    Ambassador Eikenberry. I certainly do, Senator. Secretary 
Clinton, several days ago, with General McChrystal and I in 
attendance, was at the foreign ministers conference of NATO, 
and this was the first foreign ministers conference of NATO in 
Brussels since the President made his West Point speech. I 
think all of our sense was the reception there with General 
McChrystal's articulation of the strategy, understanding of 
what our way ahead was, it seemed to resonate well. So we left 
Brussels with some confidence.
    Senator Inhofe. That's good. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Udall is next.
    Senator Udall. Thank you, Mr. Chairman.
    Good afternoon, gentlemen. As many of us have said up here, 
I want to thank you for your service. I look forward as well to 
joining Senator McCain and Senator Lieberman in their upcoming 
visits to Afghanistan as you begin to implement this important 
strategy.
    I know that we've all talked about, Secretary Gates and 
both of you, the limits of our ability to actually defeat the 
Taliban. There's been a lot of talk about reconciliation with 
the Taliban and how we drive wedges between those who are 
interested in the Taliban and its presence for political 
purposes versus those who are eager to push the forces of chaos 
and destruction and hatred.
    I know that we're not in the best position to pursue 
reconciliation right now, given that the Taliban are strong and 
they lack an incentive to change sides. But I'd like to think 
we're doing more in this area than we have been and that we're 
working closely with the Afghan Government. Could both of you 
comment on my question?
    General McChrystal. I certainly can. I can start. I don't 
agree when people say we cannot defeat the Taliban. I 
absolutely believe that we--and I mean the Government of 
Afghanistan with coalition help--can defeat the Taliban. I 
define that by meaning putting the Taliban in a position where 
they can no longer accomplish their objective of threatening 
the Government of Afghanistan. I believe that's absolutely 
achievable.
    I believe en route to that, as we reverse the momentum that 
they perceive that they have now, we will weaken the resolve of 
many of the members of the Taliban. I think it's important in 
that process as we talk about reintegration that there be 
opportunities for Afghans who might have sided with the 
Taliban, whether they fought with them or they just supported 
them, to be able to come back under the constitution of 
Afghanistan, under a program that must be supervised by the 
government, with respect and with honor, not to feel like they 
are criminals being brought back in, but instead being brought 
into the political fold.
    I think giving an opportunity for that if they are willing 
to meet the conditions of living under an Afghan Government 
with a constitution, I think makes a lot of sense, and we're 
working very closely with the government to do that.
    Senator Udall. Ambassador Eikenberry?
    Ambassador Eikenberry. Again, Senator, I'd share General 
McChrystal's assessment that it's going to be important to have 
momentum in order then to push those fighters and mid-level 
commanders that are out there right now opposing the legitimate 
Government of Afghanistan to make the right choice. But with 
that momentum, I think that the push won't have to be that 
great in many areas.
    It was interesting, during this past presidential election 
in Afghanistan there were 42 presidential candidates and they 
were all unified on one issue: All 42 talked about 
reintegration and reconciliation. So there's a desire out there 
among the Afghan people to try to find a way to achieve peace.
    I know that President Karzai is very committed to it. He 
did mention it, again, in his inauguration address. We hope to 
soon have the delivery or decision by President Karzai to have 
the formal establishment within his government of a 
reconciliation, reintegration commission. With that then, I 
know that General McChrystal and NATO-ISAF are very prepared to 
provide full support in an array of areas in order to help the 
reintegration program achieve success.
    Senator Udall. Ambassador, if I might follow up on those 
comments. There is a perception among many ethnic Pashtuns that 
they don't really have a meaningful role in the central 
government, particularly in security institutions. Is this 
something we're attuned to? Do you agree with that assessment? 
Is this something that President Karzai could take the lead on, 
given that he is a Pashtun as I understand it?
    Ambassador Eikenberry. I would say that if you look at 
President Karzai's cabinet, there is a very strong 
representation of Pashtuns. For instance, the Minister of 
Defense is a Pashtun, the Minister of Interior is a Pashtun.
    Separate though from that, is there a feeling of 
disconnection from many of the Pashtun population from their 
central government? I think that President Karzai would say 
that there is. But that's the question of insecurity right now 
that exists in the Pashtun tribal areas, and that's a very 
important part, if we have success in the year ahead and the 
next 18 months of further delivering security, that will have 
profound positive political impacts because it will help bring 
the Pashtun population then closer to their central government.
    Senator Udall. I would note for the record that the three 
Senators sitting right here met with you in May when we were in 
Afghanistan. We had a chance to meet with both of those 
ministers, Minister Wardak and Minister Atmar, and were very 
impressed with their plans and with the way they carried 
themselves, and we hope that that continues.
    General, if I could turn back to Pakistan. For me, my 
support is based as much on the fact that Pakistan is 
inextricably linked to success in Afghanistan. Pakistan's 
reaction, is critical to the President's speech and his new 
strategy. I imagine that the comment that Prime Minister Gilani 
made last week where he said: ``We need more clarity on it and 
when we get more clarity on it we can see what we can implement 
on that plan,'' I hope that was for public consumption.
    Are either of you concerned by his statement?
    General McChrystal. Not by his statement, Senator. I talk 
routinely with Pakistan military leadership and I believe that 
we always have to work through aligning our campaigns, but I 
believe that they have a shared interest in our success in 
Afghanistan, as we do in their success.
    Senator Udall. Ambassador, would you have any thoughts on 
that?
    Ambassador Eikenberry. No, I couldn't add to what General 
McChrystal laid out.
    Senator Udall. Let me move to the concept that the 
President proposed, which was to move the bell curve to the 
left, in other words get the troops into theater faster and 
then leave faster. I have a few questions about shifting the 
bell curve. I apologize for throwing them all at you at once. 
Maybe some you will have to take for the record.
    Are you confident you can expedite the deployment of these 
additional 30,000 troops? What sort of challenges would this 
pose for you logistically? Does this depend on a timely 
withdrawal from Iraq? General Odierno stated if the elections 
get pushed back this could make things more complicated in 
terms of getting our troops out as scheduled. In other words, 
would a slower withdrawal from Iraq impact the troop buildup in 
Afghanistan?
    I see my time has run out. Gentlemen, if you want to try 
and answer one or two of those and maybe field the rest of them 
for the record, I'd appreciate it.
    [The information referred to follows:]

    General McChrystal. [Deleted.]
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    General McChrystal. Senator, I would just say that the 
deployment part is very complex, but we have a really good team 
working it and I'm very comfortable we're going to get the 
forces in as fast as possible.
    Senator Udall. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Udall.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General, Ambassador, it's great to see you. Like everyone 
else here, I was planning to reminisce about having seen you in 
Afghanistan in August. But since I saw both of you yesterday at 
the White House, it seems it's been taken over by events.
    Let me thank you both for your extraordinary service, which 
is so appreciated. I cannot imagine our having better leaders 
in Afghanistan than the two of you and I'm very grateful for 
your work.
    I also would guess, having seen part of your hearing on the 
House side earlier today, that you're eager to return to 
Afghanistan and get on with the job, rather than appearing here 
in Washington before the House and the Senate.
    General, you have such great knowledge and deep 
understanding of Afghanistan. You mentioned in your statement 
today that you were first deployed there in 2002 and that 
you've commanded troops there every single year since then, 
which is truly extraordinary. I also know that you've studied 
closely the history of Afghanistan. In fact, one of the first 
times that we met you told me you were reading ``The Great 
Game'' and that you were seeking to learn from the British and 
the Soviet experience in Afghanistan.
    At one point the Soviets had more than 100,000 troops in 
Afghanistan and yet they did not prevail. Now, clearly our 
goals in Afghanistan are completely different from the goals of 
the British in Afghanistan--the British and the Soviets. But 
still, that history of the British and the Soviet experience 
gives me pause, no matter how brilliant our leaders, how brave 
our troops, how successful the civilian surge.
    Could you share with us what lessons you take away from the 
failed British and Soviet experiences in Afghanistan, and why 
you believe that our experience can end up in a more positive 
way?
    General McChrystal. One of the things I have learned is to 
be very humble about thinking that we have the right idea, the 
better idea, and to be very careful as we go forward. I think 
the common theme that I see that caused failure in the past is 
when the Afghan people come to the conclusion that an outside 
force are either occupiers or they are culturally in opposition 
to the currents of Afghan history. In fact, Afghan leaders, 
Afghans, have been toppled because they went against the grain 
of the sense of the people, the social fabric of the people.
    My view of both the British experience and the Soviet 
experience is, there came a time when there coalesced a sense, 
almost antibodies, in Afghan society against their presence. In 
the Soviet case, we can't be too superior thinking about this 
because they did a lot of things correctly. They did a lot of 
tactical things correctly. They did a lot of programs 
correctly. But at the end of the day they couldn't change the 
perception that they were outside occupiers trying to impose on 
Afghanistan a foreign system, a foreign thought process, in 
this case it was communism, but it was also a number of other 
social changes that just ran against the grain of society.
    So I think it's very important that, from an overall point 
of view, we understand how Afghan culture must define itself 
and we be limited in our desire to change the fundamentals of 
it. We have to respect those, and I think that's important.
    Then tactically, in the counterinsurgence system, of course 
the Soviets became fairly heavy-handed and they killed more 
than a million Afghans in the process. Of course, that worked 
to cause their defeat. One of the reasons why we're working so 
hard on counterinsurgency with and respecting the people is 
because we understand it's only with their partnership that we 
can be effective here. So it's a very careful strategy, almost 
admitting what we don't know. What I tell people is every time 
you go to do something in Afghanistan, realize there's a lot of 
things going on you don't understand, and don't pretend that 
it's more simple than it really is.
    Senator Collins. I think those are very wise lessons 
indeed.
    When I look at the President's plan and his date for 
beginning the transition and the withdrawal of forces, while I 
share the concerns of some of my colleagues about the signal 
that sends, it may in fact be a helpful signal because it shows 
that we're not like the Soviets, that we're not trying to stay 
there and impose our way of life on them. So it may cut both 
ways.
    Ambassador, let me ask you about another issue that 
troubles me gravely. We know that the Taliban is securing 
funding for its operations from the narcotics trade in 
Afghanistan. But another significant source is from wealthy 
individuals and bogus charitable organizations or charitable 
organizations that have two purposes from the Middle East, from 
Saudi Arabia, for example.
    Do we have a strategy for engaging the countries whose 
citizens are funneling money to the Taliban fighters?
    Ambassador Eikenberry. In short, yes, we do, Senator. It's 
a pretty robust strategy. You're correct, sources of Taliban 
funding right now, it comes from profits from narcotrafficking, 
increasingly from taxation of areas that they might dominate, 
and then the third important source of funding is external 
funding coming from cover nongovernmental organizations (NGOs) 
and individuals from the Gulf and Pakistan itself.
    Against that, we have a very vigorous law enforcement 
effort where we're trying to track finances, and we are working 
very closely with countries within the Gulf, to include Saudi 
Arabia, the United Arab Emirates, and others, in order to try 
to get at these sources and find ways to shut it down.
    Senator Collins. Are you optimistic about securing full 
cooperation from the Gulf countries?
    Ambassador Eikenberry. We're making some progress there, 
Senator. I wouldn't want to get into the specifics, but if 
you'd like for the record perhaps we can submit something to 
you. Progress is being made, but it's difficult. Trying to 
track finances in any kind of environment is difficult work, 
but we are making progress.
    [The information referred to follows:]

    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Collins.
    Senator Bill Nelson.
    Senator Bill Nelson. Gentlemen, thank you for your service.
    Today, Secretary Gates and President Hamed Karzai in 
Afghanistan had a press conference. I'm going to read to you 
from the Web site of the New York Times: ``President Karzai 
said that his country would not have the resources to pay for 
its own security for another 15 to 20 years and would remain 
dependent on American and NATO financial aid until then.''
    So how does that comport with what you have announced, 
given that President Karzai has said this today?
    Ambassador Eikenberry. Senator, just four points on that. 
The first point would be that, as General McChrystal has said, 
we have to have a long-term relationship with Afghanistan that 
our leadership has talked about, a long-term diplomatic 
relationship, an economic and assistance relationship, also a 
relationship which is one of providing support for the ANA and 
ANP over time, their security organizations. That will be an 
effort that we'll do together, we hope, with NATO and with 
other countries. We don't know exactly what the cost will be, 
but it will have to be long-term assistance.
    The second point is, against that, we recognize that this 
will be a burden on the Government of Afghanistan. They'll need 
assistance. So a lot of our economic programs that we are 
emphasizing right now are aimed at the generation of wealth and 
at the same time trying to find ways to help the Afghan 
Government with revenue collection. So we're looking at that.
    The third point would be that, with regard to longer-term 
costs, while I don't know what the order of magnitude is for 
the cost of an American soldier or marine for 1 year in 
Afghanistan compared to an ANA soldier or police, but we know 
the orders of magnitude are probably 20, 30 to 1. So it's 
clearly, if nothing else, in our own long-term economic 
interest and certainly in the Afghan interest to continue to 
help the Afghans stand their police up and their army forces 
up. That's a pretty good tradeoff. If we're not having to send 
more U.S. soldiers and marines, but instead Afghan soldiers are 
on the front line taking their own place, that's a pretty good 
return.
    The fourth point would be, as we move forward and 
Afghanistan does gain more security perhaps the army and the 
police of Afghanistan, perhaps they won't need very high levels 
in the future. Maybe at some point in time 10 years from now 
the army of Afghanistan might be a smaller force than it is 5 
years from now.
    Senator Bill Nelson. That's what Charlie Wilson was arguing 
for in 1989, to keep a presence going. But we pulled out and we 
made a mistake. Last week I recalled that for Secretary Gates 
when he was in front of us and he said we're not going to make 
that mistake again.
    Let me ask you, General McChrystal. One of the things that 
I asked Secretary Gates and Secretary Clinton last week, we 
have a military force that can be all the more effective, not 
in nation-building, but in getting things settled down, if we 
use all the other civilian agencies of government along with 
NGOs. Do you want to sketch briefly for the committee how we're 
doing that and to whom you're listening as you set that policy 
as the commander?
    General McChrystal. The person I listen to the most is 
about 3 feet on my right. What we do is, before we even go into 
an area, we work together to figure out what's going to be 
required as we provide security to make it durable, because the 
governance and development parts need to flow in almost 
simultaneously.
    Of course, our Afghan partners aren't here today, but 
they're in that same meeting as we try to pull that together. 
We're working plans for an additional operation in the Central 
Helmand River Valley now, which will happen later this winter, 
and the idea is as security elements go in every other aspect 
is literally waiting to flow in with it and then grow.
    It's not easy, so I don't want to paint it as a simple 
process. But it's very important.
    The harder part is coordinating NGOs and other 
international partners. We do that through PRTs in many cases. 
We do that through other nations and the United Nations 
Assistance Mission in Afghanistan (UNAMA) is helpful in doing 
that. But that's one of the areas where we need to continue to 
seek unity of effort so that every dollar or euro or man-hour 
of effort is focused towards a single outcome in Afghanistan. 
We are doing a lot of coordination. UNAMA is part of our 
planning process. They're in our planning process as we develop 
our campaign plan.
    Senator Bill Nelson. General, let me recommend something 
for you to think about. You have been so successful with your 
CERP funds for your commanders. After combat, they have a ready 
pot of money that they have the authority to build a bridge or 
to repair a school or whatever, and it's been terrific. Don't 
we need that same kind of authority for the civilian agencies, 
Instead of having to go through this requisition process that 
takes months and months, where the people on the ground can 
make something happen just like your commanders can?
    General McChrystal. Senator, I haven't been a civilian 
since I was 17, so I'd probably be out of my lane. But I 
absolutely agree that that's the right thing, and I'd defer to 
my friend.
    Ambassador Eikenberry. Senator, you're correct. We're 
taking measures right now to try to be faster, more responsive. 
We've gotten great support from Congress. We have what we call 
the quick response fund which is available to our DOS officers 
throughout Afghanistan. That's more of a quick spending 
program.
    We're changing the nature of our contracts. Rather than 
have long, multi-year contracts, we're shifting to 1-year 
contracts. We get better performance from contractors as a 
result of that, NGOs that we work with frequently as 
implementing partners.
    The last point I'd make is, with the reorganization of our 
civilian effort as we talked earlier about this concept of 
having senior civilian representatives out in regional commands 
that have really chief of mission kind of authorities within 
the region. They're a counterpart of the military commander. 
We're also now looking at ways we might be able to innovate to 
push then down more of the decisionmaking and the authorities 
for developmental assistance funds down to the regional level 
and perhaps even farther down, closer to the district level.
    So we are innovating and in certain areas we may be coming 
back to Congress and asking for some help.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General, Mr. Ambassador, thank you for your outstanding 
service to our country. You have what is a very challenging job 
on a good day and there haven't been many good days recently in 
Afghanistan. But I think the reason that the President and 
Members of Congress on both sides and the American people are 
willing to commit to this mission, to this effort, is because 
they have such a high level of confidence in your leadership. 
So thank you for your willingness to take that on.
    I guess when you get to this point in a hearing pretty much 
all of the questions that can be asked have been asked. But I 
want to just touch on a couple of areas that I think are really 
important to our success.
    By the way, just a clarification, too. There was the 
announcement of the additional NATO troops, but there was a 
report I think today in The Times of London that more than 
1,500 of those extra troops that have been pledged by the 
allies to back up our surge there are already in the country 
and have been counted before, so that there may be some double 
counting going on.
    Do you know exactly what that number is and how close that 
will bring us to the 40,000 number that you had requested, 
General?
    General McChrystal. I don't know that right now, Senator.
    Senator Thune. With regard to the NATO allies and the 
important role that they play in our effort there, one of the 
things I think that has impeded and inhibited our ability to 
make the best use of our forces has been some of the caveats 
that have been attached to some of the troops that have come in 
from other countries. Of the 43 countries that are allies in 
this fight, how many of them do have caveats and what are you 
doing to try and get some of those removed so that we can get 
everybody engaged more in the fight?
    General McChrystal. The first thing I'd say is when I deal 
with it as the coalition commander I'm actually surprised by 
how little the limitations are compared to the advantages of 
having the coalition. One of the advantages of the coalition is 
everybody is a little stronger together, and in the eyes of the 
Afghans we are a lot more credible than we would be as a single 
country. Even though clearly the United States is a huge 
factor, the fact that we are a coalition with the Afghan people 
I think is key.
    Each of the countries brings different strengths and 
weaknesses. Some have caveats that I have urged be adjusted, 
give us a little bit more flexibility. Across the force what 
I've asked is for all countries to look at the policies that 
they have for their people. In some cases, their forces are not 
allowed to move out of a geographical area. But if they are 
partnered with an Afghan Army battalion and they can't move, 
then there's hesitation to let that ANA battalion move and that 
takes away from ANA leadership the ability to mass forces for 
operations, and it's one of the things that we'd asked people 
to work with.
    In other cases there are limitations on night operations or 
things like that. So what we're doing is asking each of our 
partners to move more toward full counterinsurgency, and we do 
have progress in that, and then to look at all their caveats.
    Some of our partners as well don't have caveats, but they 
have limitations in mobility, vehicles, or things like that, 
and the degree to which we can help them with that enables them 
to do even more.
    Senator Thune. Of the Afghan security forces--and there's 
been a lot of focus, as there should be, on getting them 
trained and ready. That again, I think as we have seen 
demonstrated in Iraq, is so critical. Are the Afghan security 
forces willing to take on the Taliban?
    General McChrystal. They are. The Afghan police die at the 
highest rate, then the Afghan Army, before coalition forces. 
They absolutely are.
    Senator Thune. There has been a lot of discussion about 
also integrating, reconciling elements of the Taliban that 
might be reconcilable, and I know I think that's been touched 
on already. But General Petraeus had indicated previously that 
we lack the nuanced and sophisticated understanding of the 
Taliban to be able to identify and distinguish between 
reconcilable and irreconcilable elements.
    My understanding is that you have selected retired British 
General Lamb to head a program of reconciliation with members 
of the Taliban based on some of the success that he had in 
Iraq. I'm just wondering if you could provide some of the 
details of those efforts or at least maybe some of the broad 
features of the program?
    General McChrystal. Senator, it's a partnered program, 
first. It has to be an Afghan program. It has to be under the 
Government of Afghanistan. So what we'd be doing is empowering 
them as much as we can with resources, some expertise and 
experience, and things like that.
    What we've stood up with General Lamb is a section in my 
command. He also has now an additional British two-star general 
that has been provided, and we have a full element that works 
with the Government of Afghanistan to help craft their policy, 
help work this forward, partner with not just the U.S. embassy, 
but other embassies as well, so that as we go forward we have a 
program that is not only effective, but it's also understood by 
people.
    Reintegration is really a question of confidence, and it's 
confidence on multiple levels, as we remember from Iraq. It's 
first the confidence of the individual who's going to 
reintegrate, that has to believe that as he comes back in he 
will be protected from his former Taliban partners, he'll also 
be protected from anyone in the Government of Afghanistan who 
might target him or throw him in jail or something.
    It's also a question of confidence on the part of the 
government that the people they bring in are genuine, that 
they're not seeding the Taliban inside their ranks as well. 
Then the last part of the confidence is it's to undermine the 
confidence of the Taliban. So to the degree to which we can 
start to pull people out and they start to look at each other, 
it has a very good effect.
    But for this reason, it's very important that this program 
be very carefully thought out and coordinated, because as soon 
as somebody loses confidence in it, it boomerangs on us.
    Senator Thune. Ambassador, do you have anything to add?
    Ambassador Eikenberry. No, Senator. We're fully engaged 
with General McChrystal's program. We have a DOS officer that 
serves as one of General Lamb's staff, and we're optimistic 
about the potential. It will certainly be predicated upon 
having some momentum, though, against the Taliban. With that 
momentum, with a good reintegration program, I think it will be 
a very important tool.
    Senator Thune. General, one last question--my time's 
running out. Over the past few years, the demand for persistent 
ISR capabilities has spurred the Air Force to field unmanned 
aerial systems (UAS) more rapidly than originally planned. The 
Air Force now has a goal of fielding enough Predator and Reaper 
drones by 2012 to man 50 orbits around the clock. The majority 
of this new capability has been dedicated to Iraq.
    As we begin this drawdown in Iraq, the persistent ISR 
requirement there is not likely to decrease. So with fewer 
soldiers and marines on the ground that are gathering 
information, the joint forces are going to rely more heavily on 
the air component to provide intelligence.
    Meanwhile, with the increasing troop presence in 
Afghanistan, you're going to have the need for persistent ISR 
in that area of operation, too. So I guess the question is, are 
you comfortable with the Air Force's current plan to operate 50 
of those round-the-clock orbits by 2012 in order to meet the 
requirements in both Iraq and Afghanistan, or do we need to 
invest in a UAS capability over and above the current plan to 
ensure that those requirements are addressed?
    General McChrystal. Senator, I haven't looked at exactly 
how they're going to break out around the world. I have looked 
at the balance between Afghanistan and Iraq. Secretary Gates 
leads a very focused effort.
    The one thing I would say is almost everything we do to 
increase our ISR capacity, not just the unmanned, but also 
there's a number of manned aspects, and then there's what we 
call the part that digests it, or PED. It's people and it's 
information systems. It takes what we get and turns it into 
real intelligence. Those programs are expensive, but they are 
extraordinarily effective and extraordinary value added, 
because they allow us to operate with smaller numbers of our 
forces on the ground. The more we have those, we can go after 
IEDs, we can go after terrorist leaders, we can protect our 
forces.
    So there's almost no amount of ISR in my view that would 
not be value added to my effort in Afghanistan.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you all very much.
    Chairman Levin. Thank you very much, Senator Thune.
    Senator Hagan.
    Senator Hagan. Thank you.
    General McChrystal and Ambassador Eikenberry, I welcome 
your testimony and I want to thank you for your sacrifice and 
your extremely hard work that you do every day on behalf of all 
of us. As Senator Udall said, Senator Begich and I and others 
visited Afghanistan and Pakistan back in May, Ambassador 
Eikenberry, just several days, I think, after you had taken 
over the post. I wanted to thank you for your hosting us, but I 
also want you to give my best wishes to your wife. I think the 
fact that she is there touring the country with you by your 
side in a war-torn country says a lot about her character. I 
also think it speaks volumes to the Afghani women and in 
committee the Afghani men. So please give her our best wishes.
    Ambassador Eikenberry. Thank you very much, Senator.
    Senator Hagan. We've had some questions concerning the 
Pashtuns. My understanding is that currently Pashtun 
recruitment to the ANSF is difficult along the Pashtun tribal 
belt that, General McChrystal, you mentioned, the southern and 
southeastern Afghanistan, because the Pashtuns would run the 
risk of having their families subjected to Taliban retribution.
    General McChrystal, can you describe the ethnic composition 
of the ANSF?
    General McChrystal. Yes, ma'am. I can get it to you for the 
record in exact numbers, but we're about 42 percent of the 
population is Pashtun and almost exactly that is the 
representation in the army. So Pashtun participation in the 
army matches it.
    [The information referred to follows:]

    The objective is to closely match the composition of the Afghan 
National Security Forces (ANSF) with the country's ethnic breakdown. 
Pashtuns represent 42 percent of the Afghan population and comprise 
41.83 percent of the ANSF (41.32 percent in the Army and 42.36 percent 
in the Police). Tajiks comprise 27 percent of the population, but 
represent 38.10 percent of the security forces (34.06 percent in the 
Army and 42.33 percent in the Police). Uzbeks and Hazaras each 
represent 9 percent of the Afghan population. Uzbeks comprise 6.19 
percent of the ANSF (7.23 percent in the Army and 5.09 percent in the 
Police) while the Hazaras represent 8.17 percent of the ANSF (11.69 
percent of the Army and 4.48 percent of the Police). Afghanistan's 
seven other ethnic minorities--Turkmen, Pashayee, Balooch, Bayat, 
Sadat, Arabs, and Nooristani--round out the remaining 13 percent of the 
population. These minorities comprise 5.71 percent of the ANSF (5.70 
percent of the Army and 5.73 percent of the Police).

    General McChrystal. However, I would say that is Pashtun, 
but it is not represented from the south, as you mentioned. 
Kandahar and Helmand and those areas which have been under 
Taliban either control or threat are very underrepresented. So 
it's important to us that we be able to recruit from there.
    But what we have to do first is get security there. So the 
effort now is to increase security, make their families feel 
comfortable, and then go.
    The rest of the breakdown of the ANA falls pretty much 
along ethnic percentages in the country writ large, except for 
the Tajiks are slightly overrepresented in the army.
    Senator Hagan. Does an ethnically unbalanced ANSF pose 
linguistic and ethnic barriers within the local Afghan villages 
along this Pashtun tribal belt, as well as the legitimacy 
concerns and securing the local population and, as you 
mentioned, in the Helmand Province how does that affect our 
marines and allies? I understand the Tajiks speak actually a 
different language or a different dialect.
    General McChrystal. It's a challenge. There are two parts 
to this. First, every Kandak or Afghan battalion that we field 
is ethnically balanced as it comes out of training. So we field 
the force so that it has a mix. We don't field a Tajik 
battalion or a Hazara battalion or a Pashtun battalion, for the 
obvious reasons.
    Senator Hagan. But do you have enough of the different 
ethnicities to do that?
    General McChrystal. We have enough of the ethnicities. What 
we don't have enough of is southern Pashtuns. So we have to 
recruit better.
    So the things that you said about a battalion operating in 
Helmand, we would like to have more representation in that 
battalion of people from that area. But we wouldn't want to 
create again southern Helmand kandaks.
    Senator Hagan. How do you recruit these individuals?
    General McChrystal. The first thing we have to do is 
establish security there.
    Senator Hagan. Thank you.
    Pakistan continues to pursue a dual-track policy of 
disrupting the Pakistani Taliban in its tribal areas, most 
notably in South Waziristan, while elements of Pakistan's 
military support the Afghan Taliban networks also in its tribal 
areas, most notably in North Waziristan, and the Afghan Taliban 
high command in its Baluchistan Province. The key question is 
if elements of Pakistan's military can be persuaded to change 
this dual track policy. In order to do that, we have to address 
Pakistan's regional concerns, taking into account its 
relationships with Afghanistan and India.
    The Durand Line cuts across the Pashtun tribes and reduced 
the Afghanistan Pashtun territory and, as you mentioned, the 
Pashtuns comprise about 15 percent of Pakistan's population, or 
close to 26 million people, whereas, in Afghanistan it's about 
12 million Pashtuns.
    Despite Pakistan's attempt to permanently demarcate its 
border with Afghanistan, the Afghans claim Pakistan's Pashtun 
areas on the ground that Afghanistan is the home to all of the 
Pashtuns. Ever since the partition of India, Islamabad has 
attempted to utilize its proxies, I believe, to install a 
friendly Pashtun government in Afghanistan that would preserve 
the de facto border and prevent Pashtun aspirations of a 
homeland and prevent Indian involvement in Afghanistan.
    Ambassador Eikenberry, in the interest of Afghanistan's 
stability, how are you working with the U.S. Ambassador to 
Pakistan, and our Indian Ambassador Tim Romer, as well as 
Ambassador Holbrooke, to facilitate positive relations between 
Islamabad, New Delhi, and Kabul?
    Ambassador Eikenberry. Senator, let me concentrate on 
Afghanistan and Pakistan. Ambassador Holbrooke is the special 
representative that has responsibilities for Afghanistan and 
Pakistan. Clearly the security relationship between India and 
Pakistan has consequences for Afghanistan, as you've 
articulated. But more specifically, with our efforts in Kabul 
have a very strong relationship with our embassy down in 
Islamabad. At the level of Ambassador Holbrooke and General 
Petraeus, they have a close civil-military partnership 
themselves and provide overall policy direction and have sets 
of programs that they've set into motion.
    Then between Ambassador Patterson and myself, we take that 
direction. We are looking and continuously searching for ways 
to facilitate political dialogue between Kabul and Islamabad. 
They're leading. We try to facilitate wherever we can. We have 
an array of programs to try to develop mutual trust and 
confidence, anywhere between the law enforcement area, where 
Director Mueller from the FBI hosts trilateral initiatives led 
by himself, but partnered with the Ministries of Interior of 
Afghanistan and Pakistan. We have programs to help both sides 
to improve their customs programs along the border. We have a 
very promising initiative in which we're hoping to see further 
progress between Afghanistan and Pakistan to reach an agreement 
for transit trade.
    So it's a comprehensive effort that gets into improvements 
in law enforcement, trade, economics, and diplomacy, and then, 
of course, General McChrystal has a very robust program with 
the military tripartite between Afghanistan and Pakistan and 
NATO.
    Senator Hagan. That was my next question: What are you in 
CENTCOM doing to facilitate military-to-military confidence-
building between Afghanistan, Pakistan, and then I threw in 
India too?
    General McChrystal. At our level what we're doing is, as 
Ambassador Eikenberry mentioned, we have a series of tripartite 
meetings at the principals level, myself, General Kiyani, and 
General Bismullah Mohamedi for the Afghans. But then we also 
below that have operational lower levels that happen very 
regularly. We have a series of border coordination centers. 
There's one in operation. There's a second one just moving 
toward that. There'll be a total of six.
    We also have--for example, about a month ago we went over 
and briefed our full campaign plan to General Kiyani and his 
staff. They did the same back to U.S. forces some time back.
    The idea is confidence-building. It's to get on the same 
page, but then also to have the mechanics in place for things 
like cross-border incidents, so that they don't become 
something that's a negative. There's a whole series of 
activities.
    Ambassador Eikenberry. Senator, also if I could add one 
important area that has been underway for several years. That 
is efforts to improve intelligence exchanges and cooperation 
between the United States and Afghanistan and Pakistan. Those 
efforts are led by CIA Director Leon Paneta and his 
counterparts in Afghanistan and Pakistan. That's been a very 
robust program as well.
    Senator Hagan. Thank you.
    My time is out. Godspeed.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    To our distinguished gentlemen testifying, General 
McChrystal and Ambassador Eikenberry, I want to congratulate 
you also, as my colleagues have done. I just want to say most 
all the questions have been asked and I don't know what else 
you have to answer. I hope to be on a trip next month to 
Afghanistan. I just came back from Iraq and had a very 
interesting visit there, and I'm encouraged by what has taken 
place in Iraq and the confidence that the Iraqi Government 
officials--we didn't see too many Iraqi personnel because it 
just wasn't safe. But I was very encouraged by what the 
officials are saying, that the Americans are carrying out what 
they promised to do, and that is key.
    So just permit me, gentlemen, to try to get some 
clarification, because the questions have been answered; so if 
I repeat some of these and you want to make your answers short, 
I would appreciate it because I have several clarifications to 
make.
    Number one, how effective have the efforts been to 
reintegrate the former Taliban and the Northern Alliance and 
the mujahedin fighters so that they will no longer fight for 
the insurgency? How is reintegration going?
    General McChrystal. Senator, in the case of the Taliban, 
that effort is still very young and has not yet, in my opinion, 
been effective. But we are posturing ourselves to do that.
    Senator Burris. Ambassador, in terms of understanding that 
Kabul and President Karzai and the central government only 
control so many of those 37 provinces there in Afghanistan, 
what is taking place in the local provinces and working with 
the local tribal leaders to try to understand the issues that 
are taking place?
    Are we working, not only on the military side, but also on 
the resource side, with the locals where, because of the 
divisions of that country and all the different ethnicities, 
the locals are really in charge?
    So do we have a specific program that's working with the 
local provinces, with the governors that are there or the local 
councils that are there?
    Ambassador Eikenberry. Senator, our principal voice is 
working through the Government of Afghanistan.
    Senator Burris. The central government?
    Ambassador Eikenberry. Working through the Government of 
Afghanistan. The Government of Afghanistan, of course, it 
appoints at the national government level, it appoints 
provincial governors. It appoints district chiefs. So when I 
say ``district chiefs,'' district governors. The police force 
of Afghanistan, it stretches down to the district level. The 
district level of Afghanistan is at the county level.
    What I want to say first and foremost, though, is that our 
programs that we're delivering do work through the Government 
of Afghanistan. What we're trying to do in partnership with the 
Government of Afghanistan is help them get their reach down 
further, down to that local level. We do that through 
reinforcing what have been some very promising programs that 
have developed over the past 3, 4, 5 years.
    An example of a program that has worked well, a 
developmental program, is called the National Solidarity 
Program. It's run by the Ministry of Rural Reconstruction and 
Development and it's a program in which a community, a village, 
will elect for a particular small developmental project to 
benefit that particular community or village--it may be wells, 
it may be a road that connects them to the district center. But 
it's a program which empowers the community then through 
electing or voting on developmental projects.
    So we have programs like that, that we're partnering with 
the Government of Afghanistan to try to extend further and 
farther across the country, that delivers security. Also, we're 
working right now with key ministries to see over the next 
year, the next 18 months, how more progress can be made in 
strengthening government at the local level and developing 
capability to deliver a very basic set of services, education, 
health, and so forth.
    Senator Burris. Mr. Ambassador, Senator Hagan just raised a 
question about languages. Are we trying to teach them English? 
Are we trying to learn their dialect and their native tongue? 
The American personnel that's there or any foreign personnel in 
any of those various provinces, whether it's British, German, 
or Polish?
    Are we trying to teach them English or are we trying to 
learn their language so we can communicate with them in their 
language?
    Ambassador Eikenberry. First of all, let me say, Senator, 
the most popular foreign language on demand right now within 
Afghanistan in all the schools is the English language.
    Senator Burris. Unfortunately. Mr. Ambassador, we must 
learn the language of the natives and they will accept us 
better when we can speak their language. As a student who 
studied abroad and speaks another foreign language, which was 
German, the fact that I could speak German, I was very well 
received. That is what we must do as Americans, is to learn the 
language there. I hope that we'll learn it.
    Ambassador Eikenberry. Senator, you had asked about the 
English language. Your separate point here about our need to 
develop better language skills inside of Afghanistan--I know 
General McChrystal said earlier about the Afghan Hands Program 
being developed by DOD and the military. We're doing better on 
the civilian side. Many more of our political officers being 
assigned to Afghanistan are coming in now with a year of Dari 
language training or some Pashtun. We need to do better, 
though.
    Senator Burris. Let me ask the General. Now, in terms of 
just for clarification, General, on the drawdown dates, what 
little I know about the military, I heard one of our 
distinguished Senators ask about whether they were going to 
start withdrawing the first troops on that date. There are 
rotations regularly in and out of Afghanistan, are there not? 
So I don't think we're going to be able to really zero in on 
whether on July 1 the first soldier is going to be withdrawn 
from the area. Am I correct in that assessment, General?
    General McChrystal. Sir, the way we are interpreting the 
President's guidance is we would do troop rotations, but not 
count them in that drawdown. In July 2011 we believe--I am 
comfortable it is his intent we start to reduce the overall 
number of U.S. forces in Afghanistan. But the rate and pace of 
that reduction will be based upon conditions on the ground at 
that time.
    Senator Burris. I see my time has expired, but you also 
indicated to another Senator--and I think it's a clarification, 
and please correct me--that on July 1 we will make the first 
withdrawal. That's what I understood you to say.
    General McChrystal. In July 2011, that's correct, Senator.
    Senator Burris. But how do you reconcile that with, we will 
begin to assess it? As Secretary Gates said, he'll start 
assessing it in January 2011, and they're going to start the 
assessment, and if the assessment is not right and the ground 
is not right we may not withdraw a troop on July 1, 2011. Is 
that possible?
    General McChrystal. Senator, we will be making constant 
assessments, with a formal assessment a year from now, and then 
in July 2011, I believe that the President has given us 
instructions to start to reduce U.S. force numbers, but that 
the pace and scope of that, how fast that happens, would be 
based upon the assessments and the conditions at the time.
    Senator Burris. I see. So you could then withdraw one 
battalion or a squadron can go home and say, ``well, now we've 
started our withdrawal,'' and then we halt it to see because we 
don't know what the conditions are?
    General McChrystal. Senator, we would coordinate that with 
our entire chain of command up to, obviously, the President to 
meet his intent. We would have no intent not to do that.
    Senator Burris. Thank you very much, gentlemen. I hope to 
see you all next month, and if everything goes well, I'll 
celebrate New Year's with you over there.
    Thank you.
    Chairman Levin. Thank you, Senator Burris.
    Senator Begich.
    Senator Begich. You have been so patient and what you have 
seen is a slow withdrawal of the Senate from this committee 
room. So it's all how we measure things in withdrawal.
    Let me say thank you for enduring 3 hours or so of 
questioning, comments, and commentary from us. But it is an 
important issue. Again, I want to thank you both for your 
service to our country. Thank you both.
    I want to follow up, in seriousness, about the transition 
and withdrawal. This is just for clarification, but I know some 
continue to bat this around, what is withdrawal, what is not 
withdrawal. Really, probably the proper word would have been in 
July 2011 we're going to start a transition, because a 
withdrawal could be 5 people, it could be 5,000 people; it 
could be 1 day, it could be 10 years. That's a determination 
that will come over time, not July hits and suddenly 
everything's starting to move out. It's a process, and 
transition is really what it's about. Is that a fair statement?
    General McChrystal. Senator, I want to make sure that I'm 
clear. I think that is. I think transition is also a process. I 
think we'll be transferring to Afghan lead in areas across the 
country as conditions permit, and I think that will occur. It 
may not wait until July 2011.
    Senator Begich. Right.
    General McChrystal. I do believe that the President wants 
us to understand that we are absolutely going to start a 
reduction in forces in July 2011.
    Senator Begich. Right. But that will all be determined on 
the quantity and the timing of that, in the sense you may start 
it, but it may be a short period, it may be a long period, it 
may be large numbers, it may be small numbers. Is that a fair 
statement?
    General McChrystal. Exactly, Senator.
    Senator Begich. I know I hear from others sometimes--and 
Senator Inhofe was very good in repeating the President's words 
that it's not a sudden, July hits and our enemies know exactly 
what we're doing. They'll know no matter what, whenever we do 
withdrawal, because everything we do is very transparent. They 
will notice that and they'll have their own decisions as to 
what they will do or not do, and hopefully we'll be successful 
and they won't be doing much. So I want to make sure that's 
clear.
    The other thing, I want to really echo what some other 
members said. I think what you've been able to do with the CERP 
monies has been very powerful, very positive. Are there always 
rooms for improvement on accountability? Absolutely. I don't 
care how much money you have, if you have $10 or one point some 
billion dollars. There's an option, an opportunity to continue 
to improve, and it sounds like you folks have been doing that.
    But I would also echo what Senator Nelson said, that I 
agree that the DOS should have as much flexibility in those 
dollars. I assume, Ambassador, you will agree with that. But 
I'm curious from the General's perspective: Would you agree 
also that the DOS should have some more flexibility with their 
dollars to do very similar activities, so you can join these 
resources together? Is that a fair statement?
    General McChrystal. I absolutely would agree.
    Senator Begich. I again want to echo that anything, and I 
know you heard a couple Senators here, very aggressive about 
this: Whatever we can do to help streamline the rules, the 
regulation, and/or statutory issues, please let us know. We are 
motivated. We recognize there will be a little tug-of-war here 
on this committee, but I think there's a sizable majority that 
recognize the success you've had with the CERP funds and we 
should see the same with the DOS, rather than going through 
this maze that you have to go through to access their money and 
then access your money. So anything we can do, please feel free 
as we move through this process.
    Mr. Ambassador, do you have any comment you want to add to 
that?
    Ambassador Eikenberry. No. We'd welcome that support, 
Senator.
    Senator Begich. Okay. The other one I want to clarify--and 
Mr. Ambassador, I know it seemed like you wanted to go a little 
further in clarifying this--on do I think that going from 300 
to 900-plus individuals from your operation is a great move? 
Absolutely. You're tripling it. Some will argue it's only 1 
percent of the total force, but if I took both of your total 
workforces, the majority of what the military does is deploy 
people. You don't necessarily have that luxury. You have a huge 
number of people to deploy at any given time. You have to pick 
and select and be very selective.
    So I understand the differences. I'm sure we would love a 
higher percentage, but that's not realistic based on the 
capacity that the DOD has in the sense of deployment between 
the military.
    In your 2011-2012 budget process, 2011 that's moving 
forward, and you may not be able to tell us here, but are you 
looking at additional resources that could be added to your 
budget to create a more robust deployable force in the sense of 
what you need on the ground to assist the military in the 
civilian activities?
    Ambassador Eikenberry. Indeed we are, Senator, both in 
terms of the personnel and in terms of our development 
programs. We're doing now a very careful analysis against 
General McChrystal's military campaign. In order to support 
that, we are going to need more civilians out in rural areas, 
out in different population centers to support. As he clears 
and holds areas, then it shifts on the civilian side to the 
building. So we're looking at additional civilians and 
development programs in order to support that. So there will be 
increases, yes.
    Senator Begich. Would it be fair to say that----
    Chairman Levin. Senator Begich, if I could interrupt you 
for a moment. I'm going to have to leave for a few moments.
    Senator Begich. I'll close it off.
    Chairman Levin. I don't want you to close it, because I 
have some additional questions. If you are finished before I 
get back, which will just be a few moments, would you just 
recess for a couple minutes.
    Senator Begich. Sure, I'd be happy to do that, Mr. 
Chairman.
    Chairman Levin. Thank you.
    Senator Begich [presiding]. Boy, I get the whole--this is a 
good opportunity. It's always good to be last.
    I want to make sure one other piece in your allocation of 
resources for those people. Again, I'm not in your business, 
but my assumption is your people will need also longer-term 
potential with the country of Afghanistan because of the work 
you'll be doing.
    It's not just you'll be doing the water lines, sewer lines, 
governance, and be done. You'll actually be moving through.
    So that resource is not just about a 1-year, but a few 
years out. Is that how you look at it? That's how I look at it. 
I just want to make sure I'm on the same page.
    Ambassador Eikenberry. Yes, Senator, absolutely, multi-year 
and the whole of government. We'll have to be looking then at 
the sustainment of our civilian force. There'll be changes in 
the composition, but it'll still be a sizable presence, and it 
will be multi-year. So it's not only the challenge of getting 
it there over the next year, year and a half. We would 
anticipate this to be a multi-year requirement and have to 
think through how we'll sustain that kind of presence.
    Senator Begich. I guess I'm supportive of that. I just want 
to warn you ahead that's some of the questioning I'll have as 
we move down that path, and I just wanted to convey that to 
you.
    Ambassador Eikenberry. If I could, Senator, though, a point 
of emphasis here. More civilians needed, but to continue to 
emphasize that as our civilians move forward they're 
multiplying their effects through Afghans.
    Senator Begich. Correct.
    Ambassador Eikenberry. As we now are starting to reach a 
point in Afghanistan where you had 7, 8 years after the fall of 
the Taliban more children, more young adults starting to 
graduate from high school, vocational schools, universities, 
the pool out there of talented people is starting to enlarge, 
and our civilians as they come in, they're going to be able to 
leverage that in increasing numbers. You can reach a point 
where it's starting to get diminishing returns, too costly, and 
also the possibility of dependency building up.
    Senator Begich. I agree. I think that's a great outcome, if 
you have more of a larger Afghan pool.
    General, you reminded me of this and I'm just trying to 
remember from our briefings when I was there and some of the 
folks you had on the ground. We have in Afghanistan, I want to 
say, ``West Point Lite'' for officer training--explain what we 
have there in regards to trying to do what we can to ensure 
that we have an officer corps within the Afghan Army that's 
well trained? Remind me of that just so I'm clear on that?
    General McChrystal. Senator, they have stood up a military 
academy.
    Senator Begich. That's right.
    General McChrystal. They are expanding the size of that 
military academy in the next year or so. So that will provide a 
corps. But then they also have other commissioning entry ways 
as well. For their noncommissioned officer corps, which is 
critical, they have a sergeants major academy and then a series 
of stairstep professional development programs for their 
noncommissioned officer corps as well, and I think that's going 
to be very important for them.
    Senator Begich. How involved are we now with that and how 
long before they take a very sizable role in managing those 
academies? Or are they doing it now?
    General McChrystal. They really do it now. They get 
assistance on many of the courses, but they really do it now.
    Senator Begich. They manage it with their own teaching aids 
and all the other aspects of it?
    General McChrystal. That's correct. Again, we assist, but 
they run it.
    Senator Begich. One last question I think I'll have time 
for, and that is, the efforts of their national security force 
and their police force, what do you think is the major change 
that can move them into these higher numbers that we want to 
get them to in short order? What's the one or two things that 
you think is going to make the difference, or that you believe 
is making the difference now?
    General McChrystal. Senator, it's partnering. It's where we 
put our units with them and operate, often colocated in the 
same outpost together, and then as we go together. It's that 
shoulder-to-shoulder partnering that I think's going to help 
increase their professionalism and development most rapidly.
    Senator Begich. Very good. Thank you very much.
    I know, Mr. Chairman, you were very generous with allowing 
me more time as you vacated. So thank you very much.
    Thank you again for your service.
    Chairman Levin. Actually, Senator Begich, your last 
question segues perfectly into the first question I was going 
to ask. It goes back to this question of partnering. Our 
understanding is that we have about 19,000 U.S. troops now in 
RC-South. We have about 11 combat battalions in RC-South, with 
perhaps 40 companies, more or less. My question is: How many of 
those 11 U.S. battalions in RC-South are actually partnered 
with, colocated with, as you just put it, shoulder-to-shoulder 
now with Afghan units?
    General McChrystal. Mr. Chairman, I would say I don't know 
the number that are colocated on the bases, but in terms of 
partnered, 100 percent.
    Chairman Levin. What I'm talking about is colocation, 
actually physically with, eating with, living with, colocated 
with. How many of the 11 battalions or approximately 40 
companies are physically actually colocated with Afghan units?
    General McChrystal. I'll have to take that for the record, 
Mr. Chairman.
    [The information referred to follows:]

    Although the percentage of companies physically colocated with 
Afghan units varies daily, all of the U.S. battalions in Regional 
Command-South are partnered with the Afghan National Security Forces.

    Chairman Levin. Could it be few? Might the answer be few?
    General McChrystal. I do not believe so, but I'd like to 
take that for the record and make sure it's accurate.
    Chairman Levin. Okay, thank you.
    When General Jones tells us that we have to get more Afghan 
troops out of their garrisons, that's to me a major challenge. 
It's something that I think needs to be our mission. This 
partnering needs to be our mission to the same extent that it's 
a British mission or an Australian mission. We had a little 
discussion about this before, but I want to be more precise. 
Our COIN doctrine is that our partnering strategy is aimed at 
achieving a ratio of one U.S. company--leading to three Afghan 
companies for every one U.S. company as their partnering 
progresses.
    Is that your understanding?
    General McChrystal. It is.
    Chairman Levin. Those ratios that you gave us that we 
currently have and that we hope to have will ideally lead up to 
that. But we're nowhere near one to one, quite the opposite in 
Helmand, from everything we can understand.
    There was an article in the Washington Post this morning 
which described the increasing influence of Taliban shadow 
governments. I don't think anyone's asked you about this today 
here. If not, I would like to just quickly ask you this. Our 
votes have begun, so you're almost free.
    These shadow governors establish Taliban governors, police 
chiefs, administrators, and judges in nearly all the Afghan 
provinces. Did you see the article this morning? Did you read 
the article, and do you agree with that report? Ambassador?
    Ambassador Eikenberry. I did see the article and, Mr. 
Chairman, what I'd say is that this growth of parallel 
governance, in some provinces of Afghanistan effective shadow 
governance with real consequences and real capabilities--when I 
came into Afghanistan on my third tour of duty in May of this 
year and did my own assessment of the security situation, for 
me the development of this shadow governance was the most 
striking change that I had seen since early 2007 when I last 
left.
    In that regard then, when General McChrystal did his 
security assessment and highlighted the deterioration of the 
security situation in important parts of the country, I had 
keyed in on that and that was one of the factors that led me to 
be in absolute concurrence with his own analysis of the 
deterioration of security.
    Chairman Levin. Would you say it's as extensive as the Post 
article suggested? Is that about accurate in terms of its----
    Ambassador Eikenberry. I'd defer to General McChrystal for 
specifics.
    Chairman Levin. General, have you had a chance to read the 
article?
    General McChrystal. I did.
    Chairman Levin. Is the shadow government's existence by the 
Taliban as extensive or approximately as extensive as the Post 
article stated?
    General McChrystal. Mr. Chairman, it is, but I'd like to 
provide some wider context.
    Chairman Levin. Sure.
    General McChrystal. They have established shadow governors 
in 33 of the 34 provinces. In some areas those shadow governors 
can do what was outlined in that article and have an awful lot 
of influence. In other areas it's more aspirational. They have 
a shadow governor, but the individual doesn't have that kind of 
reach or control. Even within a province where they have a 
shadow governor, they will typically have areas where they have 
a tremendous amount of influence--south primarily, some in the 
east.
    So what was described in the article was accurate, but not 
for everywhere.
    Chairman Levin. Okay, thank you.
    On the reintegration initiatives, you were both, I think, 
extremely clear about the importance of these initiatives 
taking place and that the Afghan Government is going to have to 
lead those initiatives. General, you talked about keeping open 
the door to reconciliation. General, you said there are some 
important opportunities--it's important that there be 
opportunities for Afghans to come back under government rule, 
and that they be treated when they do so, providing they abide 
by the rules, treated with respect when they do that.
    Ambassador, you also felt that we have to try to find a 
way; more importantly, the Afghan Government has to try to find 
a way for this reintegration; and that there's a commission 
which is going to be created, you indicated.
    Have we been supportive of that reintegration effort?
    Whenever I talk to President Karzai he says: ``You know the 
reason we haven't gone ahead with this; your guys don't want us 
to.'' Have we been an impediment to this in any way? Or to put 
it positively, are we clearly supportive of this effort, 
whether it's a reintegration commission or whether it's a plan 
for reintegration? Is it clear to President Karzai that we're 
supportive of that effort?
    Ambassador Eikenberry. It's absolutely clear.
    Chairman Levin. Have we not been supportive over the last 
year, say?
    Ambassador Eikenberry. Mr. Chairman, the efforts up until 
today have been very uneven, very uneven success by the 
Government of Afghanistan.
    Chairman Levin. Is that partly our fault, that we've sent 
signals that we have some reluctance in this area?
    Ambassador Eikenberry. I don't know going back to 2004 and 
2005. I was not in a position at that point----
    Chairman Levin. How about in the last year?
    Ambassador Eikenberry. In the last year, it's been very 
clear. I would say since the arrival of General McChrystal and 
myself it's been crystal clear, absolutely clear to President 
Karzai and the Afghan leadership that we would be in full 
support of their efforts.
    Chairman Levin. Okay. Would you agree with that, General?
    General McChrystal. Absolutely.
    Chairman Levin. Okay. That's fine. Thank you.
    Can you get us that figure which I asked you about? Can you 
get us that, if possible, overnight?
    General McChrystal. Yes, Senator.
    Chairman Levin. Okay, thank you. I would really appreciate 
it.
    We all very much appreciate your staying power, not just in 
Afghanistan, but your steadfastness through this process of 
ours. I know you're committed to the process in Afghanistan. We 
all wish you, obviously, godspeed and good luck in that regard. 
Your answers today, I think, have been clear. Your 
understanding of the President's directives, it seems to me, is 
clear. You both indicated you not only support them, you agree 
with them. I think that's clear and it's important, because the 
clarity of our mission is essential as well as the resources to 
accomplish it.
    I know I'm speaking on behalf of everybody, everyone but me 
who is now voting in the Senate, that we're grateful again to 
you, your families, your troops, the people who work with you 
on the civilian side. Just pass along our thanks if you would 
and our gratitude and support for this effort.
    Thank you. We will stand adjourned.
    [Questions for the record with answers supplied follow:]

            Questions Submitted by Senator Roland W. Burris

                             TROOP INCREASE

    1. Senator Burris. General McChrystal, do you believe that the 
President's new strategy of quickly deploying 30,000 additional troops 
will be sufficient to stop the insurgency within the timeframe to begin 
transition and withdrawal in July 2011?
    General McChrystal. [Deleted.]

    2. Senator Burris. General McChrystal, what is the timeline for the 
deployment of all 30,000 troops?
    General McChrystal. [Deleted.]

    3. Senator Burris. General McChrystal, regarding logistics for 
deploying these 30,000 troops quickly, please explain the challenges 
associated with a less than robust theater logistics and throughput 
infrastructure?
    General McChrystal. [Deleted.]

    4. Senator Burris. General McChrystal, how are you mitigating any 
major shortcomings to ensure that quality is not sacrificed for speed?
    General McChrystal. I have been given great flexibility by the 
President and the Secretary of Defense in determining the composition 
of the additional 30,000 forces. While these forces will deploy on an 
accelerated timeline, I am confident that I am getting the force 
structure I need to be successful.
    The reality, however, is that requirements will continue to change 
commensurate with conditions on the ground. I will consistently review 
our progress towards meeting our military objectives to ensure that we 
have the right mix of forces.

    5. Senator Burris. General McChrystal, is there sufficient air and 
sealift assets to meet the troop deployment timeline?
    General McChrystal. Yes, we currently assess air and sealift assets 
as adequate to meet troop deployment timelines. We will further refine 
this assessment during the U.S. Transportation Command (TRANSCOM)/U.S. 
Central Command (CENTCOM) Force Flow Workshop, which will directly 
address this assessment.

    6. Senator Burris. General McChrystal, how will this troop increase 
affect the ongoing drawdown of troops in Iraq?
    General McChrystal. As the Commander of U.S. Forces Afghanistan, I 
do not make decisions on resource requirements across different 
theaters. As such, it would be improper of me to speculate on how 
future changes in General Odierno's area of operations (AOR) may affect 
the flow of forces into Afghanistan. As Commander of U.S. CENTCOM, 
General David Petraeus is best suited to answer this question.

    7. Senator Burris. General McChrystal, how is the normal force 
rotation and dwell time affected by the troop increase given the 
planned rapid pace of deployment of additional troops?
    General McChrystal. Our men and women in uniform and their families 
continue to bear a significant burden. The issues of force rotation and 
dwell time are best answered by the Office of the Secretary of Defense 
and the individual Service Chiefs, executing their duties under title 
10. I am confident that the Secretary of Defense and the Joint Chiefs 
of Staff closely monitor the health of the force and are taking active 
measures to address and mitigate risks.

                    AFGHAN NATIONAL SECURITY FORCES

    8. Senator Burris. General McChrystal, as we work to increase the 
capability of the Afghan National Security Forces (ANSF), can you 
please clarify the security force goals? Are we aiming at meeting the 
projected March 2009 goals of 134,000 Afghan National Army (ANA) and 
82,000 Afghan National Police (ANP)--or levels you recommended of 
240,000 ANA and 160,000 ANP?
    General McChrystal. We are no longer using the March 2009 goals. 
Our current growth objective is to grow to 134,000 ANA and 96,800 ANP 
by October 2010. Pending approval by the Secretary of Defense, we will 
request to grow the ANP to 109,000 by October 2010. We will also 
request to continue growth of the ANA to 171,600 and the ANP to 134,000 
by October 2011. We will reexamine the need for any future growth based 
on security conditions and ANSF performance.

    9. Senator Burris. General McChrystal, how many U.S. forces are 
currently training ANSF?
    General McChrystal. The primary means for U.S. forces to train ANSF 
is by partnering with them in order to help them build capacity and 
assume responsibility for their nation's security as quickly and as 
successfully as possible. As of December 2009, 32 of the 44 U.S. combat 
battalions were partnered.
    U.S. forces also contribute to institutional training. Currently, 
in the North Atlantic Treaty Organization (NATO) Training Mission 
Afghanistan (NTM-A)/Combined Security Transition Command-Afghanistan 
(CSTC-A), there are approximately 830 U.S. servicemembers whose sole 
task is to instruct and advise ANSF in institutions, schools, and other 
formalized programs of instruction. These forces instruct ANSF 
trainers, coordinate resources exclusively in support of training, and 
advise and coach the ANSF on management of institutional training.

    10. Senator Burris. General McChrystal, when all of the U.S. troops 
are in place, how many of them will be solely dedicated to training the 
ANSF?
    General McChrystal. Under current plans, there will be in excess of 
1,800 U.S. servicemembers whose sole task is to train ANSF forces in 
institutions, schools, and other formalized programs of instruction. 
These forces advise ANSF trainers, coordinate resources exclusively in 
support of training, and advise and coach the ANSF on management of 
institutional training.

    11. Senator Burris. General McChrystal, for those U.S. troops whose 
responsibility is to train the Afghan forces, what portion are/will be 
embedded with the Afghan Forces?
    General McChrystal. A key tenet of International Security 
Assistance Force's (ISAF) strategy is partnering with the Afghan 
security forces in order to help them build capability and capacity, 
and assume responsibility as quickly and as successfully as possible. 
Today, 32 of 44 U.S. combat battalions that are capable of partnering 
are fully partnered and conducting daily combined operations with the 
ANSF. It is my intent that all U.S. forces will partner with Afghan 
units by December 2010.

    12. Senator Burris. General McChrystal, how long will it take for 
American troops to train Afghan forces?
    General McChrystal. The process of training the ANSF is a long-term 
commitment by U.S. forces that includes three main efforts. The first 
is institutional, where soldiers and police receive basic training 
through schools and other formalized programs. American forces provide 
instructors and advisors to the ANA and ANP training institutions, with 
the intention that Afghans take on increasing responsibility for their 
own training.
    The second training effort for U.S. forces are Embedded Training 
Teams (ETTs) and Police Mentor Teams (PMTs), which are provided to 
fielded ANA units from the battalion to corps level and to ANP units 
from the district to police region level. There are currently two U.S. 
BCTs providing ETTs and PMTs: the 48th IBCT and 4/82 IBCT. ETTS and 
PMTs will remain with an ANSF unit until that particular unit has 
achieved the capability to operate independently.
    The third training effort is U.S. partnership with ANSF units. This 
partnering is a key tenet of our strategy, and is designed to help the 
ANSF build capacity and assume lead security responsibility as quickly 
and as successfully as possible. Once units graduate from their 
respective institutional training programs, they continue to develop 
through their partnership with U.S. and coalition forces.

    13. Senator Burris. General McChrystal, when will there be 
sufficient and--I stress--fully trained Afghan forces prepared to 
protect their own country?
    General McChrystal. [Deleted.]

    14. Senator Burris. General McChrystal, given the current 
proficiency of the ANP Force, will Afghan policemen who were trained 
locally--in provinces outside of the new academy in Kabul--be retrained 
with the revised law enforcement standards?
    General McChrystal. Yes. Afghan Uniform Police (AUP) recruited and 
trained locally will complete the ``Basic 8'' 8-week training program. 
This program uses a curriculum reviewed by the Department of State's 
International Law Enforcement and Narcotics Division and approved by 
the Afghan Ministry of the Interior (MoI).
    AUP patrolmen are being trained at a Regional Training Center 
either individually, or as part of their district through the Focused 
District Development Program, or in their home district through the 
Directed District Development program. MoI and NTM-A/CSTC-A are 
coordinating to maximize the rate of untrained police completing this 
reform training.

    15. Senator Burris. General McChrystal, how effective has the 
effort been to reintegrate former Taliban, Northern Alliance, and 
Mujahedeen fighters so that they are no longer fighting for the 
insurgency?
    General McChrystal. The Afghan Government is currently developing 
their policy for reintegration, while leveraging lessons from earlier 
programs. These previous programs suffered from a shortage of Afghan 
political leadership, a lack of fiscal transparency, and deficiencies 
in monitoring and accountability of those who joined the program. The 
emerging Afghan reintegration policy aims to rectify these problems and 
our collaboration with them will help ensure the proper measures are 
put in place for a successful program. Once the policy is approved, the 
Afghan Government will develop an implementation plan. ISAF is working 
with members of the Afghan Government and the international community 
on the policy and implementation plan.

                               WITHDRAWAL

    16. Senator Burris. General McChrystal, the President stated that a 
responsible withdrawal of troops will begin in summer 2011 but would 
also depend on conditions on the ground. What types of conditions would 
delay withdrawal or transition?
    General McChrystal. The Department of Defense (DOD) is currently 
working with our interagency and multinational partners to refine the 
benchmarks that we will use to measure progress in light of the 
President's new strategy. However, broadly speaking, progress in 
Afghanistan will emerge as the ANSF develop the capacity to provide 
security for the nation and effective governance and development takes 
root. As this happens, the United States and our ISAF partners will 
continue to provide overwatch. The pace and locations at which this 
process will take place will depend on several factors, the two most 
important of which are the performance of the Afghan government at all 
levels, and the development of the ANSF. The pace of transition will 
occur at a rate consistent with Afghan capacity to manage the security 
situation, with requisite support, and preparedness of governance.
    A delay in transition could emerge due to any number of factors. 
The population is the ultimate arbiter of these conditions based on 
their confidence in their security situation. The insurgency is 
competing for control of the population through intimidation and 
coercion; ISAF and ANSF forces need to provide confidence to the 
population. In some areas, the insurgency is sufficiently rooted to a 
point where it could take a period of time to generate the necessary 
confidence that causes the population to identify and eliminate the 
threat. Commensurate with this situation is generation and employment 
of ANSF that can effectively maintain security in these areas. Finally, 
the pace of transition must be such that there is no deterioration in 
the security situation in areas that have undergone the transition 
process. Ensuring that the security situation does not regress in areas 
that have transitioned may necessitate an adjustment to the pace of 
transition based upon conditions on the ground.

    17. Senator Burris. General McChrystal, what policy goals and 
benchmarks are tied to the withdrawal of forces in Afghanistan?
    General McChrystal. DOD is currently working with our interagency 
and multinational partners to refine the benchmarks that we will use to 
measure progress in light of the President's new strategy. However, 
broadly speaking, progress in Afghanistan will emerge as the ANSF 
develop the capacity to provide security for their nation and effective 
governance and development take root. As this happens, the United 
States and our ISAF partners will continue to provide overwatch, 
eventually drawing down. The pace and locations at which this process 
will take place will depend on several factors, the two most important 
of which are the performance of the Afghan government at all levels, 
and the development of the ANSF. We will not transfer responsibility to 
the Afghans until they have the capacity to manage the situation on 
their own.

                                  COST

    18. Senator Burris. General McChrystal, the Office of Management 
and Budget Director estimated that each additional soldier sent to 
Afghanistan will cost $1 million. Is this estimate accurate?
    General McChrystal. My staff does not manage the estimate you are 
requesting. Those functions are managed by each of the military 
departments and then integrated by the Office of the Secretary of 
Defense.

    19. Senator Burris. General McChrystal, does this cost estimate 
include any contractor support?
    General McChrystal. My staff does not manage the additional costs 
of contractor support in Afghanistan. Those functions are managed by 
each of the military departments and then integrated by the Office of 
the Secretary of Defense.

                INTERNATIONAL SECURITY ASSISTANCE FORCE

    20. Senator Burris. General McChrystal, I understand that many of 
the troop-contributing nations have placed very specific caveats on 
what missions and what type of support that they will provide. What, if 
any, are the challenges, and do these caveats pose an obstacle to 
meeting our stated objectives?
    General McChrystal. Military planners consider the constraints and 
restraints facing the unit--actions they must do and cannot do. 
National caveats are one form of those constraints. They do not prevent 
planning or execution, they merely need to be taken into account while 
planning.
    These caveats do not impact our ability to reach our stated 
objectives. Some nations have placed legal caveats, mainly limiting the 
use of force by their soldiers, in accordance with their legal system. 
Other nations have placed operational caveats, limiting their 
operations to a specific area, for instance. We understand these 
caveats, put in place by their political authorities, who took into 
account their national sensitivities or simply the capabilities of 
their forces.

    21. Senator Burris. General McChrystal, how many ISAF are currently 
conducting the mission?
    General McChrystal. As of 9 December 2009, coalition forces in 
Afghanistan total 109,370.

                              CONTRACTORS

    22. Senator Burris. General McChrystal, will there be an increase 
in contractor support based on this troop increase? If so, what 
additional costs will be necessary?
    General McChrystal. The increase in forces will generate an 
increase in contractor support. However, those functions are managed by 
each of the military departments and then integrated by the Office of 
the Secretary of Defense.
    With the dispersed force laydown throughout the country of 
Afghanistan, and the need to ensure the majority of the additional 
forces are operators rather than force support personnel, contractors 
will be necessary to provide the supplies, services, and construction 
needs of establishing new and expanding current base camps; as well as 
logistic and other noncombat related services, such as dining 
facilities. Contract Support Integration ensures contracted support is 
planned, defined, prioritized, and validated prior to being delivered 
to the joint force. Contracted support is considered throughout the 
planning process to ensure mission success.
    With regard to necessary additional costs, this amount is not 
readily available as it depends on the timing of both the force flow 
and duration of need; the existing capability of facilities at new 
beddown locations; and the division of support between the civil 
augmentation program contracts and local procurement, among others. I 
assure you, our contracting professionals regularly seek more efficient 
and cost effective ways to provide support, while the requirement 
determination and review processes ensure procurement of only valid 
requirements.

    23. Senator Burris. General McChrystal, which American contracting 
companies are supporting the training of the ANP?
    General McChrystal. U.S. Training Center trains the Afghan Border 
Police; DynCorps trains the Afghan Uniform Police and Afghan National 
Civil Order Police.

    24. Senator Burris. General McChrystal, how long have contactors 
been assigned this task, and how long will they stay should their 
contract be renewed?
    General McChrystal. U.S. Training Center has held the Afghan Border 
Police contract since September 2008. The contract will expire in 
August 2010. DynCorp has held the Afghan Uniform Police and Afghan 
National Civil Order Police since August 2008. The contract will expire 
in March 2010. The replacement for both contracts is in the award 
process with an anticipated award of no later than March 2010.

                            PRESIDENT KARZAI

    25. Senator Burris. Ambassador Eikenberry, I assume that we have as 
part of our goals to address governance and corruption. In his 
inauguration, President Hamid Karzai stated that he was going to fight 
corruption. What tangible steps has he outlined?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    26. Senator Burris. Ambassador Eikenberry, what is President Karzai 
doing to increase transparency in the appointment of provincial and 
ministerial posts?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

                              AGRICULTURE

    27. Senator Burris. Ambassador Eikenberry, overall development of 
the Afghan economy appears to be at a standstill and further 
agricultural development is necessary. What is being done to provide 
security for farmers who do not grow poppy so that the Taliban does not 
intimidate the farmers?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    28. Senator Burris. Ambassador Eikenberry, is there a comprehensive 
agricultural development strategy?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

                           DIPLOMATIC EFFORTS

    29. Senator Burris. Ambassador Eikenberry, diplomatic effort is 
essential to the stability and governance of Afghanistan. What is the 
division of responsibility between Ambassador Holbrooke, Deputy 
Ambassador Ricciardone, and yourself?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    30. Senator Burris. Ambassador Eikenberry, can you describe how and 
the extent of coordination between yourself and Ambassador Holbrooke?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    31. Senator Burris. Ambassador Eikenberry, what is the overall plan 
for reconstruction and who is leading the effort?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    32. Senator Burris. Ambassador Eikenberry, are relief and other 
reconstruction efforts aided or hampered by the presence of the 
Provincial Reconstruction Team? Does this vary by region?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                                ENABLERS

    33. Senator Bill Nelson. General McChrystal, what is your plan for 
and how many enablers are required to support the additional 30,000 
combat forces ordered to Afghanistan?
    General McChrystal. The 30,000 additional forces include 
approximately 12,500 enablers. These enablers include personnel with 
expertise in military intelligence, route clearance, aviation, and 
numerous other capabilities which allow forces to properly conduct 
their assigned missions.

                         AFGHAN SECURITY FORCES

    34. Senator Bill Nelson. General McChrystal, what is your 
assessment of the Afghan Public Protection Program (AP3) and other 
local security forces?
    General McChrystal. The AP3 is fulfilling its intent of providing 
security at the local level with forces recruited from the same 
communities they serve. We are beginning to see a reduced requirement 
for the presence and employment of coalition forces for security 
purposes in areas where the AP3 forces are currently being utilized.
    With regards to other local security forces, the Local Defense 
Initiative remains in nascent stages of development but has been 
operationalized in three communities. The program has had positive 
effects in these communities to include increased security, cooperation 
with GIRoA, and the beginnings of economic development. However, while 
AP3 has shown some small successes, it is important to remember local 
security initiatives that work in some regions are not necessarily 
transferable to all parts of the country.

    35. Senator Bill Nelson. General McChrystal, are there plans to 
expand this program to other areas of Afghanistan?
    General McChrystal. There are no plans to expand the AP3 beyond 
Wardak Province at this time.

                                PAKISTAN

    36. Senator Bill Nelson. General McChrystal and Ambassador 
Eikenberry, how will the stability of Pakistan be affected by the surge 
of troops in Afghanistan?
    General McChrystal. Your question would be best served by asking 
Admiral Mullen or General Petraeus, both of whom have Pakistan within 
their respective areas of responsibility.
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    37. Senator Bill Nelson. General McChrystal, what type of border 
coordination is taking place between the United States and ISAF, and 
the Pakistani military and Pakistani civilian government to ensure that 
Taliban fighters are engaged once they cross the border into Pakistan?
    General McChrystal. Coordination between ISAF and Pakistan occurs 
at a variety of levels. At the tactical level, radios have been 
distributed to the Pakistan military (PAKMIL) and Pakistan Frontier 
Corps. These radios are used to coordinate and deconflict kinetic 
activities. Additionally, computer systems are being added to PAKMIL 
and Frontier Corps Battalions that will allow email communication 
between units across the border. The radios and computer systems 
improve situational awareness and coordination between coalition and 
Pakistan units, allowing coalition and Pakistan forces to effectively 
execute cross border direct and indirect fires against malign actors.
    At the operational level, Border Coordination Centers (BCCs) 
improve situational awareness between the coalition and Pakistani 
security forces. BCCs are made up of officers from Afghanistan, 
Pakistan, and the coalition that work as a team to deconflict fires and 
reduce tension along the border. BCCs have been very successful as a 
confidence building measure and have improved coordination and resolved 
border issues at the lowest levels.
    At the strategic level, ISAF has two organizations that work to 
deconflict issues between Pakistan and Afghanistan: the Tripartite 
Joint Intelligence Operations Center (T-JIOC) and the Border Issues 
Working Group (BIWG). The T-JIOC, established in 2007, brings senior 
Afghan and PAKMIL officers together to address border issues and keep 
each nation informed of operations and issues that impact the two 
nations. Since 2009, the BIWG has brought embassies, international 
organizations, GIRoA, and ISAF together to focus on issues that impact 
Afghanistan's borders.

                       INTERNATIONAL COORDINATION

    38. Senator Bill Nelson. General McChrystal, how has the 
streamlining of your command--overseeing ISAF and U.S. forces in 
Afghanistan--affected coordination and cooperation at the tactical and 
strategic level?
    General McChrystal. The establishment of the ISAF Joint Command 
(IJC) and NTM-A has greatly increased the efficiency of command and 
control. It is important to understand that prior to the establishment 
of these three-star commands, ISAF was providing the direction and 
guidance to the five regional commands, coordinating force generation 
with the CSTC-A, responding to the NATO command channels via Joint 
Forces Command-Brunssum and Supreme Headquarters Allied Powers Europe, 
while also conducting coordination with the Government of the Islamic 
Republic of Afghanistan (GIRoA) to address issues from the strategic to 
the tactical level. Creation of the IJC and NTM-A has allowed ISAF to 
focus ``up and out,'' for increased coordination with our partners in 
GIRoA and the international community in Kabul and to communicate 
ISAF's requirements more clearly to NATO. By providing direction and 
guidance to the IJC and NTM-A, ISAF can focus attention on the efforts 
that enable the subordinates to accomplish assigned missions. In the 
case of the IJC, by focusing ``down and in,'' they are able to provide 
greater operational direction and guidance to the regional commands, 
coordinating their efforts in a manner that has not occurred 
previously.

    39. Senator Bill Nelson. General McChrystal, the additional marines 
ordered to deploy to Afghanistan will do so as a Marine Air Ground Task 
Force (MAGTF). Please describe how the Marines' air combat element will 
fit into the other air force elements supporting ISAF. Please describe 
the command and control plan for combat air support, medical 
evacuation, and air transportation and logistics. Will all air elements 
fall under the same structure? How are they different?
    General McChrystal. The MAGTF Commander retains operational control 
of all organic air assets. The primary mission of the MAGTF aviation 
combat element is support of the MAGTF ground combat element. U.S. 
Marine Corps aviation fits into the Combined Force Air Component 
Commander (CFACC) operational design by its inclusion in the Air 
Tasking Order and operating under the direction of the Airspace Control 
Plan.
    The CFACC, as the airspace control authority, directs the 
employment of the theater air ground system that orchestrates the 
command and control of air operations. The Marines contribute by 
executing air command and control within the MAGTF AORs, by providing 
the CFACC with a radar control facility, and by providing excess 
sorties and theater aviation support as required.
    Medical evacuation in RC(S) in Afghanistan is conducted by special 
medical evacuation (MEDEVAC) crews provided by the U.S. Army, U.S. Air 
Force, and the U.K. Royal Air Force. These forces are geographically 
distributed throughout the battlespace to meet casualty movement needs. 
They launch in support of MEDEVAC missions when notified by RC(S), 
though their command relationships vary. All of these commanders retain 
launch authority for MEDEVAC missions while RC(S) holds release 
authority.
    All non-U.S. Marine Corps aviation units fall under the same 
structure: the theater air ground system. Marine aviation differs 
because they are operationally controlled by the MAGTF when in the 
MAGTF AORs.

    40. Senator Bill Nelson. Ambassador Eikenberry, in the past, U.S. 
Forces in Afghanistan, ISAF, the United Nations, and U.S. Agency for 
International Development maintained separate lists of completed and 
existing development projects in Afghanistan. What is the status of 
effort to coordinate and streamline theses lists between the various 
actors?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    41. Ambassador Eikenberry, how is this effort being coordinated 
with the various Afghan ministries?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    42. Senator Bill Nelson. Ambassador Eikenberry, what are your 
thoughts on the prospects of negotiating with elements of the Taliban? 
The Government of Japan has sponsored some discussions along these 
lines--would the United States consider playing a larger role in such 
discussions?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    43. Senator Bill Nelson. Ambassador Eikenberry, Germany and France 
are spearheading an international conference on Afghanistan within the 
next several months. Will Iran be included in this conference?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    44. Senator Bill Nelson. Ambassador Eikenberry, can you comment on 
Iran's political and economic involvement in Afghanistan?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    45. Senator Bill Nelson. Ambassador Eikenberry, General McChrystal 
mentioned in his testimony that Iran is providing financial assistance 
to the Taliban. Do you share this assessment?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    46. Senator Bill Nelson. Ambassador Eikenberry, what are the main 
sources of funding for the Taliban?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                             TROOP INCREASE

    47. Senator McCain. General McChrystal, a former Commandant of the 
Marine Corps once said that ``Amateurs talk about tactics, but 
professionals study logistics.'' Unlike Iraq, where U.S. forces surged 
with the crucial assistance of neighboring countries and an advanced 
infrastructure network, we're about to surge at least 30,000 troops and 
their equipment into one of the most austere and undeveloped areas of 
the world in the dead of winter. A senior Army logistician was quoted 
in the December 7 edition of Defense News as saying, ''Where do you put 
all these people? Life is going to suck for the first 30, 60, 90 
days.'' The Washington Post reported on Secretary Gates' recent 
surprise visit to Afghanistan that ``he would seek soldiers' views on 
`the way forward.' That might include issues such as whether their 
equipment is adequate and whether they are ready to handle the 
difficult logistics of quickly moving 30,000 fresh troops into the 
country.'' The Post went on to quote Secretary Gates that ``It is going 
to be a heavy lift, there's no question about it.'' I want to ensure 
that we have a plan in place to ensure that this surge of forces is 
accomplished in a manner that does not present unnecessary risks beyond 
what will be asked of them in success of their mission. Are you 
currently requesting 30,000 or 33,000 total personnel?
    General McChrystal. I did not submit a request for any specific 
number of forces. As directed by my U.S. and NATO commanders, I 
provided my best military advice as the Commander, ISAF and the 
Commander of U.S. Forces Afghanistan up the appropriate military chains 
of command. This advice contained a recommendation for multiple force 
levels and their associated risks.

    48. Senator McCain. General McChrystal, given the cap on the number 
of troops you will receive--what is the right mix of combat forces, 
trainers, support forces, and other combat enablers in order to meet 
your objectives?
    General McChrystal. [Deleted.]

    49. Senator McCain. General McChrystal, as your deployment plan 
develops, do you feel you have the flexibility as the warfighting 
commander to ask for additional forces above and beyond 33,000 in order 
to accomplish your objectives?
    General McChrystal. [Deleted.]

    50. Senator McCain. General McChrystal, when do you expect to have 
the surge combat forces you have requested on the ground in Afghanistan 
and fully operational?
    General McChrystal. [Deleted.]

    51. Senator McCain. General McChrystal, how much of the success of 
your mission relies on the accelerated flow and onward movement of 
these forces throughout Afghanistan?
    General McChrystal. As I indicated in my opening remarks, time is 
critical. The insurgents have established momentum, particularly in the 
south. The rapid deployment of forces to key population centers is the 
critical factor in reversing this trend. Introducing additional 
coalition troops as a bridging force will buy time and space for the 
ANA and National Police to grow in both size and capability. 
Additionally, I believe that increased security, combined with a 
commensurate uplift in civil capability, will set the conditions for 
improved governance and development.

    52. Senator McCain. General McChrystal, what plans are in place to 
ensure that the arriving forces will have the right training (to 
include mission rehearsals), equipment, and base support in order for 
you to be able to carry out successful missions before the 
administration's review in December 2010?
    General McChrystal. Each of the Services is responsible for 
training their own personnel and I would direct you to them for 
specifics. ISAF has a Counterinsurgency Training Center-Afghanistan 
(CTC-A) where we train and educate coalition forces and Afghan security 
forces to enhance their capabilities to defeat the current insurgency 
and contribute to the stability of Afghanistan. CTC-A also conducts 
mobile training to deployed force elements to meet deployed force 
specified requirements as well as conducts a monthly central COIN 
leaders course in Kabul. ISAF's Counterinsurgency Advisory and 
Assistance Team also visits NATO training centers, coalition forces 
combat support units, and key members of the intelligence community to 
develop the skills necessary for counterinsurgency operations.

    53. Senator McCain. General McChrystal, does the current plan for 
the surge of forces ensure that arriving units will have all the 
vehicles, such as Mine Resistant Ambush Protected vehicles and 
equipment they need for missions in high altitude and rugged terrain?
    General McChrystal. [Deleted.]

    54. Senator McCain. General McChrystal, what risks and challenges 
are inherent in an accelerated deployment schedule?
    General McChrystal. There are several challenges and risks 
associated with a deployment of a force this size in the timeframe 
demanded by the current strategic situation. I will focus my answer on 
three key factors that may influence the force flow. The first of these 
is the ability of Afghanistan's infrastructure to absorb and support a 
rapidly deploying force. This requires significant engineering and 
construction efforts. For example, we must provide water to our troops 
while minimizing the impact on the local population. This will 
challenge our engineers and logisticians to develop innovative 
solutions to problems that at first glance appear to have simple 
solutions. Second, the provision of Theatre Provided Equipment, (i.e 
material required for operations in Afghanistan that is not a part of a 
unit's peacetime inventory) will test our ability to identify sourcing, 
transport these materials, and prioritize our resources. The competing 
demands of resourcing a responsible draw down of forces in Iraq and 
flowing additional troops into Afghanistan may necessitate a 
reapportionment of specialized and low density equipment. Finally, 
managing dwell time for our returning servicemembers while 
simultaneously responsibly drawing down in Iraq will test our ability 
to meet a compressed timeline. Ultimately, I am confident that we will 
deliver a force that is appropriately trained, equipped, and ready to 
execute the mission.

    55. Senator McCain. General McChrystal, how do you plan to mitigate 
these risks?
    General McChrystal. The ISAF plan, developed in coordination with 
CENTCOM, TRANSCOM, and Joint Forces Command, addresses the challenges 
of this deployment. We are working to increase the capacity and 
throughput of Afghanistan's airfields. The acquisition of land and 
subsequent base construction are already underway. Without compromising 
force protection, initial modifications of base construction standards 
will greatly increase our ability to absorb the incoming forces. 
Coordination to increase both production and delivery of theater 
provided equipment began in early December. We will address this 
challenge by prioritizing equipment flows into theater and by deploying 
special teams and leadership to assist in planning and managing the 
flow. This will ensure that the troops who need it the most are 
provided with required equipment as they arrive. Finally, we are 
working closely with CENTCOM and Joint Forces Command to ensure that 
our units are appropriately supported by critical enablers.

    56. Senator McCain. General McChrystal, if the Services are delayed 
in flowing the resources you have requested, do you feel you have the 
flexibility to ask for extra time before conducting a formal review of 
the benchmarks and indicators?
    General McChrystal. My leadership at all levels continues to be 
fully supportive of the mission and cognizant of the most critical 
aspects of the campaign, including the challenges associated with 
flowing resources into the Afghanistan theater.

    57. Senator McCain. General McChrystal, what will need to be done 
to ensure we can adequately resupply 100,000 U.S. troops in a country 
with extremely limited infrastructure and limited routes into the 
country?
    General McChrystal. [Deleted.]

    58. Senator McCain. General McChrystal, what will be the most 
significant supply challenges?
    General McChrystal. The most significant supply challenge will be 
ensuring the ground lines of communication allow for the maximum of 
throughput at the traditional choke points, mainly the border crossing 
points, in a timely, safe manner to get the ground supplies to the 
forces beyond our operational logistics hubs. As we improve the Afghan 
Border Police and increase partners in these critical areas, we will 
implement sufficient control to ensure friendly force throughout 
operates at maximum efficiency.

    59. Senator McCain. General McChrystal, on the specific issue of 
rotary wing assets which seem to be a high demand asset for both U.S. 
and coalition forces, the Army's OH-58D Kiowa Warriors have only 
limited lift capability in Afghanistan's thin air. Does the current 
flow of forces provide for adequate numbers of utility and attack 
helicopters and aviation support personnel early enough in 2010 to 
support the full range of counterinsurgency operations throughout the 
country?
    General McChrystal. [Deleted.]

    60. Senator McCain. General McChrystal, please explain why your new 
strategy and the many additional troops you will receive can bring 
success in Afghanistan when past efforts have not fully done so?
    General McChrystal. There are three key aspects of the current 
campaign that differentiates it from previous ISAF strategies: (1) A 
change in the operational culture; (2) Embedded partnering; and (3) 
Adequate resources.
    The ISAF counterinsurgency strategy brings with it a clear mandate 
to protect the population. This orientation ensures that there is a 
distinct difference in how we interact with the population, in both 
word and deed, compared to the insurgent. This difference will be 
recognizable to the population.
    Second, employing embedded partnering is the most expeditious way 
to build a competent and confident counterinsurgency capable force. 
Embedded partnering differs from past partnering methods in that the 
partnership does not end at the gates of the respective force operating 
bases. Afghan and ISAF partners live together, plan together, execute 
operations jointly, and return to the same location to debrief the 
operation. It allows for ISAF to quickly learn the critical cultural 
aspects of the counterinsurgency environment while our partners receive 
the reciprocal benefits of force professionalization through 
observation and imitation.
    Finally, the forces directed by the President provide a bridging 
force to allow time and space for ANSF growth and a catalyst force that 
allows us to partner at substantially improved ratios. Previous 
personnel increases have arrived in theater behind the pace of the 
insurgency. At best, the previous additional forces were able to 
prevent the insurgency's ability to achieve their goals without being 
able to reverse the momentum of their growth.

                 AIRLIFT CAPABILITY AND INFRASTRUCTURE

    61. Senator McCain. General McChrystal, the Washington Post 
reported this morning in an interview with Admiral Mike Mullen that, 
``To speed the flow of U.S. troops into Afghanistan, Mullen said the 
United States will build at least one new airfield in the land-locked 
country to accommodate U.S. cargo planes carrying new mine-resistant 
vehicles and weaponry.'' Where are you planning to build this airfield?
    General McChrystal. Between fiscal year 2010 and fiscal year 2012, 
USFOR-A is planning almost $1 billion in improvements to 15 airfields 
across Afghanistan. There are other ongoing airfield projects at 
locations such as a $167 million effort to construct a runway, 
strategic parking apron, and a rotary wing ramp at Camp Bastion, due 
for completion in December 2010.

    62. Senator McCain. General McChrystal, when will you need to have 
this airfields constructed in order to support surge forces?
    General McChrystal. The airfields being programmed and the one 
being constructed at Camp Bastion will not be completed in time for the 
arrival of the troop increase. These airfields will be used for 
sustainment/resupply and to support combat operations.

    63. Senator McCain. General McChrystal, will this be the only 
significant investment in infrastructure and new bases required to 
support the surge? If not, can you provide what other infrastructure 
requirements you have identified are needed to support the additional 
troops?
    General McChrystal. To support the troop increase, USFOR-A 
submitted to CENTCOM almost $500 million in other infrastructure 
improvements as part of the fiscal year 2010 supplemental MILCON call. 
These projects include improvements to airfields, fuel and munitions 
storage areas, utility systems, and operations facilities.

                            DRUG TRAFFICKING

    64. Senator McCain. General McChrystal, what are ISAF's common 
rules of engagement and/or strategy with respect to interdicting narco-
traffickers?
    General McChrystal. [Deleted.]

                               CIVILIANS

    65. Senator McCain. Ambassador Eikenberry, you have a lot of 
experience in Afghanistan. I'm not interested in the number of 
civilians we are now fielding, but in what they will do. Please explain 
how our current civilian strategy and operations are different than 
what we have done before, and why we can achieve success now when past 
efforts have not fully done so.
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    66. Senator McCain. Ambassador Eikenberry, the President greatly 
accelerated the deployment of U.S. forces to the middle of next year. 
Will our civilians be fully in place at that time and able to commit 
resources as necessary so that our counterinsurgency operations can be 
decisive?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    67. Senator McCain. Ambassador Eikenberry, do you have all the 
authorities you need to get our civilians into the field rapidly and to 
get our assistance programs implemented in a timely manner, with 
sufficient resources and flexibility, to achieve your mission?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.
                                 ______
                                 
              Questions Submitted by Senator David Vitter

                                MISSION

    68. Senator Vitter. General McChrystal, last week you said that 
President Obama's plan has provided you with ``a clear military 
mission.'' Can you please explain, as specifically as possible, what 
you understand that mission to be?
    General McChrystal. [Deleted.]

    69. Senator Vitter. General McChrystal, do you intend to pursue 
victory in Afghanistan, and if so, what must you accomplish there to 
achieve that goal?
    General McChrystal. Ultimately, we want the Afghan people to win. 
We have a mission that we will accomplish, but it is in support of the 
Afghan people. We must defeat al Qaeda, disrupt the Taliban, and to 
assist with the growth and development of the ANSF.

    70. Senator Vitter. General McChrystal, do you realistically expect 
a significant number of U.S. troops to begin withdrawing from 
Afghanistan by July 2011? What is the likelihood of this occurring?
    General McChrystal. As the President articulated in his 1 December 
announcement, U.S. combat forces will begin the process of withdrawal 
in July 2011. I will comply with the President's guidance, but the pace 
of the withdrawal is to be determined, as stated by the President, by 
conditions on the ground.

    71. Senator Vitter. Ambassador Eikenberry, do you consider our 
diplomatic and so-called ``capacity-building'' efforts in Afghanistan 
to be simply another form of ``nation building?'' Why or why not? If 
not, can you please explain the difference between our development 
efforts in Afghanistan and ``nation building,'' which the President has 
indicated that he does not wish to do?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

                               AIRSTRIKES

    72. Senator Vitter. General McChrystal, this summer, you issued new 
rules restricting the use of airstrikes in an effort to reduce civilian 
casualties. Have these rules in any way increased the danger to U.S. 
troops in Afghanistan?
    General McChrystal. I do not know of any incidents where these 
rules have directly resulted in increasing the danger to our troops. 
The Tactical Directive does not prevent troops from protecting 
themselves as a matter of self-defense. The restrictions described in 
the Tactical Directive create much less risk than the greater longer-
term danger posed to U.S. troops from sustained insurgent 
determination, resolve, and recruitment brought about by indiscriminate 
use of airstrikes and consequent civilian casualties.

    73. Senator Vitter. General McChrystal, to your knowledge, have any 
troops been killed as a result of delayed or denied airstrikes that 
would have been allowed under the previous rules?
    General McChrystal. No. The Tactical Directive does not prevent 
troops from protecting themselves as a matter of self defense. The 
restrictions described in the Tactical Directive create much less risk 
than the greater longer-term danger posed to U.S. troops from sustained 
insurgent determination, resolve, and recruitment brought about by 
indiscriminate use of airstrikes and consequent civilian casualties.

                                PAKISTAN

    74. Senator Vitter. General McChrystal, what is the status of your 
working relationship with Pakistani military leaders?
    General McChrystal. Very good. I regularly meet with General Kayani 
and our staffs have a solid working relationship.

    75. Senator Vitter. General McChrystal, how would you characterize 
their support of the President's new plan for the region?
    General McChrystal. Pakistan's leaders recognize that extremist 
groups pose an existential threat to Pakistan's national security. They 
recognize that Afghanistan and Pakistan stability are inextricably 
linked as extremist threats transcend regional boundaries.

                 INTERNATIONAL SECURITY ASSISTANT FORCE

    76. Senator Vitter. General McChrystal, what is the status of the 
request for additional NATO troops?
    General McChrystal. [Deleted.]

    77. Senator Vitter. General McChrystal, how many of our allies have 
pledged troops since the President's speech last week, and how many 
troops do they intend to send?
    General McChrystal. [Deleted.]

                               CIVILIANS

    78. Senator Vitter. General McChrystal, what is being done by non-
military civilian roles to mitigate potential insurgent agendas?
    General McChrystal. Civilians in the U.S. Embassy work closely with 
the military. I personally meet with Ambassador Eikenberry on weekly 
basis to coordinate civil-military issues, and our staffs have multiple 
meetings where we communicate. As for their specific roles, Ambassador 
Eikenberry is better suited to answer your question.

    79. Senator Vitter. Ambassador Eikenberry, does the Civilian 
Response Corps have a role to play alongside the military in bolstering 
the commitment the United States has in Afghanistan?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

                        AFGHANISTAN'S GOVERNMENT

    80. Senator Vitter. Ambassador Eikenberry, what is your status of 
the overall stability of the Karzai Government?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    81. Senator Vitter. Ambassador Eikenberry, do you still believe 
that it is unwise to send additional American troops until the systemic 
corruption is addressed? Why or why not?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.

    82. Senator Vitter. Ambassador Eikenberry, can you provide an 
estimate of how much foreign aid, diplomatic spending, and economic 
development money has been allocated to the Karzai Government since 
Karzai initially took office? Of that amount, what percentage has 
ultimately been spent on the purposes for which it was originally 
intended?
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins

                             TROOP TIMELINE

    83. Senator Collins. General McChrystal, optimistically speaking, 
if all goes as the administration plans, how long do you envision U.S. 
troops would be needed in Afghanistan?
    General McChrystal. [Deleted.]

                           PRESIDENT'S SPEECH

    84. Senator Collins. Ambassador Eikenberry and General McChrystal, 
last week, the President announced his decision not only to the 
American people, but also to the people of Afghanistan, including 
President Karzai. What message do you think President Karzai received 
from the President's speech? Did he hear that the United States is 
sending more troops to do his job for him or did he hear ``you have 
until July 2011 to get your act together?''
    Ambassador Eikenberry did not respond in time for printing. When 
received, answer will be retained in committee files.
    General McChrystal. The President's speech conveyed a clear message 
that we seek a partnership with Afghanistan grounded in mutual respect. 
In President Obama's words, we will ``forge a lasting friendship in 
which America is [Afghanistan's] partner, and never [their] patron.''
    The President's decision to deploy additional forces demonstrates 
the right level of commitment to reverse the insurgency's momentum, and 
build sustainable Afghan capabilities. Rather than do the job for the 
Afghans, our approach toward training the Afghan security forces is to 
partner with them at every level so that, as the President noted, 
``more Afghans can get into the fight.''
    Both President Obama's West Point speech and President Karzai's 
inauguration remarks indicated a shared commitment to improve 
governance and hold those who are ineffective or corrupt accountable. 
We stand together with our allies, partners, and the Afghan Government 
to help Afghans assume an ever-increasing role in establishing and 
maintaining their security.

    [Whereupon, at 5:22 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
